<html>
<title> - RESPONSE EFFORTS TO THE GULF COAST OIL SPILL</title>
<body><pre>[Senate Hearing 111-1013]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1013

                        RESPONSE EFFORTS TO THE 
                          GULF COAST OIL SPILL

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                  U.S. GOVERNMENT PRINTING OFFICE
67-269 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 18, 2010.....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     3
Statement of Senator Snowe.......................................     4
    Prepared statement...........................................     6
Statement of Senator Nelson......................................     7
Statement of Senator Wicker......................................     8
Statement of Senator Cantwell....................................     9
    Prepared statement...........................................    10
Statement of Senator LeMieux.....................................    11
    Letter, dated May 25, 2010, to Hon. George S. LeMieux, from 
      Doug Suttles, Chief Operating Officer, Exploration & 
      Production--BP America Inc.................................    83
Statement of Senator Vitter......................................    12
Statement of Senator Thune.......................................    13
    Prepared statement...........................................    14
Statement of Senator Pryor.......................................    14
    Prepared statement...........................................    15
Statement of Senator Begich......................................    15
Statement of Senator Kerry.......................................    17
    Prepared statement...........................................    19
Statement of Senator Klobuchar...................................    53

                               Witnesses

Hon. Jane Lubchenco, Ph.D., Under Secretary of Commerce for 
  Oceans and Atmosphere and NOAA Administrator, National Oceanic 
  and Atmospheric Administration, U.S. Department of Commerce....    20
    Prepared statement...........................................    22
Admiral Thad Allen, Commandant, United States Coast Guard and 
  National Incident Commander on the Deepwater Horizon Fire and 
  MC 252 Oil Spill...............................................    28
    Prepared statement...........................................    30
Lamar McKay, Chairman and President, BP America..................    55
    Prepared statement...........................................    58
Steven Newman, Chief Executive Officer, Transocean, Ltd..........    62
    Prepared statement...........................................    64
Deborah French-McCay, Ph.D., Director of Impact Assessment 
  Services, Applied Science Associates, Inc......................    65
    Prepared statement...........................................    68

                                Appendix

Hon. Daniel K. Inouye, U.S. Senator from Hawaii, prepared 
  statement......................................................   105
Response to written questions submitted to Hon. Jane Lubchenco 
  by:
    Hon. John D. Rockefeller IV..................................   105
    Hon. Maria Cantwell..........................................   106
    Hon. John F. Kerry...........................................   107
    Hon. Claire McCaskill........................................   108
    Hon. John Thune..............................................   109
    Hon. David Vitter............................................   112
    Hon. Roger F. Wicker.........................................   113
Response to written questions submitted to Admiral Thad Allen by:
    Hon. John D. Rockefeller IV..................................   117
    Hon. Claire McCaskill........................................   119
    Hon. John Thune..............................................   122
    Hon. David Vitter............................................   125
    Hon. Roger F. Wicker.........................................   125
Response to written questions submitted to Lamar McKay by:
    Hon. John D. Rockefeller IV..................................   126
    Hon. Maria Cantwell..........................................   128
    Hon. Claire McCaskill........................................   130
    Hon. Mark Warner.............................................   131
    Hon. Roger F. Wicker.........................................   133
Response to written questions submitted to Steven Newman by:
    Hon. John D. Rockefeller IV..................................   137
    Hon. Maria Cantwell..........................................   139
    Hon. Claire McCaskill........................................   141
    Hon. Mark Warner.............................................   142
    Hon. Roger F. Wicker.........................................   143
Response to written questions submitted to Deborah French-McCay, 
  Ph.D. by:
    Hon. John D. Rockefeller IV..................................   146
    Hon. Maria Cantwell..........................................   148
    Hon. Roger F. Wicker.........................................   149

 
                        RESPONSE EFFORTS TO THE 
                          GULF COAST OIL SPILL

                              ----------                              


                         TUESDAY, MAY 18, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:32 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. The hearing will come to order.
    Members will be arriving. I'll give the opening statement, 
and then I believe Senator Hutchison's on her way, and we will 
have some opening statements. And you will, hopefully, be 
patient, because I know there's--you've never had to answer any 
questions on this subject before, right?
    On April 20, an explosion occurred on the Deepwater 
Horizon, a mobile offshore drilling unit in the Gulf of Mexico. 
Eleven workers were killed, 17 were injured, and--setting into 
motion, therefore, an environmental disaster of virtually 
unprecedented proportions. It's estimated that millions of 
gallons of oil have leaked to date--and, in fact, who really 
knows?--causing irreparable harm to our economy, coastal 
communities, fragile wetlands, and workers' livelihoods.
    Our goal at today's hearing is to learn more about why BP, 
Transocean, and Federal regulators were so unprepared for this 
accident. Why did they rely on a single type of technology--in 
this case, I'm looking at companies--that might prevent a 
blowout? Perhaps there is more than one, or research is being 
done on more than one; I don't know, but I want to find out. 
And, once the blowout happened, why weren't they ready to 
respond?
    And, to be honest, I'm curious as to whether the companies 
took shortcuts. I'm familiar with shortcuts, because I come 
from West Virginia, where there are a lot of coal mines, and, 
in bad times, people take shortcuts. ``Profits before safety'' 
is just the way the world works.
    A lot of pressure on workers--pressures for profits, and so 
on. That disturbs me.
    Unfortunately, it seems to me that drilling has always come 
first, and that safety and disaster planning came only second. 
It has been 4 weeks since the accident, and BP has finally 
figured out how to capture just a very small portion of the 
thousands of barrels of oil that continue to pour into the Gulf 
each day. It will be many more days, many more weeks, many more 
months--who knows, at this point?--before the devastation can 
be brought fully to a halt.
    Safety and responsibility are enormously important in every 
industry. And when workers' lives, entire regional economies, 
and vast fragile ecosystems are at stake, safety, good 
practice, best practice, must never come second to production 
or profit.
    Under the Coast Guard's exceptional leadership and 
coordination, a widespread search-and-rescue response involved 
numerous helicopters, airplanes, ships, saving crewmembers 
after the explosion. More than 10,000 personnel--and, in fact, 
I--it may be well more than that, I'm not sure--are responding 
to this crisis, deploying miles upon miles of oil booms to 
protect vulnerable areas. In some cases, they are working to 
dilute the oil; in others, they're burning it off the surface 
of the water. A joint investigation, from the Coast Guard and 
Minerals Management Service, into the cause of the explosion, 
and subsequent spill, is underway.
    I want to be very clear about my views on this oil spill. 
The people who created this terrible mess must be fully 
responsible for cleaning it up. And the American taxpayers 
should not be asked to foot the bill. On that, I see no 
compromise. We deserve a complete and transparent accounting of 
exactly what went wrong, and why.
    Today, and in the days and months ahead, the American 
people will expect full and honest answers from BP, Transocean, 
and Halliburton.
    I want to close by saying that it's no secret that drilling 
on the Outer Continental Shelf has been a subject of heated 
debate for several decades. Today, there are approximately 278 
active offshore drilling pieces at work.
    The Administration's proposal to increase energy 
exploration in--on the Outer Continental Shelf will likely lead 
to more offshore drilling units in the future, and that does 
concern me. If left unchecked and uncorrected, we may very well 
see another terrible disaster of this magnitude. And if they 
happen once every 10 years--it takes 10, 15, 20 years to 
recover from the last one, so--you know, saying it doesn't 
happen very often doesn't carry a lot of water with me--if it 
happens at all, that's what matters.
    And until we can fully investigate this instance, I will 
have a hard time supporting any future offshore drilling.
    I want to welcome our witnesses today, two of them before 
us in the first panel. And that is: Admiral Thad Allen, a 
Commandant of the Coast Guard for whom I have enormous respect, 
and the national incident commander for the Gulf oil spill, who 
is meant to retire, but I hope is going to stay on a little bit 
longer.
    With only 1 week left as Commandant, Admiral Allen--you're 
kind of the combatant commander. You're facing this challenge 
with the same strength and vision that have been the hallmark 
of your service to our Nation. It's a very military effort, in 
some ways, and a--very scientific, in others.
    Dr. Jane Lubchenco, the superb Administrator of the 
National Oceanic and Atmospheric Administration, is our other 
witnesses on the first panel, and we're very proud of her.
    Mr. Lamar McKay, Chairman and President of BP America; and 
Mr. Steven Newman, President and CEO of Transocean; and Dr. 
Deborah French-McCay, a Zoologist and Biological Oceanographer, 
by training, with extensive expertise on the effects of oil and 
other pollutants on open-ocean and coastal ecosystems. The last 
three will be our second panel.
    Thank you all for coming.
    And I turn now to my partner on this committee, Senator 
Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you very much, Mr. Chairman.
    I certainly appreciate that we are holding this hearing 
today, because this is a story that is continuing to grip the 
American public and all Members of Congress, as well.
    As we examine the responses to this spill, I want to make 
sure we do not forget the 11 individuals who lost their lives 
in this accident.
    This hearing is an important step in sorting through the 
lessons, from the accident, that we have learned since April 20 
and to ensure that all appropriate actions are being taken to 
respond to the ongoing spill. Equally important, it is critical 
that everyone involved in the offshore oil industry learns from 
this tragedy so that we can prevent any such accidents in the 
future.
    Naturally, we are all concerned about the potential 
environmental and economic impacts caused by the oil spill. We 
expect that the responsible parties will stand by their 
commitments to pay for both the clean-up costs and economic 
damages. I agree with the Chairman's statement that taxpayers 
should not be asked to spend any part of the Treasury of the 
United States in this clean-up.
    But, we also cannot be shortsighted. Offshore oil and gas 
development is vital to both our current and future economic 
and national security. The drilling operations in the waters 
off our Nation's shores currently account for about 27 percent 
of America's total oil production, and 15 percent of our 
domestic natural gas production.
    Not only does this generate billions of dollars in economic 
activity and thousands of jobs for Americans, it significantly 
reduces our dependence on foreign oil. This oil spill should 
serve as a clarion call for safer drilling, but not as a reason 
to halt development of this critical energy source that helps 
us reduce our reliance on foreign sources of energy.
    According to the Congressional Research Service, the Outer 
Continental Shelf is rich in natural resources, containing over 
85 billion barrels of undiscovered, recoverable oil. This 
represents over half of the Nation's entire endowment of 
recoverable oil. Additionally, the OCS contains 420 of the 
1,400 trillion cubic feet of undiscovered recoverable, clean-
burning natural gas in the United States. These figures 
represent significant resource potential for our country. This 
energy translates into jobs and will enhance economic and 
national security. Development of these resources can mean more 
revenue for cities, states, and the Federal Government, and 
less reliance on foreign energy sources. These energy resources 
are critical for our country, and it is our responsibility to 
ensure safe and responsible environmental pursuing of these 
resources.
    Let me just say that I also agree with the Chairman 
regarding Admiral Allen. Admiral, you have presided over the 
transformation of the Coast Guard. It has become a more 
military, more nationally security-based part of our defense 
structure. And you have done yeoman's service.
    I am afraid that you are going to be extended in the 
position--I know--looks resigned on your face--but I know that 
you'll answer the call of the President to stay as the 
coordinator of this particular accident, because you have done 
a great job, so far, under very grueling circumstances. But, we 
must continue until this oil spill is stopped, and you are the 
one who has the experience to do it. So, I do hope that you 
will stay and see it through, even though I know it will be a 
personal sacrifice for you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hutchison.
    Senator Cantwell, not being here, as head of the Oceans 
chair--Subcommittee Chair--Senator Snowe.
    And might I just inform my colleagues that, after Senator 
Snowe and Senator Cantwell, if she comes, which I'm sure she 
will speak, then everybody will have a chance to speak, but we 
have to exercise what we call 3-minute restraint. Otherwise, 
our witnesses will get up and walk out.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. And thank you for 
convening this hearing on this catastrophe that has tragically 
claimed 11 lives, could devastate an entire ecosystem for 
decades, and has been characterized by an abundance of failure, 
of staggering proportions.
    As Ranking Member of the Subcommittee that oversees the two 
lead agencies that are before us today--represented by Admiral 
Allen, as Commandant of the Coast Guard, and Dr. Lubchenco, as 
NOAA Administrator--it's astonishing that these two key 
agencies, the most knowledgeable, and with the most expertise 
in a variety of areas, including marine biology, and 
environmental sensitivities--have not had a mandatory statutory 
role in the permitting process of offshore oil and gas 
development. Unfortunately, this process has relegated these 
two agencies, and in my opinion, to the back bench--an 
egregious mistake that could have ultimately averted this 
catastrophe.
    According to the New York Times, the Minerals Management 
Service, the Federal agency that does the permitting on 
offshore oil and gas activity, rubber-stamped 346 permits since 
January of 2009, including the one for the Deepwater Horizon 
well, even though they lacked the environmental assessments and 
permits required by NOAA.
    Meanwhile, Dr. Lubchenco--and I want to commend her for 
this--provided accurate comments on the future drilling plans 
of the Minerals Management Service between 2010 and 2015. She 
stated that that MMS had underestimated the environmental 
impacts, had cherry-picked the data to understate the risks as 
well, and blatantly ignored 12 million gallons of oil that was 
spilled during Hurricanes Katrina and Rita in its risk 
assessment, all of which went unheeded.
    Dr. Lubchenco, you and the Coast Guard Commandant, Admiral 
Allen, who is very well versed in managing disasters off the 
Gulf Coast, and has demonstrated exceptional leadership--and we 
appreciate your willingness to continue, Admiral Allen, in the 
capacity of overseeing and managing this disaster, as well--I 
want to commend both of you, because we know these are very 
difficult circumstances, in trying to understand the 
ramifications and the dimensions of this oil spill.
    Meanwhile, the reactions of BP and Transocean to this 
calamity have been severely understated. They have attempted to 
downplay the extent of this calamity, and certainly soft-
pedaled the potential worst-case scenario when they first filed 
their exploration plan.
    Just a few weeks ago, on April 28, in the Wall Street 
Journal, a BP spokesman called the spill ``stable,'' and said 
it was moving farther away from the coastline, a claim that now 
seems preposterous, as oil is now washing ashore in Louisiana 
and Mississippi, and possibly as far afield as Key West, 
Florida, where 20 tar balls have been found. I know it hasn't 
been determined yet, but this points to the serious concern: 
that oil could enter the Loop Current which would then carry it 
into the Gulf Stream and then up the Atlantic coast.
    Mr. Chairman, I truly think that what is going to be 
required in this instance is to ensure that NOAA and the Coast 
Guard have an integral role in the decisionmaking process. I 
will propose that they are at the table during the permitting 
process and the development so that the Minerals Management 
Service cannot turn a blind eye to the vital input from these 
critical agencies. They're integral to this process.
    We should have the best of the ocean scientists analyzing 
this situation, which I understand BP is now preventing, in 
terms of understanding the dimensions of this problem, and the 
amount of oil that has been spilled.
    So, I think that it is critical for both of these agencies 
to be involved, from day one. And, it has to be required 
through statute. The Coast Guard is the lead response agency in 
the Federal Government to oil spills to the marine environment, 
and to oil spills from vessels, but not for underwater sea 
operations, like the Deepwater Horizon rig, which is tasked to 
the Minerals Management Service.
    As we now know, the MMS approved a response plan that did 
not provide for any mitigation or any solution to a potential 
problem like we have today, the failure of this blowout 
preventer, in the depths that we're talking about. In fact, 
Secretary Napolitano indicated yesterday that the Federal 
Government doesn't even have a solution or the capability to 
deal with a spill at this depth.
    Also, I believe the expertise embedded in both of these 
agencies is also derived from the oil spill drills that are 
required every 3 years, the most recent of which occurred in my 
home State of Maine--in Portland, Maine--just 2 months ago. I 
happen to think that all of the information and the responses 
that are developed through these drills should be incorporated 
and brought to bear in the regulatory process.
    Similarly, I think we should apply it to industry. The 
industry should be working out true worst-case scenarios so 
that, if the worst-case scenario should arise, they're not 
solving the problem by trial and error.
    So, these are the things that I'm going to be proposing, 
Mr. Chairman, because I happen to think it's very critical that 
we have available to us all of the expertise that's embedded 
and incorporated throughout our Federal agencies, and certainly 
most represented by the two agencies before us today, so that 
we can, one, immediately take any and all actions necessary to 
literally turn the tide on this epic spill; and then, second, 
overhaul our practices and review our statutes so that we can 
prevent a reoccurrence in the future.
    I share your position, with respect to liability. 
Absolutely, the taxpayers should not be on the hook for 
assuming the financial responsibilities of this clean-up and to 
mitigate this serious crisis.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine
    Thank you, Mr. Chairman. This catastrophe that claimed eleven lives 
and could devastate an entire ecosystem for decades has been 
characterized by an abundance of failure and an ineffectiveness of 
truly staggering proportions. As Ranking Member of the Subcommittee on 
Oceans, Atmosphere, Fisheries, and Coast Guard, I find it astonishing 
that NOAA and the Coast Guard have not been given a mandatory statutory 
role in permitting offshore oil and gas development. Relegating them to 
the back bench is an egregious mistake that could have helped avert 
this devastation.
    According to the New York Times, the Minerals Management Service--
the Federal agency that permits offshore oil and gas activity--has 
rubber-stamped 346 drilling plans since January 2009, including one for 
the Deepwater Horizon rig, even though they lacked the environmental 
permits required by NOAA. Meanwhile, Dr. Lubchenco, the accurate 
comments you submitted on the MMS's proposed 5-Year offshore drilling 
program for 2010 through 2015--saying MMS understated environmental 
impacts, and that it cherry-picked its data to understate risk, 
blatantly ignoring the nearly 12 million gallons of oil that spilled 
during Hurricanes Katrina and Rita in its risk assessments--have gone 
unheeded. Now you and the Coast Guard Commandant, Admiral Allen, who is 
regrettably well-versed in managing disasters along the Gulf Coast, are 
left to manage what is rapidly becoming one of the worst offshore oil 
spills the world has ever seen.
    Meanwhile, the reactions of BP and Transocean to this calamity have 
been little more than a series of efforts to downplay its severity. 
Notably:

  <bullet> In an article in the Wall Street Journal on April 28, BP 
        called the spill ``stable'' and said it was moving farther away 
        from the coastline--a claim that now seems preposterous as oil 
        is fouling shores in Louisiana and Mississippi and possibly as 
        far afield as Key West Florida where 20 tar balls were found 
        potentially brought by a current that could carry the oil into 
        the Gulf Stream and up the Atlantic coast.

  <bullet> In the face of suggestions that the actual amount of oil 
        leaking may be as high as 80,000 barrels per day, sixteen times 
        the current estimate, BP is stonewalling, with a spokesman 
        saying to scientists requesting to do an assessment ``the 
        answer is no to that.''

  <bullet> A ``60 Minutes'' report that aired this weekend quoted a 
        worker from the rig asserting that prior to the accident, BP 
        and Transocean were pushing to drill faster, ignoring potential 
        problems with their most vital piece of equipment, the blowout 
        preventer, including the appearance of shards of rubber from a 
        key safety device that were shot to the surface in drilling 
        fluid.

  <bullet> A 2007 report by former Secretary of State James Baker--
        commissioned in the aftermath of a 2005 refinery fire in Texas 
        City, Texas, that took the lives of 15 employees--found that 
        ``BP did not effectively incorporate safety into management 
        decisionmaking'' and ``tended to have a short-term focus . . . 
        without defining safety expectations, responsibilities, or 
        accountabilities.

    Frankly, BP's response to this spill shouldn't be surprising since 
the company has continuously soft-pedaled the potential extent of 
damage. When the company first filed its exploration plan for this 
well, it stated that the ``worst-case scenario'' would not exceed 
162,000 gallons spilled per day. Now the estimate is, of course, 
210,000 gallons per day. And earlier this month, BP executives 
themselves said this spill could be a release of up to 2.5 million 
gallons per day, more than fifteen times the estimate provided in its 
exploration plan.
    As the agency tasked with managing our living marine resources and 
carrying out fundamental oceanographic research, NOAA clearly 
understands the dangers inherent in offshore oil and gas activities. 
The Coast Guard is also well-versed in spill response, serving as the 
lead agency for the Federal response to oil spills in the marine 
environment and approving all oil spill response plans from vessels, 
but not undersea operations like the Deepwater Horizon well--this task 
falls to the MMS. I see no reason why these two inherently similar 
practices should be handled by different agencies, particularly when 
MMS is willing to approve response plans--as it did in this case--
despite the fact that it contained no description of how a blowout of 
this magnitude would be dealt with, and as the Secretary of Homeland 
Security admitted yesterday, the government does not have the 
capability to deal with a spill at this depth.
    Yet, there has been no Federal mandate for NOAA or the Coast Guard 
to be an integral part of developing from the ground up the assessments 
that govern offshore exploration. I find it shocking that our Nation's 
best ocean scientists would be relegated to the sidelines during 
development of such a strategy instead of being involved from day one. 
I intend to make it a requirement for NOAA and the Coast Guard to be at 
the table when these permits are approved so MMS will not be able to 
simply turn a blind eye to the vital input of these agencies.
    Part of this expertise comes from spill response drills held every 
3 years, the most recent of which took place in Portland, Maine, 2 
months ago. Lessons learned from these drills must be brought to bear 
on the regulatory and response processes. The industry must take 
similar actions to demonstrate to the satisfaction of regulators and 
the American public that when true worst-case scenarios arise, we will 
not be left to solve the problem by trial-and-error.
    I cannot put into words my horror at the extent of this tragedy 
that could change the fundamental makeup of Gulf Coast communities for 
generations. This is a failure on innumerable levels, and we must do 
all in our power to ensure that those responsible are held to account 
and we bring all available expertise to bear on future decisions about 
offshore drilling activities. Thank you, Mr. Chairman.

    The Chairman. Thank you, Senator Snowe.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, it took Senator Boxer and me 
several days of insisting before BP would release any 
additional video. They have. I have put it on my website. And 
yet, it is video only of the leaks coming out of the riser, not 
out of the main wellhead. So, we look forward to additional 
video being released so that we can get the scientific 
community to give us a more accurate estimate of how much is 
actually going in.
    Now, Dr. Lubchenco just told me that the aerial surveys 
show that some of the oil is getting into the Loop Current. She 
will know by the end of the day whether that is confirmed, or 
not.
    But, I want to show the Committee what this does. In 5 
days--this, of course, being the spill, and this portion coming 
to the south--it gets--this is the Loop Current, coming up past 
the Yucatan Peninsula, up into the northern Gulf of Mexico, 
looping around, and then coming around here to the Florida 
Keys. This is the southern tip of Florida. This is the Keys of 
Florida.
    Now, this is an estimate, by the researchers at the 
University of South Florida which are some of the best in the 
world on currents, of where this oil will go in only 5 days 
from now. Now, look where it's going to be in 8 days from now. 
On the 26th of May, it has come all the way and is just off 
of--past Dry Tortugas, past Key West, and is coming up the Gulf 
Stream.
    And look where it is in 10 days, Mr. Chairman. In 10 days--
the Gulf Stream, here, hugs the coast of Florida within a mile 
of the beach, and it's coming right on up, will continue up, 
north of West Palm; right about, Fort Pierce, Florida, it's 
about 10 miles offshore. And then the Gulf Stream continues and 
parallels the eastern seaboard all the way to Cape Hatteras, 
North Carolina, where it leaves and goes across the Atlantic to 
Scotland.
    Mr. Chairman, this is what we are looking at. It is--my 
worst nightmare is apparently becoming reality.
    The Chairman. Thank you, Senator Nelson.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you very much. Two points and a brief 
statement.
    I was told 3 minutes, but I see 2 on my clock. I guess 
that'll be a warning.
    Humans have been flying for a long time. You'd think by now 
we would know how to prevent an airliner from crashing, but 
occasionally it happens. You would think, as much as we know, 
we'd be able to prevent a levee from breaking, a bridge from 
collapsing, or a coal mine disaster; and yet, these things 
continue to occur, and continue to be tragic.
    Now, if you think we need to shut down all offshore 
drilling in the United States of America, perhaps you're not as 
concerned about how to make offshore drilling and deepwater 
drilling completely safe. But, if you believe, as Senator 
Hutchison does, that it's vital for our economy, it's vital for 
the standard of living of Americans, as well as other people on 
the face of the Earth, that we continue this, then we'd better 
learn what we can at these hearings, and in other venues, and 
continue the practice of finding out how to make offshore 
drilling as safe as humanly possible, realizing there's always 
going to be a human involved and there's always going to be a 
chance of that.
    Now, the other point I want to make, by way of this opening 
statement: I noticed that there was a lot to be said about 
previous hearings with industry, and a lot of criticism of the 
finger-pointing. President Obama had harsh words, Friday, for 
the ``ridiculous spectacle,'' those are his words, of all the 
industry finger-pointing.
    Let me just take issue with my President on that. It may be 
embarrassing to listen to. It may make us cringe. But, I think, 
to the extent that Congress is here with different viewpoints 
at the table, particularly with panel two, Mr. Chairman, I 
think the finger-pointing is actually instructive.
    If, indeed, one party is more responsible than the other 
about this blowout preventer, we need to hear what the rules 
are on that, what the practices are, and what they've done 
before on that.
    If someone was pouring a new kind of concrete down inside 
the steel tubing, and that concrete caused extra heat which 
caused a problem for the people on the rig; if a premature 
decision was made to put saltwater down in that well, rather 
than the mud, which would have been a better preventer, then I 
appreciate the fact that industry hasn't huddled together and 
``gotten their story straight'' and kept it from us.
    So, to that extent, it's OK, today, from my point of view, 
if industry continues to tell the truth; and if that amounts to 
pointing the finger at regulators, at themselves, at others, I 
think it helps it all come out in the wash, and helps us arrive 
at the truth.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    The Chair of the Oceans Subcommittee is here now.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. And thank you 
for holding this hearing.
    And it's good to see both Dr. Lubchenco and Admiral Allen 
here, because there are probably no two people who have dealt 
more with the impacts from this than those two individuals. And 
I thank you both for your service.
    Like my colleagues, I'd like to begin, this afternoon, by 
recognizing the most tragic part of the Deepwater Horizon 
accident: the 11 workers, who lost their lives. And I'd like to 
express my condolences to their families and friends, and say 
that, while much of the media attention has moved beyond that, 
that it is the loss of those 11 lives that we shouldn't forget.
    Whether one chooses to focus on those 11 lives, the oil 
spill continues to spread, and the consequences to the economy 
and the environment of the coastal region of the Gulf of 
Mexico. There is no doubt that the Deepwater Horizon accident 
will be, and is continuing to be, devastating.
    We must work tirelessly to contain the oil spill and the 
damage, because the future of the coastal region depends on it. 
But, while we must work tirelessly to figure out what went 
wrong, we should also do things differently in the future.
    The Exxon Valdez oil spill taught us a great deal. And 
while this spill is very different, the warning of the Exxon 
Valdez can be very instructive. It taught us that oil spills 
can be devastating to many sectors of the economy, tourism and 
commercial fisheries. It taught us that the damage can last for 
decades, as the oil can still be found on the beaches of Prince 
William Sound, even today. And it has taught us that some parts 
of the environment may not recover at all. The herring fishery 
was wiped out by the Exxon Valdez, and still has not recovered.
    I have here a jar of oil rocks that was just given to me, 
that was collected last February from the Prince William Sound 
beaches, by a fisherman there. Clearly, the legacy of the Exxon 
Valdez still lives with us.
    Oil spills, like the Exxon Valdez, and now BP and 
Transocean's deepwater incident, aren't just a one-time event. 
They are destructive, both environmentally and economically, 
and last for generations.
    So, as we try to get to how we're going to deal with this 
particular situation, Mr. Chairman, I hope that we'll also look 
for solutions on how we're going to wean ourselves off of our 
over-addiction on fossil fuels and continue to look for ways to 
create what we're doing now in the safer environment.
    The real short-, mid-term, and long-term solution here is 
to move beyond petroleum and transition away to other sources, 
and to make sure what we're doing today continues to be done in 
a safe and effective manner.
    I know that my colleagues and I are going to continue to 
have hearings in other committees. And I hope that we optimize 
on making sure that we are getting a solution to the 
environmental impact that is going to be felt from the Gulf for 
many years to come.
    I thank the Chair.
    [The prepared statement of Senator Cantwell follows:]

Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington
    Like many of my colleagues, I'd like to begin this afternoon by 
recognizing the most tragic part of the Deepwater Horizon accident--the 
eleven workers who lost their lives.
    I'd like to express my condolences to their families and friends, 
and say that while much of the media attention has moved to the oil 
spill and longer-term aftermath of this accident, it is the loss of 
those eleven lives that we must never forget.
    Whether one chooses to focus on the loss of those eleven lives, the 
oil spill that continues to spread, or the looming consequences for the 
economy and environment of the coastal Gulf of Mexico, there is no 
doubt that the Deepwater Horizon accident has been--and will continue 
to be--devastating.
    We must work tirelessly to contain the spill and its damage, 
because the future of these coastal regions depends on it.
    But we must also work tirelessly to figure out what went wrong and 
what we should do differently in the future.
    The Exxon Valdez oil spill taught us a great deal, and while this 
spill is very different, the warnings of Exxon Valdez can be very 
instructive:

  <bullet> It taught us that an oil spill can be devastating to many 
        sectors of the economy, from tourism to commercial fisheries;

  <bullet> It taught us that the damage can last for decades, as oil 
        can still be found on the beaches of Prince William Sound even 
        today;

  <bullet> And it taught us that some parts of the environment may not 
        recover at all, as the herring fishery wiped out by Exxon 
        Valdez has still not recovered.

    I have here a jar of oiled rocks that was collected last February 
from Prince William Sound's beaches. Clearly, the legacy of the Exxon 
Valdez is still with us.
    Oil spills like Exxon Valdez and now BP and Transocean's Deepwater 
Horizon incident aren't just a one-time event. Their destruction--both 
environmental and economic--lasts for generations.
    But we also have to remember a much larger point: the need to wean 
America off our unsustainable and increasingly destructive addiction to 
fossil fuels.
    This slow-motion Katrina must be a wake-up call, and I hope this 
time Congress doesn't just hit the snooze button.
    The fact is, no amount of drilling will lower our dependence on 
foreign oil or lower the prices families pay at the pump.
    The real short-, mid-, and long-term solution here is to move 
``beyond petroleum'' and transition away from oil to other ways to 
power our economy. The only truly fail-safe blowout preventer is not 
disturbing the thousands of feet of rock covering highly pressurized 
pockets of oil and natural gas.
    For this reason, and so many others, we need to put a price on 
carbon. It should be gradual. It should be predictable. It should be 
reasonable. But we need to do it now.

    The Chairman. Thank you, Senator Cantwell.
    Senator LeMieux.

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    Thank you both for being here today.
    I share the comments of colleagues, Admiral Allen, that we 
look forward to your continued service, at least for a short 
period of time. Thank you for the good job that you've been 
doing.
    Just as oil and water do not mix, neither do tar balls and 
tourism. We are very concerned, in Florida, as to the effects 
of this oil spill upon an industry that brings in more than 80 
million people to Florida and is responsible for more than $65 
billion worth of economic impact.
    My colleague just showed you the charts of the Loop Current 
and what that could do to Florida. If it is true the 20 tar 
balls that were found in Key West yesterday afternoon are from 
this spill, then unfortunately, the oil is further along than 
we projected. Unfortunately, that means what we're seeing on 
top of the water might not be as bad as what's going on beneath 
the water.
    I am very concerned, as all my colleagues are, about what 
caused this problem and what could have been done. I'm going to 
have a lot of questions for you today about what we could have 
done better in our government to try to prevent and mitigate 
this problem and lessened its environmental impact.
    I also want to make sure that we are addressing every 
effort possible to prevent this oil from coming ashore, and to 
mitigate the damage that it could have to our coasts, along all 
the Gulf States, but especially, parochially, for Florida.
    I have called upon British Petroleum to set up a billion-
dollar fund that the five states can draw down upon. They have 
contributed, I think, now $50 million to each state. That's 
good, it is not enough.
    I don't want to wait until the oil comes on our shores and 
then do something about it and pay claims. I want to do 
everything we can to get folks out there--local community 
folks--cities, counties, businesses, volunteers, state 
government--to try to do everything we can to stop this oil 
from coming ashore.
    I just saw something, Mr. Chairman, from OSHA, saying that 
volunteers should not approach the tar balls, that they should 
have hours of training before approaching a tar ball, which 
seems a little ridiculous to me. We need to get folks involved 
in trying to clean up this spill.
    What this could do to Florida, if all of this oil washes 
along our shores; what it's going to do to our tourism 
industry, what it's going to do to our fishing business, what 
it's going to do to recreational boating, what it's going to do 
to our environment? It cannot be over-estimated.
    I'm going to ask some questions today about why, in my 
opinion, it appears that we outsource the responsibility for 
cleaning this up. Why should we just rely upon British 
Petroleum?
    My friend from Mississippi gave instances of a lot of other 
things that can go wrong in society: bridges falling, coal 
mines incidents, and all sorts of things. Planes falling out of 
the sky. I'm not sure, in any of those other situations, we 
look for only the party responsible to help solve the problem. 
In those other situations, the government takes a leading role. 
I would think that we shouldn't outsource our responsibility 
for cleaning this up. I would hope that we would have the 
ability, within the inside of government, if needed, to help 
stop or contain these emergencies to our best of ability.
    So, I look forward to your testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Vitter.

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman.
    As everyone has stated, this is an ongoing tragedy, 
starting with the loss of 11 lives and the horrible impact on 
those folks' families, as well as pollution and economic impact 
all along the Gulf Coast.
    Of course, unfortunately for us, the epicenter right now is 
Louisiana. I've visited all of those coastal parishes, met with 
fishing communities and others, and have certainly seen that 
ongoing impact.
    I wanted to focus my participation in this hearing on five 
questions. I'm going to outline them here, because we're going 
to have a vote soon. I also have a similar hearing in the EPW 
Committee, on which I serve. I hope the participants here can 
respond to these questions today and/or through follow-up 
written answers.
    Number one, what is the most up-to-date, precise 
information about the flow of oil? We are capturing some of it 
now. Presumably, that gives us more ability to measure that. 
So, what is the most up-to-date information about the volume of 
flow, and the most up-to-date estimate of using the pipe, which 
has been successfully connected, to stop the flow?
    Number two, why hasn't a fisheries failure been officially 
declared under the Magnuson-Stevens Act? It's hard for me to 
imagine an event which is a more obvious candidate for the 
cause of a fisheries failure. This would give immediate help to 
our fisheries, not letting BP off the hook, but would offer 
some immediate help.
    Number three, under the OPA Act, Section 2713(f) mandates 
that the President set up a loan program to help fisherman and 
fishery-dependent businesses. This is not an option, it is a 
mandate. It is not to get BP off the hook for any damages, it's 
to get more immediate help, in the meantime, to our fisherman 
and fisheries as those damages are being settled. So, I'd urge 
the President to act on this mandate, and I'd like your 
response to that.
    Number four, I'm concerned about the deployment of boom 
being inequitable between states, and still only ramping up. 
I've talked, several times, with Admiral Allen, and I 
appreciate his work, which has made it better. But, I'd love an 
update on that.
    And, number five, what is the timeline along which, 
Admiral, you and the Corps and others will make a decision 
regarding the emergency dredging buildup of Barrier Island 
proposal, that we have talked about, that I think could be a 
considerable help in protecting the Louisiana coastline?
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    And now, Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman and Senator 
Hutchison, for holding this hearing today.
    And I, too, want to express my condolences to the families 
who lost loved ones. This was a tragedy on so many levels.
    Today's hearing, of course, along with the hearings that 
are being held in the other committees of jurisdiction, is an 
important part of learning why this disaster happened, and what 
can be done to make sure that this type of oil spill never 
happens again.
    We also, I think, need to closely scrutinize the response 
of our Federal agencies. Obviously, BP is the responsible party 
for this oil spill, but the Federal Government has the ultimate 
responsibility to ensure that all the appropriate safety 
measures were followed and all the available resources are, 
indeed, being deployed in response to this spill.
    As we speak, there are a few thousand, and potentially tens 
of thousands, of barrels of oil that are leaking into the Gulf 
of Mexico each day, and this leak is going to continue for the 
foreseeable future, causing environmental and economic damage 
that will last for several years to come.
    About one-third of our U.S. oil production comes from the 
Gulf. In coming years more of the Gulf Coast oil production 
will come from deepwater wells, such as the well that was 
drilled by BP and its partner companies. So, clearly we cannot 
remove deepwater oil production from our current or future 
energy supply. And clearly we can't continue with business as 
usual, either, in terms of regulating offshore energy 
production.
    While continuing an aggressive response to the oil spill, 
we must move forward as quickly as possible with reasonable and 
effective measures that will protect our environment, our 
coastal communities, and our supply of domestic energy.
    I want to, Mr. Chairman, thank our witnesses for being with 
us today. And I look forward to working with members of this 
committee.
    I do think, and to the degree that I've got a gazillion 
questions here, like I think everyone else does, and it's going 
to be hard, probably, for us to get them all in today but, I, 
too, am interested in knowing, Admiral, about the issue about 
fire-resistant boom, and how much was pre-positioned, and how 
that, even now, is working, and what we're doing to try and 
prevent the oil from leaking further. I'm interested in knowing 
what BP has publicly stated, I think, that it'll cover all 
legitimate claims of economic damage associated with the oil 
spill, but I'm very interested in knowing what is the 
historical standard for determining what a legitimate claim is 
for economic damages associated with an oil spill.
    As I said, Mr. Chairman, I have a series of other 
questions, that, if I can't get them in today, will try and get 
them asked for the record.
    But, I do appreciate the opportunity to hear from our 
witnesses today and to get to the bottom of why this occurred 
and what we can do to prevent it in the future.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Thune follows:]

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    I would like to thank the Chairman and Ranking Member for holding 
today's hearing.
    Today's hearing, along with hearings in the other committees of 
jurisdiction, is an important part of learning why this disaster 
happened and what can be done to make sure this type of oil spill never 
happens again.
    We must also closely scrutinize the response of our Federal 
agencies. Although British Petroleum is the responsible party for this 
oil spill, the Federal Government has the ultimate responsibility to 
ensure that all the appropriate safety measures were followed and all 
the available resources are indeed being deployed in response to this 
spill.
    As we speak, a few thousand to potentially tens of thousands of 
barrels of oil are leaking into the Gulf of Mexico each day.
    This leak will likely continue for the foreseeable future causing 
environmental and economic damage that will last for several years to 
come.
    About one-third of U.S. oil production comes from the Gulf of 
Mexico. In coming years, more of the Gulf Coast oil production will 
come from deepwater wells such as the well drilled by BP and its 
partner companies.
    Clearly we cannot remove deep water oil production from our current 
future energy supply, and clearly we cannot continue with business as 
usual in terms of regulating offshore energy production.
    While continuing an aggressive response to the oil spill, we must 
move forward as quickly as possible with reasonable and effective 
measures that will protect our environment, our coastal communities, 
and our supply of domestic energy.
    I thank our witnesses for joining us today, and I look forward to 
working with the members of this committee as we improve our approach 
to offshore oil and gas exploration.

    The Chairman. Thank you, Senator Thune.
    Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman and Ranking Member 
Hutchison. Thank you all for doing this hearing.
    Stopping the gush of the oil spill has been marred by 
guesswork, failures, frustration, and now a partial solution. 
Cleaning up this mess will be an even more daunting challenge.
    This is not the first hearing that has been held in the 
Senate on the response efforts, and I'm sure it won't be the 
last. And BP and other companies involved in this spill, of 
course, will have their feet held to the fire.
    But, today I want to just make a few points. And I'd love 
to hear from the witnesses very soon.
    I understand that BP has agreed to pay all legitimate 
claims for the clean-up costs and personal business losses. 
During the hearing, I hope that we get a better understanding 
of what constitutes a legitimate claim. BP should be prepared 
to go beyond the $75-million statutory cap. BB--BP should pay 
the cost of oil spills in full, with no equivocation. And, if 
you think that the taxpayers are upset about the Wall Street 
bailout, just wait until they learn that they may have to pay 
for cleaning up this economic and ecological disaster on our 
coastline.
    Second, I'm also troubled by Transocean's decision to try 
to limit its liabilities to the $27 million in salvage value 
for the destroyed rig. Several newspapers are reporting that 
Transocean had insured the rig for $560 million, but apparently 
never spent that much money actually building it. Since the rig 
collapsed and is now on the ocean floor, the company said it 
has already received $401 million for their--or, from their 
insurance policy.
    And finally, I'm disturbed by the February 2009 document 
that BP submitted to the Minerals Management Service. It 
states, ``A blowout, resulting in an oil spill is unlikely to 
have an impact, because industry equipment, technology, and 
response plans were up to the task.'' And we need to not only 
look at the failures here, but to ensure that this company, and 
others in the future, don't make these same series of mistakes 
in the future.
    So, with that, Mr. Chairman, I really look forward to 
having this hearing today.
    Thank you.
    [The prepared statement of Senator Pryor follows:]

   Prepared Statement of Hon. Mark Pryor, U.S. Senator from Arkansas
    Mr. Chairman and Ranking Member Hutchison, on April 20, 2010, an 
explosion occurred at the Deepwater Horizon drilling platform in the 
Gulf of Mexico. The explosion killed 11 workers, caused a significant 
fire disabling the facility and lead to a full evacuation. The fire 
continued to burn until the platform sank into the Gulf on April 22.
    I regret the loss of life and my condolences go out to the families 
of these people.
    At last week's hearings, BP, Transocean and Halliburton pointed 
fingers at each other. Just 2 weeks ago, I questioned Goldman Sachs 
executives who came before Congress and gave excuses, parsed words, and 
declared they had no responsibility for the mortgage market meltdown 
and global financial crisis. Whether it be a bank or an oil company, 
shifting the blame is not acceptable.
    I understand that BP has agreed to pay all legitimate claims for 
the clean-up cost and personal and business losses. However, BP's costs 
should not be limited to the $75 million statutory cap.
    I am also troubled by Transocean's decision to try to limit its 
liabilities to the $27 million salvage value of the destroyed rig. 
Several newspapers are reporting that Transocean had insured the rig 
for $560 million, but apparently never spent that much money actually 
building it. Since the rig collapsed, the company said they've already 
received $401 million from their insurance policy.
    The American taxpayers should not have to pay for cleaning up this 
ecological disaster. The ``blame game'' must stop. Congress will get to 
the bottom of this accident and, when we do, we will know who is at 
fault.

    The Chairman. Thank you.
    And Senator Begich.
    And, Senator Begich, I'm going to be voting now, so that--
you will chair----
    Senator Begich. Yes.
    The Chairman.--until Senator Nelson comes back.
    Senator Begich [presiding]. Yes, Mr. Chairman.
    Thank you very much. I'll make some comments, and then 
we'll--I'm assuming, go right to you folks for your comments. 
I'll look to staff to help me--direct me; if not, that's the 
way it's going to be.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. First, thank you both for being here. 
Thanks, for the next panel, also.
    And someone from Alaska--as a Senator from Alaska, you 
know, we have experienced a spill of incredible magnitude 
before, so we understand what this may entail, and what it 
could entail over the long haul.
    But, first, to the 11 workers that perished, and to the 
families, we express--I express my condolences for their loss 
and their tragedy that they're going through as we're dealing 
with the larger issue of the clean-up, but not to forget the 
families, but also the many future impacts of the families and 
the businesses and individuals' livelihoods that, again, from 
Alaska's experience, we have seen it, still, 20 years later and 
beyond, that are having an incredible impact.
    I also--I want to just put on the record, I want to thank a 
lot of Alaskans, from the businesses as well as the Air Force 
and many of our Department of Defense folks, that have stepped 
up to the plate, in an enormous amount of resource and effort.
    Admiral Allen, I'm--I know you're stepping down as 
Commandant soon, but your experience and understanding of these 
types of tragedies is a valuable asset. And I thank you for 
continuing to be the incident commander in this situation.
    It is a tragedy. And I think these hearings, may they be 
plentiful as we go through the next process--part of this is to 
learn and understand what went wrong, what kind of resources we 
need to have on our side of the equation, but, also, from the 
industry side, what they need to be doing better.
    There is no question in my mind that, when it comes to 
offshore development, this country needs to be the best of the 
best. There should be no hesitation in utilizing whatever 
resource we can, ensuring that the agencies that are in the 
Federal Government have the investment in research and other 
issues.
    I know, Administrator Lubchenco, we've talked about that a 
lot, about NOAA's role, not only here, what's going on down in 
the Gulf, but in the Arctic, and the future potential of what's 
going to go on up there. So, I'm anxious to hear, as we go 
through this testimony, but also through the efforts we're 
going to have over the next several months, is my guess, of 
what we can do to improve our technology and advance our 
technology.
    It is realistic--it is not realistic to think that we will 
not have OCS. There will be OCS development. The question is, 
How do we manage that in the right way in our overall energy 
plans and energy structure for this country?
    So, first, again, I want to thank you for all the efforts 
you all are doing with ``all hands on deck,'' is the way I 
describe it. So, thank you for your participation today, even 
though the spill is moving forward very aggressively, and the 
efforts down there. So, thank you very much.
    I'm going to close my comments.
    And, Senator Kerry--have you spoken already, Senator Kerry?
    Senator Kerry. No, I'm going to----
    Senator Begich. I will turn it to you next.
    Senator Kerry. Thank you.
    Have you voted?
    Senator Begich. I have voted the first one.
    Senator Kerry. OK.
    Senator Begich. Have you----
    Senator Kerry. All right.
    Senator Begich. You've done that also?
    Senator Kerry. Beg your pardon?
    Senator Begich. You've done the first vote, too?
    Senator Kerry. Yes.
    Senator Begich. Yes.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry [presiding]. Dr. Lubchenco and Admiral Allen, 
thanks for being here with us today. We appreciate it. We know 
you've been unbelievably busy and enormously concerned and 
involved in trying to manage this challenge.
    This an important hearing to try to understand, not just 
the current status of the clean-up efforts, obviously, but 
really to explore what policies and requirements are needed to 
prevent this from happening again, to stop history from 
repeating itself.
    And this committee has an important jurisdiction, an 
important oversight role to play. We have jurisdiction over the 
two Federal agencies that hold the primary responsibility for 
the oil spills--that is, the clean-up and the, sort of, 
management of them--as well as understanding the impact of 
those spills on marine and coastal environment.
    I agree with Senator Begich and others, you know, given our 
dependency on oil, given the nature of our economy and life in 
America and the world, it's just unrealistic for anybody to 
assume that suddenly drilling is going to stop. It's not. And 
for the next 20, 30, 40 years, even if we make our very best 
efforts, with respect to alternative and renewable and 
efficiency and clean coal technology or whatever the options 
are going to be--nuclear, et cetera--we're still going to be 
drilling, and we're still going to be reliant on some fossil 
fuels.
    The President has already made it clear that change is 
needed, at the agency level. And he has accepted Secretary 
Salazar's judgment to split the MMS into two pieces so that 
regulators are no longer also making the deal with the industry 
on the leasing itself, but they're making changes to the 
leadership itself. And it's going to be up to this committee to 
exercise the oversight and ask the tough questions to find out 
whether other changes are required, as well.
    Over the past 72 hours, we are pleased to note that it 
seems that significant progress has been made in slowing the 
flow of oil in the--to the surface, by inserting the tube into 
the pipe from which most of the oil has been leaking. And BP 
has indicated plans to seal off the well, hopefully as early as 
this weekend. And we obviously wish them well and hope that 
that will happen.
    So, while I'm encouraged by that progress, obviously the 
chart showed by our colleague Senator Nelson has always been of 
concern with respect to the potential of the spills in the 
Gulf. And we all have very significant concerns about what went 
wrong on board Deepwater Horizon that has resulted in economic 
and environmental harm to the Gulf and to the coastal 
communities. And some of that is not even yet capable of being 
fully measured.
    I'm also deeply concerned, personally, as the former Chair 
of the Ocean Subcommittee, and a continued member of it for 
some 26 years here, about the potential disruption of the 
underwater ecosystem, particularly due to the application of 
toxic underwater dispersants. I think there are serious 
questions about the impact of those dispersants on living 
organisms in the Gulf and perhaps even, depending on what 
happens with currents, elsewhere.
    As we work to develop the legislation that's going to 
create a vibrant clean energy future for our Nation--and let me 
just say, I want to recognize this, that BP and other oil 
companies have been an important and constructive part of 
working toward that with us, and we're grateful for that--but, 
we have to get serious about the management and oversight of 
our energy resources, overall.
    I'm frustrated by the finger-pointing that appears to have 
dominated the public discourse over the disaster. That's the 
easy stuff, folks. What's harder is to bear down and figure out 
what the options are, and execute on them. We need to quickly 
and honestly clarify what went wrong, determine whether there 
was carelessness or negligence, evaluate the extent of the 
damages, identify who's responsible to cover what costs.
    And on this point, let me say, I'm encouraged by BP's 
statements, which I think have been forthcoming and direct, 
that they will provide full compensation.
    But, Mr. Chairman, one point, which I feel very strongly 
about, is that, no matter what BP does, no matter what any oil 
company does, on our current course, so long as we are 
dependent on fossil fuels imported from elsewhere for the bulk 
of our energy needs, we will continue to run a set of risks--
not always the same as what we've just witnessed in the Gulf, 
but some may even be riskier, in some ways.
    Today, as we speak, tankers are moving through narrow 
straits around the globe, some of them bordering dangerous 
countries with dangerous intentions, in order to bring oil to 
our shores, from abroad. These are also oil spills waiting to 
happen, as we've seen in the past.
    And it seems to me that we need to understand that there is 
a huge impact to the downside to America's economy in sending 
$1 billion a day, or more, abroad to other nations, some of 
which are not particularly friendly to the United States. I 
don't know how many Americans know it, but we pay an Iran tax 
for our current policy. Every day, $100 million goes to Iran 
today, even as we are poised to sanction them with respect to 
nuclear proliferation. We do that because of our dependency on 
oil for transportation in this country. So, the risks should 
surprise no one.
    I was, frankly, amazed to hear some people, in the wake of 
what happened in the Gulf, say that this spill made passing 
energy independence legislation this year even more difficult. 
I honestly don't understand that kind of reasoning. I don't 
know where the connection to common sense is in that statement. 
Nothing could be further from the truth.
    If the Gulf events tell us anything, it ought to be the 
opposite. This disaster ought to force Congress and the 
Administration to revisit our existing laws governing 
liability, safety, permitting, preparedness, and environmental 
review when it comes to offshore exploration. But, make no 
mistake, above all else, it ought to drive a serious national 
dialogue and a debate and action on legislation this year to 
advance our energy independence, which strengthens our national 
security; create jobs here at home, that can't be exported, by 
producing our energy here at home--the jobs stay here, and the 
energy stays here; and finally, we will advance our Nation's 
clean energy future by doing something that we used to do and 
take for granted, which was called reducing pollution. 
Hopefully, that will be the outcome of what happened in the 
Gulf.
    Senator LeMieux, have you--you've had your opening?
    Senator LeMieux. I have.
    Senator Kerry. And, Senator Begich, you've had your 
opening.
    So, I think what we should do is go into the questioning, 
then----
    Voice: When do the witnesses give statements?
    Senator Kerry. Oh. Excuse me. We have the witnesses. Oh, 
well, the heck with the witnesses. Let's just question them.
    [Laughter.]
    Senator Kerry. You're absolutely correct.
    So, Dr. Lubchenco, if you would lead off.
    And, Admiral Allen, thank you for your patience, we 
appreciate it.
    If you want to summarize your statement, we'll put the full 
text in the record as if read in full. And then--you saw a lot 
of Senators here. They will be coming back after this vote, and 
there'll be a fairly significant amount of questions, I'm sure.
    [The prepared statement of Senator Kerry follows:]

               Prepared Statement of Hon. John F. Kerry, 
                    U.S. Senator from Massachusetts
    Mr. Chairman, this is a critical hearing for both the short-term 
and the long haul, both to help us understand the current status of 
clean-up efforts in the Gulf, but also to explore what policies and 
requirements are needed to prevent history from repeating itself.
    This committee has an important oversight role to play. We have 
jurisdiction over the two Federal agencies represented here today, 
which hold primary responsibility for responding to oil spills, as well 
as understanding the impact of those spills on the marine and coastal 
environment. Already, the President has made it clear that change is 
needed at the agency level--accepting Secretary Salazar's judgment to 
split MMS into two pieces so that the regulators are no longer also 
making deals with the industries on leasing, but also making changes in 
the leadership itself. It will be up to this committee to exercise 
oversight and ask tough questions to find out whether other changes are 
required as well.
    Mr. Chairman, over the past 72 hours, it seems that significant 
progress has been made in slowing the flow of oil to the surface by 
inserting a tube into the pipe from which most of the oil has been 
leaking. In addition, BP has indicated plans to seal off the well as 
early as this weekend.
    While I am encouraged by this progress, I have significant concerns 
regarding what went wrong aboard the Deepwater Horizon, resulting in 
economic and environmental harm to the Gulf and its coastal communities 
which is not yet even capable of being measured. I also am deeply 
concerned about the potential disruption of the underwater ecosystem--
particularly due to the application of toxic underwater dispersants.
    As we work to develop legislation that would create a vibrant clean 
energy future for our Nation, we must get serious about the management 
and oversight of our energy resources. I am frustrated by the finger-
pointing that has dominated the public discourse over this disaster. We 
need to quickly and honestly clarify what went wrong, determine whether 
there was any carelessness or negligence, evaluate the extent of the 
damages, and identify who is responsible to cover what costs. On this 
final point, I am encouraged by BP's statements that they will provide 
full compensation.
    But Mr. Chairman, one point about which I feel very strongly, is 
that no matter what BP does, no matter what any oil company does, so 
long as we're dependent on fossil fuels for the bulk of our energy 
needs, we're in danger. Today--as we speak--tankers are moving through 
narrow straits around the globe to bring oil to our shores from abroad. 
Those are oil spills waiting to happen. So long as we're so dependent, 
we'll be drilling deeper and deeper and shipping oil farther and 
farther. The risk should surprise no one.
    I was stunned to hear some say the spill made passing energy 
independence legislation this year more difficult. Nothing should be 
further from the truth. Quite the opposite--this disaster should force 
Congress and the Administration to revisit our existing laws governing 
liability, safety, permitting, preparedness and environmental review 
when it comes to offshore exploration--but make no mistake, above all 
else, it should also drive a serious national dialogue and a debate on 
legislation this year to advance our Nation's clean energy future.

            STATEMENT OF HON. JANE LUBCHENCO, Ph.D.,

           UNDER SECRETARY OF COMMERCE FOR OCEANS AND

          ATMOSPHERE AND NOAA ADMINISTRATOR, NATIONAL

            OCEANIC AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Lubchenco. Thank you, Senator.
    I appreciate the opportunity to testify on behalf of the 
National Oceanic and Atmospheric Administration about NOAA's 
role in the response to the Deepwater Horizon oil spill.
    I greatly appreciate the opportunity to discuss the 
critical roles that NOAA serves during oil spills, and the 
importance of maximizing our contributions to protect and 
restore the resources, communities, and economies that are 
affected by this tragic event.
    Before I move to discuss NOAA's efforts, I want to first 
express my condolences to the family--families of the 11 people 
who lost their lives in the explosion and the sinking of the 
Deepwater Horizon. This is, indeed, a difficult time, and our 
thoughts are with them as we work aggressively to deal with the 
aftermath of the explosion.
    NOAA's mission is to understand and predict changes in the 
Earth's environment, and conserve and manage coastal and marine 
resources to meet our Nation's economic, social, and 
environmental needs.
    NOAA is also a natural resource trustee and one of the 
Federal agencies responsible for protecting and restoring the 
public's coastal natural resources when they are affected by 
oil spills or other hazardous-substance releases. As such, the 
entire agency is deeply concerned about the immediate and long-
term environmental, economic, and social impacts to the Gulf 
Coast and the Nation, as a whole, from the Deepwater Horizon 
oil spill.
    NOAA's experts have been assisting with the response from 
the very beginning of this oil spill, providing coordinated 
scientific weather and biological response services when and 
where they are needed most. Offices throughout the agency have 
been mobilized, and hundreds of NOAA personnel are dedicating 
themselves to assist.
    Over the past few weeks, NOAA has provided 24/7 scientific 
support to the U.S. Coast Guard in its role as Federal on-scene 
coordinator, both on scene and through our Seattle operations 
center. This NOAA-wide support includes twice-daily 
trajectories of the oil spill, information management, 
overflight observations and mapping, weather and river flow 
forecasts, shoreline and resource risk assessment, and 
oceanographic modeling support.
    NOAA has also been supporting the Unified Command in 
planning for open-water and shoreline remediation and analyses 
of various techniques for handling the spill, including open-
water burning, and surface and deepwater application of 
dispersants.
    Hundreds of miles of coastal shoreline were surveyed to 
support clean-up activities. NOAA's National Marine Fisheries 
Service is addressing issues related to marine mammals, sea 
turtles, seafood safety, and fishery resources, which includes 
the closure of commercial and recreational fishing in oil-
affected portions of Federal waters in the Gulf, and updating 
the dimensions of the closed area, as necessary, to ensure 
fisher and consumer safety without needlessly restricting 
productive fisheries in areas that are not affected by the 
spill.
    As the lead Federal trustee for many of the NOAA's--many of 
the Nation's coastal and marine resources, the Secretary of 
Commerce, acting through NOAA, is authorized, pursuant to the 
Oil Pollution Act of 1990, to recover damages on behalf of the 
public to address injuries to natural resources resulting from 
an oil spill. OPA encourages compensation in the form of 
restoration, and this is accomplished through the Natural 
Resources Damage Assessment Process by assessing injury and 
service loss, then developing a restoration plan that 
appropriately compensates the public for injured resources. 
NOAA is coordinating the damage assessment effort within the 
Department of the Interior as a Federal co-trustee, as well as 
co-trustees in five states and representatives for at least one 
responsible party, BP.
    This event is a grave reminder that spills of national 
significance can occur, despite the many improvements that have 
been put in place since the passage of the Oil Pollution Act. 
Although the best remedy is prevention, oil spills remain a 
grave concern, given the offshore and onshore oil 
infrastructure, pipes, and vessels that move huge volumes of 
oil through our waterways.
    To mitigate environmental effects of future spills, 
responders must be equipped with sufficient capacity and 
capabilities to address the challenge. Response training and 
exercises are essential to maintain those capabilities. 
Continuous training, improvement of our capabilities, 
maintenance of our capacity, and investments in high- priority 
response-related research-and-development efforts will ensure 
that the Nation's response to these events remains effective. 
Training and coordination with other Federal, state, and local 
agencies that might have response and restoration 
responsibilities is also critical to success in mitigating 
effects of future spills.
    There are a number of improvements to our ability to 
quickly respond to, and mitigate damages from future oil spills 
that would benefit the Nation.
    One such activity is increasing our response capacity. If 
another large spill was to occur simultaneously in another 
location in the United States, NOAA would have difficulty 
providing the level of response needed. In addition, the use of 
simulated drills and the continued development of tools and 
strategies can only increase the effectiveness of oil spill 
response.
    Specific activities that would increase response 
effectiveness include updating environmental sensitivity index 
maps, data management tools for decisionmaking, use of relevant 
technologies, and real-time observation systems.
    Research and development is also critical to ensure the 
latest scientific--response efforts. Priority areas for future 
research and development include fate and behavior of oil 
released at depth, long-term effects of oil, responding to 
potential oil spills in the Arctic, mapping oil extent, oil 
detection in the water column and sea floor, and human 
dimensions, including social issues, community effects, and 
risk communication methods.
    Finally, I would like to assure you that we will not relent 
in our efforts to protect the livelihoods of Gulf Coast 
residents and mitigate the environmental impacts of the spill. 
From the outset, our efforts have been aggressive, strategic, 
and science-based. We will continue along that path.
    Thank you for the opportunity to focus on NOAA's response 
efforts. And I'm happy to answer any questions.
    [The prepared statement of Dr. Lubchenco follows:]

 Prepared Statement of Hon. Jane Lubchenco, Ph.D., Under Secretary of 
  Commerce for Oceans and Atmosphere and NOAA Administrator, National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce
    Thank you, Chairman Oberstar and members of the Committee, for the 
opportunity to testify on the Department of Commerce National Oceanic 
and Atmospheric Administration's (NOAA's) role in the response to the 
Deepwater Horizon oil spill. My name is Dr. Jane Lubchenco and I am the 
Under Secretary of Commerce for Oceans and Atmosphere and the 
Administrator of NOAA. I appreciate the opportunity to discuss the 
critical roles NOAA serves during oil spills and the importance of 
maximizing our contributions to protect and restore the resources, 
communities, and economies affected by this tragic event. Before I move 
to discuss NOAA's efforts, I would first like to express my condolences 
to the families of the 11 people who lost their lives in the explosion 
and sinking of the Deepwater Horizon.
    NOAA's mission is to understand and predict changes in Earth's 
environment and conserve and manage coastal and marine resources to 
meet our Nation's economic, social, and environmental needs. NOAA is 
also a natural resource trustee and is one of the Federal agencies 
responsible for protecting and restoring the public's coastal natural 
resources when they are impacted by oil spills, hazardous substance 
releases, and impacts from vessel groundings on corals and seagrass 
beds. As such, the entire agency is deeply concerned about the 
immediate and long-term environmental, economic, and social impacts to 
the Gulf Coast and the Nation as a whole from the Deepwater Horizon oil 
spill. NOAA is fully mobilized and working tirelessly 24/7 to lessen 
impacts on the Gulf Coast and will continue to do so until the spill is 
controlled, the oil is cleaned up, the natural resource damages are 
assessed, and the restoration is complete.
    My testimony today will discuss NOAA's role in the Deepwater 
Horizon response, natural resource damage assessment, and restoration; 
NOAA's assets, data, and tools on-scene; the importance of 
preparedness; and necessary future actions.
NOAA's Roles During Oil Spills
    NOAA has three critical roles mandated by the Oil Pollution Act of 
1990 and the National Contingency Plan:

        1. Serves as a conduit for scientific information to the 
        Federal On-Scene Coordinator to provide trajectory predictions 
        for spilled oil, overflight observations of oil on water, 
        identification of environmental areas that are highly valued or 
        sensitive, and shoreline surveys of oil to determine clean-up 
        priorities.

        2. Conduct a joint natural resource damage assessment with 
        other trustees with the goal of restoring any ocean and coastal 
        resources harmed by the spill. This includes fulfilling the 
        role of Natural Resource Trustee for impacted marine resources.

        3. Represent Department of Commerce interests in spill response 
        decisionmaking activities through the Regional Response Team.

    The U.S. Coast Guard (USCG) has the primary responsibility for 
managing coastal oil spill response and clean-up activities in the 
coastal zone. During an oil spill, NOAA's Scientific Support 
Coordinator delivers expert scientific support to the USCG in its role 
as Federal On-Scene Coordinator. NOAA's Scientific Support Coordinators 
are located around the country in USCG Districts, ready to respond 
around the clock to any emergencies involving the release of oil or 
hazardous materials into the oceans or atmosphere.
    Using experience, expertise, and state-of-the-art technology, NOAA 
forecasts the movement and behavior of spilled oil, evaluates the risk 
to resources, conducts overflight observations and shoreline surveys, 
and recommends protection priorities and appropriate clean-up actions. 
NOAA also provides spot weather forecasts, emergency coastal survey and 
charting capabilities, aerial and satellite imagery, and real-time 
coastal ocean observation data to assist response efforts. Federal, 
state, and local entities look to NOAA for assistance, experience, 
local perspective, and scientific knowledge.
    NOAA serves the Nation by providing expertise and a suite of 
products and services critical for making science-based response 
decisions that prevent further harm, restore natural resources, and 
promote effective planning for future spills. Federal, state, and local 
agencies across the country called upon NOAA's Office of Response and 
Restoration (OR&R) for scientific support 200 times in 2009.
NOAA's Response Efforts for Deepwater Horizon Oil Spill
    NOAA's experts have been assisting with the response from the 
beginning, providing coordinated scientific weather and biological 
response services when and where they are needed most.
    At 2:24 a.m. (central time) on April 21, 2010, NOAA's OR&R was 
notified by the USCG of an explosion and fire on the Mobile Operating 
Drilling Unit (MODU) Deepwater Horizon, approximately 50 miles 
southeast of the Mississippi Delta. The explosion occurred at 
approximately 10:00 p.m. on April 20, 2010. Two hours, 17 minutes after 
notification by the USCG, NOAA provided our first spill forecast 
predictions to the Unified Command in Robert, Louisiana. NOAA's 
National Weather Service Weather Forecast Office in Slidell, LA, 
received the first request for weather support information from the 
USCG at 9:10 a.m. on April, 21, 2010 via telephone. The first graphical 
weather forecast was sent at 10:59 a.m. to the USCG District Eight 
Command Center in New Orleans. Support has not stopped since that first 
request for information by the USCG. Over the past few weeks, NOAA has 
provided 24/7 scientific support, both on-scene and through our Seattle 
Operation Center. This NOAA-wide support includes twice daily 
trajectories of the spilled oil, information management, overflight 
observations and mapping, weather and river flow forecasts, shoreline 
and resource risk assessment, and oceanographic modeling support. NOAA 
has also been supporting the Unified Command in planning for open water 
and shoreline remediation and analyses of various techniques for 
handling the spill, including open water burning and surface and 
deepwater application of dispersants. Hundreds of miles of coastal 
shoreline were surveyed to support clean-up activities.
    Offices throughout the agency have been mobilized and hundreds of 
NOAA personnel are dedicating themselves to assist. In addition to 
these activities, I would like to highlight several of NOAA's assets 
that are assisting with the overall oil spill response and assessment 
efforts:

  <bullet> NOAA's National Weather Service is providing critical 24/7 
        weather support dedicated to the spill, as well as on-site 
        weather support at multiple command centers. Special aviation 
        marine wind and wave forecasts are being prepared to support 
        response activities. A marine meteorologist was deployed to the 
        Joint Operations Center in Houma, LA, on April, 27, 2010. 
        Beginning on April 28, 2010, hourly localized ``spot'' 
        forecasts were requested by USCG and NOAA OR&R in support of 
        oil burns and eventually chemical dispersion techniques. Longer 
        range forecasts are a critical component to plan containment 
        and response actions. NOAA's National Data Buoy Center data is 
        also being incorporated into oil trajectory forecasts.

  <bullet> NOAA's National Ocean Service is providing: custom 
        navigation products and updated charts to help keep mariners 
        out of oil areas; updates from NOAA's extensive network of 
        water-level, meteorological, and near-shore current meters 
        throughout the Gulf; in-situ observations data; economic 
        assessment expertise; aerial photo surveys to assess pre- and 
        post-landfall assessments; and pre- and post-oil contamination 
        assessments of oysters at Mussel Watch sites.

  <bullet> NOAA's Office of Oceanic and Atmospheric Research (OAR) 
        dispatched the R/V Pelican ship along with National Institute 
        for Undersea Science and Technology cooperative scientists to 
        collect samples as soon as possible. OAR is advising on 
        airborne and oceanic dispersion modeling. NOAA and university 
        scientists are also flying NOAA's P3 hurricane hunter aircraft 
        to drop expendable probes to map the ocean current, salinity, 
        and thermal structure from 1,000 m depth to the surface that 
        will refine and calibrate loop current modeling. These 
        deployments will be critical for helping to track where the oil 
        might be headed and whether other areas of the United States 
        will be impacted by the Deepwater Horizon oil spill. In 
        addition, NOAA-funded Sea Grant programs in Louisiana and other 
        Gulf Coast states will be awarding grants for rapid response 
        projects to monitor the effects of the oil spill on Louisiana's 
        coastal marshes and fishery species.

  <bullet> NOAA's National Marine Fisheries Service (NMFS) is 
        addressing issues related to marine mammals, sea turtles, 
        seafood safety, and fishery resources. On May 2, 2010, NMFS 
        closed commercial and recreational fishing in oil-affected 
        portions of Federal waters in the Gulf for 10 days. NOAA 
        scientists are on the ground in the spill area taking water and 
        seafood samples to ensure the safety of seafood and fishing 
        activities. On May 7, NMFS made effective an amendment to the 
        emergency closure rule which adjusted the shape of the closed 
        area to be more consistent with the actual spill location. On 
        May 11, 2010, NMFS filed an emergency rule to establish a 
        protocol to more quickly and effectively revise the closing and 
        opening of areas affected by the oil spill. Due to the shifting 
        currents and winds, rapid changes in the location and extent of 
        the spill are occurring, which requires NMFS to update the 
        dimensions of the closed area, as necessary, to ensure fisher 
        and consumer safety without needlessly restricting productive 
        fisheries in areas that are not affected by the spill. In 
        addition, NOAA's Marine Animal Health and Stranding Response 
        Program is assisting the Wildlife Operations Branch of the 
        Unified Command to provide expertise and support for the 
        response efforts to the Deepwater Horizon oil spill. 
        Established protocols and procedures for treating marine 
        wildlife impacted by oil have been developed by NOAA and its 
        partners and are being adapted to address the particular needs 
        of this event.

  <bullet> NOAA's National Environmental Satellite, Data, and 
        Information Service is providing satellite imagery from NOAA's 
        Geostationary Operational Environmental Satellites and Polar 
        Operational Environmental Satellites, and is leveraging data 
        from the National Aeronautics and Space Administration and 
        international satellites to develop experimental and customized 
        products to assist weather forecasters and oil spill response 
        efforts. NOAA's National Data Centers are also providing data 
        from its archives that are being used to help provide mapping 
        services for the impacted areas, and temperature, salinity, 
        current, and surface elevation (tides) with forecasts up to 72 
        hours out from the Navy Global Ocean Coastal Model.

  <bullet> NOAA's Office of Marine and Aviation Operations has 3 
        aircraft providing support for overflights that are being 
        conducted on a near daily basis.

  <bullet> The NOAA General Counsel's Office is working closely with 
        state and Federal co-trustee agencies to undertake a natural 
        resource damage assessment and other steps to prepare claims 
        for response costs and damages for natural resource injuries 
        associated with the oil spill. The Office is also addressing a 
        wide range of legal questions that arise in conjunction with 
        the spill.

  <bullet> The NOAA Communications office has provided two to three 
        communications specialists to assist in the Joint Incident 
        Center with press and all communications efforts. Within NOAA, 
        the staff has been facilitating scientist interviews with media 
        and working with the Office of Response and Restoration to 
        update daily a dedicated NOAA Deepwater Horizon response 
        website with the latest information and easy-to-use fact sheets 
        on topics ranging from oil and coral reefs to an explanation of 
        the booms being used.
NOAA's Role in Damage Assessment and Restoration
    Oil spills affect our natural resources in a variety of ways. They 
can directly impact our natural resources, such as the oiling of marine 
mammals. They can diminish the ecological services provided by coastal 
and marine ecosystems, such as the loss of critical nursery habitat for 
shrimp, fish, and other wildlife that may result from oiled marshes. 
Oil spills may also diminish how we use these resources, by affecting 
fishing, boating, beach going, and wildlife viewing opportunities.
    Stewardship of the Nation's natural resources is shared among 
several Federal agencies, states, and tribal trustees. NOAA, acting on 
behalf of the Secretary of Commerce, is the lead Federal trustee for 
many of the Nation's coastal and marine resources, and is authorized 
pursuant to the Oil Pollution Act of 1990 (OPA) to recover damages on 
behalf of the public for injuries to trust resources resulting from an 
oil spill. OPA encourages compensation in the form of restoration and 
this is accomplished through the Natural Resource Damage Assessment 
(NRDA) process by assessing injury and service loss, then developing a 
restoration plan that appropriately compensates the public for the 
injured resources. NOAA scientists and economists provide the technical 
information for natural resource damage assessments and work with other 
trustees and responsible parties to restore resources injured by oil 
spills. To accomplish this effort, NOAA experts collect data, conduct 
studies, and perform analyses needed to determine whether and to what 
degree coastal and marine resources have sustained injury from oil 
spills. They determine how best to restore injured resources and 
develop the most appropriate restoration projects to compensate the 
public for associated lost services. Over the past 20 years, NOAA and 
other natural resource trustees have recovered over $500 million worth 
of restoration projects from responsible parties for the restoration of 
the public's wetlands, coral reefs, oyster reefs, and other important 
habitats.
    The successful recovery of injured natural resources depends upon 
integrated spill response and restoration approaches. The initial goals 
of a response include containment and recovery of floating oil because 
recovery rates for floating oil can be quite high under certain 
conditions. As the oil reaches the shoreline, clean-up efforts become 
more intrusive and oil recovery rates decline. At this point, it 
becomes important to recognize that certain spill response activities 
can cause additional harm to natural resources and actually slow 
recovery rates. Such decision points need to be understood so that cost 
effective and successful restoration can take place. NOAA brings to 
bear over 20 years of experience and expertise to these issues. 
Continued research on clean-up and restoration techniques and the 
recovery of environmental and human services after oil spills may 
improve such decisionmaking.
NOAA's Damage Assessment and Restoration Efforts for the Deepwater 
        Horizon Oil Spill
    At the onset of this oil spill, NOAA quickly mobilized staff from 
its Damage Assessment Remediation and Restoration Program to begin 
coordinating with Federal and state co-trustees and the responsible 
parties, to begin collecting a variety of data that are critical to 
help inform the NRDA. NOAA is coordinating the NRDA effort with the 
Department of the Interior as a Federal co-trustee, as well as co-
trustees in five states and representatives for at least one 
responsible party (BP).
    Although the concept of assessing injuries may sound relatively 
straightforward, understanding complex ecosystems, the services these 
ecosystems provide, and the injuries caused by oil and hazardous 
substances takes time--often years. The time of year the resource was 
injured, the type of oil or hazardous substance, the amount and 
duration of the release, and the nature and extent of clean-up are 
among the factors that affect how quickly resources are assessed and 
restoration and recovery occurs. The rigorous scientific studies that 
are necessary to prove injury to resources and services may also take 
years to implement and complete. The NRDA process described above 
ensures an objective and cost-effective assessment of injuries--and 
that harm to the public's resources is fully addressed.
    While it is still too early in the process to know what the full 
scope of the damage assessment will be, NOAA is concerned about the 
potential impacts to fish, shellfish, marine mammals, sea turtles, 
birds, and other sensitive resources, as well as their habitats, 
including wetlands, beaches, bottom sediments, and the water column. 
This may include national estuarine research reserves and national 
marine sanctuaries. The natural resources co-trustees may also evaluate 
any lost value related to the use of these resources, for example, as a 
result of fishery and beach closures.
Value of Readiness
    This event is a grave reminder that spills of national significance 
can occur despite the many safeguards and improvements that have been 
put in place since the passage of the OPA. Although the best remedy is 
to prevent oil spills, oil spills remain a concern given the offshore 
and onshore oil infrastructure, pipes and vessels that move huge 
volumes of oil through our waterways.
    To mitigate environmental effects of future spills, responders must 
be equipped with sufficient capacity and capabilities to address the 
challenge. Response training and exercises are essential to maintaining 
capabilities. Continuous training, improvement of our capabilities, 
maintenance of our capacity, and investments in high priority, 
response-related research and development efforts will ensure that the 
Nation's response to these events remains effective. Training and 
coordination with other Federal, state and local agencies that might 
have response and restoration responsibilities is critical to success 
in mitigating effects of future spills.
    Just 2 months ago, NOAA participated in an oil spill exercise that 
focused on a hypothetical spill of national significance. This type of 
exercise is held every 3 years to sharpen the Nation's ability to 
respond to major oil spills at all levels of government. Led by the 
USCG, this exercise included more than 1,000 people from 20 state and 
Federal agencies as well as industry. This year's exercise centered on 
a simulated tanker collision off the coast of Portland, ME resulting in 
a major oil spill causing environmental and economic impacts from Maine 
to Massachusetts. Lessons learned from this and similar drills have 
improved our readiness to respond to oil spills. One tool that was 
successfully incorporated into this recent exercise is called the 
Environmental Response and Management Application (ERMA). This tool was 
developed by NOAA to streamline the integration and sharing of data and 
information, and certain components of this tool are now being used in 
the Deepwater Horizon response effort. ERMA is a web-based Geographic 
Information System tool designed to assist both emergency responders 
and environmental resource managers who deal with events that may 
adversely impact the environment. In the recent drill, ERMA allowed for 
the integration of current science, information technology, and real-
time observational data into response decisionmaking. It allowed the 
latest information that was collected from a variety of efforts related 
to spills of national significance to be integrated, displayed on a map 
and shared for use across the Incident Command structure. Although not 
fully functional in the Gulf of Mexico, ERMA is providing benefits for 
the Deepwater Horizon response, many of which were first tested during 
the recent oil spill exercise. This recent drill also incorporated the 
damage assessment efforts of the trustees, which resulted in improved 
communications and leveraging of resources and information.
Activities to Improve Future Response Efforts
    Activities that would benefit the Nation by improving our ability 
to quickly respond to and mitigate damages from future spills include:

  <bullet> Response capacity--NOAA's Office of Response and Restoration 
        is fully engaged in responding to the Deepwater Horizon spill. 
        Although unlikely, if another large spill was to occur 
        simultaneously in another location across the United States, 
        NOAA would have difficulty responding to its complete ability. 
        Additional expertise in analytical chemistry, environmental 
        chemistry, biology, oceanography, natural resource damage 
        assessment, administrative functions, and information 
        management would help plan and prepare activities between 
        spills including training, development of area plans and 
        response protocols, drafting and reviewing response job aids, 
        and coordinating with regional responders.

  <bullet> Response effectiveness--The use of simulated drills and the 
        continued development of tools and strategies can only increase 
        the effectiveness of oil spill response. Specific activities 
        that would increase response effectiveness include:

    <ctr-circle> Environmental Sensitivity Index Maps--Environmental 
            Sensitivity Index (ESI) maps provide information that helps 
            reduce the environmental, economic, and social impacts from 
            oil and chemical spills. Spill responders are utilizing 
            NOAA's ESI maps to identify priority areas to protect from 
            spreading oil, develop cleanup strategies to minimize 
            impacts to the environment and coastal communities, and 
            reduce overall cleanup costs.

    <ctr-circle> Data Management Tools for Decisionmaking--The key to 
            effective emergency response is efficiently integrating 
            current science, information technology, and real-time 
            observational data into response decisionmaking. NOAA has 
            developed the ERMA, which integrates real-time observations 
            (e.g., NOAA National Buoy Data Center data, weather data, 
            shoreline data, vessel traffic information, etc.) with 
            archived data sources (e.g., NOAA's National Oceanographic 
            Data Center's historical data) to aid in evaluating 
            resources at risk, visualizing oil trajectories, and for 
            planning rapid tactical response operations, injury 
            assessment and habitat restoration. Having access to 
            retrospective data is critical to bring value to real-time 
            observational data being collected. For the Deepwater 
            Horizon oil spill, certain components of the Gulf of Mexico 
            ERMA are functional and being used on an ad hoc basis. The 
            only fully functional ERMA are in the U.S. Caribbean and 
            New England.

    <ctr-circle> Use of Relevant Technologies--Better use of remote-
            sensing technologies, unmanned aerial vehicles, and an 
            improved ability to access and use real-time observation 
            systems would optimize clean-up operations. For example, 
            when oil spreads across the water it does not do so in a 
            uniform manner. Oil slicks can be quite patchy and vary in 
            thickness. The effectiveness of response options--the 
            booms, skimmers, and dispersants--depends on whether they 
            are applied in the areas of the heaviest oil. NOAA's 
            trajectory modeling and visual observations obtained 
            through overflights are helping direct the application of 
            spill technologies, but remote sensing technology could be 
            used to more effectively detect oil, determine areas of 
            heaviest amounts of oil, and then this information could be 
            used to direct oil skimming operations and increase the 
            recovery of spilled oil. Traditional methods of visual 
            observation can be difficult at night or in low visibility 
            conditions, as is the case with Deepwater Horizon. In such 
            situations, enhanced remote sensing technology would allow 
            NOAA to improve the trajectory models it produces for the 
            Unified Command.

    <ctr-circle> Real-time Observation Systems--Real-time data on 
            currents, tides, and winds are important in driving the 
            models that inform us on the likely trajectory of the 
            spilled oil. As the Integrated Ocean Observing System 
            generates more data from technological advances like high 
            frequency radar, the prediction of oil location can be 
            improved by pulling these observations into trajectory 
            models in real-time.

  <bullet> Research and Development--Research and development is 
        critical to ensure the latest science informs response efforts. 
        Priority areas for future research and development include:

    <ctr-circle> Fate and Behavior of Oil Released at Deep Depths--A 
            better understanding is needed of how oil behaves and 
            disperses within the water column when released at deep 
            depths, such as happened with the Deepwater Horizon oil 
            spill. This is also true regarding the use of dispersants 
            in deep water. This information is critical to develop oil 
            spill trajectory models and improve our understanding of 
            the potential short- and long-term effects of dispersants 
            on the environment.

    <ctr-circle> Long-Term Affects of Oil--Spilled oil can remain on 
            the shoreline and in wetlands and other environments for 
            years. More than twenty years later, there is still oil in 
            Prince William Sound from the Exxon Valdez spill. Research 
            is needed to improve our understanding of the long-term 
            effects of oil on sensitive and economically important 
            species. This understanding will improve decisionmaking 
            during a response and allow us to determine the best 
            approach to clean up.

    <ctr-circle> Arctic--Continued acceleration of sea-ice decline in 
            the Arctic Ocean as a consequence of global warming may 
            lead to increased Arctic maritime transportation and energy 
            exploration that in turn may increase the potential of oil 
            spills in the Arctic. Recent studies, such as the Arctic 
            Monitoring and Assessment Programme's Oil and Gas 
            Assessment, indicate that we currently lack the information 
            to determine how oil will behave in icy environments or 
            when it sinks below the surface. We also lack a basic 
            understanding of the current environmental conditions, 
            which is important for conducting injury assessments and 
            developing restoration strategies.

    <ctr-circle> Mapping Oil Extent--Current use of NOAA-generated 
            experimental products suggest that data from space-based 
            synthetic aperture radar could assist us in detecting and 
            refining the areal extent of oil and provide information in 
            the decisions about where resources could be deployed.

    <ctr-circle> Oil Detection in Water Column and Seafloor--In 
            addition to depth data, modern multibeam echo sounders 
            record acoustic returns from the water column and acoustic 
            backscatter amplitude returns from the seafloor. In limited 
            research applications, these systems have been able to 
            detect oil in the water column and on the seafloor. Sensors 
            on autonomous vehicles that detect the presence of oil and 
            gas in the water column are another detection technology. 
            If these technologies could be used to provide highly 
            accurate information on where oil is, and where it isn't, 
            such information would be of significant benefit to a spill 
            response such as Deepwater Horizon, where timely and 
            precise placement of limited resources are critical to 
            mitigate spill impacts. This developmental effort could 
            provide very useful data for later response and restoration 
            efforts.

    <ctr-circle> Human Dimensions--Research on how to incorporate 
            impacted communities into the preparedness and response 
            processes could help to address the human dimensions of 
            spills, including social issues, community effects, risk 
            communication methods, and valuation of natural resources.
Conclusion
    NOAA will continue to provide scientific support to the Unified 
Command. NRDA efforts in coordination with our Federal and state co-
trustees have begun. I would like to assure you that we will not relent 
in our efforts to protect the livelihoods of Gulf Coast residents and 
mitigate the environmental impacts of this spill. Thank you for 
allowing me to testify on NOAA's response efforts. I am happy to answer 
any questions you may have.

    Senator Kerry. Thank you, Dr. Lubchenco.
    Admiral Allen.

  STATEMENT OF ADMIRAL THAD ALLEN, COMMANDANT, UNITED STATES 
 COAST GUARD AND NATIONAL INCIDENT COMMANDER ON THE DEEPWATER 
               HORIZON FIRE AND MC 252 OIL SPILL

    Admiral Allen. Thank you, sir.
    I'd like to submit my statement for the record and actually 
provide an operational update this morning that takes us----
    Senator Kerry. Thank you very much.
    Admiral Allen.--to the current----
    Senator Kerry. Without objection, the full statement will 
be in the record.
    Admiral Allen. Senator, I'd like to start with just a brief 
discussion of the life cycle of this event, and then move in to 
the current status of our response operations.
    As you know, this event occurred on the night of the 20th 
of April. This started out as a massive explosion and a search-
and-rescue operation.
    I add my condolences to the families of the men who were 
lost.
    I'd also like to just point out the extraordinary response 
of industry vessels that were in the area, offshore supply 
vessels who came under that rig while it was on fire, and were 
instrumental in saving well over a hundred people. And I think 
it's often not well understood how much they had to do with it.
    I'm also pleased to be here with my very good friend, Dr. 
Jane Lubchenco, who I've worked with, well over a year now. And 
you need to know we are committed partners in this effort.
    Right after we were aware of the incident itself, and I got 
notified personally about an hour and a half after the Coast 
Guard was notified, we immediately sent rescue units to the 
scene--helicopters, cutters--and, over a multi-day search, 
covered about 5,000 square miles, with about 30 sorties, 
ultimately suspended the search when there was no indicated 
chance that there would be survivors. And again, we pass our 
condolences to the family.
    Early on, we brought salvage experts into Morgan City and 
Houma to take a look at the structural issues associated with 
the mobile drilling unit and, at that time, started mobilizing 
resources for what we thought might be a worst-case discharge 
associated with the event.
    As it turned out, the drill sunk on the 22nd of April. 
Several hours later, I was in the Oval Office, along with 
Secretary Napolitano and Secretary Salazar, briefing the 
President on the implications of that.
    In the time in between that, we raised the level of command 
from the local Coast Guard captain of the port to Rear Admiral 
Mary Landry, who has led the response since then, as the 
Federal on-scene coordinator for the entire area. She's done a 
terrific job down there, with all the Federal partners, working 
with the private industry to make sure we optimize this 
response.
    What we have found, over the course of attacking this 
spill, is that now we are dealing with something that's much 
more complicated in many ways than any spill I've ever dealt 
with. The first spill I actually was involved in was actually 
in 1980, so I've been doing this for quite a while. And we'll 
get into this in the--in some of the questions. But, we are not 
dealing with a large monolithic spill anymore.
    Depending on when the oil came to the surface, whether or 
not dispersants were being used, in situ burning, or mechanical 
skimming, we now have a very, very wide perimeter, with 
different concentrations of different types of oil, which 
covers a vast area, but there is not a single, large monolithic 
spill. For that reason, there are--there's a chance that some 
of it could get in the Loop Current. We can talk about that. 
Some of it has come ashore in Louisiana. Tar balls are 
impacting Alabama. We've seen tar balls, actually, in Texas.
    So, what we're doing is fighting an omnidirectional and 
almost indeterminate threat, here. And the reason I bring that 
up, it's creating severe challenges for where to employ 
resources, where we might need them as the oil comes ashore. 
And this has manifested itself mostly in the booming 
requirements for the various states that could be impacted. And 
I'd be glad to go into that in greater detail.
    But, as we sit here today, there are probably about 20,000 
people that are employed down in the Gulf that are both Active-
Duty Coast Guard, Federal partners, state and local volunteers, 
and private sector.
    Regarding the boom, we have about 1.9 million--I'm sorry--
1.3 million feet of boom deployed. We believe, to cover 
everything that we need, including some of the parishes in 
Louisiana to the west, we need about 1.9 million feet of boom. 
The delta is being covered with a boom that is on order. When 
we get everything that we have currently on order in pipeline, 
we will have over 3 million feet of boom available. This is 
important as we start to look at the potential implications of 
the Loop Current, and what might be needed in South Florida. 
And we are staying right on that.
    We continue to attack this spill on the surface through 
mechanical skimming, in situ burning, when conditions allow, 
and application of dispersants. There is some evaporation of 
the oil, as well. These are conditions-based. You have to have 
good weather for in situ burning, you have to have the right 
air conditions to meet the protocols, and in order to be able 
safely do that. And----
    Senator Kerry. Admiral, do you mind if I interrupt there?
    Admiral Allen. Yes, sir.
    [The prepared statement of Admiral Allen follows:]

  Prepared Statement of Admiral Thad Allen, Commandant, United States 
 Coast Guard and National Incident Commander on the Deepwater Horizon 
                       Fire and MC 252 Oil Spill
    Good afternoon Chairman Rockefeller, Senator Hutchison, and 
distinguished members of the Committee. I am grateful for the 
opportunity to testify before this committee on the subject of the BP 
Deepwater Horizon oil spill currently ongoing in the Gulf of Mexico.
    On the evening of April 20, 2010, the Transocean-owned, British 
Petroleum-chartered, Marshall Islands-flagged Mobile Offshore Drilling 
Unit (MODU) Deepwater Horizon, located approximately 72 miles Southeast 
of Venice, Louisiana, reported an explosion and fire onboard. This 
began as a Search and Rescue (SAR) mission--within the first few hours, 
115 of the 126 crewmembers were safely recovered; SAR activities 
continued through April 23, though the other 11 crewmembers remain 
missing.
    Concurrent with the SAR effort, the response to extinguishing the 
fire and mitigating the impacts of the approximate 700,000 gallons of 
diesel fuel onboard began almost immediately, in accordance with the 
operator's Minerals Management Service (MMS)--approved Response Plan, 
oil spill response resources, including Oil Spill Response Vessels 
(OSRVs), were dispatched to the scene. After 2 days of fighting the 
fire, the MODU sank into approximately 5,000 feet of water on April 22. 
On April 23, remotely operated vehicles (ROVs) located the MODU on 
seafloor, and, on April 24, BP found the first two leaks in the riser 
pipe and alerted the Federal Government. ROVs continue to monitor the 
flow of oil.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As the event unfolded, a robust Incident Command System (ICS) 
response organization was stood up in accordance with the National 
Response Framework (NRF) and the National Oil and Hazardous Substances 
Pollution Contingency Plan (NCP). ICS is utilized to provide a common 
method for developing and implementing tactical plans to efficiently 
and effectively manage the response to oil spills. The ICS organization 
for this response includes Incident Command Posts and Unified Commands 
at the local level, and Unified Area Commands at the regional level. It 
is comprised of representatives from the Coast Guard (Federal On-Scene 
Coordinator (FOSC)), other Federal, state, and local agencies, as well 
as BP as a Responsible Party.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Federal Government has addressed the Gulf Oil Spill with an 
all-hands-on deck approach from the moment the explosion occurred. 
During the night of April 20--the date of the explosion--a command 
center was stood up on the Gulf Coast to address the potential 
environmental impact of the event and to coordinate with all state and 
local governments. After the MODU sank on the 22nd, the National 
Response Team (NRT), led by the Secretary of Homeland Security and 
comprised of 16 Federal agencies including the Coast Guard, other DHS 
offices, the Environmental Protection Agency (EPA), National Oceanic 
and Atmospheric Administration (NOAA), Department of Interior (DOI), as 
well as Regional Response Teams (RRT), were activated.
    On April 29, Secretary Napolitano declared the event a Spill of 
National Significance (SONS), which enhanced operational and policy 
coordination at the national level and concurrently allowed my 
appointment as the National Incident Commander (NIC) for the 
Administration's continued, coordinated response. The NIC's role is to 
coordinate strategic communications, national policy, and resource 
support, and to facilitate collaboration with key parts of the Federal, 
state and local government.
    The NIC staff is comprised of subject matter experts from across 
the Federal Government, allowing for immediate interagency 
collaboration, approval and coordination. While the FOSC maintains 
authorities for response operations as directed in the National 
Contingency Plan, the NIC's primary focus is providing national-level 
support to the operational response. This means providing the Unified 
Command with everything that they need--from resources to policy 
decisions--to sustain their efforts to secure the source and mitigate 
the impact. This will be a sustained effort that will continue until 
the discharges are permanently stopped and the effects of the spill are 
mitigated to the greatest extent possible. Beyond securing the source 
of the spill, the Unified Command committed to minimizing the economic 
and social impacts to the affected communities and the Nation.
Unified Recovery Efforts
    The Unified Command continues to attack the spill offshore. As of 
May 13, 2010, over 5 million gallons of oily water have been 
successfully recovered using mechanical surface cleaning methods. 
Further, approximately 475,000 gallons of dispersants have been applied 
to break up the slick, and controlled burns have been used as weather 
conditions have allowed. In addition to the ongoing offshore oil 
recovery operations, significant containment and exclusion booms have 
been deployed and staged strategically throughout the Gulf region. 
These booms are used to protect sensitive areas including: 
environmental and cultural resources, and critical infrastructure, as 
identified in the applicable Area Contingency Plans (ACPs). To date, 
more than a million feet of boom have been positioned to protect 
environmentally sensitive areas. Fourteen staging areas have been 
established across the Gulf Coast states and three regional command 
centers. The Department of Defense has activated National Guard troops; 
over 1,000 are currently deployed, and up to 17,500 have been approved 
for deployment.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Volunteerism and Communication with Local Communities
    A critical aspect of response operations is active engagement and 
communication with the local communities. Several initiatives are 
underway to ensure regular communications with the local communities.

        1. Active participation and engagement in town hall meetings 
        across the region with industry and government involvement.

        2. Daily phone calls with affected trade associations.

        3. Coordination of public involvement through a volunteer 
        registration hotline (1-866-448-5816), alternative technology, 
        products and services e-mail (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c1a9aeb3a8bbaeafb2b4b1b1aeb3b581a0aeadefa2aeac">[email&#160;protected]</a>), and 
        response and safety training scheduled and conducted in 
        numerous locations.

        4. More than 7,100 inquiries received online via the response 
        website (www.deepwaterhorizonresponse.com) with more than 6,121 
        inquiries completed, with 4-hour average time of response.

        5. Over 568,000 page hits on response website.

        6. Over 110 documents created/posted to response website for 
        public consumption.

        7. News, photo/video releases, advisories to more than 5,000 
        media/governmental/private contacts.

        8. Full utilization of social media including Facebook, 
        YouTube, Twitter and Flickr.

        9. Establishment of Local Government hotlines in Houma, LA 
        (985-493-7835); Mobile, AL (251-445-8968); Robert, LA (985-902-
        5253).
MODU Regulatory Compliance Requirements
    43 U.S.C. 1331, et seq. mandates that MODUs documented under the 
laws of a foreign nation, such as the Deepwater Horizon, be examined by 
the Coast Guard. These MODUs are required to obtain a U.S. Coast Guard 
Certificate of Compliance (COC) prior to operating on the U.S. Outer 
Continental Shelf (OCS).
    In order for the Coast Guard to issue a COC, one of three 
conditions must be met:

        1. The MODU must be constructed to meet the design and 
        equipment standards of 46 CFR part 108.

        2. The MODU must be constructed to meet the design and 
        equipment standards of the documenting nation (flag state) if 
        the standards provide a level of safety generally equivalent to 
        or greater than that provided under 46 CFR part 108.

        3. The MODU must be constructed to meet the design and 
        equipment standards for MOD Us contained in the International 
        Maritime Organization Code for the Construction and Equipment 
        of MODUs.

    The Deepwater Horizon had a valid COC at the time of the incident, 
which was renewed July 29, 2009, with no deficiencies noted. The COC 
was issued based on compliance with number three, stated above. COCs 
are valid for a period of 2 years.
    In addition to Coast Guard safety and design standards, MMS and the 
Occupational Safety and Health Administration (OSHA) also have safety 
requirements for MODUs. MMS governs safety and health regulations in 
regard to drilling and production operations in accordance 30 CFR Part 
250, and OSHA maintains responsibility for certain hazardous working 
conditions not covered by either the Coast Guard or MMS, as per 29 
U.S.C. 653(a) and (b)(1).
Coast Guard/MMS Joint Investigation Responsibilities
    On April 27, Secretary Napolitano and Secretary of the Interior Ken 
Salazar signed the order that outlined the joint Coast Guard-MMS 
investigation into the Deepwater Horizon incident.
    Information gathering began immediately after the explosion--
investigators from both agencies launched a preliminary investigation 
that included evidence collection, interviews, witness statements from 
surviving crew members, and completion of chemical tests of the crew. 
The aim of this investigation is to gain an understanding of the causal 
factors involved in the explosion, fire, sinking and tragic loss of 11 
crewmembers.
    The joint investigation will include public hearings, which--have 
already begun in Kenner, LA. The formal joint investigation team 
consists of equal representation of Coast Guard and MMS members. The 
Coast Guard has also provided subject matter experts and support staff 
to assist in the investigation.
Lessons Learned from Past Responses
    The Coast Guard has been combating oil and hazardous materials 
spills for many years; in particular, the 1989 major oil spill from the 
Exxon Valdez yielded comprehensive spill preparedness and response 
responsibilities.
    In the 20 years since the Exxon Valdez, the Coast Guard has 
diligently addressed the Nation's mandates and needs for better spill 
response and coordination. For example, a SONS Exercise is held every 3 
years. In 2002, the SONS Exercise was held in New Orleans to deal with 
the implications of a wellhead loss in the Gulf of Mexico. In that 
exercise, the SONS team created a vertically integrated organization to 
link local response requirements to a RRT. The requirements of the RRT 
are then passed to the NRT in Washington, D.C., thereby integrating the 
spill management and decision processes across the Federal Government. 
The response protocols used in the current response are a direct result 
of past lessons learned from real world events and exercises including 
SONS.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Although the Exxon Valdez spill shaped many of the preparedness and 
response requirements and legislation followed to this day, other 
significant events since 1989 have generated additional lessons learned 
that have informed our response strategies. For example, the M/V Cosco 
Busan discharged over 53,000 gallons of fuel oil into San Francisco Bay 
after colliding with the San Francisco-Oakland Bay Bridge in heavy fog. 
Through the recovery of over 40 percent of the spilled product, the 
Unified Command recognized improvements were needed in some areas. As a 
result, new guidance and policy was developed to better utilize 
volunteers in future responses. Additionally, standard operating 
procedures for emergency notifications were improved to ensure better 
vertical communications between the Federal responders and local 
governments. Furthermore, steps were taken to pre-identify incident 
command posts (ICPs) and improve booming strategies for environmentally 
sensitive areas.
    Most recently, the Coast Guard led a SONS exercise in March, 2010. 
Nearly 600 people from over 37 agencies participated in the exercise. 
This exercise scenario was based on a catastrophic oil spill resulting 
from a collision between a loaded oil tanker and a car carrier off the 
coast of Portland, Maine. The exercise involved response preparedness 
activities in Portland, ME; Boston, MA; Portsmouth, NH; Portsmouth, VA; 
and Washington, D.C. The response to the SONS scenario involved the 
implementation of oil spill response plans, and response organizational 
elements including two Unified Commands, a Unified Area Command, and 
the NIC in accordance with the National Contingency Plan and national 
Response Framework. The exercise focused on three national-level 
strategic objectives:

        1. Implement response organizations in applicable oil spill 
        response plans.

        2. Test the organization's ability to address multi-regional 
        coordination issues using planned response organizations.

        3. Communicate with the public and stakeholders outside the 
        response organization using applicable organizational 
        components.

    The SONS 2010 exercise was considered a success, highlighting the 
maturity of the inter-agency and private oil spill response 
capabilities and the importance of national-level interactions to 
ensure optimal information flow and situational awareness. The timely 
planning and execution of this national-level exercise have paid huge 
dividends in the response to this potentially catastrophic oil spill in 
the Gulf of Mexico.
Role of the Oil Spill Liability Trust Fund
    The Oil Spill Liability Trust Fund (OSLTF), established in the 
Treasury, is available to pay the expenses of Federal response to oil 
pollution under the Federal Water Pollution Control Act (FWPCA) (33 
U.S.C.  1321(c)) and to compensate claims for oil removal costs and 
certain damages caused by oil pollution as authorized by the Oil 
Pollution Act of 1990 (OPA) (33 U.S.C.  2701 et seq.). These OSLTF 
uses will be recovered from responsible parties liable under OPA when 
there is a discharge of oil to navigable waters, adjoining shorelines 
or the Exclusive Economic Zone (EEZ).
    The OSLTF is established under Revenue Code section 9509 (26 U.S.C. 
 9509), which also describes the authorized revenue streams and 
certain broad limits on its use. The principal revenue stream is an 8 
cent per barrel tax on oil produced or entered into the United States 
(see the tax provision at 26 U.S.C.  4611). The barrel tax increases 
to 9 cents for 1 year beginning on January 1, 2017. The tax expires at 
the end of 2017. Other revenue streams include oil pollution-related 
penalties under 33 U.S.C.  1319 and  1321, interest earned through 
Treasury investments, and recoveries from liable responsible parties 
under OPA. The current OSLTF balance is approximately $1.6 billion. 
There is no cap on the fund balance but there are limits on its use per 
oil pollution incident. The maximum amount that may be paid from the 
OSLTF for any one incident is $1 billion. Of that amount, no more than 
$500 million may be paid for natural resource damages. 26 U.S.C.  
9509(c)(2).
    OPA further provides that the OSLTF is available to the President 
for certain purposes (33 U.S.C.  2712(a)). These include:

        Payment of Federal removal costs consistent with the NCP. This 
        use is subject to further appropriation, except the President 
        may make available up to $50 million annually to carry out 33 
        U.S.C.  1321(c) (Federal response authority) and to initiate 
        the assessment of natural resource damages. This so-called 
        ``emergency fund'' amount is available until expended. If 
        funding in the emergency fund is deemed inadequate to fund 
        Federal response efforts, an additional $100 million may be 
        advanced from the OSLTF when the emergency fund is inadequate 
        subject to notification of Congress no later than 30 days after 
        the advance. See 33 U.S.C.  2752(b). Additional amounts from 
        the OSLTF for Federal removal are subject to further 
        appropriation.

        Payment of claims for uncompensated removal costs and damages. 
        Payments are not subject to further appropriation from the 
        OSLTF. 33 U.S.C.  2752(b).

        Payment of Federal administrative, operating and personnel 
        costs to implement and enforce the broad range of oil pollution 
        prevention, response and compensation provisions addressed by 
        the OPA. This use is subject to further appropriation to 
        various responsible Federal agencies.
National Pollution Funds Center (NPFC) Funding and Cost Recovery
    The NPFC is a Coast Guard unit that manages use of the emergency 
fund for Federal removal and trustee costs to initiate natural resource 
damage assessment. The NPFC also pays qualifying claims against the 
OSLTF that are not compensated by the responsible party. Damages 
include real and personal property damages, natural resource damages, 
loss of subsistence use of natural resources, lost profits and earnings 
of businesses and individuals, lost government revenues, and net costs 
of increased or additional public services that may be recovered by a 
State or political subdivision of a state.
    In a typical scenario, the FOSC, Coast Guard or EPA accesses the 
emergency fund to carry out 33 U.S.C.  1321(c), i.e., to remove an oil 
discharge or prevent or mitigate a substantial threat of discharge of 
oil to navigable waters, the adjoining shoreline or the EEZ. Costs are 
documented and provided to NPFC for reconciliation and eventual cost 
recovery against liable responsible parties. Federal trustees may 
request funds to initiate an assessment of natural resource damages and 
the N PFC will provide those funds from the emergency fund as well.
    Claims for OPA removal costs and damages that have been denied or 
not settled by the responsible party after 90 days may be presented to 
the NPFC for payment from the OSLTF. State claims for removal costs can 
be presented directly to the NPFC against the OSLTF. General claims 
provisions are delineated in 33 U.S.C.  2713 and the implementing 
claims regulations for claims against the OSLTF in 33 CFR 136.
    OPA provides that all claims for removal costs or damages shall be 
presented first to the responsible party. Any person or government may 
be a claimant. If the responsible party denies liability for the claim, 
or the claim is not settled within 90 days after it is presented, a 
claimant may elect to commence an action in court against the 
responsible party or to present the claim to the NPFC for payment from 
the OSLTF. OPA provides an express exception to this order of 
presentment in respect to State removal cost claims. Such claims are 
not required to be presented first to the responsible party and may be 
presented direct to the NPFC for payment from the OSLTF. These and 
other general claims provisions are delineated in 33 U.S.C. section 
2713 and the implementing regulations for claims against the OSLTF in 
33 CFR Part 136. NPFC maintains information to assist claimants on its 
website at www.uscg.mil/npfc.
    NPFC pursues cost recovery for all OSLTF expenses for removal costs 
and damages against liable responsible parties pursuant to Federal 
claims collection law including the Debt Collection Act, implementing 
regulations at 31 CFR Parts 901-904 and DHS regulations in 6 CFR Part 
11.
    Aggressive collection efforts are consistent with the ``polluter 
pays'' public policy underlying the OPA. Nevertheless, the OSLTF is 
intended to pay even when a responsible party does not pay.
OSLTF and the Deepwater Horizon
    On May 12, the Administration proposed a legislative package that 
will: enable the Deepwater Horizon Oil Spill response to continue 
expeditiously; speed assistance to people affected by this spill; and 
strengthen and update the oil spill liability system to better address 
catastrophic events. The bill would permit the Coast Guard to obtain 
one or more advances--up to $100 million each--from the Principal Fund 
within the Oil Spill Liability Trust Fund to underwrite Federal 
response activities taken in connection with the discharge of oil that 
began in 2010 in connection with the explosion on, and sinking of, the 
mobile offshore drilling unit Deepwater Horizon. To deal more generally 
with the harms created by oil spills as well as to toughen and update 
these laws, the bill would, for any single incident, raise the 
statutory expenditure limitation for the Oil Spill Liability Trust Fund 
from $1 billion to $1.5 billion and the cap on natural resource damage 
assessments and claims from $500 million to $750 million.
    The emergency fund has been accessed by the FOSC for $65 million as 
of May 11, 2010. BP, a responsible party, is conducting and paying for 
most response activities. The Coast Guard requested and received an 
advance of $100 million from the OSLTF principal fund to the emergency 
fund as authorized by 33 U.S.C.  2752(b), because the balance 
remaining in the emergency fund was not adequate to fund anticipated 
Federal removal costs. The BP and Transocean have been notified of 
their responsibility to advertise to the public the process by which 
claims may be presented. As of May 13, 8160 claims have been opened 
with BP, and nearly $5.3 million has been disbursed; though Transocean 
has also already been designated as a responsible party, all claims are 
being processed centrally through BP.
Conclusion
    Through the National Incident Command, we are ensuring all 
capabilities and resources--government, private, and commercial--are 
being leveraged to protect the environment and facilitate a rapid, 
robust clean-up effort. Every effort is being made to secure the source 
of the oil, remove the oil offshore, protect the coastline, include and 
inform the local communities in support of response operations, and 
mitigate any impacts of the discharge.
    Thank you for the opportunity to testify today. I look forward to 
your questions.

    Senator Kerry. I apologize for doing that. But I'm going to 
have to go vote in a minute. So, let me just ask you this, 
quickly.
    Admiral Allen. Sure.
    Senator Kerry. I understand that the--one--the principal 
dispersant chosen is COREXIT.
    Admiral Allen. Yes, sir.
    Senator Kerry. And I've seen some reports suggesting that 
COREXIT is, in fact, more toxic than other alternatives that 
are available. Is that true?
    Admiral Allen. There are a range of dispersants that are 
available. The decision on the use of dispersants is based on 
the response plans and what has been stored for use. As we go 
forward, we're going to need to look at the relative toxicity 
of the different dispersants.
    Senator Kerry. My question is, Is it more toxic than other 
alternatives?
    Admiral Allen. There are other alternatives that are less 
toxic. There's quite a range, and we could answer that for the 
record, sir.
    [The information referred to follows:]

    The product specified is more toxic than some products, but less 
toxic than others.
    In accordance with 40 CFR 300 Subpart J, EPA approves dispersants 
for use in U.S. waters based on tests for toxicity and effectiveness. 
Any product listed on the schedule must meet a threshold minimum for 
effectiveness and test for, and report on, toxicity. No states have 
expressed reservations about the use of these dispersants in the past, 
as long as the dispersant is employed in accordance with the Regional 
Response Team Dispersant-Use pre-authorizations agreements established 
between the states and their Federal partners at the regions around the 
country.
    The toxicity data table at (http://www.epa.gov/emergencies/content/
ncp/tox_tables.htm) provides toxicity data for the dispersants listed. 
Toxicity values should not be interpreted as absolute values, but 
rather, relative to one another in a general sense. For example, an 
LC50 of 4.49 should not be viewed as significantly different from an 
LC50 of 5.95. But, the LC50 of 4.49 can be viewed as significantly 
different from the LC50 of 42.00. Therefore, the toxicity values can be 
used to group dispersants (2 or 3 groups of similar toxicity), but 
should not be used to list dispersants according to toxicity (1 to 20).
    All products on the National Contingency Plan Product Schedule are 
selected based on volume availability, specifics of the site, and 
concerns of the Federal On-Scene Coordinator. Toxicity tests are 
methods for determining the impact of a chemical or an effluent on 
living organisms and measure the degree of response using commonly 
tested species. Many different kinds of tests can be used to identify 
potential toxic effects, but since toxic effects differ, comparing the 
toxicity of one to another may not be appropriate.
    In environmental studies, LC stands for ``Lethal Concentration'' 
and is the concentration of the chemical, given all at once, in the 
water that causes the death of 50 percent of a group of test animals in 
a given time (for example, during a 96-hour period). In general, the 
smaller the LC50 value, the more toxic the chemical. The opposite is 
also true: the larger the LC50 value, the lower the toxicity. For 
example, a chemical with an LC50 of 2 parts per million (ppm) would be 
more toxic than a chemical with an LC50 of 20 ppm. The LC50 is the 
measure of the immediate (or acute) toxicity of a chemical for the 
particular animal species being tested. The LC50 was not designed nor 
intended to give information on the long-term exposure effects of a 
chemical. It is also important to note that the LC50 value may be 
different for a given chemical depending on the route of exposure 
(e.g., skin contact, ingested, inhaled) and can be different for 
different animal species, ages and sexes. The LC50 is only one source 
of toxicity information and only provides information for the species 
and concentrations of chemical being tested under laboratory 
conditions. Toxicity tests resulting from controlled laboratory 
experiments may not accurately represent the degree of toxicity seen in 
the environment because of factors such as breakdown of the chemical, 
different species, different routes of exposure, age, sex, and stage of 
development (e.g., adult versus larval).

    Senator Kerry. Do we know what the impact of this toxicity 
is, with respect to organisms in the water?
    Admiral Allen. I might refer that to my colleague, Dr.----
    Senator Kerry. Dr. Lubchenco?
    Admiral Allen.--Lubchenco.
    Dr. Lubchenco. Senator, the dispersants that are approved 
by EPA for use in an oil spill have been through extensive 
testing, and they are rated for their toxicity, relative to 
different species.
    They have been approved by EPA, and then if--once they are 
on the list, they are available to be used.
    Senator Kerry. My question is--you know, lists and prior, 
sort of, plans are one thing. We've just heard testimony that 
this is omnidirectional. If it's omnidirectional, it's also 
Omni-species capable of having an impact. Has it been tested 
with respect to every species it may come into contact with?
    Dr. Lubchenco. Senator, that would probably be impossible 
to do. But, there are species that are considered to be 
indicator species, which have been used in tests.
    Senator Kerry. They are?
    Dr. Lubchenco. And--there are indicator species----
    Senator Kerry. Like what? What are the indicator species?
    Dr. Lubchenco. There's a shrimp that has been used in the 
tests. There are other species that are planktonic species that 
are typically used. And I think it's fair to say that there is 
legitimate concern about use of dispersants.
    This is a situation where--this is a question of tradeoffs. 
The dispersants are less toxic than the oil. Even though some 
dispersants are more toxic than others, they are considerably 
less toxic than the oil. And the purpose of the dispersants is 
to break the oil up into smaller droplets so that they can 
biodegrade naturally.
    And this is a question, I believe, of tradeoffs. We do not 
have complete information about the likely impact of the 
dispersants on every species in the ecosystem. We have never 
used dispersants, in the amounts that we're using now, within 
U.S. waters.
    Senator Kerry. It's my understanding we've never used it 
underwater in the way that we've used it now. We've used it on 
the surface, but not shooting out with the plume itself 
underwater. Is that accurate?
    Dr. Lubchenco. That's correct, Senator.
    Senator Kerry. And some of that----
    Dr. Lubchenco. And----
    Senator Kerry.--clearly, does not touch the oil. Some of it 
floats free and goes off into the ocean. Does it sink to the 
bottom?
    Dr. Lubchenco. The--because the dispersants had never been 
used subsurface at depths which were being considered, EPA and 
NOAA required extensive testing before there was permission 
given to apply the dispersants. That testing was done, and 
indicates that the dispersant is being--it is doing what it was 
intended to do, which is to break up the oil----
    Senator Kerry. What happens----
    Dr. Lubchenco.--and considerably----
    Senator Kerry.--to the dispersant that doesn't connect to 
the oil? Does it sink to the bottom? Does it float free?
    Dr. Lubchenco. It--the--it's inserted in a way that it goes 
right into the stream of oil that is coming out, but it 
biodegrades relatively rapidly. And I think that's one of the 
important messages.
    The other is that there is continual monitoring that is in 
place as the subsurface dispersants are being used. So, I think 
this is a situation where there are tradeoffs. There was a 
decision made that this is the lesser of the evils. But, there 
are a lot of questions that remain about exactly what the 
impacts are, long term. And that's why we are being very 
aggressive in our monitoring, to try to get a better 
understanding of what those tradeoffs are.
    There's also a mechanism if the dispersants are not doing 
what is intended, that they be--we can stop using them 
immediately. So, there is ongoing monitoring and a turnoff 
switch that can be activated immediately.
    Senator Kerry. Thank you very much.
    I need to go and vote.
    And I thank the Chair. And it's all yours.
    The Chairman [presiding]. Thank you.
    Senator Kerry. Thank you, sir.
    The Chairman. I would like to address this to both of you. 
And this is the MMS question.
    To be honest with you, I don't think most Americans have 
ever heard that. The name--what MMS is, and what it does. And 
it appears to me, at least from an outside view, that they 
haven't been very attentive. That could be recently, that could 
be over the last 10 years. I mean, I just don't know.
    But, I have a lot of faith in the Coast Guard, and I have a 
lot of faith in NOAA. And it just seems to me--and this was 
brought up by--in some of the opening statements--that when it 
comes to permits, designs, approval of things to be done, not 
to be done, et cetera, that they ought to be sharing this with 
you, in order to be a--tripartite, so to speak, type of 
situation. And Senator Snowe, I think, said that that ought to 
be put into law, which I would tend to agree with.
    You have experience, both of you, I admit--I suppose they 
do have experience, but it certainly hasn't surfaced, to this 
point. What is your view on that?
    Dr. Lubchenco. Go ahead.
    Admiral Allen. Senator, I'd like to address three areas, if 
I could. The first one is an inspection issue. The second one 
is a Coast Guard regulatory issue. And the third one is a 
response-plan issue.
    If I could, as it relates to the regulatory 
responsibilities, MMS has responsible--responsibility for the 
drilling apparatus, itself. And in this case, the Coast Guard 
issues what's called a ``Certificate of Compliance'' for the 
mobile drilling unit, which is actually a floating ship 
connected by the riser pipe.
    Regarding the mobile drilling unit itself, we regulate that 
under Title 46 of the U.S. Code. We have taken a look at the 
current set of regulations, and we think there are five areas 
where we might be able to do a better job with regulatory 
reform inside the Coast Guard. I would submit that they are: 
take a look at the current electrical standards on board the 
mobile drilling units, the machinery standards. Probably a real 
important one is dynamic positioning reliability. This is the 
system by which the ship is held in place while the operations 
are going on. That technology has probably gotten out in far--
of the--ahead of the regulations. We probably need to take a 
look at certifying the reliability against a set of standards 
for dynamic positioning.
    And we need to look at the difference between floating 
production units and mobile drilling units--floating production 
units are basically vessels or ships that are involved in 
production, as mobile drilling units actually are pontoon-
based, and--looking at the standards related to that.
    And, finally, lifesaving and firefighting equipment. And 
we'd like to engage in a conversation about those areas, if we 
could.
    Regarding the actual drilling equipment itself, the blowout 
preventers that are down there right now are not under any 
regulatory regime. They're actually built to American Petroleum 
Institute specifications. There are three that are out there 
for industry to use. One is the ram operations and the blowout 
preventer, the choke-and-kill lines, and the control systems 
that control all of that.
    API kind of goes out and issues a license to the 
manufacturers, and they do testing. MMS accepts those licenses 
in lieu of an inspection. I think there's an opportunity, 
moving forward, to take a look at whether or not we need a 
regulatory regime for the blowout preventers and the control 
systems associated with that, sir.
    The Chairman. So, what you're saying, then, is that API, 
the American Petroleum Institute, is the regulator of some very 
sensitive machinery--the approver of.
    Admiral Allen. They're not a regulator, sir. They set 
industry standards. Those are----
    The Chairman. Yes.
    Admiral Allen.--taken as----
    The Chairman. Well----
    Admiral Allen.--specifications for production.
    The Chairman. But----
    Admiral Allen. Yes, sir.
    The Chairman.--nobody else is regulating. They're the only 
one----
    Admiral Allen. There is no regulatory regime for blowout--
--
    The Chairman. Right.
    Admiral Allen.--preventers at this time. Yes, sir.
    And, finally, on response plans. As you know, MMS approves 
their response plans for the drilling units in the Gulf of 
Mexico. We think there needs to be a closer integration in the 
review of those plans with the local--Federal on-scene 
coordinators that are responsible for developing protection 
plans for the coastal resources, and make sure that there's a 
match there, sir.
    The Chairman. Dr. Lubchenco?
    Dr. Lubchenco. Mr. Chairman, NOAA's role includes providing 
comments to MMS on their plans, their programs, and their NEPA 
documents. We do not have final approval authority for MMS 
leasing plans. We simply provide comments.
    We also have responsibility to provide certification for--
or authorization for incidental take, if, in fact, there is 
reason to believe that marine mammals might be harmed, for 
example, for specific activities.
    The Chairman. Dr. Lubchenco, can I interrupt? I apologize, 
but I--I'm about to run out of time, and I want to ask you one 
question.
    You have the sensitivity--environmental sensitivity index 
maps, and they are very crucial for judging exposure and the 
rest of it. My understanding is that these maps are outdated 
at--even to the extent of 10 years. Is that the case? And if it 
is, what are we doing about it?
    Dr. Lubchenco. Mr. Chairman, those maps--the numbers that 
we have are that 21 of 50 atlases are more than 10 years old. 
So, it is a--the case that many of them are--do not reflect 
current information. It would--the--we have not had the 
resources to continually update those. This is a--primarily a 
resource issue. It's my understanding it would cost around $11 
million to update those maps that are more than 10 years old. 
The current request in our President's budget includes updating 
of only one of those. So, this is a question where it's simply 
a matter of not having had the resources.
    The Chairman. Well, that will certainly be taken for the 
record. I mean, if the lack of resources are causing that to 
happen, that's really bad. So, we have to attend to that.
    I thank you.
    Senator Hutchison.
    Senator Hutchison. Thank you very much.
    Admiral Allen, do you believe that BP is doing everything 
that is within its power, and that it can do, that could be 
done to clean up this spill?
    Admiral Allen. Ma'am, the way I've been characterizing 
this, I think BP has been relentless in their responsibilities, 
but we've been relentless in our oversight. When you get to an 
anomalous situation like this, some of the things we're facing 
haven't been faced before. And there's a matter of translating 
our intent to what they can do, because they're the ones that 
have access to the discharge area.
    I think one of the things that's--that sets this situation 
apart from anything I've ever dealt with is, there is no human 
access to the point of discharge. Everything we know is through 
remotely operated vehicles and remote sensing. And, as I think 
was indicated earlier, the entire elements of production and 
capacity to do anything with the sea floor rests in the private 
sector here. And so, the role of government is really to 
conduct oversight to make sure that we're doing everything we 
can.
    I would say this. There has been a collection of folks in 
Houston, at the BP command center, which I have visited 
personally, including people, representing the National Labs, 
that have been inserted in there. There's a vigorous 
conversation going on. And I would say, it's--I--it's less a 
matter of responsiveness than resolving the issues on how to 
move forward, and making sure critical information is available 
and the assumptions are known to everybody--as they're looking 
at this ``top kill'' shot, for instance--to make sure we know 
the assumptions associated with the integrity of the casing and 
critical pressures, so we don't create a worse problem by 
putting mud into the pipeline there.
    So, I would say it's a matter of coordination. And, at that 
point, it becomes an accountability issue and oversight issue 
for the Coast Guard, as well, ma'am.
    Senator Hutchison. Well, let me just ask both of you, Dr. 
Lubchenco as well as Admiral Allen, in looking at this group 
that is trying to determine what to do, what is the right thing 
to do, and what are the consequences, do you feel like every 
bit of information, and the decisions that are being made, are 
truly collaborative between the two of you, your agencies, and 
the BP group?
    Dr. Lubchenco. Senator, we have had very positive 
collaborative relationships with everyone at the incident 
command, led by the Coast Guard. And there have been really 
good exchanges of information across the agencies. And I think 
the Coast Guard has done a spectacular job of providing 
leadership for that.
    One of the things NOAA does is to provide the scientific 
support coordinator for each of the incident commands. And so, 
they have immediate access to the wealth of scientific 
information that resides within NOAA. But, there is a lot of 
interaction across the agencies, as well.
    Admiral Allen. Ma'am, if I could follow up.
    I think an instructive event took place on Sunday. There 
was a conference call, headed by Secretary Salazar and 
Secretary Chu, that was actually entitled a ``Scientific 
Summit.'' It involved all of the engineers that are working in 
Houston, the embedded folks from the National Labs. And there 
was a step-by-step review of the current interventions that are 
being planned by British Petroleum, especially in regard to the 
top kill, which will be the injection of mud into the well that 
will basically seal it until the relief well can be drilled.
    That was a 2-hour phone call. And I can tell you the 
questions were exhaustive, that the BP engineers were put on 
the spot to come up with their assumptions and provide 
information that would lead them to believe that a certain 
tactic would work. And they were grilled very, very hard over 
those 2 hours, ma'am. So, if that's any indication or way to 
explain to you the amount of involvement that's going on as 
these tactics are being developed, I think that's emblematic.
    Senator Hutchison. Let me ask you, Dr. Lubchenco. In 
addition to the beaches, which we're seeing the pictures of, 
there are the wetlands. The coastal wetlands are an important 
part of the Gulf Coast ecosystems, as you know, I'm sure. If 
they are impacted by the oil spill, down the road, can NOAA do 
anything that would help in restoration of the wetlands? And is 
BP going to be responsible for funding wetland restoration as 
well as the beach and clean-up efforts that they are also 
committed to making?
    Dr. Lubchenco. Senator, you're absolutely right to focus on 
the key role that those wetlands play in the entire Gulf 
region. And our efforts have been devoted, primarily, to 
keeping the oil from reaching them, because it does have the 
potential to have very serious impacts, not only on the 
wetlands, but on many of the species that reside in the Gulf 
but use the wetlands as nursery areas.
    Around 80 to 90 percent of the fisheries in the Gulf--the--
of the--80 to 90 percent of those fisheries have life stages 
that spend part of their life in those wetlands. And so, they 
are absolutely critical.
    It's my understanding that part of the Natural Resources 
Damage Assessment process is intended to identify what--and 
quantify--what the impact is, and to remediate that, to the 
extent that it's possible. But, once oil gets into those 
marshes, it's very, very difficult to remove, and has to be 
done or--it's very difficult to remove it, let me say.
    Senator Hutchison. Just one quick question.
    Oh, did you have a comment?
    Admiral Allen. Yes.
    Senator Hutchison. Go ahead.
    Admiral Allen. Just a quick footnote, ma'am. One of the 
significant changes made in the Oil Pollution Act of 1990, 
following the Exxon Valdez, was something called Natural 
Resources Damage Assessments, which are required, and are 
funded and recoverable, to assess the damages and mitigation 
plans, moving forward. That has been institutionalized since 
OPA-90, and we work very closely together. That process will 
start shortly in relation to this spill.
    Dr. Lubchenco. Senator, could I add, just really quickly, 
that one of the things that NOAA has done immediately is to 
mobilize coastal surveys throughout the region to get very 
precise information about areas--wetlands and other areas 
before they are impacted, so we have the latest, most current, 
baseline information, both from the air coastal surveys, on the 
ground, water samples, species samples, taking chemical 
background information, et cetera. So, we've had sort of a 
blitzkrieg along the coast to do that.
    Senator Hutchison. Well, I appreciate that, because it will 
be more complicated, even, than the beach, which is clearer. 
So, I'm glad that both of you are committed to, first, 
preventing, but, if that doesn't work, then going into the 
mitigation. And it will be difficult, I know. But, it's 
important. Thank you.
    Can I just ask one quick question? Admiral Allen, are you 
going to stay on as the national incident commander after the 
change of command?
    Admiral Allen. My change of command is scheduled for the 
25th of May. My actual retirement date, because I was going to 
take leave, was 1 July. I am available to the Secretary and the 
President until my--I'm not needed any further, ma'am.
    Senator Hutchison. Is that a July 1 cutoff?
    Admiral Allen. If it wouldn't be on 1 July, it would have 
to be under a different set of circumstances, because I would 
no longer be in the Coast Guard, ma'am, on Active Duty.
    Senator Hutchison. Thank you.
    The Chairman. Thank you, Senator Hutchison.
    Senator Nelson.
    Senator Nelson. Admiral, I have a letter here from Rear 
Admiral Landry, of which--she sent it to BP, asking for full 
access to all information related to the oil discharge rate. 
Why is it necessary for her to send that letter? Was BP not 
providing full access to the video footage?
    Admiral Allen. Sir, we've had full access to the video 
footage, in our command centers, since the event started. I 
think what she was looking for was archival information. We're 
trying to put together what we're calling a flow-rate technical 
team to try and establish what is exactly flowing out of the 
riser pipe right now, and try and get an estimate of the 
overall amount of oil that has been released. To do that, we do 
need some historical and archival information.
    That--it has been fed to us real-time; we just wanted 
complete access to it. And she ensured that with her letter, 
sir.
    Senator Nelson. So, you feel satisfied that you're having 
access to all the video footage?
    Admiral Allen. It has been coming into the command centers 
real-time for us since the start of the event, sir.
    I would say one other thing. At the Scientific Summit that 
was held with Secretary Salazar on Sunday, he made the same 
request regarding technical data associated with the 
assumptions on the integrity of the casing in the well, as it 
relates to the top kill option that's being considered.
    Senator Nelson. Well, on the basis of this recent footage 
that you just released to Senator Boxer and me today--``you'' 
the Coast Guard--maybe it was BP that released it after we 
wrote to you--have you made a new estimate?
    Admiral Allen. Sir, the reason we need all that information 
is, we're pulling an interagency group of experts in. There has 
been a lot of prognostications about what the discharge rate 
is. As you know, it started out at 1,000 barrels-a-day. We are 
currently using 5,000 barrels-a-day.
    One of our problems, I noted earlier, is that we're dealing 
with a discharge point that has no human access, and we're 
trying to make estimates from two-dimensional video from the 
remotely operated vehicles. And what we're trying to do is 
gather the best minds in the country in see how to--we can 
synthesize this information and come up with a more refined 
product, with higher fidelity, on the discharge rate, sir.
    Dr. Lubchenco. Senator, could I add to that, just briefly?
    I think it's important to note that the efforts of the 
Federal Government have not been constrained by the estimates 
of flow. We have, all along, assumed that we may be dealing 
with considerably more oil than is currently the estimate. And 
the efforts have been very aggressive and mobilized to deal 
with the possibilities that it might be more than that. That 
doesn't mean it's unimportant to get the flow rate right. It 
is.
    Senator Nelson. Doctor, you and I talked about these 
flights. Is that costing NOAA, or is BP reimbursing for those 
flight expenses?
    Dr. Lubchenco. Senator, we are currently funding those 
flights, with the expectation that they will be reimbursable by 
BP. And there is a special--specific process for documenting 
and requesting--you know, for making sure that all the right 
things are done to get that reimbursement.
    Senator Nelson. And----
    Admiral Allen. Senator, if I could maybe----
    Senator Nelson. Let me----
    Admiral Allen.--provide some more----
    Senator Nelson. I'm running out of time. I want to follow 
up on that.
    Doctor, have you confirmed the existence of the origin of 
the deep sea plumes?
    Dr. Lubchenco. Have we confirmed the existence of the 
origin of the deep sea plumes?
    Senator Nelson. Have you confirmed the existence of the 
deep sea plumes?
    Dr. Lubchenco. Are you talking about the oil coming out of 
the riser?
    Senator Nelson. No, I'm talking about those long--100 yards 
thick, 10 miles long, 3 miles wide.
    Dr. Lubchenco. The researchers that were on the research 
vessel Pelican, that just got back into port, identified an 
anomaly that is subsurface that may be oil, but that has not 
yet been confirmed. They took samples of that oil, and those 
samples are in the process of being analyzed. But, we won't 
know for a number of days yet whether it is oil or not. This is 
in the very early stages of identifying and characterizing what 
that actually is.
    Senator Nelson. I see. So, you don't know whether or not 
the dispersants that have been released have affected that oil 
at those depths.
    Dr. Lubchenco. If the plume that they discovered is indeed 
oil, we do not know what its origin may be. It's highly 
unlikely that it could be dispersants that had been used at the 
source of the leak, because there has not been much use of 
dispersant yet. It's only a very small amount that has been 
used. So, the mechanism for where--how that plume came to be is 
yet unknown. And I think we will be in the discovery phase of a 
lot of things as this event plays out, and that will be one of 
them.
    Senator Nelson. Mr. Chairman, obviously what I'm trying to 
get at is--what we see on the surface is one thing--how much of 
it is underneath, that we don't see, that we're going to have 
to deal with for years.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    Senator Snowe.
    Senator Snowe. Thank you.
    Dr. Lubchenco, just to follow up on that--truly the 
determination of the size of the spill can make a material 
difference, in terms of mitigation, could it not?
    Dr. Lubchenco. Absolutely, Senator.
    Senator Snowe. OK. And that's the difficulty when we see 
the wide ``spanse'' and variations in estimates; 80,000 
barrels-a-day, as opposed to 5,000 barrels, which could mean 
210,000 gallons of oil. And the highest figures indicate the 
amount of oil already spilled could be as much as 2.3 million 
barrels, nearly seven times what was spilled during the Exxon 
Valdez crisis. So----
    Dr. Lubchenco. Senator, we----
    Senator Snowe.--that's the ambiguity here, and the wide 
discrepancy, I think is a serious issue. And how to grapple 
with the question, and also for the mitigation efforts.
    Dr. Lubchenco. Senator, we believe it is important to get a 
good estimate of what that--the flow rate is, and what the 
total amount of oil is, and where it is. That's not an easy 
thing to do, which is why Admiral Allen has set up a new flow-
rate team, within the National Incident Command, to bring the 
best possible minds together, to try to nail this down. It is 
important. It's just very, very difficult to do.
    Senator Snowe. You know, it's interesting, what I find 
confounding about this entire crisis is the fact that these 
are, sort of, fundamentals that should have already been 
established. You know, having a response plan for the worst-
case scenario. But, the worst-case scenario really wasn't 
established in the exploration plan. I mean, that was 
sidestepped, as I said earlier, understating the amount of oil 
that could be spilled, to the high estimates that we 
potentially have today.
    Admiral Allen, in the response plan that you require of 
vessels within your realm of responsibilities, can you give us 
some idea as to what you would have done differently, or what 
should be done differently? What do you require of vessels? 
Would you consider this adequate in a worst-case scenario?
    Admiral Allen. Ma'am, for a vessel response plan, we have 
several scenarios, including average most-probable discharge 
and a worst-case discharge, and then the resources identified 
that would be able to deal with those spills, given the 
operating area where the vessels are in. That then is 
reconciled by something called an ``area committee,'' which is 
set up under the captain of the port, who's a Federal on-scene 
coordinator. And there's a reconciliation of the worst-case 
discharge, the resources to be protected, and the resources 
needed to do that.
    As I mentioned earlier--and I think you were, maybe, out on 
a vote--one of the things we need to do is reconcile the 
development of the response plans, that are now approved by 
MMS, back to those area contingency plans and the resources to 
be protected, and make that linkage actually in the plans. 
Right now, they--the plans are focused on a discharge rate, not 
necessarily connected to the resources to be protected on the 
coastal zones.
    Senator Snowe. Well, for example, the use of a containment 
dome was listed as part of their strategy in the exploration 
plan for response to a failure of a blowout preventer, would 
you have approved a response plan for a vessel that did not 
acknowledge the possibility of a complete failure of the 
system? I mean, in terms of a worst-case scenario?
    Admiral Allen. Well, ma'am, under the vessel plans, we do 
have worst-case scenario. I would--on the MMS plans that 
include a containment dome, the real difference here was that a 
containment dome has never been tried at the depth of water, 
and whether that was feasible or not. And I think that the 
significant issue is, What is feasible at 5,000 feet without 
human access? And I think that is the source of a lot of the 
challenges we're dealing with right now, including trying to 
determine the flow rate when you don't have access.
    Senator Snowe. Right. But, that is also possible in 
developing a plan and having a response that's viable, in a 
worst-case scenario, both in the amount, in terms of the 
exigencies; and, of course, it must have indicated in the plan 
how far they're going to go.
    Admiral Allen. Yes, ma'am. The current planning process did 
not envision the situation we're having to deal with on the 
ocean floor right now.
    Senator Snowe. Dr. Lubchenco, following your comments on 
the permitting process, did you ever get any response from the 
Minerals Management Service during the environmental process on 
the permits, including the Deepwater Horizon? That specific one 
was approved in February 2009. Did you ever have any 
communications with the Service with respect to the 
environmental assessments, or environmental permitting that was 
required?
    Dr. Lubchenco. So, I'm uncertain which ones you're asking 
about, Senator.
    Senator Snowe. On any of the ones that were approved since 
January 2009 that required permits.
    Dr. Lubchenco. The permits----
    Senator Snowe. And including this one in the Deepwater 
Horizon.
    Dr. Lubchenco. So, I don't know the answer to that. And I 
will get back to you on that.
    Senator Snowe. Because I think we need to understand the 
relationship that exists between the agencies. I know it's not 
in statute, which I think we have to correct, frankly.
    And I think the Coast Guard, frankly, also ought to 
oversee, inherently, the same practices, both for vessels and 
for oil spills to the marine environment, also underwater 
operations like the Deepwater Horizon--but also with respect to 
your agency. So, I think it is important to submit to the 
Committee exactly what responses, if any, you received from the 
Minerals Management Service, with respect to your assessments--
because how did they go forward with any of the permits, 
without getting your approval on the exploration plans on 
environmental issues?
    Dr. Lubchenco. Senator, it was my understanding that the 
permits that were issued for this, for the Deepwater Horizon, 
were done quite a few years ago. But, I will look into that, 
and let you know. We will get back to you on that.
    Senator Snowe. OK. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Snowe.
    I want to point out to my colleagues, before I call on 
Senator Wicker, that we are moving at a pace that, by the time 
we get through the second panel it'll be time for breakfast. 
Now, that's fine with me, because this subject is of that 
dimension. But, I think we're--we are going to have to exercise 
some restraint here.
    And Senator Johanns and Senator Klobuchar have not given 
opening statements, and they will have questions. And I would 
hope that perhaps they could kind of blend those into one--
let's say, putting 5 minutes on, as a total.
    But, we have to proceed and ask our questions, but we have 
to keep our eye on the next panel.
    Senator Wicker.
    Senator Wicker. Thank you. I'll try to stay within my 
allotted time.
    Dr. Lubchenco, when should you have the information that 
would allow you to get back to us with authority on the 
existence of the plumes?
    Dr. Lubchenco. Senator, are you asking when will we know if 
the plumes have--are composed of small mists of oil? Is it oil 
that's in it? Is that what you're asking?
    Senator Wicker. Yes. Right.
    Dr. Lubchenco. The samples that were collected have been 
sent for analysis. I think--within a week, I am told, we should 
have information on that.
    Senator Wicker. OK. At that point, would you be able to 
speak with a relatively high degree of certainty on whether 
these are oil plumes or something else?
    Dr. Lubchenco. Yes, Senator. We expect to be able to know 
if it is oil. I think what the instruments are showing is a 
very fine mist of something.
    Senator Wicker. So, it's a mist of something.
    Dr. Lubchenco. It----
    Senator Wicker. It's not a----
    Dr. Lubchenco. It----
    Senator Wicker.--glob of----
    Dr. Lubchenco. It's not a glob.
    Senator Wicker. All right.
    Dr. Lubchenco. It's not big balls. It's not big drops. It's 
a fine mist.
    Senator Wicker. What is the relative size of this mass of 
``mist''?
    Dr. Lubchenco. I haven't seen all of the data from the 
crews. It's a relatively large area, but I can't give you the 
dimensions. The researchers are still working up those data. 
And we would be happy to share with the----
    Senator Wicker. OK.
    Dr. Lubchenco.--that information with you, as soon as we 
have it.
    Senator Wicker. Well, I hope you'll do that. I'll ask you 
to do that on the record. I'm certain that you'll be making it 
available.
    Now, with regard to the NOAA maps that had not been updated 
since before Katrina, had NOAA requested funds from Congress 
for the purpose of updating those environmental maps?
    Dr. Lubchenco. Senator, I don't know the full history of 
our requests, going back that far. I--we could look that up and 
get that to you.
    Senator Wicker. OK.
    Dr. Lubchenco. I know that there have been very significant 
cuts to that program over the years that have significantly 
reduced ability to stay current with those maps.
    Senator Wicker. OK.
    Dr. Lubchenco. And it's pretty clear we need to play catch-
up, here.
    Senator Wicker. Now, you say the dispersant biodegrades. In 
response to Senator Rockefeller's question, once the dispersant 
biodegrades, what's the byproduct? Does the byproduct come to 
the surface, or does it sink?
    Dr. Lubchenco. The dispersant are chemicals that are 
intended to--it's like a detergent that breaks up oil into 
very, very small drops so that they can be naturally 
biodegraded faster than they would if they were in a solid 
surface.
    Senator Wicker. Do they come to the surface to do that or 
do they sink to the----
    Dr. Lubchenco. No.
    Senator Wicker.--bottom?
    Dr. Lubchenco. They--neither. They are--they stay in the 
water----
    Senator Wicker. OK.
    Dr. Lubchenco.--column. And if the dispersant is just 
injected into pure seawater, without the oil, which I think is 
part of what Senator----
    Senator Wicker. No. Rockefeller.
    Dr. Lubchenco.--Kerry was asking, it actually----
    Senator Wicker. Was that who I said it was?
    Dr. Lubchenco.--biodegrades within 4 to 5 days.
    Senator Wicker. I see.
    Dr. Lubchenco. And so, it's benign, then. It would not be 
any substance to worry about.
    Senator Wicker. OK. And you're right, that was Senator 
Kerry's question, not Senator Rockefeller's.
    Admiral Allen, there are three kind of blowout preventers. 
The standards are set by industry. Is that your testimony?
    Admiral Allen. Sir, what I meant was----
    Oh. I'm sorry.
    What I meant was, there are three different areas of subsea 
mining that there are specifications set out by the American 
Petroleum Institute. One are the rams on the blowout 
preventers, the choke-and-kill lines, and then the control 
systems. They're three different components of what we're--in 
what they----
    Senator Wicker. OK. So----
    Admiral Allen.--would call----
    Senator Wicker.--on every rig, there's going to be a 
blowout preventer.
    Admiral Allen. Yes, sir.
    Senator Wicker. And the standards are set by API. Do you 
have any indication that those standards are less than 
acceptable? Or should we be more concerned about the adherence 
to those standards?
    Admiral Allen. I'm not sure I'm in a position technically 
qualified to tell you about the standard. I will tell you this, 
that they are used by the American Bureau of Shipping to issue 
what's called a Certificate of Drilling Systems that says that 
those systems are in compliance with industry standards. So, 
there is a third-party verification through a classification 
society--in this case, the American Bureau of Shipping--that 
would do that, sir.
    Senator Wicker. Finally, with regard to the response of the 
Federal Government, looking back over the 4 weeks of this 
tragedy, is there anything you wish the Coast Guard or the 
Department had done differently or earlier?
    Admiral Allen. I think the biggest takeaway--and this is 
something that I don't think we anticipated--or maybe 
couldn't--could be anticipated--when you have a--what I call an 
omnidirectional indeterminate threat, any booming resources you 
have available for one particular area are going to be vastly 
exceeded when you start talking about an area of western 
Louisiana clear around, potentially, to Key West, is where 
we're talking about now.
    The national system did not contemplate you would have to 
do all that at once. And so, I think the entire issue of boom 
inventory, booming strategy, and means of production is 
something we're going to have to take a good close look at, 
sir.
    Senator Wicker. That was a decision that was made weeks and 
months and years beforehand.
    Admiral Allen. It's usually indicated that, in one 
particular area, you would have a worst-case discharge, and you 
would protect that one particular area with a certain amount of 
boom and resources. What we're trying to do is basically 
protect the entire Gulf Coast at the same time. And when you do 
that, it multiplies the requirements for boom, and it's 
stressing the manufacturing system. And I think a national 
supply strategy is probably going to be needed after this.
    Senator Wicker. Thank you.
    The Chairman. Thank you.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    Admiral, I just saw a press release from the Coast Guard 
saying, in addition to the tar balls that we first heard about 
in Key West, there is an investigation of tar balls on the 
beach in Big Pine Key, as well as Loggerhead Key, in the Dry 
Tortugas; and at Smathers Beach, there has been a report, as 
well.
    I don't think anyone estimated that we were going to have--
if these tar balls are, in fact, from this Gulf oil spill--I 
know that you all are doing research to make sure that they 
are, because they can naturally occur--but, it seems somewhat 
coincidental, if that's the case. Since this is ahead of where 
we thought that the spill might be at this time, what is the 
plan for the Florida Keys? What is the Coast Guard ready to do 
to protect that valuable ecosystem from the oil that appears to 
be heading there?
    Admiral Allen. Yes, sir. Let me tell you what we've already 
done, and then where I think we are today.
    About a week and a half ago, I met with Governor Crist, and 
I recommended that they do a reconciliation between what is in 
the current area contingency plans for the State of Florida, 
and make sure that those resources to be protected were really 
what they wanted, there weren't any changes recently. It took 
us a while to get through that process in Louisiana and 
Mississippi and Alabama. We're still kind of vetting some 
issues about what should be protected, versus what the plan 
said. That resulted in a conference call with all the counties 
along the west coast, and our Coast Guard commanders start 
that. That process has basically gone through--so we know 
what's sensitive, what needs to be protected, how much boom it 
will take, so forth.
    What we're dealing with now, though, is a different type of 
oil than we have further up in the Gulf. Tar balls are starting 
to show up. And Dr. Lubchenco and I were talking before the 
hearing. That could be a manifestation of oil that was released 
right at the start of this event, and not, maybe, associated 
with the slick that's out there now, that may be nearing the 
Loop.
    Oil that does get down there, is likely to be a much more 
weathered oil, if it's on the surface, and won't be susceptible 
to in situ burning or dispersant use and, pretty much, 
mechanical recovery. That then drives your planning and your 
tactics for what you want to do there.
    Our two commanders, Captain Close, in St. Petersburg, and 
Captain DeQuattro, in Key West, have activated their own local 
commands. There are shore assessment teams that are going out. 
We are testing the tar balls, as you know, in the Coast Guard 
Marine Safety Lab, to get an indication of whether or not 
they're associated with this spill.
    But, I think we're probably two different sets of oil, or 
at least at different times, and weathered in different ways.
    I'd ask Dr. Lubchenco to comment, though.
    Dr. Lubchenco. Senator, we're not--as you pointed out, we 
need to know for sure where the oil came from. If, in fact, it 
is from this spill--if it has the same fingerprint--one 
possibility, that there's no real way to confirm but that makes 
sense, is that the initial explosion may have discharged oil 
that was an--sort of, an initial flush, and that that is a 
separate event from the continuous release of the oil that has 
been coming up since then. Of that, we--there's no way to 
confirm that. It would be consistent with what we're seeing, 
but I think we may never really know.
    Senator LeMieux. Assuming that it is from the disaster, and 
maybe it is a separate case or it's the initial blastoff and 
not the spill that we're seeing. The spill we're seeing is 
coming. We saw those charts, a moment ago, about the Loop 
Current. This would certainly show a precursor, if this oil 
traveled along those same currents first. Are we going to put 
booming up to protect the Florida Keys?
    We have this huge area between Key West and going up to 
southwest Florida, Cape Sable, and in between that is, Florida 
Bay, which the Federal Government and the state governments 
have spent hundreds of millions, if not billions, of dollars 
trying to keep clean from other pollutants. What are we going 
to do to try to prevent the oil from getting into Florida Bay, 
the Everglades, our reefs?
    Dr. Lubchenco. Senator, let me clarify something about Loop 
Current and then ask the Admiral to talk about the booming 
strategy, if that's all right.
    The oil that we believe is either close to or in the top 
part of the Loop Current is a very small amount of light sheen. 
Most of the bulk of the oil mass is dozens of miles away from 
the Loop Current now. So, it's just a small tendril that is 
streaking down toward the Loop Current. Some of that is likely 
to get entrained in an eddy that is going to carry it back 
north. Some of it might get into the Loop Current.
    When it gets into the Loop Current, it's going to be 
significantly diluted. And by the time it makes its way to the 
Florida Strait, which is on the order of 8 to 12 days, it would 
likely be significantly weathered and degraded, as well as 
diluted. So that what we are looking at are likely emulsified 
streamers and possibly tar balls. It's not as if there's going 
to be a massive amount of fresh oil washing up.
    The booming strategy is something the Commandant can focus 
on.
    The Chairman. Time is up.
    Senator Pryor.
    Senator Pryor. Mr. Chairman, I've been out on the phone, 
and voting, so I feel like I'm coming in, in the middle of a 
conversation. So, I think what I'll do is pass, for the moment, 
and maybe take my time at the end, if that's possible.
    The Chairman. All right.
    Then following would be Senator Cantwell, and then, to 
their amazement, Senator Johanns and Senator Klobuchar.
    Senator Cantwell. Thank you----
    [Laughter.]
    Senator Cantwell. Thank you, Mr. Chairman.
    Dr. Lubchenco, I'm not sure if my colleague Senator Snowe 
was asking about permits, specifically, which I think she was, 
but I'm very interested in--your agency sent a letter--NOAA 
sent a letter to MMS, in September of 2009, on the offshore 
drilling proposal.
    This is a copy of the letter, here.
    I asked Secretary Salazar about it this morning. And the 
reason I'm bringing it up here again at this hearing is, it's 
pretty clear, from what NOAA says in this, that the--basically, 
you're saying that MMS is understating the environmental 
impacts and the risks of spills, and, basically, that MMS's 
conclusions in this document are not based on science. Those 
are pretty strong statements.
    I'm wondering, did you ever get a response back from MMS, 
to this document?
    Dr. Lubchenco. Senator, those are the comments that we 
submit as part of the process where we comment on plans. And we 
did not get a formal response, but it's not typical that we--
one would get a response. MMS sends out plans, agencies 
comment. They take those plans--or they take those comments 
into account when they make their final determination.
    Senator Cantwell. And so, what kind of informal comments 
did you get back?
    Dr. Lubchenco. We have had many exchanges about the plans 
and the comments. And for the most recent announcement that 
Secretary Salazar made, they actually took many of our comments 
into account, and that is evidenced in the announcements that 
were made most recently.
    Senator Cantwell. Could we get--we asked Secretary Salazar 
for any of those documents. And if there are other documents, 
could the public have access to them? Because, I mean, this is 
part of the issue that I think some of us are concerned about. 
If you have an agency, such as yours, that is in charge of 
rendering the questions of the impact of oil spills on science, 
and yet you give that science to an agency that's supposed to 
do oversight, and they ignore it, I think those are the things 
that Members of Congress want to know. We want to know what's 
being ignored, when it comes to the science.
    A follow-up on the recovery: I know that there are many--
well, I mentioned that there are still 10 species that are 
recovering from the Exxon Valdez, and two species that show no 
sign of recovery. I have a list here of all of those, 
including, besides these species, there are intertidal 
communities and designated wilderness, all sorts of things that 
aren't recovering. Yet, we're talking 20 years later.
    What are--do you think are the possibilities that there 
will be similar fisheries in the Gulf that will be impacted 
over a long period of time?
    Dr. Lubchenco. Senator, I think it's fair to say that oil 
has both immediate as well as long-term impacts. The specific 
impacts are very much a function of the type of oil. This is a 
different type of oil from what we saw in Exxon Valdez. It's 
also very much a function of what species have very vulnerable 
life stages, eggs, or larvae that are in the plankton at the 
time. And we do not yet know the full environmental impact of 
this particular event. That's why we are very aggressively 
taking samples and monitoring it.
    We know that there are a lot of vulnerable species. We know 
there're a lot of vulnerable habitats. There is great potential 
for extreme environmental harm, but to be more specific than 
that is very challenging.
    Senator Cantwell. Well, we hope that you'll keep this 
committee informed of the indicators to those species, so that 
we can have an idea, as soon as you have an idea, about those 
impacts.
    Admiral Allen, your comments about API doing self-
certification--basically, the industry certifying whether 
equipment is safe to use, or not--do you believe that ABS's--
the American Shipping--I'm sorry--the American Bureau of 
Shipping--do you think that they should be expanded, their 
responsibilities, to do certification on things like blowout 
preventers, since they are such critical parts of the drilling 
apparatus? To do certification on whether they work?
    Admiral Allen. They have the competency to do that right 
now. And they actually do issue certificates for drilling 
systems from time to time, but it's voluntary right now. I 
think what needs to be considered is whether or not we need a 
regulatory regime that would make it mandatory, then ABS could 
do that as a classification society.
    We did some surveys. There are some countries in the world 
that do require this, and one of them is Norway.
    Senator Cantwell. So--and do you think that would be a 
positive development?
    Admiral Allen. I think it certainly has to be considered, 
in the wake of what happened, ma'am.
    Senator Cantwell. Thank you.
    I certainly think we should, Mr. Chairman. I know that 
might not be the--I'm not sure whose jurisdiction that is, but 
I actually think that more third-party validation of the 
equipment is a critical issue.
    So, thank--I thank the Chair.
    The Chairman. I agree with you. Thank you very much.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    And thank you.
    I was at the hearing earlier in the Environment Committee, 
with Senator--I still call him Senator--with Secretary Salazar 
and Administrator Jackson and others. And I, first, want to let 
you know, Admiral Allen, that I was down there, a few weeks 
ago, with Congressman Oberstar and with the Coast Guard. We 
flew over the disaster and were briefed by people on the ground 
at your command center. It was clear to me, people in this 
horrible tragedy, that never should have happened, were working 
as well as they could together and trying to do the right 
thing. And so, I wanted to thank you for that.
    The other thing, of course, I was struck by, that anyone 
that visits there is struck by, is just the magnitude of the 
oil on the sea; it's something you can never quite capture on 
TV, just the miles and miles of orange, and the people, the 
small business owners, terrified that they will lose their 
livelihoods.
    We had a hearing last week with some of the BP and 
Halliburton and Transocean people, and the heads of their 
companies. And, you know, I made clear there, I think one of 
the key things is going to be the liability and making sure the 
taxpayers are compensated for this. This idea that there was no 
redundancy, that there wasn't any other backup plans, this--
that Senator Cantwell was just focusing on, the inspection of 
some of this equipment, and the failure of the Mineral 
Management Agency in catching some of this--and there's just a 
lot of blame to go around, clearly.
    But, I had one--just one question, actually, of you--maybe 
both of you, but I'll lead with you, Dr. Lubchenco. And this 
came out of something one of the Coast Guard people said when 
we were down there. And I checked; it's not redundant with what 
everyone else has been asking. But, that is, one of the Coast 
Guard raised the issue that, if this just keeps going, and 
we're not able to plug it, or if it's--just goes on and on for 
another month or two, if--when hurricane season hits, it is 
possible that it could be even worse.
    And so, I would like to know if you've made any 
projections, if there are hurricanes, the effect that could 
have, in terms of stirring up this oil. Even if they are 
successful in plugging the leak, what effect this could have 
with these tens and hundreds of thousands of barrels of oil. 
And, if the oil spill itself could somehow affect the hurricane 
season.
    I'll lead with you.
    Dr. Lubchenco. Senator, I think the short answer is, We 
don't really know the exact nature of the interaction that 
might be between hurricanes and this oil spill. Our folks have 
been working really hard to get some answers on that. We just 
don't have a lot of experience. There are a number of ideas 
that are out there. The oil may actually prevent some 
evaporation, and therefore, diminish the power of a hurricane. 
It's unlikely that it would be affecting its track.
    On the other hand, it would sort of depend on where the oil 
is and where the hurricane is. There are a lot of factors that 
would go into play. And the bottom line is, we don't really 
know.
    Senator Klobuchar. Being a lake state, when does the 
hurricane season really start?
    Dr. Lubchenco. Hurricane season is--officially starts the 
beginning of June. Next week is Hurricane Preparedness Week, 
and we will be announcing the NOAA outlook of what we expect--
given current atmospheric and oceanographic conditions, what we 
expect this hurricane season to look like.
    Senator Klobuchar. And is it possible, though, it could 
stir it up even more, and bring the oil places you don't want 
it to go?
    Dr. Lubchenco. It's certainly possible that some--we don't 
know exactly what that--you know, there are all sorts of things 
that are possible, and I think it's just speculation.
    Senator Klobuchar. All right.
    Admiral do you want to add anything?
    Admiral Allen. Just two things, ma'am. Any kind of weather 
that's rough inhibits on-water response. And we're trying to 
deal--if we can't stop the leak, then we want to fight this as 
far offshore as possible.
    Now, we--we're finding out, just with the frontal passages 
of spring storms coming through the region, that we've had to 
pull ships back.
    Senator Klobuchar. Right.
    Admiral Allen. So, there's an impact on the response 
capability. Beyond that--and this might be a question for the 
second panel--a lot of the stuff that's going on out there 
right now is weather-related, and there are drilling operations 
and other offshore supply vessels that are working. So, I think 
you would need to assess the impact on the relief wells that 
are being drilled, and at what point would hurricane-type 
weather cause them to have to secure those operations, which 
would then insert a time element into the ultimate relief-well 
drilling timeline.
    Senator Klobuchar. And when's the height of the hurricane 
season, usually?
    Admiral Allen. I would--I've got the expert next to me, but 
I think, when you get toward the end of August through the 
month of September, is the height of the season.
    Senator Klobuchar. All right. Thank you very much.
    The Chairman. Thank you, Senator Klobuchar.
    And I want to thank Admiral Allen and Dr. Lubchenco very 
much for your patience. You've been to a number of these 
hearings.
    It's my view that this is going to go on for a very long 
time. It opens up extraordinary scientific and safety, as well 
as energy capacity, questions. And it's, philosophically, very 
interesting, as well. In other words, do you take a chance, and 
do you have to take a chance, or can you not afford to take a 
chance?
    In any event, you're two superb witnesses, and your service 
to your country is enormously appreciated, obviously, by all of 
us. And I thank you.
    Senator Hutchison. And I agree totally.
    Dr. Lubchenco. Thank you, Senator.
    Senator Hutchison. Thank you so much for the service and 
the extra time, the extra mile you're going. We really 
appreciate it.
    Dr. Lubchenco. Thank you very much.
    The Chairman. We'll have a 30-second recess while the next 
panel comes in.
    [Recess.]
    The Chairman. We apologize to the second panel for making 
them wait so long, but this is obviously an enormous subject.
    And I will introduce to my colleagues again Mr. Lamar 
McKay, who's chairman and president of BP America; and Mr. 
Steven Newman, president and CEO of Transocean Limited; and Dr. 
Deborah French-McCay, Principal Applied Science Associates, 
who's an independent and knowledgeable researcher. We would be 
happy to hear your statement.
    Mr. McKay, we'll start with you.

  STATEMENT OF LAMAR McKAY, CHAIRMAN AND PRESIDENT, BP AMERICA

    Mr. McKay. Thank you.
    Chairman Rockefeller, Ranking Member Hutchison, members of 
the Committee, my name is Lamar McKay, and I am Chairman and 
President of BP America.
    We have experienced a tragic set of events. Nearly 1 month 
ago, 11 people were lost in an accident on the Deepwater 
Horizon rig. That was a terrible loss to the families, and the 
affect on the Gulf Coast is tremendous. People's lives and 
livelihoods are being effective--affected in this, and we are 
aware of that.
    I've seen the response firsthand. I've been on the 
frontline with the men and women, and I've understood what 
people are going through to battle this. There is a deep and 
steadfast resolve to do all we humanly can to stop the leak, 
contain the spill, and to minimize the damage suffered by the 
environment and the people of the Gulf Coast.
    As a responsible party, under the Oil Pollution Act, we 
will carry out our responsibilities to mitigate the 
environmental and economic impacts of this incident. Our 
efforts are part of a Unified Command that was established 
within hours of the accident, and it provides a structure for 
our work with Departments of Homeland Security, the Departments 
of Interior, other Federal agencies, as well as affected state 
and local governments. We have pledged our commitment to work 
with President Obama and members of his Cabinet, and the 
Governors, Congressional members, state agencies, and local 
communities of Mississippi, Alabama, Louisiana, Florida, and 
Texas. We appreciate the leadership, direction, and resources 
they are providing.
    I want to underscore that the global resources of BP are 
committed to this effort, and have been from the outset. 
Nothing is being spared. Everyone understands the enormity of 
what lies ahead and is working to deliver an effective response 
at the wellhead, on the water, and at the shoreline.
    Before I describe our around-the-clock efforts in response 
to these events, I want to reiterate our commitment to find out 
what happened.
    There are two key lines of inquiry. First, what caused the 
explosion and fire onboard Transocean's Deepwater Horizon rig? 
And, second, why did the rig's blowout preventer, the key fail-
safe mechanism, fail to shut in the well and release the rig?
    We are cooperating with the joint investigation by the 
Departments of Homeland Security and Interior, as well as 
investigations by Congress. In addition, BP has commissioned an 
internal investigation, whose results we plan to fully share, 
so that we can all learn from these terrible events.
    In the meantime, we cannot draw any conclusions before all 
the facts are known. At the same time, we are fully engaged in 
the response to these devastating events.
    Our subsea efforts, to stop the flow of oil and secure the 
well, are advancing on several fronts. Our immediate focus is 
on riser insertion tube. This involves--involved placing a 
tapered riser tube into the end of the existing damaged riser, 
which is a primary source of the leak. The gas and oil then 
flows, under its own pressure, up the riser tube to the 
Enterprise drill ship on the surface.
    We have successfully tested and inserted the tube into the 
leaking riser. And we're now in the early stages of stabilizing 
that process in order to process the oil and gas onboard the 
Discoverer Enterprise.
    An additional subsea effort is known as a ``top kill.'' 
This is a proven industry technique for capping wells that has 
been used worldwide, although it's never been used in 5,000 
feet of water. It uses a tube to pump heavy fluids to ``kill,'' 
or a mixture of multi-sized shredded fibrous materials directly 
into the blowout preventer to clog, the flow. This procedure is 
ongoing, and the attempt could take 1 to 2 weeks.
    We've also developed a modified containment-dome strategy. 
``Containment dome,'' known as a ``top hat,'' is being readied, 
if needed. And it's designed to mitigate the formation of gas 
hydrates. We've tested injecting dispersant directly at the 
leak site on the sea floor. It's under Environmental Protection 
Agency and Coast Guard approval. Sonar tests--sonar testing and 
aerial photographs do show encouraging results. The Unified 
Command, supported by the EPA and other agencies, has approved 
subsea application, subject to ongoing protocols.
    We also began drilling the first of two relief wells, on 
Sunday, May 2nd. And, as of May 16th, the first well had 
reached approximately 9,000 feet below sea level. A second 
drill ship arrived onsite, and, on Sunday, began drilling a 
second relief well. The entire relief-well operations could 
take approximately 3 months.
    On the open water, a fleet of more than 900 response 
vessels has been mobilized. In addition to using approved 
biodegradable dispersants at the leak point, we're also 
attacking the spill offshore with EPA- and Coast Guard- 
approved dispersants on the surface. This is applied using 
planes and boats.
    To protect the shoreline, we're implementing what the U.S. 
Coast Guard has called, ``the most massive shoreline protection 
effort ever mounted.'' Approximately 1.8 million feet of boom 
has now been deployed, with over 1 million additional feet 
available. Seventeen staging areas are now in place, and more 
than 15,000 volunteers have come forward to offer their 
services.
    To ensure the rapid implementation of state contingency 
plans, we've provided $25 million each to Louisiana, 
Mississippi, Alabama, and Florida.
    We recognize that, beyond the environmental impacts, there 
are also economic impacts. These impacts are on the people of 
the Gulf Coast, and they rely on the Gulf Coast for their 
livelihood. BP will pay all necessary clean-up costs, and is 
committed to paying all legitimate claims for other loss and 
damages caused by the spill.
    We are expediting interim payments to individuals and small 
business owners, whose livelihood has been directly impacted. 
To date, we've paid out nearly $15 million to claimants, mostly 
in the form of lost-income interim payments. We intend to 
continue replacing this lost income for as long as the 
situation warrants. We are responding to claims as quickly and 
as responsively as possible.
    Starting this week, we'll have in place an online claims 
filling--filing system. And our Call Center's open 24 hours-a-
day, 7 days-a-week. And we also have 12 walk-in claims offices 
open in Louisiana, Mississippi, Alabama, and Florida, and we 
will open at least five more this week.
    We're striving to be efficient and fair. We're taking 
guidance from the established regulations and other information 
provided by the U.S. Coast Guard, which handles and resolves 
these types of claims. In addition, we announced, yesterday, 
that we are providing $25 million to Florida, and $15 million 
each to Alabama, Louisiana, and Mississippi, to help their 
governments promote tourism over the next few months.
    Tragic as this accident was, we must not lose sight of why 
BP and other energy companies are operating in the offshore, 
including the Gulf of Mexico. The Gulf provides one in four 
barrels of oils produced in the United States, and it's a 
resource our economy requires.
    BP, and the entire energy industry, are under no illusions 
about the challenge we face. We know that we will be judged by 
our response to this crisis. No resources available to this 
company will be spared. I can assure you that we, and the 
entire industry, will learn from this terrible event, and we 
will emerge from it stronger, smarter, and safer.
    Thank you for the opportunity to appear before you today. 
I'd be happy to answer your questions.
    [The prepared statement of Mr. McKay follows:]

 Prepared Statement of Lamar McKay, Chairman and President, BP America 
                                  \1\
---------------------------------------------------------------------------
    \1\ The data described throughout this testimony is accurate to the 
best of my knowledge as of 8 a.m. Sunday, May 16, 2010, when this 
testimony was prepared. The information that we have continues to 
develop as our response to the incident continues.
---------------------------------------------------------------------------
    Chairman Rockefeller, Ranking Member Hutchison, members of the 
Committee, I am Lamar McKay, Chairman and President of BP America.
    We have all experienced a tragic series of events.
    I want to be clear from the outset that we will not rest until the 
well is under control. As a responsible party under the Oil Pollution 
Act, we will carry out our responsibilities to mitigate the 
environmental and economic impacts of this incident.
    We--and, indeed, the entire energy sector--are determined to 
understand what happened, why it happened, take the learnings from this 
incident, and make the changes necessary to make our company and our 
industry stronger and safer. We understand that the world is watching 
and that we and our industry colleagues will be judged by how we 
respond to these events.
    Nearly one month ago, eleven people were lost in an explosion and 
fire aboard the Transocean Deepwater Horizon drilling rig, and 17 
others were injured. My deepest sympathies go out to the families and 
friends who have suffered such a terrible loss and to those in Gulf 
Coast communities whose lives and livelihoods are being impacted.
    This was a horrendous accident. We are all devastated by this. It 
has profoundly touched our employees, their families, our partners, 
customers, those in the surrounding areas and those in government with 
whom we are working. There has been tremendous shock that such an 
accident could have happened, and great sorrow for the lives lost and 
the injuries sustained. The safety of our employees and our contractors 
and the safety of the environment are always our first priorities.
    Even as we absorb the human dimensions of this tragedy, I want to 
underscore our intense determination to do everything humanly possible 
to minimize the environmental and economic impacts of the resulting oil 
spill on the Gulf Coast. From the outset, the global resources of BP 
have been engaged. Nothing is being spared. We are fully committed to 
the response.
    And from the beginning, we have never been alone. On the night of 
the accident, the Coast Guard helped rescue the 115 survivors from the 
rig. The list of casualties could easily have been longer without the 
professionalism and dedication of the Coast Guard.
    Even before the Transocean Deepwater Horizon sank on the morning of 
April 22, a Unified Command structure was established, as provided by 
Federal regulations. Currently led by the National Incident Commander, 
Admiral Thad Allen, the Unified Command provides a structure for BP's 
work with the Coast Guard, the Minerals Management Service and 
Transocean, among others.
    Immediately following the explosion, in coordination with the 
Unified Command, BP began mobilizing oil spill response resources 
including skimmers, storage barges, tugs, aircraft, dispersant, and 
open-water and near shore boom.
    Working together with Federal and state governments under the 
umbrella of the Unified Command, BP's team of operational and technical 
experts is coordinating with many agencies, organizations and 
companies. These include the Departments of Interior, Homeland 
Security, Energy, and Defense, National Oceanic and Atmospheric 
Administration (NOAA), U.S. Fish & Wildlife Service (USFW), National 
Marine Fisheries Service (NMFS), EPA, OSHA, Gulf Coast state 
environmental and wildlife agencies, the Marine Spill Response 
Corporation (an oil spill response consortium), as well as numerous 
state, city, parish and county agencies.
    ``BP has been relentless and we've been relentless in our oversight 
because we all understand the stakes here,'' said Adm. Allen on May 14. 
``This has never been done before. This is an anomalous, unprecedented 
event.''
    The industry as a whole has responded in full support. Among the 
resources that have been made available:

  <bullet> Drilling and technical experts who are helping determine 
        solutions to stopping the spill and mitigating its impact, 
        including specialists in the areas of subsea wells, 
        environmental science and emergency response;

  <bullet> Technical advice on blowout preventers, dispersant 
        application, well construction and containment options;

  <bullet> Additional facilities to serve as staging areas for 
        equipment and responders, more remotely operated vehicles 
        (ROVs) for deep underwater work, barges, support vessels and 
        additional aircraft, as well as training and working space for 
        the Unified Command.
The Actions We're Taking
    As Chairman and President of BP America, I am part of an executive 
team that reports directly to our Global CEO, Tony Hayward. I am BP's 
lead representative in the U.S. and am responsible for broad oversight 
and connectivity across all of our U.S.-based businesses.
    BP itself has committed tremendous global resources to the effort. 
Including BP, industry and government resources--over 17,000 personnel 
are now engaged in the response. Among many other tasks, our employees 
are also helping to train and organize the more than 15,000 citizen 
volunteers who have come forward to offer their services.
    Indeed, we have received a great many offers of help and 
assistance, and we are grateful for that. The outpouring of support 
from government, industry, businesses and private citizens has truly 
been humbling and inspiring. It is remarkable to watch people come 
together in crisis.
    Our efforts are focused on two overarching goals:

  <bullet> Stopping the flow of oil; and

  <bullet> Minimizing the environmental and economic impacts from the 
        oil spill.
Subsea Efforts to Secure the Well
    Our first priority is to stop the flow of oil and secure the well. 
In order to do that, we are using four vessels and nine Remote Operated 
Vehicles (ROVs) working on several concurrent strategies:

  <bullet> Riser Insertion Tube: Our immediate focus is on a riser 
        insertion tube option. This involves placing a tapered riser 
        tube into the end of the existing, damaged riser and drill 
        pipe, the primary source of the leak, until a watertight 
        closure is achieved. The gas and oil would then flow under 
        their own pressure up the riser tube to the Enterprise 
        drillship on the surface.

  <bullet> Containment Recovery System: Initial efforts to place a 
        large containment dome over the main leak point were suspended 
        as a buildup of hydrates, essentially ice-like crystals, 
        prevented a successful placement of the dome over the spill 
        area. A second, smaller containment dome, measuring four feet 
        in diameter and five feet high, called a ``top hat,'' is being 
        readied to lower over the main leak point, if needed. The small 
        dome would be connected by drill pipe and riser lines to a 
        drill ship on the surface to collect and treat the oil. It is 
        designed to mitigate the formation of large volumes of 
        hydrates. It is important to note that this technology has 
        never been used at this depth and significant technical and 
        operational challenges must be overcome.

  <bullet> Dispersant injection at the sea floor: We have conducted a 
        third test round of injecting dispersant directly at the leak 
        site on the sea floor using ROVs. Dispersant acts by separating 
        the oil into small droplets that can break down more easily 
        through natural processes before it reaches the surface. Sonar 
        testing and aerial photographs show encouraging results. The 
        Unified Command, supported by the Environmental Protection 
        Agency and other agencies, has approved additional subsea 
        application subject to ongoing protocols.

  <bullet> Drilling relief wells: We have begun to drill the first of 
        two relief wells to permanently secure the well. These wells 
        are designed to intercept the original MC252 #1 well. Once this 
        is accomplished, a specialized heavy fluid will be injected 
        into the well bore to stop the flow of oil and allow work to be 
        carried out to permanently cap the existing well. On Sunday, 
        May 2, we began drilling the first of these wells, and as of 
        May 16, the well had reached approximately 9,000 feet below sea 
        level. A second drillship has been mobilized to the area and 
        will begin drilling a second relief well on May 16. This relief 
        well operation could take approximately 3 months.

  <bullet> ``Top kill'': An additional effort is known as a ``top 
        kill.'' It is a proven industry technique for capping wells and 
        has been used worldwide, though never in 5,000 feet of water. 
        It uses a tube to inject a mixture of multi-sized shredded 
        fibrous materials directly into the blowout preventer. The 
        objective is for the material to travel up the BOP and clog the 
        flow of the well at the pinch point. Once the pressure is 
        controlled, heavy fluids and cement will be pumped down the 
        well to kill it. We have completed the first part of this 
        operation using an ROV to remove the BOP control pod, which was 
        taken to the surface and refurbished with electronics. Re-
        installation of the control pod will allow us to control the 
        BOP lines needed to inject from the surface. Manifold and 
        bypass lines are in place to provide access to valves on the 
        BOP. This procedure is ongoing and this attempt could take two 
        or 3 weeks to accomplish.

  <bullet> We have succeeded in stopping the flow from one of the three 
        existing leak points on the damaged well. While this may not 
        affect the overall flow rate, it should reduce the complexity 
        of the situation to be dealt with on the seabed.
Attacking the Spill
    We are attacking the spill on two fronts: in the open water and on 
the shoreline, through the activation of our pre-approved spill 
response plans.
On the Water
    On the open water, more than 600 response vessels are available, 
including skimmers, storage barges, tugs, and other vessels. The Hoss 
barge, the world's largest skimming vessel, has been onsite since April 
25. In addition, there are 15, 210-foot Marine Spill Response 
Corporation Oil Spill Response Vessels, which each have the capacity to 
collect, separate, and store 4,000 barrels of oil. To date, over 
150,000 barrels of oil and water mix have been recovered.
    Also on the open water, we are attacking the spill area with Coast 
Guard-approved biodegradable dispersants, which are being applied from 
both planes and boats. Dispersants are soap-like products which help 
the oil to break up and disperse in the water, which, in turn, helps 
speed natural degradation.
    Thirty-eight aircraft, both fixed-wing and helicopters, are now 
supporting the response effort. Over half a million gallons of 
dispersant have been applied on the surface and more than a quarter of 
a million gallons are available. Typically, about 2,100 gallons of 
dispersant is needed to treat 1,000 barrels of oil.
    To ensure that adequate supplies of dispersant will be available 
for surface and subsea application, the manufacturer has stepped up the 
manufacturing process, and existing supplies are being sourced from all 
over the world. The cooperation of industry partners has been superb 
and that is deeply, deeply appreciated.
Actions to Protect the Shoreline
    Near the shoreline, we are implementing with great urgency oil 
spill response contingency plans to protect sensitive areas. According 
to the Coast Guard, the result is the most massive shoreline protection 
effort ever mounted.
    To ensure rapid implementation of state contingency plans, we have 
made grants of $25 million to Louisiana, Mississippi, Alabama, and 
Florida.
    To date, we have about 1.5 million feet of boom deployed in an 
effort to contain the spill and protect the coastal shoreline, and 
another one million feet are available. The Department of Defense is 
helping to airlift boom to wherever it is needed across the Gulf coast.
    The Area Unified Command Center has been established in Robert, LA. 
Incident Command Centers have been or are being established at Mobile, 
AL; St. Petersburg, FL and Houma, LA.
    Fifteen staging areas are also in place to help protect the 
shoreline:

  <bullet> Alabama: Theodore, Orange Beach and Dauphin Island;

  <bullet> Florida: Pensacola and Panama City.

  <bullet> Louisiana: Amelia, Grand Isle, Venice, Port Fourchon, Shell 
        Beach, Slidell, Cocodrie;

  <bullet> Mississippi: Pascagoula, Biloxi and Pass Christian;

    Highly mobile, shallow draft skimmers are also staged along the 
coast ready to attack the oil where it approaches the shoreline.
    Wildlife clean-up stations are being mobilized, and pre-impact 
baseline assessment and beach clean-up will be carried out where 
possible. Rapid response teams are ready to deploy to any affected 
areas to assess the type and quantity of oiling, so the most effective 
cleaning strategies can be applied.
    A toll-free number has been established to report oiled or injured 
wildlife, and the public is being urged not to attempt to help injured 
or oiled animals, but to report any sightings via the toll-free number.
    Contingency plans for waste management to prevent secondary 
contamination are also being implemented.
    Additional resources, both people and equipment, continue to arrive 
for staging throughout the Gulf states in preparation for deployment 
should they be needed.
Communication, Community Outreach, and Engaging Volunteers
    We are also making every effort to keep the public and government 
officials informed of what is happening and are regularly briefing 
Federal, state, and local officials.
    On the ground, in the states and local communities, we are working 
with numerous organizations such as fishing associations, local 
businesses, parks, wildlife and environmental organizations, 
educational institutions, medical and emergency establishments, local 
media, and the general public.
    BP is leading volunteer efforts in preparation for shoreline clean-
up. We have helped and will continue to help recruit and deploy 
volunteers, many of whom are being compensated for their efforts, to 
affected areas.
    Volunteer activities at this time are focused on clearing the 
beaches of existing debris and placing protective boom along the 
shoreline. Our ``adopt a boom'' program is proving very successful in 
engaging local fishermen in the response. Over a thousand fishing 
vessels are signed up to deploy boom and assist with the response.
    There are seven BP community-outreach sites engaging, training, and 
preparing volunteers:

  <bullet> Alabama: Mobile;

  <bullet> Florida: Pensacola;

  <bullet> Louisiana: Venice and Pointe a la Hache;

  <bullet> Mississippi: Pascagoula, Biloxi and Waveland.

    A phone line has been established for potential volunteers to 
register their interest in assisting the response effort.
Coping with Economic Impacts
    We recognize that beyond the environmental impacts there are also 
economic impacts on many of the people who rely on the Gulf for their 
livelihood. BP will pay all necessary clean up costs and is committed 
to paying legitimate claims for other loss and damages caused by the 
spill. We are already expediting interim payments to individuals and 
small business owners whose livelihood has been directly impacted by 
the spill--the men and women who are temporarily unable to work. We 
have already paid approximately 12 million dollars out to claimants, 
mostly in the form of these lost income interim payments. We intend to 
continue to replace this lost income for those impacted men and women 
for as long as the situation continues to prevent them from returning 
to their work.
    We have been responding to these claims by individuals and small 
businesses that have had losses caused by injury to their property or 
to natural resources as quickly and efficiently as possible. We have a 
call center that operates 24 hours a day, 7 days a week. Starting this 
week, we will have an on-line claims filing system. We have nearly 700 
people assigned to handle claims, with almost 350 experienced claims 
adjusters working in the impacted communities. We have 10 walk-in 
claims offices in Louisiana, Mississippi, Alabama and Florida and we 
will open 7 more this week. We will continue to add people, offices and 
resources as required.
    We are striving to be efficient and fair and look for guidance to 
the established regulations and other information provided by the U.S. 
Coast Guard, which frequently handles and resolves these types of 
claims.
Commitment to Investigate What Happened
    BP is one of the leaseholders and the operator of this exploration 
well. As operator, BP hired Transocean to conduct the well drilling 
operations. Transocean owned and was responsible for safe operation of 
the Deepwater Horizon drilling rig and its equipment, including the 
blowout preventer.
    The question we all want answered is ``what caused this tragic 
accident?''
    A full answer to this and other questions will have to await the 
outcome of multiple investigations which are underway, including a 
joint investigation by the Departments of Homeland Security and 
Interior (Marine Board) and an internal investigation that BP is 
conducting.
    BP's investigation into the cause of this accident is being led by 
a senior BP executive from outside the affected business. The team has 
more than 40 people. The investigation is ongoing and has not yet 
reached conclusions about incident cause. We intend to share the 
results of our findings so that our industry and our regulators can 
benefit from the lessons learned.
    Investigations take time, of course, in order to ensure that the 
root cause of the failure is fully understood. But let me give you an 
idea of the questions that BP and the entire energy industry, are 
asking:

  <bullet> What caused the explosion and fire?

  <bullet> And why did the blowout preventer fail?

    Only 7 of the 126 onboard the Deepwater Horizon at the time of the 
incident were BP employees, so we have only some of the story, but we 
are working to piece together what happened from meticulous review of 
the records of rig operations that we have as well as information from 
those witnesses to whom we have access. We are looking at our own 
actions and those of our contractors, as is the Marine Board.
Conclusion
    BP is under no illusions about the seriousness of the situation we 
face. In the last 3 weeks, the eyes of the world have been upon us. 
President Obama and members of his Cabinet have visited the Gulf region 
and made clear their expectations of BP and our industry. So have 
Members of Congress, as well as the general public.
    We intend to do everything within our power to bring this well 
under control, to mitigate the environmental impact of the spill and to 
address economic claims in a responsible manner.
    Any organization can show the world its best side when things are 
going well. It is in adversity that we truly see what they are made of.
    We know that we will be judged by our response to this crisis. No 
resource available to this company will be spared. I can assure you 
that we and the entire industry will learn from this terrible event, 
and emerge from it stronger, smarter and safer.

    The Chairman. Thank you, Mr. McKay.
    Mr. Newman.

                  STATEMENT OF STEVEN NEWMAN, 
           CHIEF EXECUTIVE OFFICER, TRANSOCEAN, LTD.

    Mr. Newman. Chairman Rockefeller, Ranking Member Hutchison, 
and other members of the Committee, I thank you for the 
opportunity to speak with you today.
    My name is Steven Newman, and I am the Chief Executive 
Officer of Transocean Limited. Transocean is a leading offshore 
drilling contractor, with more than 18,000 employees worldwide. 
I am a petroleum engineer by training, and I have spent years 
working on and with drilling rigs.
    I have worked at Transocean for more than 15 years, and I 
am proud of the contributions our company has made to the 
energy industry during that time.
    Today, however, I sit before you with a heavy heart. The 
last few weeks have been a time of great sadness and reflection 
for our company and for me personally. Nothing is more 
important to me and to Transocean than the safety of our 
crewmembers. And our hearts ache for the widows, parents, and 
children of the 11 crewmembers, including 9 Transocean 
employees, who were lost in the Deepwater Horizon explosion. 
These were exceptional men, and we are committed to doing 
everything we can to help their families as they cope with this 
tragedy.
    Over the last few weeks, we have also seen great acts of 
courage and kindness in our colleagues and in our communities. 
That courage and kindness was embodied by the 115 crewmembers 
who were rescued from the Deepwater Horizon and were as focused 
on the safety of their colleagues as they were on their own 
safety. It was embodied by the brave men and women of the U.S. 
Coast Guard who led the on- scene response and the search-and-
rescue efforts, and the missing crewmembers, and the medical 
professionals, and friends and family who met those injured 
crewmembers as they came ashore. And it is embodied by our 
friends and colleagues, in Transocean and across the industry, 
who have rallied to help the families of the men who were lost.
    This has been a very emotional period for all of us at 
Transocean, but it has also been a period of intense activity 
and effort. Immediately after the explosion, Transocean began 
working with BP, the Coast Guard, and NOAA, as part of the 
Unified Command, in the effort to stop the flow of 
hydrocarbons. Our finest engineers and operational personnel 
have been working with BP to identify and pursue alternatives 
to stop the flow as soon as possible.
    Two of our drilling rigs, the Development Driller 2 and the 
Development Driller 3, are involved in drilling relief wells at 
the site. And our drill ship, the Discoverer Enterprise, is 
conducting crude-oil recovery operations. We will continue to 
support BP and the Unified Command in all of these efforts.
    At the same time, we have also been working hard to get to 
the bottom of the question to which the members of this 
committee and the American people want and deserve an answer: 
What happened on the night of April 20th? And how can we assure 
the American public that it will not happen again?
    Transocean has assembled an independent investigative team 
to determine the cause of these tragic events, a team that 
includes dedicated Transocean and industry experts. They will 
be interviewing people who have potentially helpful information 
and studying the operations and the equipment involved.
    Because the drilling process is a collaborative process 
among many different companies, contractors, and 
subcontractors, the process of understanding what led to the 
April 20th explosion, and how to prevent such an accident in 
the future, must also be collaborative. Our team is working 
side by side with others, including BP and governmental 
agencies. And these investigative efforts will continue until 
we have satisfactory answers.
    While it is still too early to know exactly what happened 
on April 20, we do have some clues about the cause of this 
disaster. The most significant clue is that the events occurred 
after the well construction process was essentially finished. 
Drilling had completed on April 17th, and the well had been 
sealed with casing and cement.
    For that reason, the one thing we do know is that, on the 
evening of April 20, there was a sudden catastrophic failure of 
the cement, the casing, or both. Without a failure of one of 
those elements, the explosion could not have occurred. It is 
also clear that the drill crew had very little, if any, time to 
react. The initial indications of trouble and the subsequent 
explosions were almost instantaneous.
    What caused that sudden violent failure, and why weren't 
the blowout preventers able to squeeze, crush, or shear the 
drill bit? These are critical questions that must be answered 
in the weeks and months ahead.
    Until we know exactly what happened on April 20th, we 
cannot determine how best to prevent such tragedies in the 
future. But, regardless of what the investigations uncover, 
ours is an industry that must put safety first. We must do so 
for the sake of our employees, for the sake of their families, 
and for the sake of people all over the world who use, rely, 
and enjoy the oceans and waterways for their sustenance.
    Thank you again for the opportunity to speak. And I'm happy 
to answer your questions.
    [The prepared statement of Mr. Newman follows:]

     Prepared Statement of Steven Newman, Chief Executive Officer, 
                            Transocean, Ltd.
    Chairman Rockefeller, Ranking Member Hutchison, and other members 
of the Committee, I want to thank you for the opportunity to speak with 
you today.
    My name is Steven Newman, and I am the Chief Executive Officer of 
Transocean, Ltd. Transocean is a leading offshore drilling contractor, 
with more than 18,000 employees worldwide. I am a petroleum engineer by 
training, I have spent considerable time working on drilling rigs, and 
I have worked at Transocean for more than 15 years. I am proud of the 
Company's historical contributions to the energy industry during that 
time. Today, however, I sit before you with a heavy heart.
    The last few weeks have been a time of great sadness and reflection 
for our Company--and for me personally. Nothing is more important to me 
and to Transocean than the safety of our employees and crew members, 
and our hearts ache for the widows, parents and children of the 11 crew 
members--including nine Transocean employees--who died in the Deepwater 
Horizon explosion. These were exceptional men, and we are committed to 
doing everything we can to support their families as they struggle to 
cope with this tragedy.
    We have also seen great courage and kindness since April 20 that 
has reaffirmed our faith in the human spirit. That spirit is embodied 
by the 115 crew members who were rescued from the Deepwater Horizon and 
were as worried about the fate of their colleagues as they were about 
themselves. It is embodied by the brave men and women of the U.S. Coast 
Guard who led search-and-rescue efforts for the injured and missing 
crewmembers, and the emergency workers waiting for the injured crew 
members when they arrived ashore. And it is embodied by the friends and 
colleagues who have rallied to help the families of those who were lost 
at sea.
    While this has been a very emotional period for all of us at 
Transocean, it has also been a period of intense activity and effort.
    Immediately after the explosion, Transocean began working with BP 
(in BP's role as operator/leaseholder of the well) and the ``Unified 
Command'' (which includes officials from the U.S. Coast Guard, the 
Department of the Interior's Minerals Management Service (MMS), and the 
National Oceanic and Atmospheric Administration (NOAA)) in the effort 
to stop the flow of hydrocarbons. Our finest operational personnel and 
engineers have been working with BP to identify and pursue options for 
stopping the flow as soon as possible. Our drilling rig, the 
Development Driller III, is involved in drilling the relief well at the 
site, and our drillship, the Discoverer Enterprise, is involved in the 
unique oil recovery operations in the Gulf. In addition, a third 
Transocean drilling rig, the Development Driller II, is moving into 
position to drill a second relief well or otherwise assist in 
operations to stop the flow. We will continue to support BP and the 
Unified Command in all of these efforts.
    We have also been working hard to get to the bottom of the question 
to which the Members of this Committee--and the American people--want 
and deserve an answer: What happened the night of April 20, and how do 
we assure the American public that it will not happen again?
    As is often the case after a tragedy of this kind, there has been a 
lot of speculation about the root cause of this event. Although it is 
premature to reach definitive conclusions about what caused the April 
20 explosion, we do have some clues about the cause of the disaster. 
The most significant clue is that the events occurred after the well 
construction process was essentially finished. Drilling had been 
completed on April 17, and the well had been sealed with casing and 
cement. For that reason, the one thing we do know is that on the 
evening of April 20, there was a sudden, catastrophic failure within 
that basically completed well. It is also clear that the drill crew had 
very little (if any) time to react. The initial indications of trouble 
and the subsequent explosions were almost instantaneous.
    What caused that sudden, violent failure? And why weren't the blow-
out preventers able to squeeze, crush or shear the pipe and thereby 
shut in the flow? These are some of the critical questions that need to 
be answered in the coming weeks and months.
    The well construction process is a collaborative effort, involving 
various entities and many personnel--the well operator, government 
officials, the drilling contractor, the mud contractor, the casing 
contractor, the cement contractor and others. For the same reason, the 
process of understanding what led to the April 20 explosion must also 
be collaborative. We agree that this is not the time for finger-
pointing--instead, all of us must work together to understand what 
happened and prevent any such accident in the future.
    Ours is an industry that must put safety first. And I can assure 
you that Transocean has never--and will never--compromise on safety. In 
2009, Transocean recorded its best ever Total Recordable Incident Rate 
(TRIR). And MMS, the Federal agency charged with enforcing safety on 
deepwater oil rigs, awarded one of its top prizes for safety to 
Transocean in 2009. The MMS SAFE Award recognizes ``exemplary 
performance by Outer Continental Shelf (OCS) oil and gas operators and 
contractors.'' In the words of MMS, this award ``highlights to the 
public that companies can conduct offshore oil and gas activities 
safely and in a pollution-free manner, even though such activities are 
complex and carry a significant element of risk.'' In awarding this 
prize to Transocean, MMS credited the Company's ``outstanding drilling 
operations'' and a ``perfect performance period.''
    Despite a strong safety record, Transocean is not complacent about 
safety. We believe that any incident is one too many. Last year, our 
Company experienced an employee accident record that I found 
unacceptable. As a result, I recommended to our Board of Directors that 
they withhold bonuses for all executives in order to make clear that 
achieving stronger safety performance was a basic expectation--and 
fundamental to our success. That recommendation was accepted, and our 
Company paid no executive bonuses last year, in order to send a loud 
message that we evaluate our success in large part based on the safety 
of our operations.
    Until we fully understand what happened on April 20, we cannot 
determine with certainty how best to prevent such tragedies in the 
future. But I am committed--for the sake of the men who lost their 
lives on April 20, for the sake of their loved ones, for the sake of 
all the hard-working people who work on Transocean rigs around the 
world, and for the sake of people in each of the affected states and 
worldwide who rely on our oceans and waterways for their livelihood--to 
work with others in the industry, with Congress and with all involved 
Federal agencies to make sure that such an accident never happens 
again.

    The Chairman. Thank you very much.
    And now Dr. French.

           STATEMENT OF DEBORAH FRENCH-McCAY, Ph.D.,

            DIRECTOR OF IMPACT ASSESSMENT SERVICES,

                APPLIED SCIENCE ASSOCIATES, INC.

    Dr. French-McCay. Chairman Rockefeller, Ranking Member 
Hutchison----
    The Chairman. Could you pull the mike a little----
    Dr. French-McCay. Oh, I'm sorry.
    The Chairman.--closer please?
    Dr. Frech-McCay. Chairman Rockefeller, Ranking Member 
Hutchison, and distinguished members of the Committee, I, also, 
thank you for this opportunity to testify before you in this 
critical hearing.
    I am a scientist and environmental consultant with a small 
consulting firm in Rhode Island. And I'm a contractor to NOAA, 
in this case. But, I'm testifying on my own behalf and my own 
opinions today.
    Since I received my Ph.D. in biological oceanography in 
1984, I have been working on oil spill impact assessments and 
developing methods to evaluate them, mostly working with 
Federal and state governments. I've been involved with hundreds 
of oil spill cases, and I've written many technical reports and 
published papers in peer-reviewed literature, and participated 
in a number of committees internationally on this kind of 
problem.
    As a scientist, I would just love to tell you all the 
details about oil spills and their potential impacts. I'm going 
to try to hit the important points. And I will certainly answer 
any of your questions.
    First of all, what I thought I'd do is briefly talk about 
the fate of oil, what happens to oil when it goes in the ocean. 
Essentially, oil is, for the most part, lighter than water. And 
this one--and this spill certainly is. So, the oil moves up to 
the surface by its buoyancy, floats, and then it starts to 
weather, which means that the lighter components, the 
volatiles, evaporate off it and it becomes stickier and 
thicker, like tar. It can also emulsify into a mousse that's 
just like the dessert, only orange.
    Eventually, the oil will weather into tar balls, and then 
those tar balls will be carried by the currents. And they can 
be carried quite a distance by the currents, as we've been 
talking about.
    If winds are onshore, the floating oil will be blown ashore 
and stranded on the shoreline, which is obviously a problem, 
because there are a lot of sensitive resources along the 
shorelines, including wetlands and oyster beds and communities 
that have recreational interests and tourism and so on.
    When dispersant is applied to oil, what it does is 
facilitate the mixing of that oil into the water. Now, that's a 
natural process, normally. Oil will break up by the action of 
waves, and then be mixed into the water. But, when you put a 
dispersant on it, it facilitates the process. Just as if you 
put oily dishes into a sink, the oil will kind of float to the 
surface of the sink, but if you add soap to that sink, it'll 
entrain the oil in the water, and allow you to clean your 
dishes. So, that's essentially what's going on with the 
dispersant.
    Normally, the dispersant--as you've been hearing earlier, 
the dispersant is much less toxic than the oil itself. So, our 
primary concern is with the oil going in the water, rather than 
the dispersant, although we're also considering that problem, 
as well.
    In addition, dispersant has been applied down at the bottom 
of the ocean, which is a new thing, a new procedure. So, we're 
also looking at that. That should be entraining the oil into 
the water, down in the deep water.
    Oil is a mixture of thousands of chemicals. Most of them 
are not soluble in water. A few of them are, and those are the 
ones that are our concern, because they're toxic to fish and 
invertebrates. So, we're trying to track the soluble components 
in the water, what those concentrations are, exposures to 
organisms and fisheries and so on.
    Now, what are the biological impacts of oil spills? They 
basically fall into two categories. You have floating oil, that 
may come ashore, and that will foul birds, marine mammals, sea 
turtles, and shoreline habitats.
    Obviously, everyone knows about birds being oiled. That's a 
very big problem. They need their feathers, to stay warm; they 
also ingest the toxic material from the oil. So, they can be 
affected in a number of ways.
    Sea turtles--all of the sea turtles in the Gulf of Mexico 
are listed. That is, threatened or endangered. So, they're 
obviously a big concern. There were also listed marine mammals 
that we have to look at. Along the shoreline, there are a lot 
of sensitive habitats.
    So, those are all--as you know from all you've heard, those 
are big concerns.
    Within the water column, we have these dissolved components 
that might be taken up into the fish and invertebrates and 
shellfish, and affect them. There's also these droplets that 
are in the water, and tar balls, that may foul these animals as 
they feed and perform life functions.
    So, in general, wildlife are the biggest concern. The 
habitats along the shoreline, but also the fish and 
invertebrates in the water are of concern.
    Now, on those fish and invertebrates, this is the big issue 
in this spill, because of the dispersant applications. We need 
to consider the degree to which natural turbulence and wave 
action has gotten the oil into the water, as well as how much 
of that oil is in the water, and stays in the water because of 
the dispersant applications.
    OK. And I thought I would just briefly touch on some past 
spills, as lessons learned that we can bring to bear on this.
    First, the Exxon Valdez. Everyone's familiar with this 
spill. That was 11 million gallons----
    The Chairman. You----
    Dr. French-McCay.--of crude oil.
    The Chairman.--you'll need to bring this to a close fairly 
quickly.
    Dr. French-McCay. OK.
    The Exxon Valdez was really devastating, because there were 
so many birds and marine mammals in that area when that oil was 
spilled. So, that's the big concern there. In the offshore Gulf 
of Mexico, in the area where the spill is occurring, there 
aren't as many seabirds out there. They're more close to the 
shore. However, there are still turtles and mammals out there.
    There was a spill in Rhode Island, the North Cape, which 
was a severe spill because it was entrained in the water. So, 
this is a case where a lot of unweathered oil was mixed in the 
water and killed a lot of organisms--lobsters and other kinds 
of organisms.
    So, in this bill, as I've already mentioned, we have these 
concerns. It's a very complicated problem, because of the 
changing characteristics of the release. We have different 
volumes being released over time, potentially. We have 
dispersant being injected, or not. We have containment 
operations going on. So, we need to sort all that out and 
quantify how much is coming out over time, and what's happening 
to it in the water, in order to understand what the impacts 
are. So, that's what we're doing right now.
    We're also characterizing the organisms that are out there 
that are being affected, both in the deepwater and in the 
surface waters, and then near the shoreline. So, there are lots 
of scientists collecting baseline data. We've found that we 
need much more information in the offshore than is currently 
available, so we're focusing a lot of effort on trying to 
obtain that data.
    So, I'll just sum up by saying, I'm--I am working for NOAA, 
on the natural resource damage assessment part of this process, 
and focusing on that offshore impact.
    And I'll be happy to answer any questions.
    [The prepared statement of Dr. French-McCay follows:]

 Prepared Statement of Deborah French-McCay, Ph.D., Director of Impact 
         Assessment Services, Applied Science Associates, Inc.
Introduction and Experience
    I am a scientist and environmental consultant based in Rhode 
Island, where I am a principal of the small consulting firm, Applied 
Science Associates, Inc. (ASA, South Kingstown, RI). I received a 
bachelor's degree in Zoology from Rutgers University in 1974 and a 
Ph.D. in Biological Oceanography from the University of Rhode Island in 
1984. I joined ASA in 1984, where I specialize in scientific 
assessments of oil and chemical releases, i.e., the transport and fate 
of oil; exposure to and bioaccumulation of pollutants by biological 
organisms; and toxic and other effects on individual animals, 
populations and aquatic ecosystems.
    Since 1984, I have worked with the Federal Government and several 
states in developing and applying quantitative methods for assessing 
oil spill impacts. I was the principal investigator in developing 
computer models for Federal regulations in assessing natural resource 
damages from spills (under CERCLA and the Oil Pollution Act, OPA). I 
have been involved in hundreds of natural resource damage assessment 
cases for oil and chemical spills, assisting Federal and state 
governments as a technical expert. I have published scores of technical 
reports and manuscripts in peer-reviewed journals, and served on 
national and international committees evaluating oil spill risks and 
impacts. I am an internationally recognized expert in assessing oil 
spill fate and biological effects, as well as in computer modeling, 
that is to say quantitative estimation of oil spill impacts using 
computer programs employing equations based on physical/chemical and 
biological processes. I will be happy to provide any technical 
background material you might need related to my work and experience. 
My Curriculum Vitae is attached to this testimony.
General Behavior and Fate of Oil
    Oils and petroleum products are generally lighter (less dense) than 
seawater, and so oil floats to the surface unless it is dispersed into 
the water directly or by turbulence. Floating oil tends to form slicks 
when fresh, which thin out over time to sheens, as well as collect into 
thick aggregations at wind rows and current convergences. The oil 
weathers and degrades when exposed to air and sun, such that the more 
volatile components evaporate off and the oil becomes tarry and sticky. 
Some oils form mousse, in which water becomes incorporated into the 
oil, making it thicker and more viscous. Eventually, floating oil 
breaks up into weathered tar balls, which may be transported great 
distances by currents. If winds are on-shore, oil will come ashore and 
strand on beaches and in wetlands.
    If oil is dispersed in the water, it is in the form of small oil 
droplets or tar balls. The smaller are these particles of oil, the more 
readily they are dispersed throughout the water column. Oil may be 
dispersed from the water surface by natural turbulence from breaking 
waves. If dispersant is applied to oil on the water surface, this 
dispersion process is enhanced. Dispersants are soap-like surfactant 
mixtures, composed of compounds that coat the oil surface and encourage 
it to break into smaller particles.
    Crude oils and petroleum products are composed of thousands of 
chemicals. In general, the hydrocarbon compounds found in crude oil are 
characterized by their structure. These compounds include straight-
chain hydrocarbons and aromatics; aromatics include at least one 
benzene ring. Understanding these different compounds and their 
structures is important for understanding the fate and biological 
effects of releases of crude oil or products derived from it.
    Most of the compounds in oil are not soluble in water. However, the 
low molecular weight aromatic compounds (such as the one-ring compounds 
benzene, toluene, ethylbenzene and xylenes (BTEX); and the polynuclear 
aromatic hydrocarbons (PAHs)) are both volatile (so evaporate from the 
water surface) and soluble in water. Benzene rings are very stable, and 
therefore persistent in the environment, and can have toxic effects on 
organisms. Because the BTEX and PAHs are at least semi-soluble, they 
can be taken up into the tissues of aquatic organisms, where they can 
disrupt (or poison) cellular functions. For this reason, scientists 
evaluate exposure of aquatic biota to these BTEX and PAH compounds 
derived from spilled oil, as well as the toxic effects of such 
exposures.
    The BTEX and PAHs also are volatile, and so the evaporate off 
relatively rapidly when oil is exposed to the atmosphere. In addition, 
the smaller non-aromatic compounds (e.g., pentane, hexane, octane, 
etc.) evaporate rapidly. Thus, over time the oil contains less and less 
of both the volatile and soluble compounds, leaving a residual heavier 
material that can become sticky and tar-like.
    Eventually oil hydrocarbons are degraded by sunlight and microbial 
processes (bacterial degradation), whether in the water, in bottom 
sediments or on shorelines. Degradation rates are generally slow, and 
in conditions of low oxygen, degradation can take decades because 
oxygen is consumed in, and so needed for, the degradation process. The 
largest compounds are very slow to degrade, which is why they make good 
road materials--they remain tarry and asphalt-like for years.
    Important oil movements and processes involved in a sub-sea oil 
release are depicted in the cartoon figure below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Biological Impacts of Spills
    The potential biological impacts of oil include:

  <bullet> Surface smothering/coating exposure to floating and stranded 
        oil, affecting

    <ctr-circle> Shoreline habitats (salt marshes, mangroves, sea 
            grasses, oyster flats)

    <ctr-circle> Wildlife (birds, marine mammals, sea turtles)

    <ctr-circle> Aquatic organisms inhabiting the sea surface (called 
            neuston)

  <bullet> Toxicity from uptake of dissolved components (aromatics)

    <ctr-circle> Fish

    <ctr-circle> Shellfish and other invertebrates

    <ctr-circle> Plankton, including fish and shellfish eggs and larvae

  <bullet> Subsurface suspended oil droplets

    <ctr-circle> Fish

    <ctr-circle> Shellfish and other invertebrates

    <ctr-circle> Plankton, including fish and shellfish eggs and larvae

    Oil can kill marine organisms, reduce their fitness through 
sublethal effects, and disrupt the structure and function of marine 
communities and ecosystems. While such effects have been unambiguously 
established in laboratory studies and after well-studied spills, 
determining the subtler long-term effects on populations, communities 
and ecosystems at low doses and in the presence of other contaminants 
poses significant scientific challenges. Because of the high natural 
variability of aquatic populations, it is extremely difficult to 
measure the changes from before to after a spill. Thus, scientists use 
a variety of types of information, including past experience from other 
spills, field measurements, analyses of samples taken for chemistry or 
to count organisms, experimental tests, and biological data to estimate 
the impacts of a spill. We often combine such information with computer 
model calculations to quantify the impact.
    In general, the most vulnerable species to oil spills are birds and 
fur-bearing marine mammals. These animals depend on their feathers or 
fur to maintain body heat and keep their skin relatively dry. They 
preen daily, and so will ingest toxic components present in oil that 
covers any portion of their bodies. Sea turtles, all species of which 
are threatened or endangered, are also highly susceptible to oil's 
effects.
    Shoreline habitats are very vulnerable to oil exposure. Oil 
stranding in wetlands or other shoreline habitats can coat small 
animals and plants, suffocating them. The toxic components can also 
impact the organisms inhabiting the habitats. These habitats require 
years to decades to recover from lethal-levels of oil exposure.
    Because fish and invertebrates are for the most part under the 
water surface, and much of the oil is not soluble, their exposure to 
oil hydrocarbons is subject to: (1) the degree to which the oil is 
mixed by turbulence or other means (i.e., dispersed) into the water 
column; (2) the degree to which the dispersed oil still contains the 
toxic compounds (which otherwise evaporate); and (3) the rate of 
dissolution of soluble aromatics into the water. Oil dispersion rate is 
highest in storm conditions and when large amounts of dispersants are 
applied to the oil. Mortality is a function of duration of exposure--
the longer the duration of exposure, the lower the effects 
concentration. Thus, a situation where oil is largely dispersed into 
the water while fresh is that where the highest impacts to fish and 
invertebrates would be expected.
Socioeconomic Impacts of Spills
    There are many potential socioeconomic impacts that result from 
large oil spills, including fisheries losses, lost recreation use of 
beaches and waterways for boating-related activities, impacts on 
national parks and other protected areas, lost tourism-related 
business, commercial shipping disruptions, and so on. As a marine 
biologist, I am focusing on the biological impacts in my testimony; 
however, the potential for socioeconomic impacts needs consideration as 
well.
Previous Spills as Case Examples--Exxon Valdez Oil Spill (March 1989)
    The Exxon Valdez oil spill involved 11 million gallons of crude 
oil. As is well understood, hundreds of thousands of seabirds and 
thousands of marine mammals (mostly sea otters) were oiled and killed 
by this spill. This large impact was due both to the nature of the 
Alaskan crude oil (a viscous persistent type) and the high densities of 
seabirds and marine mammals present in the affected area. The impacts 
to fish and invertebrates in open waters were relatively low in 
comparison because of the slow rate of dispersion into the water just 
after the release (winds were light at the time of the spill) and the 
large volume of Prince William Sound that facilitated dilution. 
However, impacts on and near shorelines to salmon reproduction and 
other resources were also considerable.
    The socioeconomic impacts of the spill were largely related to 
disruptions to the fishing industry and subsistence uses of natural 
resources. The local indigenous peoples utilize nearshore and shoreline 
shellfish as food sources, and hold natural resources as sacred. In 
addition many Alaskans and Americans in general consider Alaska to be 
pristine, and so were outraged by the oil's impacts.
Previous Spills as Case Examples--North Cape Oil Spill (January 1996)
    In January 19-20, 1996, during a severe winter storm, the barge 
North Cape spilled 828,000 gallons of home heating oil (No. 2 fuel oil) 
into the surf zone on the south coast of Rhode Island. Most of the oil 
was mixed into the water column by the heavy surf, resulting in high 
concentrations of the toxic components (PAHs) in the shallow water near 
the beach. It was evident that there was significant injury to marine 
aquatic organisms caused by the spill, in that large numbers of 
lobsters, surf clams, other invertebrates, and fish washed up on the 
beaches.
    Because of the large numbers of highly valued lobsters affected, 
field sampling was performed to estimate the impact. Impacts to other 
marine organisms were estimated using computer modeling of oil fates 
and toxicological effects. The model assumptions and input data were 
based on existing literature and site-specific information.
    While about 2,400 birds were oiled in the North Cape spill, it was 
estimated that 9 million lobsters were killed, along with billions of 
smaller invertebrates and thousands of fish. The spill was so 
devastating to the local shellfish and fish populations because fresh 
highly-toxic oil was completely dispersed naturally into shallow water 
near shore by high waves.
    The socioeconomic impacts of the spill were primarily related to 
disruptions to the fishing industry. To my knowledge, there were no 
claims by native Americans made against the spiller. The light oil 
evaporated and degraded quickly, well before the summer tourist season, 
so impacts on recreational uses and tourism were minimal.
Previous Spills as Case Examples--Ixtoc Oil Spill
    The largest spill in history was the Ixtoc blowout which began in 
June 1979 in Mexican waters of the Bay of Campeche. The well was not 
completely brought under control until late March 1980. The spill rate 
was estimated to be about 30,000 bbl/day \1\ for 5\1/2\ months until 
November, and then about 4,000 bbl/day for another 4 months. The 
impacts of this spill remain largely unknown. Shoreline-related impacts 
were observed to birds, sea turtles and invertebrates. However, the 
impact on fish and shellfish was not estimated. Because of the very 
large amounts of oil released in relatively shallow waters, it is 
likely that impacts to shrimp, other shellfish and fish in the Bay of 
Campeche and southern Gulf of Mexico were highly significant. The 
socioeconomic impacts of the spill are not documented, but likely 
included large disruptions of the local fisheries.
---------------------------------------------------------------------------
    \1\ 1 bbl (barrel) = 42 U.S. gallons; estimates vary widely and the 
release may have been up to 50,000 bbl/day.
---------------------------------------------------------------------------
Potential Impacts of the Deepwater Horizon Oil Spill
    Natural resources of the Gulf of Mexico (e.g., birds, sea turtles, 
marine mammals, fish, shellfish, plankton; and a wide variety of 
habitats along the shoreline and at the sea bottom, such as salt 
marshes and submerged aquatic vegetation) are currently being exposed 
to and impacted by oil from the Deepwater Horizon oil spill; as well as 
potentially by other materials being added to the marine environment 
during the response that might be toxic or change biological or 
chemical conditions. In addition there will be impacts on water quality 
near beaches, shellfish (e.g., oyster) beds, and fishery nursery 
grounds.
    The open water environment, the ongoing release of oil and the 
ongoing response efforts all contribute to complex, constantly-changing 
exposure conditions for biological resources in the offshore and near-
shore environments of the northeastern Gulf of Mexico. Contributing 
factors to the complexity of the situation include:

        1. Characteristics of released oil and other materials, which 
        change with time due to weathering and response activities; 
        also, there may be changes in the released material at the 
        discharge site due to changes in materials leaving the well;

        2. Volume and duration of the continued release of oil, with 
        the oil release rate varying in time;

        3. Location and nature of the release (i.e., while burning at 
        the sea surface, from various pipe breaks on the sea floor);

        4. Physical oceanographic conditions (currents, temperature, 
        etc.), which vary in space and time;

        5. Weather (winds, light exposure, air temperature), affecting 
        the oil's chemistry;

        6. Response effectiveness to stop or slow the release of oil, 
        as well as changes in the location, nature, and volume of the 
        release;

        7. Dispersant type, application methods (i.e., injected versus 
        aerial or boat), volumes, effectiveness, locations and timing;

        8. Exposure scenarios for biological resources (i.e., exposure 
        duration, species, life history stages involved);

        9. Location of critical habitats (live bottom, deep water 
        corals, cold seeps; fishing grounds); and

        10. Impacts of oil hydrocarbon/dispersant/contaminant mixes 
        over time, resulting from short duration and long exposures, 
        delayed and indirect impacts, etc.

    The socioeconomic impacts of the spill will include disruption of 
fisheries and dependant businesses, effects on tourism and recreational 
uses, and potentially changes in oil industry practices.
    The purpose of using dispersants on the oil is to lessen the 
potential impact to wildlife (birds, mammals, and sea turtles) and 
shoreline habitats. However, to some degree there is a tradeoff, in 
that the contamination in the water is increased by dispersant 
application. The objective is to achieve a net environmental benefit: 
to disperse the oil sufficiently to reduce the impact to wildlife and 
shorelines, but to do so in deep water where the dilution potential is 
high to minimize adverse effects on fisheries resources.
Natural Resource Damage Assessment Process
    I am involved with the response to the Deepwater Horizon Oil Spill, 
specifically in evaluating the impact of the spill for the purposes of 
Natural Resource Damage Assessment (NRDA). NRDA is the process where 
the Federal and state government agencies who are trustees for specific 
resources on behalf of the public may make damage claims against the 
responsible party. Under Federal regulations of the Oil Pollution Act 
(OPA) of 1990, the polluter pays for restoration and replacement of 
services provided by natural resources. The damages are the cost of the 
restoration. The procedure involves assessment of an adverse impact, 
known as the injury, and then planning a restoration activity that is 
sufficient to replace the losses, including consideration of the time 
for recovery.
Injury Assessment
    The goal of injury assessment is to determine the nature, degree, 
and extent of any injuries to natural resources and services. This 
information is necessary to provide a technical basis for evaluating 
the need for, type of, and scale of restoration actions. Under the OPA 
regulations, injury is defined as an observable or measurable adverse 
change in a natural resource or impairment of a natural resource 
service. Government trustees determine whether there is:

  <bullet> Exposure, a pathway, and an adverse change to a natural 
        resource or service as a result of an actual discharge; or

  <bullet> An injury to a natural resource or impairment of a natural 
        resource service as a result of response actions or a 
        substantial threat of a discharge.

    To proceed with restoration planning, trustees quantify the degree, 
and spatial and temporal extent of injuries. Injuries are quantified by 
comparing the condition of the injured natural resources or services to 
baseline, as necessary.

        ``Baseline means the condition of the natural resources and 
        services that would have existed had the incident not occurred. 
        Baseline data may be estimated using historical data, reference 
        data, control data, or data on incremental changes (e.g., 
        number of dead animals), alone or in combination, as 
        appropriate.'' (OPA regulations at  990.30).

        ``Injury means an observable or measurable adverse change in a 
        natural resource or impairment of a natural resource service. 
        Injury may occur directly or indirectly to a natural resource 
        and/or service. Injury incorporates the terms ``destruction,'' 
        ``loss,'' and ``loss of use'' as provided in OPA.'' (OPA 
        regulations at  990.30).
The Appropriate Scale of Restoration
    The basic concept underlying restoration project scaling is that 
restoration is to be of sufficient scale to produce resources and 
services of the same type and quality and/or of comparable value to 
those that were lost. The loss is quantified from the time of injury 
until the resources and services return to the level they would have 
been at in the absence of the impact. Services include ecological and 
human uses of the resources. The approach used is that the restoration 
project is scaled to compensate for the direct kill, indirect effects 
and lost services from the time of the start of the incident into the 
future until recovery is complete.
    For example, to scale a compensatory fish or shellfish restocking 
program, the equivalent number of eggs, larvae, or animals at the age 
they are stocked, is needed. The lost individuals will be replaced once 
that equivalent number of eggs/animals are stocked and the animals have 
gone through their normal life cycle to the age of the impacted animals 
they are to replace. The number killed by age class may be translated 
into an equivalent number at any age to be stocked using an age- or 
size-specific survival schedule.
    If it is not feasible to replace a species with individuals of the 
same species, other options are available for restoration, such as 
habitat restoration or protection projects. Salt marsh and seagrass bed 
restoration projects are frequently considered options as compensation 
for injuries to marine resources. The challenge is to determine an 
appropriate scale for the project to be compensatory (i.e., equivalent 
to the loss). The approach often used is to calculate the net (e.g., 
fish) production gain per unit of created (or preserved) habitat. The 
scale of the newly-created or enhanced habitat is made such that the 
new production produced by created habitat is equivalent to the loss.
    Protection and enhancement projects are often used for restoring 
wildlife. For example, seabird and sea turtle nest sites might be 
protected from human disturbance or predation. In addition, during the 
spill response, extensive efforts are made to clean and rehabilitate 
oiled wildlife.
    Restoration should not be arbitrary in scale or punitive, but 
should be proportional to the loss. Biological science is able to 
provide quantitative information that helps make this compensatory 
damage assessment possible. However, sufficient field- and 
experimental-based data are needed to make both the injury and 
restoration scaling assessments.
Preassessment Phase Activities
    At the present time, the trustees are gathering data with which to 
plan for and quantify injury. The focus is on collection of ephemeral 
data, i.e., information that might be missed or lost if not gathered at 
the time of the event. The ephemeral data collections are being made in 
cooperation with scientists assisting the responsible party, such that 
as much information as possible is collected with minimal duplication 
of effort and maximum mutual benefit. We are organized in technical 
working groups to plan and execute this data collection effort. 
Thousands of Federal and state scientists, as well as consultants and 
contractors, are engaged in this effort 24/7 to ensure we get the best 
information possible with which to assess the spill's impacts. Clearly 
this monumental effort needs support from the Federal Government, such 
that a good scientific analysis of the spill's impacts can be made.

    The Chairman. Thank you very much, Dr. French-McCay.
    I'll start.
    You mentioned, Mr. McKay, that there was--this is the first 
time anybody had ever drilled at that depth, and--didn't you?
    Mr. McKay. It's not the first time that people have drilled 
at this depth. There have been about 2,300 deepwater wells 
drilled, just in the Gulf of Mexico.
    The Chairman. At that depth?
    Mr. McKay. No. That's greater than 1,000. There's been 
quite a few drilled in greater depths than 5,000 feet.
    The Chairman. All right. Well, whatever. To me, the 
American Petroleum Institute sets the industry standards--am I 
right?--for the process and what--how one can proceed on 
drilling.
    Mr. McKay. There are various API standards that are set for 
pieces of equipment----
    The Chairman. I understand, but just answer my question. 
They do set the standards.
    Mr. McKay. The MMS sets regulations for the drilling of 
wells in the Gulf of Mexico offshore. API sets certain 
standards for individual valves and pieces of equipment, as I 
understand it.
    The Chairman. All right. And then, the Mines--Mineral and 
Mines Service--MMS
    [Minerals Management Service]--accepts those standards and 
then their permit is issued. But, in fact, it's all fairly 
voluntary. Am I correct, or not?
    Mr. McKay. There are about 25 different types of permits 
and applications to drill in the Gulf of Mexico. The MMS is the 
chief regulator for the Gulf of Mexico.
    The Chairman. But, they're taking their standards from the 
American Petroleum Institute. Am I right?
    Mr. McKay. I think some standards on equipment. I'm not 
familiar if they're taking ``many'' or--I think ``some'' 
standards, yes.
    The Chairman. I would just like the three of you to comment 
on the fact that--to me, that's--doesn't make any sense at all, 
that that's--that's like the coal mining industry deciding 
what's safe and what isn't, and there's no need for MSHA, the 
Mine Health and Safety organization.
    The --it would seem to me that the--having the industry set 
standards for itself on drilling at such enormous depths--and 
you say, even greater depths--and we happen not to be in a 
tropical storm season right now, but we will be shortly, and 
therefore the pull and tug of what goes on at that depth--that 
there ought to be regulations, or at least a standard, which is 
one other than that set by the American Petroleum Institute, 
which obviously is serving itself. I don't mean that 
maliciously, but it's just factual. It's setting the standard 
for the industry.
    I don't think that's right. I think it should be approved 
by people who--you know, the American Petroleum Institute can 
make their ideas available, but I think that it would be--it 
should be approved by people who have responsibility to the 
public--official responsibility to the public.
    And I wonder how the three of you feel about that.
    Mr. McKay. I'll start. I do believe that--as this event is 
understood fully, I do believe that the--obviously, the causes 
of this event will be extremely important. I do think that 
regulation will need to be looked at, in terms of what's 
needed, going forward further. We will learn from this, and it 
will affect regulation, I do believe that.
    The Chairman. Mr. Newman?
    Mr. Newman. Mr. Chairman, the American Petroleum Institute 
has published a comprehensive set of recommended practices 
governing all aspects of the oilfield spectrum, including 
recommended practices that apply, in this particular case, to 
blowout preventers.
    The Federal Government has set regulations that apply to 
activity on the Outer Continental Shelf. And those regulations 
are reflected in the CFR, Code of Federal Regulations, and in 
the--that particular section of the CFR which applies to 
blowout preventers does reference certain components of the 
API-recommended practices. There are comprehensive regulations 
that apply to blowout preventers which do reference the API-
recommended practices. So, I don't believe it's the situation 
where the industry is left to govern themselves. I think there 
is regulatory oversight. And the industry is held to compliance 
with those Code of Federal Regulations.
    The Chairman. Well, if there are regulatory oversight, I 
haven't heard it expressed yet. And I think that Mr. McKay 
indicated that there was a large amount of American Petroleum 
Institute, you know, standards of the industry which is 
involved in this, and that it, ultimately, is voluntary.
    And, plus, I'm not so much interested, right now, for the 
aftereffects of what happened in this particular problem, but 
in what led up to it. That is, the setting of the drilling, and 
what went wrong with the drilling, and what could have been 
stopped from happening if somebody other than the American 
Petroleum Institute had been setting the industry standard. It 
doesn't make sense to me.
    I think most industry--that's why you have OSHA, that's why 
you have MSHA, that's why you have a variety of groups--not to 
countermand--countermine, not to shut down, not to--but to just 
take a very hard look at, Can this work at that level? And what 
has been the previous experience at that level; and if it's 
been deeper, that becomes even more complicated. That is my 
reaction to it.
    Dr. French-McCay?
    Dr. French-McCay. You know, I--I'm not someone who's an 
expert in this particular problem. But, as someone who consults 
to the government, I think it's really important, (a) for 
industry to provide the information, because they have a lot of 
expertise; but, the government needs to review that thoroughly, 
and oversee it, definitely.
    The Chairman. And to what extent do you think they do 
review that?
    Dr. French-McCay. I don't know about blowout preventers and 
the drilling aspects. I do know about environmental impact 
assessment, and I think that they do provide oversight and 
review, but there's--obviously, there could be----
    The Chairman. But, that's ex post facto----
    Dr. French-McCay.--things that could be done better.
    The Chairman.--is it not?
    Dr. French-McCay. Excuse me?
    The Chairman. Environmental impact assessment would----
    Dr. French-McCay. Right.
    The Chairman.--would come----
    Dr. French-McCay. That would----
    The Chairman.--after----
    Dr. French-McCay.--come in the environmental impact 
assessment----
    The Chairman. After----
    Dr. French-McCay.--part.
    The Chairman.--an incident.
    Dr. French-McCay. Before, there should be one. Before the 
permitting, there should be an environmental impact assessment 
done.
    The Chairman. All right.
    Dr. French-McCay. Yes.
    The Chairman. All right. But, I think that, also, the 
setting of the well, what could go wrong, what obviously did go 
wrong this time, should be subject to more than just the 
industry assessing its own needs.
    Dr. French-McCay. Yes.
    The Chairman. Do you think I'm overstating that?
    Dr. French-McCay. No.
    The Chairman. Senator Hutchison.
    Senator Hutchison. Well, thank you.
    I have a question for each of you, so I hope I have time, 
but I won't encroach on the Senator from Florida.
    The next thing that you're trying to do, Mr. McKay is the 
relief well. How long will it take to get that up and going and 
providing the relief that we're all hoping it will be able to 
provide?
    Mr. McKay. We have two relief wells drilling, and those--
both of those wells are underway now. It could be around 3 
months to get both of those wells to the point where they could 
permanently secure the well. We are working on, obviously, the 
containment and collection, that you know about. And we're also 
working on what's called this ``top kill,'' within the next 
week or so, that we hope to be able to kill the well from its 
current configuration.
    Senator Hutchison. How effective do you think this 
containment-tube operation is that you're now employing. Will 
it get more effective over a 3-month period, or is what you're 
capturing now it?
    Mr. McKay. Well, we're just stabilizing the system. And 
before I came to the hearing this morning, I understand we're 
getting about 1,500 to 2,000 barrels a day. We will continue to 
ramp that up a bit. We don't want to draw in water, is why 
we're going slow with this. I think it will get more effective. 
We'll learn. It's possible we could come up with ideas to get 
it, you know, progressively more effective. And this--I do 
think the top kill is an option that we will, hopefully, be 
enacting in the next week or so, that--which will kill the 
well.
    Senator Hutchison. Yes. We all hope that we have something 
that's even more effective than what you've tried so far.
    Mr. Newman, U.S. regulators don't mandate the use of a 
remote-control device on the offshore rigs, where an underwater 
valve can be triggered to shut down the well. Well, we all know 
that the trigger didn't work. Was a shutoff switch in place, on 
the Deepwater Horizon oil rig? And, would the use of a remote-
control device have provided an additional level of safety that 
we need to be looking at for the future?
    Mr. Newman. Senator, the requirements--the regulations 
stipulate that you have two manual intervention panels on the 
rig. And in the case of the Deepwater Horizon, there were 
actually three manual intervention panels. The regulations 
require one remote automatic system. And, in fact, the 
Deepwater Horizon had two. One of those systems is referred to 
as a ``dead-man system,'' and the other system is referred to 
as an ``autoshear system.'' And the Deepwater Horizon was also 
fitted with ROV intervention capability.
    So, in addition to manual intervention on the rig, we had 
two automatic systems on the Deepwater Horizon, and one ROV 
intervention system. And I don't believe that the addition of 
an acoustic system, which is--which I believe is what you're 
referring to--I don't believe that the addition of an acoustic 
system would have made a difference, in this case.
    Senator Hutchison. So, you feel that the two systems are 
enough for backup, or is there anything more that----
    Mr. Newman. Well----
    Senator Hutchison.--could have been another level of 
backup?
    Mr. Newman. I believe that, in the case of the Deepwater 
Horizon, between manual intervention, automatic response----
    Senator Hutchison. And the----
    Mr. Newman.--and ROV intervention, there was the full 
capability to activate the BOP. I think, as a result of the 
incident, we will--we do need to reconsider the addition of an 
acoustic control system, but I do not believe an acoustic 
control system would have made a difference, in this particular 
case.
    Senator Hutchison. Dr. French-McCay, there is a naturally 
occurring oil seepage into the Gulf of Mexico. There is also a 
naturally occurring hydrocarbon-eating microbacteria that have 
allowed the ecosystem to balance out. My question is, Is there 
any scientific way that the naturally occurring bacteria can be 
transferred in to help mitigate a larger seepage, obviously 
like this one? Is that something that should be considered?
    Dr. French-McCay. Those sorts of things have been 
considered in other spills, and talked about, you know, for 
shoreline treatment and other kinds of degradation treatments. 
The problem is that it takes these bacteria a while to get 
going. And it's also a very big ocean. So, it's probably better 
to let the natural bacteria that are there, that are already 
adapted to hydrocarbons, grow, and they will, eventually. So, 
the material will degrade over time.
    Do I think there's anything that could be done to 
accelerate that? I doubt it, because it's such a big ocean. 
People have tried fertilizing, in the past, in smaller areas. 
And even that, it's doubtful whether that's really accelerated 
the degradation.
    Senator Hutchison. Thank you.
    The Chairman. Thank you, Senator Hutchison.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Mr. McKay, when did BP agree to pay for the flights to 
monitor the spill in the Loop Current?
    Mr. McKay. We've agreed to, effectively, under the Oilfield 
Pollution Act, to fulfill our full obligations as a responsible 
party, and that would cover those flights.
    Senator Nelson. And why does NOAA--as Dr. Lubchenco has 
testified, why does NOAA need to wait until the oil has reached 
the Loop Current in order to have you reimburse NOAA?
    Mr. McKay. I--what--the way I understood what she was 
saying, is she was get--that they're tracking the numbers, and 
we will reimburse NOAA. I don't believe we've been any 
impediment to pay, is my basic point.
    Senator Nelson. How--you've seen--I've got to move, Mr. 
Chairman. His head is right in my line of vision.
    How is it that BP is going to be able to afford all of this 
economic loss? Now, you're a well-endowed company, and I think 
in the last 3 months you all had something like 5 and a half 
billion of profit in 3 months. So, you clearly have the deep 
pockets. But, you can see the potential for economic loss if 
the relief well that's being drilled by Transocean right now--
as you just stated, Mr. Newman--doesn't get there for another 3 
months, and that oil continues to gush--it's basically going to 
cover up the Gulf. And, of course, it's already getting into 
the Loop Current. It's going to be around on the East Coast and 
in the coral reefs and the Keys. How in the world are you going 
to be able to pay for the economic-loss payments?
    Mr. McKay. Well, first and obvious, we're trying to do 
everything we can to stop this thing and--control the flow and 
then stop it. Second, we've been very clear we're going to 
cover all claims--all legitimate claims associated with the 
environmental impact as well as the economic impact. We've been 
as clear as we can possibly be.
    Senator Nelson. Do you support my bill to raise the 
liability limits from 75 million to 10 billion?
    Mr. McKay. Well, I haven't looked at the specific 
legislation. What we have been very clear about is, the 75 
million is--we're going to exceed that. That's irrelevant. And 
we've said that--it's just irrelevant in this case--we've also 
said that we're not going to seek reimbursement from the trust 
fund, that we're going to stand behind our intent, and pay all 
legitimate claims.
    Senator Nelson. Well, I want to ask Mr. Newman, Has 
Transocean said that you consider your limits of liability to 
be less than the statutory limit, now, of 75 million?
    Mr. Newman. Senator, there's a well-established framework 
that governs the relationships between the various parties. And 
under the framework, BP has accepted responsibility. And in 
response to repeated questions to that point, BP have accepted 
that responsibility. And I commend them for that.
    Our responsibility is to support BP in controlling the 
source, and in drilling the relief wells, and in supporting the 
operations out there.
    Senator Nelson. My question, however, was, Do you consider 
the limit of liability in statute, of 75 million to be the 
limit of Transocean's liability?
    Mr. Newman. Sir, that limit applies to--it applies to BP, 
in responding to the hydrocarbon spill. That limit does not 
apply to Transocean, with respect to the hydrocarbon spill, 
because Transocean has not been named as a responsible party.
    Senator Nelson. You are the manufacturer of the blowout 
preventer that did not work?
    Mr. Newman. We are not the manufacturer of the blowout 
preventer. We own the blowout preventer.
    Senator Nelson. I see. Who's the manufacturer?
    Mr. Newman. Manufacturer of the blowout preventer is 
Cameron.
    Senator Nelson. Do you think they bear some liability in 
that the blowout preventer didn't work?
    Mr. Newman. Senator, I think--until we have a full airing 
of the facts and a comprehensive understanding of exactly what 
happened, I think it's premature to conclude that the BOP 
didn't work. It has been ineffective in stopping the flow of 
hydrocarbons, but there could be conditions that that blowout 
preventer was subjected to that would be outside the 
expectation of the performance of that blowout preventer.
    Senator Nelson. So, the fact that you all were the 
operators of the blowout preventer and the drilling of the 
well, you consider that liability for economic loss not to be 
yours, but, rather, to be BP's. Is that what I heard you 
testify?
    Mr. Newman. Yes, sir. That is according to the established 
framework of the relationships between the various parties.
    Senator Nelson. Mr. Chairman, you're going to see lawsuits 
like you've never seen before between the various entities, 
because this economic loss is going to skyrocket higher than 
our space program.
    The Chairman. That's 150 miles.
    Senator Nelson. No, sir. We went all the way to the Moon--
--
    The Chairman. That is true. I----
    Senator Nelson.--and that's----
    The Chairman.--retract my statement.
    Senator Nelson.--250,000 miles. And----
    The Chairman. As I said----
    Senator Nelson.--that was just with humans. We've gone past 
the edge of our solar system, and we're out in deep, deep, deep 
space with our spacecraft.
    The Chairman. As I said, I stand corrected.
    [Laughter.]
    The Chairman. Is that it? All right.
    Senator Wicker.
    Senator Wicker. Thank you very much.
    Mr. McKay and Mr. Newman, when a deepwater well is being 
dug like this, occasionally natural gas gets into the line and 
causes what I've learned to be known as a ``kick.'' Is that 
correct?
    Mr. McKay. Yes, that can happen.
    Senator Wicker. It's my understanding that, with this 
particular well, there were perhaps more of these ``kicks'' 
than usual. Is it true, and I'll ask both of you, is it true 
that, at one point during the several-week period before this 
tragedy, that, because of a certain belching up to the surface, 
of this gas, all work was halted on the rig?
    Mr. McKay. I'll go first. What I know--and I may not know 
the entire history accurately--but, what I've been told is, 
there were two kicks. I don't know if both of them were gas. 
One may have been saltwater, but there was a kick--there was 
one kick that shut down what's called ``hot-work'' and fired 
equipment around the rig floor, I believe.
    Senator Wicker. ``Hot-work'' is anything that causes a 
spark or might----
    Mr. McKay. Something----
    Yes.
    Senator Wicker.--ignite.
    Mr. McKay. Welding and things like that.
    Senator Wicker. OK.
    Is that correct, Mr. Newman?
    Mr. Newman. Senator, I have not yet received a full list of 
all of the events that took place during the drilling of the 
well. I have reviewed one well-control event which occurred 
during the second week of March. And as a result of that 
particular well-control event, as Mr. McKay has indicated, we 
would have suspended all hot-work during that time.
    Senator Wicker. OK. Should that have been a warning sign to 
either of your companies that this well was going to be 
problematic and that you needed to be more careful than 
unusual?
    Mr. McKay. I think the investigation will be looking deeply 
into this, in terms of what happened, and what happened after 
that, in terms of recognition and understanding of those type 
of events as things unfolded.
    The Chairman. I think the Senator deserves a more direct 
answer than that.
    Mr. McKay. Could you repeat the question?
    Senator Wicker. Can we have the question reread?
    Should this have been a warning sign, to say this well 
should have been treated more carefully because of the incident 
where the entire operation had to be shut down?
    Mr. McKay. I think--my personal opinion is that kicks 
happen. They do happen relatively frequently----
    Senator Wicker. Is it----
    Mr. McKay.--and should----
    Senator Wicker.--frequent for one to cause a shutdown of 
the work?
    Mr. McKay. ``Frequent'' maybe is not the right word. They 
happen. And it could have very well been a warning sign.
    Senator Wicker. Would this be so unusual, Mr. Newman, that 
it should have been considered a warning sign that this well 
was problematic and you should have been more careful?
    Mr. Newman. If I could, Senator, during the drilling of a 
well, there are regular occurrences when the drill bit will 
penetrate formations that have hydrocarbons in them--maybe not 
in commercial quantities, but certainly some amount of 
hydrocarbon in them. And as the drill bit penetrates those 
formations, and those rock cuttings are brought to the surface 
along with the drilling fluid, there will be dissolved 
hydrocarbons in the drilling fluid and hydrocarbons in those 
rock chips. And at the surface, that hydrocarbon will come out 
of solution--it will come out of the drilling mud, it will come 
out of the rock cuttings.
    There are sensors all over the rig that are designed and 
installed specifically to detect that. And when those sensors 
go into alarm status, to indicate a minimum level of what we in 
the industry call ``background gas''--when those alarm sensors 
indicate a minimum level of background gas, all hot-work on the 
rig will be suspended. That's just standard operating 
procedure.
    And so, that--that's not an unusual occurrence, to have 
that happen during a well. It is not necessarily an indication 
that this is a problematic well.
    Senator Wicker. OK. Well, I finally got an answer to that 
question, with 17 seconds left.
    Tell me about this argument that occurred between 
Transocean and BP about whether to send ``mud'' down to the 
bottom, as a protection against a blowout, or saltwater. Either 
one of you, both of you.
    Mr. McKay. I've not had the chance to review any witness 
accounts. I think what we're going to have to do is put this 
together in the investigations and understand what everybody 
saw, what everybody heard, what type of data--digital or 
physical--was utilized, and how the events unfolded, in 
reality.
    Senator Wicker. Mr. McKay, this is a Congressional hearing. 
Are you telling me in the 4 weeks since this tragedy, you have 
not had conversations within BP about an argument that has been 
documented in the press, between your company and Transocean 
and others, about whether it was safer to put mud down there or 
saltwater? Surely you've had conversations and can tell this 
committee about that.
    Mr. McKay. I have not had conversations about that. About 
that--that conversation I think you're referring to was on--I 
believe, on 60 Minutes, Sunday night. I have not had 
conversations about that.
    The investigation that's underway undoubtedly will look 
into that. And thank God 115 people got off the rig to be 
interviewed. Those were mostly Transocean employees. We've not 
talked to Transocean employees yet. So, no, I have not had that 
review.
    Senator Wicker. Actually, I'm referring to an account dated 
much prior to the 60 Minutes story. This is May 11, the Times 
Picayune.
    I know we're intruding on the time.
    Were you aware, Mr. Newman, of an argument that took place 
about whether it would be safer to put mud or saltwater down at 
the bottom of this rig, and saltwater won out, the less safe of 
the two options?
    Mr. Newman. I am aware of references to discussions between 
Transocean and BP with respect to the specific procedure to be 
followed.
    Senator Wicker. Can either one of you, then I'll just have 
to quit, and it's unfortunate that the hour's so late--can you 
get back to us on who, in both companies, was involved in this 
discussion, and their account of the safety considerations that 
went into the decision not to use mud, and to use saltwater 
instead? Can you both get back to us on the record about that?
    Mr. Newman. With all due respect, Senator, the--some of the 
Transocean people who may have been involved in that 
conversation are, sadly, no longer with us.
    Senator Wicker. Well, then, as tragic as that was, will you 
interview the people present, and get back to us, on the 
record?
    Mr. Newman. That is absolutely part of our investigation, 
Senator.
    The Chairman. Well, then why didn't you just say, ``Yes, we 
will''?
    Mr. Newman. Yes. Yes.
    Mr. McKay. Yes. And we're sharing everything from our 
investigation.
    Senator Wicker. All right. Will there be another round, Mr. 
Chairman?
    The Chairman. There will be.
    Senator Wicker. OK.
    The Chairman. Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    Just before my colleague from Mississippi, my colleague 
from Florida was asking some questions to Mr. Newman about 
their responsibility as a responsible party for the 
environmental impact and the economic impact.
    Mr. McKay, do you share Mr. Newman's stated view that 
Transocean is not responsible for the economic or environmental 
damages?
    Mr. McKay. We--all I can say is that we have accepted to be 
a responsible party, under the Oilfield Pollution Act. We're 
going to fulfill every obligation as regards that. I've been 
clear that we're going to put fault, blame, and other issues to 
the side until the investigations are finished and we know what 
happened. So, we're fulfilling our obligations.
    Senator LeMieux. So that I understand that clearly then, 
British Petroleum is taking the responsibility to be solely 
responsible for the economic and environmental damages.
    Mr. McKay. I'm saying we're taking our responsibilities, 
under the Act, fully, which are broad responsibilities, and we 
are bearing those. We will put fault and blame and recovery, 
let's say, if there is any, off to the side until the 
investigations understand what happened.
    Senator LeMieux. Are you, then, leaving open the 
possibility that you're going to say, back to the Federal 
Government, ``Look, we're only responsible for 50 percent of 
this, because Transocean or some other party is responsible for 
the rest''?
    Mr. McKay. No, I'm not saying that.
    Senator LeMieux. You're responsible for all of it. You'll 
seek whatever remedies you think are appropriate against other 
parties.
    Mr. McKay. We've accepted, as a responsible party, yes. So, 
that, sir----
    Senator LeMieux. I got that right the way----
    Mr. McKay. Correct.
    Senator LeMieux.--I phrased that?
    Mr. McKay. Yes.
    Senator LeMieux. OK.
    I've sent your boss a letter, which I think you're aware 
of, last week, based upon my concern that this oil is going to 
wash up onshore in Florida and the other Gulf States. We have 
heard, today, there are tar balls in the Florida Keys. Now, I'm 
going to ask Dr. French-McCay, in a moment, whether she shares 
Dr. Lubchenco's view as to why those might be there. Assuming 
that we're already seeing oil come ashore in Florida, and if 
it's going to take you another 90 days, under the worst-case 
scenario, to drill these relief wells, we could have oil 
continue to flow out at, whatever it is, 5,000 barrels a day, 
or more.
    I want to make sure, as I've stated to you, to your 
company, in the letter, that we have enough funds in the hands 
of local governments, state governments to prevent this oil 
from coming onshore. Do you have a response to me today about 
setting up this fund to fully allow the States and local 
governments to mitigate and prevent this oil from coming 
ashore?
    Mr. McKay. We are definitely supportive of getting the 
resources to where they're needed, with all the different 
states. I'm not prepared, today, to give you an exact answer on 
your specific proposal, because we've got several proposals 
across the Gulf Coast. But, we are evaluating that.
    Senator LeMieux. Will you get me a response----
    Mr. McKay. Yes.
    Senator LeMieux.--shortly?
    Mr. McKay. Yes.
    Senator LeMieux. Within the week, do you think? Is that 
fair?
    Mr. McKay. Yes.
    [The information referred to follows:]

                  Exploration & Production--BP America Inc.
                                          Houston, TX, May 25, 2010
Hon. George S. LeMieux,
U.S. Senate,
Washington, DC.

    Tony Hayward has asked that I respond to your letter regarding the 
possible impact on tourism and the shoreline from the oil spill in the 
Gulf of Mexico.
    The Gulf Coast community is home to many BP families who cherish 
the Gulf eco-system. They share the same sense of urgency in addressing 
the economic impact of this spill, and in supporting tourism across 
these beautiful States.
    We have received many suggestions on how to address the 
environmental and economic impact of the spill on these States. We are 
committed to paying all legitimate claims for economic loss, and will 
do so for as long as those losses continue. We are also determined to 
understand the impact of the spill, and its associated response, on the 
marine and shoreline environment of the Gulf of Mexico. Yesterday, we 
announced the formation of a broad research program to investigate the 
impacts of the oil, dispersed oil, and dispersant on the ecosystems of 
the Gulf of Mexico and coastal States. The program, a commitment by BP 
of $500 million over a period of 10 years, will also develop improved 
oil spill detection and remediation technologies.
    On May 5, we provided $100 million to assist the States of Florida, 
Alabama, Mississippi and Louisiana with their response to the spill, 
with each State receiving $25m to accelerate the implementation of Area 
Contingency Plans. Additionally, on May 17, we made available a further 
$70 million to help promote tourism and commerce as part of our ongoing 
commitment to mitigate the economic impact of the spill. Florida's 
share of the $170m is $50m.
    We will continue to identify and address the economic impact of 
this event. We have said from the outset of the Deepwater Horizon 
incident that we will not hide behind any spending cap. We've put in 
place a claims process and it is working. To date we've put millions of 
dollars in the hands of thousands of fishermen who are out of work 
because of this spill and we have provided funds to compensate 
businesses that have been impacted.
    We remain absolutely committed to stopping the leak, cleaning up 
the spill and working to restore the Gulf Coast communities.
    We look forward to your guidance and partnership in the months 
ahead.

                                              Doug Suttles,
                                           Chief Operating Officer.

    Senator LeMieux. Dr. French-McCay, we just heard Dr. 
Lubchenco say these tar balls that we're seeing in the Keys 
could be the result of oil that came from the initial 
explosion. This is far ahead of the projections of the oil 
getting into the Loop Current. We weren't expecting, for 5 
days, 7 days, to get down to the Florida Keys. Then, yesterday, 
we see tar balls, and now we see more reports this morning. 
Does that sound, based upon your research, does that sound like 
that could be a plausible explanation for what happened?
    Dr. French-McCay. That does sound like a plausible 
explanation. I think we need to find out what those tar balls 
are. You know, they can be fingerprinted to determine whether 
or not they came from this spill, or whether they might have 
come from seeps or--there are a lot of tar balls that are 
released in the ocean from, you know, tankers cleaning their 
vessels and all sorts of releases. So, it's possible it came 
from some other source. So, until we know exactly what the 
source is, it's not clear. It's technically possible to get 
them down there, but it would have had to have been early 
released oil, as she said. Yes.
    Senator LeMieux. Do you have an opinion as to whether or 
not these tar balls are toxic to humans?
    Dr. French-McCay. If someone were to eat them, I suppose 
that could be toxic. But----
    Senator LeMieux. No. Granted. But----
    Dr. French-McCay.--nor----
    Senator LeMieux.--touching them----
    Dr. French-McCay. Yes. No. It's like road tar.
    Senator LeMieux. Right.
    Dr. French-McCay. The more weathered the oil is, the less 
toxic it is. So, the more dangerous oil is the fresher oil.
    Senator LeMieux. The reason I bring this up, Mr. Chairman, 
is the point I made earlier; that there's an advisory out, now, 
about not going near the tar balls, and that you should have 
hours of training. When I was a kid, in Fort Lauderdale, we'd 
go to the beach and we'd get tar on our feet, because the 
tankers were washing out.
    Dr. French-McCay. Right.
    Senator LeMieux. That stopped, thankfully. We don't have 
that anymore. But, it wasn't like they were toxic. The reason I 
raise the point is that, if we're going to get volunteers 
involved and local communities involved to go get these tar 
balls off the beach, collect them, and make sure that we can 
have a good volunteer effort, it seems to me incongruous to say 
that we shouldn't have people going near them.
    So, I appreciate your direct answer to that question.
    Dr. French-McCay. Yes, that's--I have a comment on that, 
actually. All of the responders, including my team from my 
company, have to take this training. It's just part of safety 
training, and we can do it online. So----
    Senator LeMieux. It's not a big burden?
    Dr. French-McCay. No. It's not a----
    Senator LeMieux. OK.
    Dr. French-McCay.--big burden. It----
    The Chairman. Senator----
    Dr. French-McCay.--the idea----
    The Chairman.--Klobuchar.
    Dr. French-McCay.--is not to put volunteers in harm's way.
    Senator LeMieux. OK.
    The Chairman. Senator----
    Senator LeMieux. Thank you, Mr. Chairman.
    The Chairman. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you. And that was, actually--thank you Senator 
LeMieux, that was interesting questions. I----
    The --I want go back to you, Mr. Newman, and just talk 
about some of the past. I'm very focused on how we could have 
prevented this. I'm--my background's as a prosecutor. I always 
look at, when we'd have a murder case or whatever, how could we 
have prevented it.
    The Wall Street Journal has reported that Transocean had 
faced more frequent Federal scrutiny than comparable deepwater 
drilling companies. Nearly three in four investigations into 
safety and other problems in the last 2 years were 
investigations of your company, and that includes an increase 
in incidents above and--what would be expected after your 
merger with Global Santa Fe in 2007. Since 2005, the Minerals 
Management Service investigated four fires aboard deepwater 
drilling rigs, all of which were owned by Transocean.
    Can you explain the nature of these incidences? And, given 
what's happened, that you have 138 mobile offshore drilling 
units, what steps have you taken to make sure another disaster 
like this doesn't happen? So, it's really two things.
    Mr. Newman. So, first, in response to your question 
regarding safety performance in the Gulf of Mexico----
    Senator Klobuchar. The nature of those four incidences with 
the fires on the rigs.
    Mr. Newman. Right. I remember, specifically, two of them, 
Senator. One was an engine-room fire, and the other was a fire 
that occurred during a refueling operation of a crane. I--I'm 
familiar with the circumstances of those events. They were 
fully investigated. We understood the root causes, and we took 
steps to ensure that those types of incidents did not reoccur.
    So, that's a standard practice within the company when an 
incident of that nature occurs. We conduct a thorough 
investigation; we do a full root-cause analysis, so we 
understand what happened; and, where necessary, we take steps 
to ensure that such an incident doesn't happen again.
    Senator Klobuchar. And then, going forward, in light of 
what's just happened, with your 138 other operations.
    Mr. Newman. Yes. In the absence of that pattern having 
fully played out in this particular incident, we don't yet have 
a thorough understanding of what happened. And we don't yet 
have a thorough root-cause analysis. The information that we 
have distributed across the worldwide Transocean fleet has been 
simply a reinforcement of the company's existing comprehensive 
safety management system, maintenance practices, and----
    Senator Klobuchar. And, are----
    Mr. Newman.--emergency response.
    Senator Klobuchar. Are you supportive of the President's 
idea of appointing a panel to start looking into this?
    Mr. Newman. I think we're as focused as anybody in this 
particular event in----
    Senator Klobuchar. I asked----
    Mr. Newman.--understanding----
    Senator Klobuchar.--are you supportive of the President's 
support----
    Mr. Newman. I'm supportive----
    Senator Klobuchar.--President's----
    Mr. Newman.--of whatever----
    Senator Klobuchar.--panel----
    Mr. Newman.--process allows us to get to a full and 
comprehensive--and, if I can use the Chairman's terms, a full 
and transparent accounting of what happened. And if the 
President's Commission helps us to do that, then I'm supportive 
of it.
    Senator Klobuchar. Well, remember, I mean, it's looking at 
not just your conduct of your company, but also government 
agencies. And I just look--when you look at other disasters, 
whether it's Three Mile Island or 9/11, I think it has been 
helpful to bring in other points of view.
    Mr. McKay, last week you testified, before the EPW 
hearing--you and I had an exchange about this USA Today article 
that reported that BP opposed the Mineral Management Agency's 
proposal to require drillers to perform independent safety 
checks, because the new rules would have been, quote, ``too 
costly.'' That was in the USA Today article.
    I'm just asking you, again, if you still think those 
regulations would be too costly. I know at the time, BP wrote, 
quote, ``We believe the industry's current safety and 
environmental statistics demonstrate that the voluntary 
programs continue to be very successful.''
    So, one, do you still think they were too costly? And, two, 
do you still agree with this statement? And do you, in fact, 
support, now, some tougher regulations and tougher financial 
penalties?
    Mr. McKay. Well, I think the real point is, we're for 
anything that makes this safer. We've got to figure out what 
happened here. And we're--will be supportive of regulation that 
will make this safer. Absolutely.
    Senator Klobuchar. I didn't--I note that the National 
Research Council found that, for tankers, oil spillage dropped 
off significantly after 1991, following passage of the Oil 
Pollution Act. The oil industry attributes the reduced spillage 
to preventative measures and increased industry concerns over 
escalating financial liability.
    So, do you believe tougher regulations and tougher 
financial penalties, in this case, will produce similar results 
that the Oil Pollution Act did after the Exxon Valdez spill?
    What happened there was, a disaster happened, we changed 
the rules, and we saw reduced incidences and reduced spillage. 
Do you think the same thing could happen here?
    Mr. McKay. I think a relook at some of the regulations is 
going to be warranted here. I think we will learn what 
happened. And I think that's going to inform that. And I think 
the Oilfield Pollution Act does give us structure to act under. 
I do.
    Senator Klobuchar. OK. Thank you very much.
    The Chairman. I'll ask the next question, Mr. McKay. 
Actually, I'm going to ask two.
    After the Exxon Valdez accident--and Exxon just delayed and 
delayed and delayed and delayed and stretched litigation 
claims, and do what people on the defense do. And so, they--it 
just took a very long time to get those claims settled. But, 
that's not my question.
    We--as a result of that, we passed a law, the OPA-90 law. 
And it assigned responsibility to the responsible party--those 
are in the law, those words, ``responsible party''--the 
responsible party for an offshore facility, in the law, is the 
lessee or permittee of the area in which the facility is 
located. Now, I think that you have agreed with that. I've not 
heard this agreement before. But, Mr. Newman indicated that you 
agreed with that. Do you?
    Mr. McKay. I do agree with that. We've responded, in 
writing, formally, that we are a responsible party, under the 
Oilfield Pollution Act, as a lessee. Yes. And we plan on fully 
fulfilling those obligations.
    The Chairman. And do you intend to do that to the extent--
not just the waiving of the liability cap and all that kind of 
thing, but to the extent that the American taxpayer will not 
have to pay? Can you tell us that the American taxpayer will 
not have to pay for what has happened as a result of this 
accident?
    Mr. McKay. Yes. We've been clear. Our intent is to pay all 
legitimate claims, cover----
    The Chairman. The word ``legitimate'' makes me nervous.
    Mr. McKay. It's not meant to be--it's not meant to be in 
anyway legalistic. It's meant to follow the Coast Guard 
protocols and guidelines that have been utilized under the 
Oilfield Pollution Act. We do intend to pay all those claims. 
It includes reimbursements for costs for--by the government 
agencies--clean-up costs, property damage, personal injury. We 
do plan on paying those, yes.
    The Chairman. All right. So, the--I should not worry about 
the word ``legitimate.'' It--that's just a technical word, 
you're saying?
    Mr. McKay. It's--it means--it just means what it is: 
legitimate. It needs to be substantiated. It follows the 
guidelines within the Act.
    The Chairman. All right.
    Mr. McKay. Yes.
    The Chairman. To both you and Mr. Newman, the 60 Minutes 
report--in that, one of the employees on the rig told of the 
pressure--now, I've--this is a question that comes from very 
deep within my soul, because this is a fact of life in West 
Virginia within the coalmining industry, that there are some--
we just had a disaster there. A lot of people were killed. And 
the CEO required production--the status of production, in all 
of his mines, every 2 hours, every day. It had to be on his 
desk.
    What is the message to the coalminer? Safety is pushed 
aside. Inherently, people become more nervous about doing what 
they know they ought to do, and, in fact, what regulations 
require them to do. But, it's very far removed. It's 
underground. Ninety-nine percent of West Virginians have never 
been into a coal mine--underground mine. So, it's all removed. 
It's a secret world. And yours is the same situation.
    Since the Exxon Valdez, nobody's really paid a great deal 
of attention. Now they have to, because this is a catastrophe 
of just extraordinary national dimensions, and we don't know 
where it will end.
    But, one of the crewmembers felt that to get the well set 
quickly was important, because the project was behind, and--he 
said, ``And drilling a bad well had already cost $25 million,'' 
so they had to start over. The message, to me, was very clear--
to the crew--that time is money, and profits are more important 
than safety.
    Do you want--either of you want to comment?
    Mr. Newman. Mr. Chairman, I'll be happy to answer that 
question. We are a customer service organization. We market our 
services to our customers, we lease our rigs to our customers, 
and customer satisfaction is important to us. But, we will 
never compromise safety in pursuit of customer satisfaction.
    I have taken phone calls, in the middle of the night, from 
customers who are upset because our people have drawn a line 
and will not proceed. They are--they have raised legitimate 
safety concerns. Those concerns have been met with resistance 
by our customers. And the customers have elevated that concern 
all the way to my level. And every time, I have stood behind 
our people.
    The Chairman. The Committee would interested in having some 
examples of those phone calls. That's not invasion of privacy; 
it seems to me a perfectly legitimate request. In any event, 
I'm making that request, as chairman of this committee, that 
we--that you make available to this committee some of those 
calls, even if you have to recall them in your own mind, 
because I want to believe what you're saying. And I'm not going 
to until I see what they asked or what their gripes were, and 
how you didn't back away.
    Mr. Newman. They--understanding that they will be 
recollections in my own words----
    The Chairman. Yes.
    Mr. Newman.--about the sequence of events----
    The Chairman. That's----
    Mr. Newman. Absolutely.
    The Chairman. Thank you.
    Mr. McKay, Mr. Newman has stated that, at the time of the 
explosion--and this has been discussed, but I want it to be 
very clear--Transocean's crew was in the process of displacing 
drilling fluid with seawater--and this is the important point--
at BP's direction. My question is, Is this true?--first.
    Mr. McKay. The procedure did call for that operation, yes.
    The Chairman. So, BP gave that direction.
    Mr. McKay. That procedure was written by BP, I believe. 
Yes.
    The Chairman. But, BP, therefore, gave that direction. It's 
not hard to answer that. I think your answer is yes. It's 
just--you have----
    Mr. McKay. Yes.
    The Chairman.--to say it.
    Mr. McKay. The BP writes--BP does a procedure to construct 
the well. Transocean, as the operator, operates the rig to 
construct it.
    The Chairman. It--is it a standard industry practice to 
take this step, when there have been anomalous pressure 
readings on the sealed wells, just hours earlier?
    Mr. McKay. I think the entire history of that few hours 
between when the anomalous pressures were read, and then what 
happened after that, is the subject of multiple investigations. 
And I think it's extremely important to understand the 
totality--whether decisions were made, conversations were made, 
arguments were had, data was transferred, data was monitored. 
All that has to be put together to understand what happened in 
those hours.
    The Chairman. It's interesting to me that the both of you 
are so careful in your language. And I think I understand that, 
as a human being, because you're on the defensive, and you're 
not sure what's going happen, and you don't know what the--all 
the litigation's going to be, and you're nervous. And it may be 
that your lawyers and lobbyists are telling you what to say, 
because you have to really be careful in what you say, and you 
don't want to say something that would create a different 
impression from--you understand what I'm saying.
    Mr. McKay. Could I make a comment?
    The Chairman. Yes, you can. I'm not attacking you for it--
--
    Mr. McKay. I----
    The Chairman.--I'm just making an observation.
    Mr. McKay. I'm honestly saying this, because I don't know 
what happened. There are multiple conversations, and lots of 
data, in a dynamic situation that we have not been able to 
put--piece together yet. We're in the middle, still, of the 
crisis and we're starting the investigations to get to this. I 
literally don't know.
    The Chairman. I know. I understand that, but I--I'm just 
telling you, that, as one Senator, it stretches, a little bit, 
credulity that the ``waiting until all the information is in'' 
overweighs what two very experienced people--and you've said 
that you're a trained engineer in all of this, Mr. Newman--that 
you wouldn't have your own views on the subject, which would--
might be, you know, valid--verified by the investigation 
itself. But, you're just--you're very--you're careful, to the 
extent that it makes it harder, for those of us who make laws, 
to believe you.
    Mr. McKay. I'm sorry that I'm frustrating you. What I 
cannot possibly do is speculate on what happened, because it is 
a very complicated situation that evidently happened there--
lots of dynamic things going on, lots of data, lots of 
conversations. I'm sorry I'm frustrating you, but that is--I 
cannot speculate on that until the investigations are done. 
There are multiple investigations underway. I am confident, 
however, that it will be figured out relatively soon. I don't 
think this is going to drag out, in terms of what happened on 
the rig. And I think the investigations will get there. And I 
am confident of that.
    The Chairman. All right. I'll accept that. And my time is 
out. I'll accept what you say.
    And we then go to Senator Nelson.
    Senator Nelson. Mr. Chairman, I have been looking, on a 
BlackBerry, at the new video that was released by BP today 
that--we put it on my website and my Facebook account, and--I'm 
going to hand it to you in just a minute. I want you to see 
this, because it is much more clear than what we've seen 
before. And it is gushing what you would expect--a 21-, 22-inch 
pipe that is gushing oil under the ocean. And I want you to see 
this.
    The Chairman. Could you give the name of your website, 
please? I just think it's important for people to go to it.
    Senator Nelson. OK. It's www Bill Nelson dot Senate dot gov 
[www.BillNelson.Senate.gov]. And I want you to see this as I'm 
asking these questions, because it dramatically--when you see 
something as clear as that, with the gusher coming up, and 
realize that that's a 21-, 22-inch pipe.
    Now, I want to ask Mr. McKay--you said that this riser 
insertion tube is working. And you gave an estimate, before, of 
how much oil is being removed from that riser. Can you tell us 
what that is?
    Mr. McKay. The update I got earlier this morning was 
somewhere between 1,500 and 2,000 barrels of oil a day.
    Senator Nelson. And that's assuming that the overall is 
what was first estimated at 5,000 barrels per day.
    Mr. McKay. No. That's an actual measurement at the surface, 
of what's coming to the surface----
    Senator Nelson. I see.
    Mr. McKay.--through that tube.
    Senator Nelson. I see. So, percentagewise, it depends how 
much you're getting, depending on how much the actual gusher 
is.
    Mr. McKay. That's correct.
    Senator Nelson. OK. So, you know how much you're getting, 
because that's how much you're recovering at the surface.
    Mr. McKay. That's correct.
    Senator Nelson. OK. Let me ask you--you saw, on that chart, 
on the Loop Current----
    Let me have the one at 10 days. OK. That's the one at 5 
days. Give the one at 10 days. Well, that's the one at 8 days, 
but that'll make the point.
    You saw how this is coming up by the Florida Keys, and the 
one at 10 days--if you'll hand me that one--yes--that, then, 
brings it all the way up to the southeast coast. Now, my 
question to you is--you've said that you're going to take care 
of the economic loss. You see the potential, here--85 percent 
of the living coral reefs of North America are right there. If 
that is severely damaged, or that coral reef is killed, how in 
the world are you going to pay for that economic loss?
    Mr. McKay. Well, first and foremost, we're going to do 
everything we can to not let it get there, by shutting it off 
at the subsea and fighting it on the surface. And obviously the 
Coast Guard is--through the Unified Command structure, 
everything we can do to protect those areas is going to be 
done. Everything we can do. Nothing is being spared to protect 
it.
    Senator Nelson. Well, that's--I must say, that is a 
priceless resource. I think you see the potential.
    I want to ask Dr. French-McCay--you testified, earlier, 
that chemicals are being released from the oil that, I thought 
you said, in the early stages, are toxic. Would you describe 
that, and what is the effect on the marine environment?
    Dr. French-McCay. You know, from fresh oil--fresh oil has a 
lot of lighter hydrocarbons, including these toxic components, 
and they dissolve quickly from the oil--in the first few days, 
primarily, although it can be longer. So, the key thing is how 
fresh the oil is by the time it gets to a particular area. So, 
the toxicity is going to be more around the fresher oil.
    Senator Nelson. Can you explain that? What is the toxicity, 
and what are the components that are so toxic?
    Dr. French-McCay. Right. OK. The benzenes, toluene, and 
also PAHs, naphthalenes, and phenanthrenes are the names of 
them. So, they're small. They're one-, two-, and three-ring 
benzene-type hydrocarbons. And they're semisoluble and soluble. 
And they're also volatile.
    So, when the oil is floating, they'll evaporate off. When 
the oil is in the water, as droplets, they dissolve. The 
smaller those droplets are, the faster they dissolve into the 
water.
    So, if you disperse it into very small droplets, you're 
going to have a lot of dissolution quickly into the water. So, 
the toxicity should be near the fresher oil, and particularly 
the smaller droplets, as opposed to weathered tar balls that 
have been out there for weeks.
    Senator Nelson. Right. So, when oil is released at that 
depth, of 5,000 feet, and it is fresh oil, and it is together--
it's not dispersed----
    Dr. French-McCay. Right.
    Senator Nelson.--and these toxic elements that you just 
named disperse, what do they do, and what do they harm?
    Dr. French-McCay. They disperse out and dilute out with the 
water, and they're absorbed by whatever organisms are exposed. 
So, all the organisms that are in that deepwater would be 
exposed to those toxins. They get into the tissues, and they 
disrupt the function of the organism.
    Senator Nelson. And what are some of those organisms?
    Dr. French-McCay. Oh, all sorts of plankton, like 
jellyfishes, fishes that are in the deep sea, various squids; 
there are organisms on the bottom of the sea, too, that might 
be exposed. So----
    Senator Nelson. And----
    Dr. French-McCay.--a whole variety of fish and 
invertebrates, basically.
    Senator Nelson. And what is the long-run effect of those 
organisms absorbing those toxins?
    Dr. French-McCay. Typically, it's a--they have acute 
effects, as we call them, which are short-term mortality or 
lost growth or lost function. That can affect the populations, 
in the longer term. We are trying to determine what that--you 
know, the magnitude of that problem, as we speak.
    One of the problems in the deep sea is, there's not a lot 
of data on what's down there. So, we're trying to get that data 
right now, in areas that haven't been affected yet, so that we 
have a baseline in order to make that kind of an evaluation. 
So, we have sampling going on right now on ships in the 
vicinity, more toward Florida, where it hasn't been affected 
yet, and so on.
    Senator Nelson. Thank you very much.
    The Chairman. Thank you, Senator Nelson.
    Senator Wicker.
    Senator Wicker. Thank you very much.
    Mr. McKay, you mentioned there are multiple investigations. 
Do you mean that BP is conducting multiple investigations?
    Mr. McKay. I mean that BP has one internal investigation, 
and then there is the joint Homeland Security and Interior 
investigation, the Marine Board, and there are other 
Congressional investigations.
    Senator Wicker. I see. And your employees, to the extent 
that they are available, are testifying before those government 
investigative----
    Mr. McKay. Yes.
    Senator Wicker.--bodies.
    Mr. McKay. I believe so.
    Senator Wicker. Who is running your BP internal 
investigation?
    Mr. McKay. A senior executive that heads up our safety and 
operational integrity unit, which is a separate unit that--and 
his name is Mark Bly.
    Senator Wicker. OK. How long has he been assigned to this?
    Mr. McKay. A few days after the incident.
    Senator Wicker. OK. Is he issuing interim reports?
    Mr. McKay. He--I don't--that's a good question. I don't 
know.
    Senator Wicker. But----
    Mr. McKay. I don't know.
    Senator Wicker.--he hasn't been reporting to you, the----
    Mr. McKay. No.
    Senator Wicker.--head of BP America.
    Mr. McKay. He has been doing an independent investigation.
    Senator Wicker. OK. And you have not received interim 
reports.
    Mr. McKay. No.
    Senator Wicker. Now, Mr. Newman, is Transocean conducting 
an internal investigation?
    Mr. Newman. Yes, sir. As I indicated in my opening remarks, 
I did constitute an independent investigative team comprised of 
Transocean and industry experts.
    Senator Wicker. And who is in charge of that for 
Transocean?
    Mr. Newman. Gentleman by the name of Bill Ambrose.
    Senator Wicker. And is he issuing interim reports?
    Mr. Newman. Mr. Ambrose reports directly to me, and he does 
issue interim reports.
    Senator Wicker. So, you have visited with him from time to 
time about what his reports are revealing so far.
    Mr. Newman. I have had conversations with Mr. Ambrose about 
the full scope of the investigation, the extent to which I want 
him and his team to explore the incident.
    Senator Wicker. But, not the facts that he has been able to 
uncover so far.
    Mr. Newman. I have not been made aware of the facts that he 
has uncovered so far.
    Senator Wicker. So, he has not reported to you on an 
interim basis about what he's learning.
    Mr. Newman. We are--we have not yet established a mechanism 
for interim reporting.
    Senator Wicker. OK. Are you aware of there being an issue, 
with regard to this well, about a new type of concrete being 
used, different from what had ordinarily been used?
    Mr. Newman. Is that question directed to me, Senator?
    Senator Wicker. Yes, sir.
    Mr. Newman. Yes. I'm aware that, on this well, I believe 
there was a process used which is referred to as ``nitrified 
cement.''
    Senator Wicker. And is that new and different?
    Mr. Newman. I don't have much expertise in cementing, sir, 
so I wouldn't be able to tell you whether that's new and 
different, or not.
    Senator Wicker. OK. Well, would you speak to the person 
running that investigation and get back to this committee about 
that?
    Mr. Newman. I will ask our investigation to explore that, 
and we can revert to the Committee.
    Senator Wicker. OK. Well, I'm asking you to check on that 
and get back on the record.
    Now, in the case of the blowout preventer, as your 
testimony says, the blowout preventers obviously malfunctioned, 
in some respect. They were supposed to squeeze, crush, or shear 
the pipe, and shut off the flow. What events are supposed to 
trigger that in a blowout preventer?
    Mr. Newman. What events are supposed to trigger the 
activation of the blowout preventer?
    Senator Wicker. Yes, sir.
    Mr. Newman. Typically, what our people will monitor is 
flow. So, they will--during the process of drilling the well, 
while the drill bit is actually deepening the well, our people 
will be pumping drilling fluid into the well, and monitoring 
drilling fluid coming out of the well. And periodically during 
that process, our people will stop--stop the operation, and do 
what the industry calls a ``flow check.'' And that's where 
everything is shut down so there's no fluid being pumped into 
the well, and the driller will monitor whether or not there's 
fluid coming out of the well.
    Senator Wicker. OK. Well, I don't think I'm getting an 
answer to my question. The blowout preventer is supposed to 
kick in suddenly if something goes wrong. What causes it to do 
that? An explosion? A punching of a button? What causes the 
blowout preventer to activate and shut off the flow?
    Mr. Newman. There are a couple of different means of 
activating the BOP.
    Senator Wicker. OK, good. That's what I want to know.
    Mr. Newman. OK. So, one way is manual intervention--manual 
operation. There are----
    Senator Wicker. And that's somebody on the rig, punching a 
button.
    Mr. Newman. That is somebody on the rig, punching a----
    Senator Wicker. OK.
    Mr. Newman.--button.
    Senator Wicker. What's another way?
    Mr. Newman. Automatic response that is built into the BOP 
control system. And there are two of those that were part of 
the BOP control system on the----
    Senator Wicker. What events----
    Mr. Newman.--Deepwater Horizon.
    Senator Wicker.--activate the automatic response?
    Mr. Newman. One set of events is meant to kick in after 
catastrophic loss of the riser. So, that's--the riser is the 
pipe that connects the BOP to the rig.
    Senator Wicker. OK.
    Mr. Newman. If the--if we lose the riser, the BOP--the 
control system is designed to sense that, and it will activate.
    Senator Wicker. In this case, you didn't lose the riser.
    Mr. Newman. In this case, we did not lose the riser. The 
riser----
    Senator Wicker. OK. What else?
    Mr. Newman.--riser remained connected to the rig, as long 
as the rig was floating. The other automatic response that is 
built into the Horizon BOP control system was called an ``auto-
shear.'' And that is meant to trigger when a portion of the 
BOP, referred to as the ``lower marine riser package,'' the 
LMRP--when the LMRP disconnects from the lower package--in the 
event of a disconnect, that auto-shear will function.
    Senator Wicker. And that should have worked in this 
instance?
    Mr. Newman. No. In this case, we did not have a disconnect 
between the lower marine riser package and the lower BOP.
    In fact, today, the lower marine riser package is still 
sitting on the BOP.
    Senator Wicker. So, the two instances in which the 
automatic trigger would take place, never happened, in this 
instance, based on your understanding.
    Mr. Newman. The two scenarios for automatic response, built 
into the Horizon BOP control system, neither of the criteria 
were satisfied.
    Senator Wicker. All right.
    Well, Dr. McCay, I'm really----
    The Chairman. Senator----
    Senator Wicker.--sorry that I----
    The Chairman.--I have to say, you're about two and a half 
minutes over.
    Senator Wicker. Are we going to take a third round?
    The Chairman. Well, it's depending on----
    Senator Wicker. OK.
    The Chairman. I'm willing.
    Senator Wicker. Well, I'm just trying to wrap up.
    The Chairman. I have an additional question, so----
    Senator Wicker. I have additional questions, and I'll wait 
for another round.
    The Chairman. OK. Thank you.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much.
    Just having looked at that video, Mr. McKay, Mr. Newman, I 
mean, it is really startling. What I'm trying to figure out 
is--at first it was claimed it was--the oil was coming out at 
1,000 barrels a day. Is that right? And then it went up to 
5,000. And now I'm looking at this. I mean, there are some 
people estimating, just looking at that video, that it could be 
70,000 barrels a day.
    How long did--maybe I'll start with you, Mr. McKay--how 
long did you guys have that video? And why couldn't you make 
those calculations and figure out how much oil was coming out?
    Mr. McKay. Those videos have existed since we found the 
leak. The estimates have been--first of all, estimating volume 
from a 2-D video is extremely difficult. We cannot measure that 
directly. And I would say that there--we believe there's quite 
a lot of gas in that. So, you have to take into--that account.
    The way that the estimates have done--been done by the 
government scientists, and our own, is to understand, as best 
we can, what is on the surface, and then, through the--what we 
know about the oil, how much dispersion we think--and 
dissolution--we think is happening in the water column, and 
effectively adding those two together is where the 5,000-
barrel-a-day estimate comes from.
    Everyone has said there's a range of--a large range of 
uncertainty there. But, that's--that is the best current 
estimate.
    Senator Klobuchar. So, you're still sticking with that.
    Mr. McKay. I'm sticking with what Unified Command is--has 
determined.
    Senator Klobuchar. OK.
    Dr. French-McCay, I--you heard Dr. Lubchenco provide her 
predictions as to how the oil is going to disperse. Were you 
here for her testimony?
    Dr. French-McCay. Yes.
    Senator Klobuchar. Do you agree with her characterization? 
And do you have anything further you'd like to add?
    Dr. French-McCay. In terms of the Loop Current situation? 
Yes, I do. I think that--first of all, the majority of the oil 
is up near the release site, and that area has a very 
complicated circulation pattern, and appears to just sort of 
slosh around like a bathtub up there. And then you have this 
Loop Current. So, any oil that, kind of, gets--comes down in 
streamers and gets in that Loop Current could get transported. 
However, the Loop Current is quite a bit south of where the 
release is.
    So, the majority of it is really up near the release site. 
And the winds have been from the southeast for quite some days 
now, which has forced it up toward Louisiana. All of this could 
change if the winds are from the north and--you know, for a 
number of days. So, we have to monitor all of the current 
winds, and figure out where it's going. And that's what NOAA's 
doing as we speak.
    Senator Klobuchar. Did you hear the discussion--I know 
you're more focused on the wildlife piece--that I--but you must 
know--about hurricanes, that I had with her and the Admiral, 
about hurricanes and the potential effects of a hurricane, with 
all the oil still sitting around, even if they are successful--
and we hope they are--in blocking the leak, or partially 
blocking the leak. What could the effect be if there was a 
major hurricane in--the season starts in June, peaks in late 
August--what could be the effect of a major hurricane, from 
your perspective?
    Dr. French-McCay. If the leak is stopped by the time of the 
hurricane, the water would be, you know, churned up, and there 
would be a lot more dispersion. So, it actually would spread it 
out more, and dilute it down more. So, that actually would be a 
positive help, as opposed to negative.
    If the leak is still going, then it's going be even harder 
to control.
    Senator Klobuchar. It's--the Admiral was talking about--the 
operations would be harder to conduct and----
    Dr. French-McCay. Right.
    Senator Klobuchar.--and could even possibly be imperiled, I 
suppose, whatever devices are hooked up.
    Dr. French-McCay. Yes.
    Senator Klobuchar. Did--was you--would you, Mr. McKay and 
Mr. Newman, agree with that assessment? Or----
    Mr. McKay. Obviously, it's according to where the hurricane 
comes through--a hurricane comes through, and the severity. 
But, operations could be interrupted if a hurricane comes 
through. That's true.
    Senator Klobuchar. OK. All right. Very good. Thank you very 
much.
    The Chairman. Thank you, Senator Klobuchar.
    I have an additional question, so this will constitute a 
third or fourth, or whatever, round.
    And I apologize--you know, you keep people waiting, and 
then you hold them--but, this is--I think this is a very 
intense subject. This has enormous consequences as we're trying 
to decide what to do in an energy policy. This is a huge, huge 
subject.
    This, Mr. Newman, is to you. And it has to do with the 
cement seal--integrity of the seals on a well. You stated, 
publicly, that, ``The one thing we know with certainty is that 
there was a sudden catastrophic failure of the cement, the 
casing, or both,'' because, ``without a disastrous failure of 
one of those elements, the explosion could not have occurred.''
    Now, I've got to tell you, once again, I'm just reaching 
back to what has just happened in West Virginia, with the mine 
disaster, and to the one before that and the one before that, 
which are very much--is very much a part of--you know, in West 
Virginia, it's as big a subject as this is. And it has to do, 
really, with shoddy seals, in the mining. If you indicate that 
there couldn't have been an explosion--could not have 
occurred--if there had not been a failure of the cement or the 
casing, or both, that indicates to me that the casing was not 
sufficient.
    And again, coalmining is very different, but, to me, right 
now, it is not. That--since nobody really understands, in the 
outside world, the press world, the Congressional world, what 
casing is in an underground mine, and how it prevents 
explosions from going from one part of a mine to another, or 
oxygen deficiencies going from one part of a mine to another--
the casing is all you have to rely on. In that case, it's also 
cement. And the seals, therefore, are what hold the cement in a 
very rough thing called an ``underground coal mine.'' It's a 
very delicate art. But, it's absolutely--it did not work, in 
couple of disasters where a group of people--their spouses 
never saw them--will never see them ever again, because the 
casing didn't work.
    And so, my question to you is, What is the standard oil 
industry practice for testing the integrity of a cement seal 
like the one that you evidently were talking about?
    Mr. Newman. I'm going to qualify my answer by reminding the 
Chairman that I don't have a lot of expertise in cementing.
    The Chairman. Well, whatever expertise you do have, because 
you've said you were an engineer.
    Mr. Newman. Right.
    The Chairman. Petroleum engineer. So that----
    Mr. Newman. Right.
    The Chairman.--impresses me.
    Mr. Newman. So, I have formed a fundamental conclusion. The 
oil is flowing--the hydrocarbons are flowing from a reservoir 
that is 13,000 feet below the seabed. Between that reservoir, 
13,000 feet below the seabed, and the seabed, there should be 
casing and cement. So, the only way for the hydrocarbons to go 
from that reservoir, 13,000 feet below the seabed, to the 
seabed is to have experience a failure of the cement or the 
casing, or both.
    There are tests to confirm the integrity of cement--a 
cement bond log, or a cement temperature log--I'm not familiar 
with the properties of those logs or the efficacy of the 
measurement--but, I know there are tools out there to measure 
it.
    The Chairman. Doesn't quite answer my question. I agree 
that they're out there. I mean, I--you say they're out there, 
so I accept they're out there. The question is, What is the 
industry standard? What does it call for? And did you practice 
that?
    Mr. Newman. The requirement for those services would have 
been a BP decision. That's not something that Transocean 
markets. We do not provide those measurements, so I can't tell 
you what the industry standard is for the application of those 
measurements.
    The Chairman. Well, then I'll ask Mr. McKay.
    Mr. McKay. I believe the standard, by the MMS regulator, is 
that a positive test is exerted on the casing and cement to see 
if it holds. That test was done, and it held. So----
    The Chairman. How is that test done?
    Mr. McKay. You pressure--effectively, you pump the cement 
job, get the cement on the backside of the casing, let it set, 
then you pressure up on the casing to see if everything holds. 
And if it's not holding, it would leak off. It held, I think, 
2,350--2,350 PSI, something like that.
    What was supplemental to the regulations was an--what's 
called a negative pressure test, where you--you don't pull a 
vacuum, but you lower the pressure above--on the casing. I 
believe--I don't know this for a fact, but I believe there were 
two of those done. And there were anomalies associated with 
those negative pressure tests. And----
    The Chairman. And is--were those tests performed by your 
company?
    Mr. McKay. I think those--I don't know. I--this'll be in 
the investigation. I would imagine that there were 
collaborative discussions about what was going on, on the rig. 
The tests----
    The Chairman. But----
    Mr. McKay. The tests----
    The Chairman.--if Mr. Newman----
    Mr. McKay.--themselves were----
    The Chairman.--says that the--I mean, I--in a coal mine, if 
a casing blows, people die. And I'm not in a--anything near an 
engineer, in petroleum or underwater activities, but I have to 
assume that was a very large factor.
    Mr. McKay. The things that I know--there was a period of 
time, after this anomalous pressure test, before the well 
exploded. And what's going to be very important in the 
investigation is to understand those several hours between 
those two things, to understand what happened. And then there 
are techniques to control well flow, you know, when things are 
happening. And there are a lot of questions that have to be 
asked. We don't have that. I don't know that yet. But, that--
I'm sure the investigation is going to get right to the nub of 
that.
    The Chairman. My time is up.
    Mr. McKay, I'm sure, too, that the investigation will have 
something to say about that. But, I would--I think it's so 
important that I would like to know, on reflection or further 
questioning, on your part, of people in your company or in 
Transocean, what you conclude, before the investigation is 
concluded.
    I'm not going to sue you. I'm a Senator, trying to find out 
what's going on.
    Mr. McKay. We want to find out, as well. And we can share 
with you the conclusions that are drawn. We've shared facts. We 
can share that with this committee--the facts as we know them.
    The Chairman. After the investigation is over?
    Mr. McKay. No. We can share what we've shared with ONI, in 
terms of facts.
    The Chairman. Good. Please do that.
    Mr. McKay. Yes. And that's what I've said, so far today.
    The Chairman. Yes. I understand. Thank you.
    Senator Nelson.
    Senator Nelson. And, Mr. Chairman, this Senator wants to 
know what happened, as well, so it'll never happen again, 
because the consequences of this failure could be betting the 
store for my state, given the fact that we have more coastline 
than any other state, save for Alaska, and we certainly have 
more beach than any other state. And we have 85 percent of the 
coral reefs of the United States, and that includes Hawaii and 
some of the islands in the Pacific that are territories.
    I want to go back, then, Mr. Newman, to why the blowout 
preventer failed--the backup mechanism. Was there a dead 
battery that caused that fail-safe system that is supposed to 
drive those pieces of metal together to cutoff the oil? Was 
there a dead battery?
    Mr. Newman. I believe you're referring to some information 
that came available last week. The--when we--the BOP control 
system has two control pods mounted on the stack. And we have 
retrieved one of those control pods. We had the manufacturer 
onsite to conduct a thorough analysis and review of the 
condition of that pod. The preliminary battery measurement on 
the pod registered 18.41 volts, against a maximum charge of 27 
volts and a minimum--a manufacturer's minimum recommended 
charge of 18 volts. So, on the preliminary measurement of 18.41 
volts, we exceeded the manufacturer's minimum recommendation, 
and on a subsequent measurement, a more comprehensive and 
direct measurement of the voltage in the battery, we registered 
26 volts. So, the battery was not dead.
    Senator Nelson. OK. That being the case, then, the backup 
system that was supposed to work, is it referred to as a 
``deadman safety mechanism''? In other words, it activates and 
a human doesn't have to do it.
    Mr. Newman. As I responded earlier to a question, the BOP 
control system on the Horizon was fitted with a dead- man 
system. In order for that deadman system to trigger, there have 
to be three criteria met. And during the course of the events 
following the explosion, we did not meet those three criteria. 
So, the system was never in a situation where it should have 
responded, and didn't.
    Senator Nelson. And those three criteria are?
    Mr. Newman. Electronic communication with the rig; 
hydraulic communication with the rig; and electronic 
communication between the two pods. So, you have to satisfy 
those three criteria.
    Senator Nelson. Well, we look forward to the conclusions of 
the investigation.
    Mr. McKay, I'd like your opinion. State the nature of the 
relationship between the interactions of the oil industry, that 
you have observed, and the MMS, over the last dozen years. Is 
it a personal cozy relationship? Or is it a arm-length 
professional relationship, in your opinion?
    Mr. McKay. I have not worked directly with the MMS in the 
last 12 years. As I understand it--if you want an opinion, my 
opinion is--as a regulator, they've had--our relationship has 
been as a regulator. That--it's--it--I would not term it 
``cozy.'' It's a regulator relationship. That is an opinion of 
mine.
    Senator Nelson. Yes. And that's what I'm asking. And so, 
when you heard, about 5 or 6 years ago, about the sex parties 
between regulators in MMS and members of the oil industry--
``pot parties''--all of that information that has been out in 
the public sphere, what was your opinion about the 
relationship?
    Mr. McKay. I was surprised by that.
    Senator Nelson. Were you shocked?
    Mr. McKay. I'm not sure I know enough about what happened. 
I was surprised that things like that would happen.
    Senator Nelson. Surprised that a regulator, that is 
supposed to be not only collecting royalties, but also charged 
with the safety of this kind of equipment that we're talking 
about, that failed, had such a cozy relationship that they're 
going off and having sex parties.
    That doesn't sound like the function of a regulator to me, 
Mr. Chairman.
    Thank you.
    The Chairman. Thank you, Senator Nelson.
    Senator Wicker.
    Senator Wicker. Mr. Newman, do you know whether or not 
there was a manual attempt to activate the blowout preventer?
    Mr. Newman. I have heard reference made--anecdotal 
reference made to attempts to activate the BOP before the crew 
finally disembarked the rig.
    Senator Wicker. I see.
    And, Mr. McKay, do you have any knowledge of a manual 
attempt to activate the BOP?
    Mr. McKay. I have--two things I would say to that--one, I 
have--I've heard the same thing, that the emergency switch was 
hit on the rig before evacuation.
    Second, we have made attempts, with Transocean, to manually 
intervene in the blowout preventer and provide actuation, 
subsea, with ROVs. In fact, we--I believe, we've activated the 
deadman switch, with ROVs, and we've tried to pump in and 
actuate the various rams with remote operated vehicles. We've 
been doing that--the first 10 days or so, we were doing that of 
the crisis.
    Senator Wicker. So, it may be, Mr. Chairman, there's just 
something down there with the blowout preventer that's 
preventing it from, even today, kicking in.
    Well, let me go, then, to Dr. McCay.
    The Chairman. I don't think he's a ``Dr.''
    Senator Wicker. And----
    The Chairman. Oh. Oh. That----
    Senator Wicker. Dr.----
    The Chairman.--that Dr. McCay. All right.
    Senator Wicker. Yes, we've got Mr. McKay, with a ``K,'' and 
Dr. McCay, with a ``C.''
    It's unfortunate that you weren't able to talk more about 
the history of a number of these things that had gone on. But, 
do you agree with Mr. Newman, that in this instance several 
things had to go wrong independently in order for this tragedy 
to happen?
    Dr. French-McCay. I don't feel like I have enough expertise 
on the blowout preventer or those kinds of things to be able to 
comment on that, really.
    Senator Wicker. OK. Well, I appreciate that.
    Let me move, then, to what you've observed in other 
instances of oil spills, in particular, the so-called ``plume'' 
or, as we heard from NOAA, the ``mist'' of particles. Have you 
heard of that sort of thing happening before in connection with 
oil spills?
    Dr. French-McCay. Yes. The spill that I touched on briefly 
in my testimony, the North Cape oil spill----
    Senator Wicker. And that was----
    Dr. French-McCay.--that----
    Senator Wicker.--in Rhode Island?
    Dr. French-McCay. Yes.
    Senator Wicker. OK.
    Dr. French-McCay. And what happened there was, the oil was 
entrained, or mixed, into the water, with big waves. And so, 
there was a subsurface plume, just meaning ``contamination,'' 
that spread out, away from the coast. And those were small 
droplets in the water, and there was measurable PAHs, which are 
the toxic components, in the water. And then we evaluated that 
spill, and documented 9 million lobsters were killed, and a 
number of other organisms.
    Senator Wicker. So, that's an instance of the wave action 
causing the oil not to stay on the surface.
    Dr. French-McCay. That's correct.
    Senator Wicker. Can you think of any reason why, in this 
instance, that the oil would not come to the surface and cause 
this plume or mist of particles that NOAA testified about?
    Dr. French-McCay. Yes. Dispersant has been injected, in 
tests, down near the wellhead, or near where the oil is coming 
out, actually in the pipe. And I'm just hearing this 
description, I haven't seen it myself, but basically they're 
injecting it into the pipe, with the objective of dispersing 
that oil, down in the deep water, into small droplets. So, if 
you get those droplets small enough, they will disperse down 
there and not float to the surface, because oil comes up if 
it's in bigger droplets, but if it's very small, it's like a 
mist----
    Senator Wicker. I see.
    Dr. French-McCay.--of little droplets that disperse, down 
in the deep water.
    Senator Wicker. Well, thank you very much.
    And, Mr. Chairman, let me just observe two things. I think 
one thing we've learned about the blowout preventer, this fail-
safe, this deadman preventer of last resort, is, if the rig 
explodes and burns and sinks, that catastrophic event does not 
trigger the blowout preventer.
    Is that correct, Mr. Newman?
    Mr. Newman. Under the current configuration, as long as the 
rig remained on the surface, you could have had continuing 
hydraulic communication with the rig; so, the deadman would not 
have functioned, in that case.
    Senator Wicker. Well, it's amazing to me that, as explosive 
as an oil rig might be, that something like this could happen, 
and the signal not be sent.
    Mr. Chairman, I have a procedural question. Normally, 
members are given 2 weeks to submit answers. I don't know how 
long we give to the witnesses to supply answers to those 
written questions. I would just ask the Chair to consider 
shortening the timeline for submission of questions, and to 
provide a timeline, if it's within the rules, for these 
witnesses to supply the requested answers, on the record.
    The Chairman. I think there are two aspects to your 
question, Senator.
    Senator Wicker. There, indeed, are.
    The Chairman. One is the promptness of it, getting it as 
quickly as possible. And then, on the other hand, you want to 
make sure that it's as accurate--that they have sufficient time 
to give the accuracy that--which allows them to return it to 
you, or to us, to the Committee.
    So, I would think--what--2 weeks?
    What are you comfortable with? I was going to suggest 2 
weeks.
    Senator Wicker. OK.
    The Chairman. Is that all right?
    Senator Nelson has the final question.
    Senator Nelson. I just want to follow--Mr. Newman, you were 
referring--first of all, you are a part of Transocean. Is that 
right?
    Mr. Newman. Yes, sir. I'm the Chief Executive Officer.
    Senator Nelson. Yes, indeed. And Transocean is the operator 
of the rig and the drilling. Is that correct?
    Mr. Newman. We own the drilling rig. And we leased the 
drilling rig services to BP, under a drilling contract.
    Senator Nelson. Right. But, who was on the rig, floating, 
that was operating it at the time of the explosion?
    Mr. Newman. Well, there are BP representatives out there 
directing the operation, with respect to the well.
    Senator Nelson. Who has the responsibility for the 
operation?
    Mr. Newman. For the well?
    Senator Nelson. For the operation of flipping the switch.
    Mr. Newman. Well, the driller. The driller is the 
Transocean individual who is operating the drilling machinery. 
And because he has an array of sensors and measurements and 
feedback presented to him, it would be his responsibility to 
recognize abnormalities with respect to the well, and make the 
decision about whether or not to shut the well in.
    Senator Nelson. And, in this case, who is the driller?
    Mr. Newman. The driller on--who was on shift at the time of 
the event, was a gentleman named Dewey Revette.
    Senator Nelson. And is he employed by----
    Mr. Newman. Senator, with all due respect, Dewey Rivette 
was killed in the incident. Dewey Rivette was an employee of 
Transocean.
    Senator Nelson. OK. Were there any other people, that 
survived, that also had, as part of their duties, to flip the 
switch to activate the blowout preventer?
    Mr. Newman. It's a bit of a difficult question to answer. 
The--it is, first and foremost, the driller's responsibility to 
shut the well in. There is an individual on the rig who is the 
driller's supervisor, the gentleman that we refer to as a 
``tool-pusher.'' Because he's the driller's supervisor, he's 
sort of a backup, if you will, to--he's an individual that 
traditionally--a tool-pusher would come from the driller ranks, 
so he'd be an experienced driller, he would be able to 
recognize those signs and signals. The challenge is that the 
tool-pusher has a lot of other responsibilities besides just 
overseeing the driller. And so, he may or may not be on the 
drill floor at the time. He may or may not be near a panel at 
the time.
    Senator Nelson. Did he survive?
    Mr. Newman. We lost one tool-pusher in the event, as well.
    Senator Nelson. OK. So, that's two people that you lost, 
that you don't have any indication that the switch was flipped. 
Was there any other person on that drill rig that has stated 
that they flipped the switch?
    Mr. Newman. I have heard reference being made to hitting 
the emergency disconnect button, which is one of the buttons on 
the control panel, just prior to evacuation from the rig.
    Senator Nelson. If they are your employees, why have you 
just ``have heard''? Why don't you ``know,'' by somebody 
telling you that they'd flipped the switch?
    Mr. Newman. Well, I've not had those conversations, myself, 
Senator. I've been focused, first and foremost, on the--on the 
nine families who lost Transocean employees. And I've been 
focused on ensuring that the company was properly organized to 
support BP in the response and recovery efforts.
    Senator Nelson. You're the CEO. Are you responsible for the 
executive management of your company?
    Mr. Newman. Yes, sir, I am.
    Senator Nelson. OK. Then the question is, Did one of your 
employees flip the switch?
    Mr. Newman. As I said, Senator, I have an account--I've 
been made aware of an account of an individual who indicates 
that, prior to evacuating the rig, they hit the emergency 
disconnect button. I have not talked directly to any of those 
people.
    Senator Nelson. Why is that a difficult question to answer? 
I just don't understand. I mean, you're the CEO. You should 
know what has happened in your company. Did somebody in your 
company flip the switch--it's a simple inquiry--among the folks 
that, in fact, lived?
    Mr. Newman. Sitting here today, Senator, I don't know, 
definitively. That is--it's clearly part of the investigation 
process.
    Senator Nelson. Mr. Chairman, I--I'm at a loss to 
understand why the witness cannot answer the question. And so, 
I would ask that you proffer the question in writing for them 
to respond in writing.
    The Chairman. Will be done.
    This concludes the hearing.
    Let me just say, that I thank all three of you for spending 
all of this time. And I think that, when the record of these 4 
hours is produced, there will be a lot of information--some 
new. There will also be a lack of a lot of information--all of 
that needed. The investigation is important.
    And I--as I conclude this hearing--there will be more, I'm 
sure--I'm just overwhelmed by the magnitude of what went wrong, 
and the consequences, as yet unknown, to effect so many 
Americans and so much of our economy and wildlife, estuaries, 
and all the rest.
    But, I respect you for staying the course with us. And I 
thank you very much.
    This hearing is adjourned.
    [Whereupon, at 6:28 p.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Just one month ago, the Nation suffered a tragic accident onboard 
the mobile offshore drilling unit Deepwater Horizon. As we mourn the 
loss of the crew members and continue to work to contain and control 
the oil spill I hope that the lessons we learn will be taken very 
seriously. I know that BP is taking this seriously and I applaud their 
sincere efforts. It is imperative, however, that we understand what 
happened to cause this accident, and what changes are required to 
better prepare for future accidents should they occur.
    I pray that one of the efforts will be to establish a system by 
which we can better anticipate, and respond to, accidents of this 
nature. We have similar systems in place in other sectors, and I hope 
that we can move toward a robust system for oil spills as well.
    I am confident that both the Coast Guard and NOAA, here with us 
today, are doing all they can to lead the government's response 
efforts. As the Nation's leading scientific resource for oil spills, 
NOAA's efforts to coordinate the science, predict the trajectory of the 
spill, provide weather forecasts, and protect the Gulf of Mexico's 
marine mammals, sea turtles, fish and shellfish is critical.
    In addition, the U.S. Coast Guard is always first on the scene--for 
us in Hawaii and now for the Gulf. With the Coast Guard at the helm of 
the Unified Command, I am confident that all organizations responding 
to this incident will remain in lock step until it is resolved.
    Finally, I am pleased that the Oil Spill Liability Trust Fund is in 
place to assist with costs for removal and damages. However, as we move 
beyond this spill, I encourage us to consider whether other agencies 
with response and restoration responsibilities such as NOAA should be 
eligible for a direct appropriation of funding from this critical 
source.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Hon. Jane Lubchenco
    Question 1. It is my understanding that past studies dumping 
ballast water into the Gulf of Mexico have shown that the circulation 
patterns bring water into the loop current, around the keys, and up the 
east coast of Florida. Is it possible we'll see tar balls washing up on 
Miami Beach in the next month? What other areas could we see impacted?
    Answer. The National Oceanic and Atmospheric Administration (NOAA) 
is closely monitoring the movement of oil from the Deepwater Horizon BP 
oil spill to help guide effective preparedness, response and cleanup 
efforts. The northern part of the Loop Current will sometimes ``pinch'' 
off from the full Loop Current, forming an isolated circular eddy. When 
this happens, any oil that has become entrained in the current will 
remain in a counter-clockwise eddy circulating around the Gulf of 
Mexico. It is not uncommon for such an eddy to develop, or for it to 
become reattached to the full Loop Current. If the eddy reconnects with 
the main Loop Current, it is possible that any oil that is entrained 
may reach the Florida Straits, and could be transported around the tip 
of Florida and into the Gulf Stream.
    Currently, the majority of the surface oil slick still remains well 
north of the Loop Current, but the potential remains for more oil to 
move south from the spill site toward the Loop Current. The Loop 
Current is very dynamic. Using satellite imagery, ocean observations, 
and aerial observations, NOAA is closely monitoring the oil slick and 
the Loop Current. If a significant amount of surface oil enters the 
Loop Current, NOAA will be able to detect it and will work with the 
Unified Command to communicate this information.
    Because both the Loop Current and Gulf Stream remain offshore, oil 
carried in either current will not necessarily result in shoreline 
impacts. Onshore winds or eddies would need to develop to move the oil 
from the Loop Current to the shore. Oil that becomes entrained in the 
Loop Current would take approximately 8-12 days to reach the Florida 
Straits. It would take much longer for any oil to reach the Eastern 
Seaboard, if ever. Given the time and distance traveled, it is 
anticipated that any oil would disperse and weather significantly (to 
the form of scattered tar balls) before reaching the East Coast. Due to 
background concentrations of tar balls on the East Coast, it will 
likely be difficult to specifically detect the presence of oil related 
to the Deepwater Horizon BP oil spill without conducting laboratory 
analyses, especially in areas north of Florida.

    Question 2. Obviously your Office of Response and Restoration has 
been a critically important part of the interagency response to this 
spill. Your ability to forecast where the spilled oil is likely to go 
in the coming days has been an invaluable resource to the National 
Unified Command. If another major oil spill were to occur in U.S. 
waters right now, could you provide a comparable level of response for 
both spills?
    Answer. NOAA's Office of Response and Restoration is fully engaged 
in responding to the Deepwater Horizon oil spill. Although unlikely, if 
another large spill were to occur simultaneously in another location 
elsewhere in the United States, NOAA would have difficulty responding 
to its complete ability. Currently, NOAA has every Scientific Support 
Coordinator in the country working on the Deepwater Horizon BP oil 
spill.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Hon. Jane Lubchenco
    Question 1. As part of its criminal and civil settlements with the 
Federal Government, Exxon paid hundreds-of-millions of dollars that 
went toward environmental monitoring, long-term restoration, and 
habitat protection after the Exxon Valdez oil spill. Would you say that 
there will likely be a need for similar long-term monitoring and 
protection after the Deepwater Horizon oil spill?
    Answer. As a trustee for natural resources, NOAA acts on behalf of 
the public pursuant to the Oil Pollution Act (OPA)--and in conjunction 
with co-trustees--to: (1) assess injuries to natural resources caused 
by the spill; and (2) develop and implement plans to restore injured 
resources with damages recovered from the responsible parties or from 
the Oil Spill Liability Trust Fund. Monitoring is a component of 
restoration plans and is used by NOAA and co-trustees to document 
restoration effectiveness and the need for possible interim corrective 
action. NOAA is currently conducting intensive activities in support of 
the natural resource damage assessment and will continue to do so. It 
is too early to tell what specific environmental monitoring, long-term 
restoration, and habitat protection will be needed following the 
Deepwater Horizon BP oil spill.

    Question 2. Will money spent on long-term scientific monitoring 
(including money to study the underwater oil plumes) be reimbursed to 
NOAA by the responsible party?
    Answer. Per the Oil Pollution Act (OPA), among other costs, 
responsible parties are liable for removal costs. OPA defines removal 
costs as the costs of removing spilled oil from water and shorelines or 
taking other actions as may be necessary to minimize or mitigate damage 
to the public health or welfare, including fish, public shorelines, and 
beaches. Work performed and information gathered by NOAA as part of the 
oil spill mitigation and cleanup strategies at the request of the 
Federal On Scene Coordinator, such as studies of the current and 
forecasted position or physical characteristics of an underwater oil 
plume, would fall within this definition and the costs would be 
reimbursed from the Oil Spill Liability Trust Fund. The Coast Guard's 
National Pollution Funds Center would recover the removal costs from 
the responsible parties under OPA. Also, under OPA, a responsible 
party's liability includes NOAA's and co-trustees' reasonable costs of 
assessing natural resource damages. Consequently, trustee costs 
associated with identifying the nature and extent of the oil's adverse 
impacts to public natural resources (e.g., sensitive coastal habitat, 
threatened and endangered species, public beaches, and fishing grounds) 
would be part of the Natural Resource Damage Assessment (NRDA) and 
reimbursable by the responsible parties. Not all long-term studies, 
however, satisfy the NRDA criteria. Longer term studies that are not 
associated with determining injuries to natural resources and/or 
services resulting from the spill or are not a component of a 
restoration plan (as discussed above) would not be reimbursable under 
the NRDA process.

    Question 3. Will the government be able to force the responsible 
party to cover the costs of needed oil spill related monitoring and 
study five, ten, and twenty years from now?
    Answer. Under the Oil Pollution Act, damages that are recoverable 
by a natural resource trustee include ``the reasonable costs of 
assessing the damage.'' Costs associated with understanding the impacts 
of this spill to public natural resources (e.g., sensitive coastal 
habitat, threatened and endangered species, public beaches, and fishing 
grounds) would be part of the Natural Resource Damage Assessment and 
are reimbursable to NOAA and other co-trustees. The period of time for 
which assessment activities will be conducted is not known at present. 
However, longer term studies that identify the nature and extent of 
injuries to natural resources and services caused by the spill could 
potentially be considered reasonable damage assessment costs for which 
the responsible party is liable. Alternatively, longer term monitoring 
and research may also be a component of a restoration plan (for which 
the responsible parties are liable) as discussed in the response to 
Question 1.

    Question 4. On September 21, 2009, you sent a letter to the 
Director of MMS expressing concerns that MMS consistently understated 
the risks and impacts of oil spills in its Draft Proposed Outer 
Continental Shelf Oil and Gas Leasing Program. When NOAA identifies 
problems with MMS plans or environmental analyses, is there anything 
forcing MMS to listen to you, or do they have free rein to ignore NOAA? 
Does NOAA have any recourse if it thinks that MMS is allowing 
activities that aren't worth the environmental risk?
    Answer. As the primary Federal ocean science and management agency 
that is charged with trust responsibilities over living marine 
resources, NOAA is involved in the Minerals Management Service's (MMS) 
multi-stage Outer Continental Shelf (OCS) oil and gas process. NOAA 
participates in a number of ways and under a variety of statutes, some 
of which provide NOAA a more significant role than others do in the OCS 
decision-making process.
    Under section 18 of the Outer Continental Shelf Lands Act (OCSLA), 
the Secretary of the Interior is required to ``invite and consider 
suggestions'' from NOAA as he develops a 5-Year Leasing Program. 
Moreover, the Secretary of the Interior has a responsibility to conduct 
environmental studies of any area or region included in any oil and gas 
lease sale, and to include NOAA in this process to the maximum extent 
practicable. OCSLA does not require MMS to adopt NOAA's comments.
    There are, however, other opportunities for NOAA to play a more 
central role in MMS' offshore program. NOAA's existing authorities such 
as the Endangered Species Act (ESA), Marine Mammal Protection Act, 
Magnuson-Stevens Fishery Conservation and Management Act (MSA), 
National Environmental Policy Act (NEPA), Coastal Zone Management Act 
(CZMA), and National Marine Sanctuaries Act (NMSA) apply to various 
stages of the OCS process. In each stage of MMS's process, NOAA has 
varying degrees of influence, depending on the specific statutory 
provision. For example, MMS is required to comply with terms and 
conditions stemming from a consultation (e.g., under ESA), may simply 
be required to respond to NOAA if it chooses not to accept NOAA's 
recommendations (e.g., Essential Fish Habitat consultations under MSA 
or NMSA), or may be precluded from issuing any license or permit if the 
Secretary of Commerce upholds a State objection (e.g., under CZMA).
    Finally, in the case of NOAA's comments on a draft Environmental 
Impact Statement under NEPA, MMS would, when preparing a final 
Environmental Impact Statement (FEIS), be required to assess and 
consider NOAA's comments, and respond by either incorporating 
information from the comments into the FEIS or explain why the comments 
do not warrant further agency response. If NOAA was not satisfied with 
the MMS response to its comments in a FEIS, the agencies would attempt 
to resolve the differences through negotiations. If the issue was 
significant and resolution was not possible, NOAA would have the option 
of referring it for resolution to the Council on Environmental Quality.
                                 ______
                                 
    Response to Written Question Submitted by Hon. John F. Kerry to 
                          Hon. Jane Lubchenco
    Question. I understand that there may be gaps in international law 
relating to oil spills, since existing treaties address spills from 
tankers but not spills from platforms or rigs like the Deepwater 
Horizon. Is that accurate? Is the Administration currently taking any 
actions to address these legal gaps?
    Answer. The most significant gap in international law relating to 
oil spills is the fact that the United States is not a party to the Law 
of the Sea Convention. The Administration strongly supports Senate 
advice and consent to U.S. ratification of the Law of the Sea 
Convention. With respect to the regulation of offshore drilling 
activities, the U.S. domestic regime is currently the subject of 
significant review and scrutiny by such bodies as the President's 
Commission on the BP Oil Spill (officially known as the ``BP Deepwater 
Horizon Oil Spill and Offshore Drilling Commission'').
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                          Hon. Jane Lubchenco
    Question 1. The Deepwater Horizon Unified Command has been 
operating a Joint Information Center (JIC) since the first days of the 
spill. The JIC has and continues to receive submissions for alternative 
response technology, services or products. How many submissions has the 
JIC received? How many submissions have been responded to? What is the 
JIC's process for vetting these submissions, and how many submissions 
have been brought to the attention of JIC leadership?
    Answer. The Joint Information Center is not directly involved in 
receiving or reviewing submissions. Alternative response technologies 
may be submitted to BP or to the Federal Government's Interagency 
Alternative Technology Assessment Program (IATAP). BP has established 
the Alternative Response Technology (ARTs) program to review and 
evaluate suggestions. It is our understanding that BP has received more 
than 40,000 proposals.
    On 4 June 2010, the Coast Guard Research and Development Center 
publish a Broad Agency Announcement defining the Federal Government's 
Interagency Alternative Technology Assessment Program (IATAP) and 
process. This process is designed to provide a well-defined, 
documented, and systematic government-managed process to solicit, 
screen, and evaluate all suggested technologies in support of ongoing 
response activities related to the Deepwater Horizon spill. All 
submittals are evaluated by the IATAP against the same criteria, which 
are: (1) overall scientific and technical merit; (2) feasibility; (3) 
availability; and (4) rough order magnitude cost. In addition to NOAA, 
the participating Federal agencies include the Department of the 
Interior, the Environmental Protection Agency, the U.S. Department of 
Agriculture, the Maritime Administration, and the U.S. Coast Guard. As 
of 16 July 2010, the IATAP has received 3565 submissions. Of those, 28 
are under a more detailed evaluation by the IATAP team subject matter 
experts, 77 have been forwarded to the Unified Area Command (UAC) for 
operational assessment, and the UAC is in the process of procuring two 
of those for an operational evaluation.

    Question 2. It is my understanding that Louisiana officials have 
met with and reviewed alternative response technologies, including 
those proposed by Show Me Energy. How closely is the JIC working with 
state and local governments in reviewing alternative response 
technologies? What process is in place to share information and ideas 
with state and local governments?
    Answer. The Joint Information Center is providing any suggestions 
that they receive for review to both the Alternative Response 
Technology program set up by BP and the Interagency Alternative 
Technology Assessment Program, which will review all submitted 
proposals (as discussed in the response to Question 1). As proposals 
are approved for field application, this information is shared with 
state and local governments.

    Question 3. As you know, the Coast Guard has detected the presence 
of dozens of ``tar balls'' approaching the Florida coast, suggesting 
that the Gulf Coast oil spill has traveled throughout the Gulf Coast 
region. How do you plan to determine whether these tar balls are indeed 
a product of the Deepwater Horizon spill?
    Answer. Tar balls reported in southern Florida have been collected 
and analyzed at a laboratory to determine if the tar balls are from the 
Deepwater Horizon oil spill. To date, no tar balls collected in 
southern Florida have originated from the Deepwater Horizon BP oil 
spill.

    Question 3a. In light of the failed remediation strategies that 
have been tried thus far, how does the Unified Command plan to prevent 
this eastward expansion of the spill?
    Answer. The Unified Command will continue with an aggressive 
response to mitigate the impacts from the Deepwater Horizon BP oil 
spill. This includes the use of skimmers, in-situ burns, and 
dispersants. The Unified Command will not relent in efforts to protect 
the livelihoods of Gulf Coast residents and mitigate the environmental 
impacts of this spill.

    Question 4. As you know, six of the ten leading U.S. ports are 
located in the Gulf of Mexico region, hosting some of the largest 
tonnage ships in the Nation. At this time, the oil spill has yet to 
impact barge traffic on the Mississippi River, although the spill is 
approaching the river's mouth. How does your agency plan to prevent the 
spill from reaching the mouth of the river, thereby maintaining the 
ability to continue normal levels of barge traffic along the 
Mississippi?
    Answer. NOAA continues to work with our partner agencies to prevent 
oil from reaching areas such as the mouth of the Mississippi River. As 
part of this effort, NOAA's Office of Coast Survey has issued a caution 
to mariners to identify where the spill is so that they can avoid it 
where possible. NOAA's Office of Coast Survey has also supported 
surveys of anchorage areas to enable the U.S. Coast Guard to clean 
vessels prior to their entrance into the Mississippi River, to avoid 
inadvertent transfer of oil into the river. NOAA is also frequently 
updating its chart graphics of the region to ensure first responders 
have the latest actual and predicted spill locations and caution areas 
at hand. The goal is to help mariners and commercial shipping continue 
marine transportation operations in the most normal manner possible.

    Question 5. As you know, the government response to Hurricanes 
Katrina and Rita included the contracting of services to private firms. 
The Government Accountability Office, in their review of contracting 
activities following these disasters, noted a lack of clearly 
communicated responsibilities across agencies and jurisdictions and 
insufficient numbers and inadequate deployment of personnel to provide 
for effective contractor oversight. What specific activities will your 
department be seeking to contract out or are you already relying on 
contractors to carry out? Please explain why each activity is 
appropriate for a contractor to handle. What are the preliminary cost 
estimates for contracted out response activities? How does your agency 
intend to work with other agencies to prevent the issues we experienced 
during the Katrina response from arising in this instance? How many 
personnel have been deployed to the Gulf Coast to ensure that 
contractor abuses are prevented and that there is adequate oversight of 
contractor performance?
    Answer. NOAA is using contractors in several areas to support the 
response to the Deepwater Horizon BP oil spill, and preliminary cost 
estimates for those contracts is $11.2 million. NOAA's Office of 
Response and Restoration is using contractor support for activities 
including information management, shoreline assessment teams, data 
collection during monitoring surveys, and data collection for the 
Natural Resource Damage Assessment process. We do not have an estimate 
for the number of personnel specifically deployed to oversee contract 
performance, because many of NOAA's activities are being supported 
through existing program contractors with established contractual 
relationships. NOAA has mechanisms in place to oversee its contractors, 
including having Federal employees on-scene with the contractors and as 
Federal task leads on the contracts. Contractors are an integral part 
of how NOAA operates, and NOAA has a strong track record with contract 
oversight and does not foresee problems with its contract oversight.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Hon. Jane Lubchenco
    Question 1. There have been some reports of tar balls washing up on 
the shore along the Gulf coast, but for the most part the oil has 
stayed offshore. Is that correct? If so, what is the primary reason the 
bulk of the oil has not washed ashore?
    Answer. There have been widespread shoreline impacts from the BP 
Deepwater Horizon oil spill from Louisiana to the Florida panhandle. 
These impacts range from heavy oiling to scattered tarballs. Shoreline 
Cleanup Assessment Teams (SCAT) are surveying shorelines daily to 
assess impacts and provide specific guidance to the Unified Command on 
where and how to conduct cleanup activities.
    There are a number of factors that have prevented the bulk of the 
oil from washing ashore and reduced the shoreline impacts including: 
aggressive removal activities at sea, such as skimming and burning; 
application of dispersants; natural removal processes, sometimes called 
weathering; and the fact that the oil was released at great water 
depths.. Natural removal processes, such as evaporation, photo-
oxidation and biodegradation, are going on continuously. In addition, 
currents and winds have helped keep oil offshore, thereby resulting in 
longer times for these natural removal processes to act on the oil and 
eliminate it from the environment naturally. The release of oil from 
great water depths has resulted in a wide range of droplet sizes, and 
the very smallest droplet sizes do not rise to the surface very 
quickly. The smaller the droplet, the larger the relative surface area, 
which allows for higher than normal rates of biodegradation as the 
droplet rises. At these great depths, droplets are more susceptible to 
dissolving in the water column because of the high pressure. Smaller 
droplets also rise more slowly providing a longer time for natural 
removal processes to take place. The very smallest droplets (less than 
100 microns, the size of a pin head) move and are diluted within the 
deep water, and therefore we believe these droplets will degrade before 
they would ever become available for shoreline impact. Ongoing 
modeling, sampling, and analyses will continue to improve our 
understanding of oil removal rates from these natural and depth-
associated processes.
    For oil that has reached surf zones near environments dominated by 
fine to medium-grain sand beaches, the sand mixes with the oil forming 
tar mats that tend to remain offshore and below the sea surface. NOAA 
is closely monitoring the movement of these tar mats and residual oil 
from the BP Deepwater Horizon spill to help guide our response and 
cleanup efforts and to protect natural resources.

    Question 2. According to press reports, computer models show the 
oil may have already seeped into a powerful ``Loop Current,'' which 
could propel it into the Atlantic Ocean. Is this the case with the 
models you have seen? How reliable are these models?
    Answer. NOAA continues to closely monitor the BP Deepwater Horizon 
oil spill slick's proximity to the Loop Current in the Gulf of Mexico 
to provide coastal states timely and useful information about the 
spill. The Loop Current is a surface current. The well was capped in 
mid-July, and because little surface oil remains, we do not believe the 
Loop Current will transport oil to the Atlantic Ocean.
    When the BP Deepwater Horizon oil spill began, the Loop Current was 
in its classic configuration, with its northern boundary approximately 
60 miles from the spill site. About a month after the accident, a 
counter clockwise eddy formed along its northeast boundary that served 
to move some of the surface slick toward the Loop Current. Most of that 
slick appeared to stay primarily in the counter-clockwise eddy, rather 
than entering the main Loop Current. There were a number of models, 
including NOAA's trajectory models, that showed a sheen of oil entering 
the main Loop Current. Subsequent areal observations detected a sheen 
of oil within the Loop Current, thus confirming the reliability of the 
models. In addition, oil sampled by a ship in the vicinity of the 
boundary between the Loop Current and this counter-clockwise eddy 
matched the BP Deepwater Horizon oil ``fingerprint.'' However, there 
has been no surface oil sheen detected in that region since June 9, 
2010. Furthermore, no oil has been found anywhere else in the Loop 
Current system that has been identified as oil derived from the BP 
Deepwater Horizon oil spill.
    Around May 24, 2010, the northern portion of the Loop Current 
``pinched off,'' forming an eddy named ``Eddy Franklin.'' For the 
following 6 weeks, Eddy Franklin and the Loop Current showed varying 
levels of connectivity. Currently, Eddy Franklin appears to be cleanly 
separated from the Loop Current, and will likely migrate to the west 
over the next few months. The Loop Current will slowly begin to extend 
again to the north over that time. Until the Loop Current fully reforms 
(months from now), there is no clear pathway to bring surface oil from 
the northern Gulf to the Florida Straits, south Florida, and beyond. 
NOAA will continue to monitor the Loop Current as long as floating oil 
remains.

    Question 3. How much oil is leaking each day? If BP's siphon riser 
is successful, how much oil will be leaking by the end of the month?
    Answer. On August 2, 2010, the National Incident Command's Flow 
Rate Technical Group, which is composed of U.S. Government and 
independent scientists, estimated that a total of 4.9 million barrels 
of oil was released into the ocean with an uncertainty of plus or minus 
10 percent. The average oil flow rate ranged from 53,000 to 62,000 
thousand barrels per day where the flow rate decreased with time due to 
reservoir depletion. Because 0.8 million barrels were collected or 
burned, the total amount of oil that polluted the ocean was 
approximately--4.1 million barrels.
    The well was successfully capped on July 15, 2010. On August 5, the 
well was cemented and currently (mid-August) there is no oil leaking 
into the Gulf of Mexico from the Macondo 252 #1 well. A relief well 
remains on track to complete the procedures to kill and finally seal 
the well within the next few weeks.

    Question 4. What is the best case scenario in terms of 
environmental and economic damage caused by this oil spill? What is the 
worst case scenario?
    Answer. It is still too early to know the full scope of the damage 
assessment associated with the BP Deepwater Horizon oil spill, and 
therefore it is not possible to comment on the best and worst case 
scenarios at this time. NOAA and co-trustees are collecting data in the 
Gulf of Mexico and across the five Gulf states (Texas, Louisiana, 
Alabama, Mississippi, and Florida). NOAA and co-trustees are concerned 
about potential short and long-term impacts to fish, shellfish, marine 
mammals, sea turtles, birds, and other sensitive resources, including 
impacts to their habitats, such as wetlands, beaches, bottom sediments, 
and the water column. The data collected will be used to determine what 
natural resources have been injured and what human uses have been lost 
due to the spill, pursuant to the natural resource damage assessment 
and restoration process established by the Oil Pollution Act and 
Federal implementing regulations.
    The effects of the BP Deepwater Horizon oil spill on natural 
resources are dependent on multiple factors including oil composition, 
oil quantity, dispersal techniques, and contact with organisms. 
Offshore oil can impact approximately the upper several meters of the 
water column, mixed layer deep water, and the sea floor. When the oil 
moves onshore, the shoreline, nearshore waters, and coastal habitats 
may be impacted.
    The extent of damage to the Gulf ecosystem's commercial and 
recreational fishing and related industries (restaurants, processors, 
tourism, etc.) is dependent on how long and how much oil is dispersed 
into the Gulf.

    Question 5. In terms of the government response, what have we 
learned the past few days to be better prepared to respond to a 
deepwater oil spill such as the one we are experiencing now in the 
Gulf?
    Answer. Science is essential for effective decision-making to 
minimize the economic impacts and mitigate the effects of oil spills on 
coastal and marine resources and associated communities. The BP 
Deepwater Horizon oil spill has underscored the need for prioritizing 
research on the environmental impacts of dispersants, 3-dimensional 
modeling, fate and transport of oil at deep depths, medium and long 
term forecasting of oil fates, techniques for communicating risk to the 
public, long-term impacts of oil on shorelines, and improved clean-up 
and restoration methods. A better understanding of how deep oil behaves 
and disperses within the water column would help support future 
response efforts. NOAA would be pleased to work with the Committee on 
ideas to increase response capacity and capabilities, improve response 
tools and technologies, and focus on oil spill-related research.
    The BP Deepwater Horizon oil spill has also increased awareness and 
reinforced the need for NOAA to be prepared to respond quickly to 
environmental disaster impacts that affect fisheries and protected 
resources, such as dolphins and sea turtles.

    Question 6. Has either of your agencies received any Freedom of 
Information requests with regards to this incident? If so, can you 
provide a summary of those requests?
    Answer. As of August 16, 2010, NOAA has received 35 FOIA requests 
relating to the April 20, 2010, BP Deepwater Horizon oil spill. The 
requests were submitted by a variety of public interest groups, 
including the news media, private citizens, state government, 
researchers, and ocean advocacy non-profit organizations that focus on 
water/beach quality, fisheries and fish habitat, and marine 
sanctuaries.
    The following is a summary of the various types of information 
requested:

    1. News Media Requests: 15 requests were received seeking:

    <bullet> Computerized records relating to the DH incident and oil 
            spills in 2008;

    <bullet> Correspondence among Coast Guard, BP, PLC and NOAA;

    <bullet> Test results of water samples collected by NOAA in the 
            Gulf region;

    <bullet> Records regarding the DH incident between NOAA personnel, 
            academic and administrative staff;

    <bullet> Records of consultations in 2008-10 between NOAA and 
            Minerals Management Service regarding offshore drilling in 
            the Gulf;

    <bullet> Records regarding the testing of fish, shellfish and sea 
            life in the Gulf of Mexico;

    <bullet> Correspondence between NOAA and Members of Congress 
            pertaining to the DH incident.

    <bullet> The sensory assessors being trained/assigned to evaluate 
            seafood sampling;

    <bullet> Correspondence since April 20, 2010 about the use of 
            dispersants for the BP oil spill;

    <bullet> Communications related to the production and disclosure of 
            the report BP Deepwater Horizon Oil Budget: What Happened 
            to the Oil;

    <bullet> Correspondence pertaining to NOAA's response to three BP 
            FOIA requests, submitted by another news media outlet, and

    <bullet> All correspondence pertaining to NOAA's response to three 
            more BP FOIA requests, submitted by another news media 
            outlet;

    <bullet> A copy of all documents on the results of a field test 
            conducted by NOAA earlier this year on commercial sorbent 
            boom that determined that it absorbed more oil and less 
            water than hair boom.
    2. Public Interest and Non-Governmental Organizations: 13 requests 
were received seeking:

    <bullet> Information on potential ecological impacts associated 
            with deepwater drilling spills in the Gulf and information 
            on past oil spills in this region;

    <bullet> All communications with Minerals Management Service on 
            marine mammals and oil and gas drilling on the outer 
            continental shelf in relation to Shell Oil;

    <bullet> Requests for records relating to live video feed of the 
            oil spill provided by BP;

    <bullet> Records on what EPA and/or environmental organizations 
            were urging relating to the burning of oil.

    <bullet> Sample data of Louisiana crude from the Deepwater Horizon 
            well and procedures, policies, and plans relating to 
            monitoring fish and seafood contamination;

    <bullet> Correspondence relating to necropsies conducted on sea 
            turtles found in the Gulf of Mexico between April 1, 2009 
            and the time the FOIA is processed including Gulf sea 
            turtles conducted by Dr. Brian Stacy;

    <bullet> Communications regarding turtles being killed during 
            controlled oil burns in the Gulf of Mexico following the BP 
            oil disaster;

    <bullet> Communications that mention 23 endangered and threatened 
            species of concern in the Gulf region following the BP 
            Deepwater Horizon oil spill;

    <bullet> Details of all meetings within NOAA and between NOAA and 
            BP regarding underwater or subsurface oil plumes;

    <bullet> Internal correspondence regarding NOAA/Partner missions: 
            NOAA Ship Gordon Mission 1; and NOAA ship Thomas Jefferson 
            Mission 2;

    <bullet> Documents generated by an official or NOAA employee 
            regarding the Gulf Incident Budget Tool Report dated August 
            1, 2010;

    <bullet> Meetings between NOAA and the University of Florida 
            regarding underwater subsurface oil plumes for the period 
            of April 20, 2010 to present, and

    3. Law Firms: 1 request was received from a law firm seeking:

    <bullet> Records relating to health issues, focusing on oil and 
            other exposures by spill responders and the public.

    4. Private Citizens: 6 requests were received seeking:

    <bullet> Information on oil rig incidents dating from 1952-3;

    <bullet> Information of the Deepwater oil spill and oil spills of 
            similar size in the U.S.;

    <bullet> Raw video feed from the underwater response at the 
            Deepwater rig;

    <bullet> All data collected by NOAA, including research reports, on 
            the Deepwater spill;

    <bullet> Request for an Executive Summary published on June 3, 
            2010.

    <bullet> A copy of the FOIA log for all Deepwater FOIA requests 
            that discusses the consequences for marine and wildlife 
            habitats or expansion predictions.

    5. States: 1 request was received seeking:

    <bullet> Information on potential ecological impacts relating to 
            deepwater drilling in the Gulf of Mexico.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                          Hon. Jane Lubchenco
    Question 1. Why hasn't a fisheries failure been declared under 
Magnuson-Stevens, and when will it be?
    Answer. On May 24, 2010, the Secretary of Commerce declared a 
fishery resource disaster caused by the BP Deepwater Horizon oil spill 
resulting in commercial fishery failures off Louisiana, Mississippi, 
and Alabama. On June 2, 2010, the Secretary extended the May 24, 2010, 
declaration to include Florida.

    Question 2. Why hasn't the President set up a fisheries loan 
program as mandated by section 2713(f) of the Oil Pollution Act, and 
when will he?
    Answer. Section 2713(f) of the Oil Pollution Act (OPA) provides the 
President the authority to establish a loan program under the Oil Spill 
Liability Trust Fund (OSLTF) to provide financial assistance to 
fisherman and aquaculture producers affected by oil spills. Transfer of 
this authority has not been made to the Department of Commerce or NOAA. 
The OSLTF is managed by the Department of Homeland Security, the United 
States Coast Guard, and the National Pollution Funds Center (NPFC). 
Please refer this question to the NPFC who can provide information on 
this topic.
    Federal loan assistance is available though the U.S. Small Business 
Administration (SBA). SBA has established an emergency loan program 
with low interest rates to businesses affected by the spill. The SBA 
loan program is at 4 percent interest (relatively low) and up to 30 
year maturity (longer than authorized under the OPA loan program).

    Question 3. When will the Federal Government approve some version 
of the emergency dredging/barrier island plan presented by Louisiana 
more than a week ago? Can you work with the Army Corps to get this plan 
approved immediately?
    Answer. It is the responsibility of the U.S. Army Corps of 
Engineers to issue the emergency permit allowing the construction of 
the proposed sand berms. NOAA, as well as other Federal agencies, 
provided an environmental review of, and comments on, the permit 
application submitted by the State of Louisiana. On May 27, 2010, the 
U.S. Army Corps of Engineers authorized the permit for a six berm 
``pilot'' and the State of Louisiana signed the permit for the six 
berms on June 3, 2010.

    Question 4. When will the Coast Guard, NOAA, BP, and other agency 
partners have a more precise estimate of oil flow from the well in 
light of the piping being successfully attached?
    Answer. On August 2, 2010, the National Incident Command's Flow 
Rate Technical Group, which is composed of U.S. Government and 
independent scientists, estimated that a total of 4.9 million barrels 
of oil was released into the ocean with an uncertainty of plus or minus 
10 percent. The average oil flow rate ranged from 53,000 to 62,000 
thousand barrels per day where the flow rate decreased with time due to 
reservoir depletion. Because 0.8 million barrels were collected or 
burned, the total amount of oil that polluted the ocean was 
approximately 4.1 million barrels.
    The well was successfully capped on July 15, 2010. On August 5, the 
well was cemented and currently (mid-August), there is no oil leaking 
into the Gulf of Mexico from the Macondo 252 #1 well. A relief well 
remains on track to complete the procedures to kill and finally seal 
the well within the next few weeks.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                          Hon. Jane Lubchenco
    Question 1. What NOAA assets are being used in this response?
    Answer. Over the past several months, NOAA has provided scientific 
and technical support to the BP Deepwater Horizon oil spill response, 
both on-scene and through our headquarters and regional offices. NOAA 
ships are monitoring the conditions at the wellhead using its 
specialized acoustic systems. NOAA's support includes daily 
trajectories of the spilled oil, weather data to support short- and 
long-range forecasts, and hourly localized ``spot'' forecasts to 
determine the use of weather dependent mitigation techniques such as 
oil burns and chemical dispersion applications. NOAA develops custom 
navigation products and updated charts to help keep mariners out of oil 
areas. NOAA uses satellite imagery and real-time observational data on 
the tides and currents to predict and verify oil spill location and 
movement. To ensure the safety of fishermen and consumer seafood 
safety, NOAA has closed oil-impacted areas to commercial fishing. NOAA 
scientists are in the spill area taking water and seafood samples to 
determine which areas are safe for commercial fishing. NOAA will reopen 
these areas only if it is assured that fish products within the closed 
area meet the Food and Drug Administration (FDA) standards for public 
health and wholesomeness. To that end, NOAA, in conjunction with FDA, 
has agreed upon a reopening protocol based on both chemical and sensory 
analysis of seafood within the closed area; NOAA continues to work with 
the FDA and the States to modify this protocol as necessary. NOAA's 
marine animal health experts are providing expertise and assistance 
with stranded sea turtles and marine mammals. NOAA is flying multi-
spectral scanning missions over the spill to determine oil density and 
thickness, and has dedicated ship and aircraft assets to determine the 
influence of the Gulf of Mexico Loop Current on transporting the oil 
outside of the Gulf of Mexico. The influence of the Loop Current and 
the presence of submerged oil plumes are areas of ongoing research that 
NOAA and its Federal and academic partners are investigating.

    Question 2. What resources does NOAA have to rescue and 
rehabilitate animals that could be stranded? Are these resources 
sufficient for your response?
    Answer. Through the Unified Command, NOAA is working with the 
existing stranding response network in the Gulf of Mexico and has 
established primary rehabilitation care facilities; four for sea 
turtles and three for marine mammals including dolphins and manatees.
    NOAA has established secondary facilities for extended care outside 
the oil spill event area. NOAA has also set up contracts with stranding 
organizations across the Nation to assist with stranding response in 
the Gulf of Mexico. Additionally, NOAA is establishing a contract with 
the Association for Zoos and Aquariums to assist with veterinary care 
and husbandry capacity.
    With the completion of the new contracts, NOAA will greatly 
increase the stranding response and rehabilitation capacity in the Gulf 
of Mexico. This increased capacity is critical and should be sufficient 
to support NOAA's response.

    Question 3. As the potential for marine mammal injury and stranding 
grows due to the oil spill, will Gulf-based rehabilitation facilities 
be fully considered in aiding their recovery?
    Answer. Yes, NOAA will continue to work with the pre-existing 
stranding network and partners to increase emergency care and 
rehabilitation capacity in the Gulf of Mexico.

    Question 4. The continued release of oil into the Gulf of Mexico 
has resulted in a Federal fishery closure that began May 2, 2010, which 
has since expanded to encompass 20 percent of the Gulf of Mexico being 
closed to recreational and commercial fishing. Will NMFS estimate the 
economic loss incurred by this closure? When will these estimates be 
available?
    Answer. NOAA continues to monitor the presence of oil in the Gulf 
of Mexico and adjust the areas closed to fishing accordingly. NOAA has 
re-opened a total of more than 31,000 square miles of Federal waters in 
the Gulf of Mexico after conducting sensory and chemical analysis of 
fish in these areas. On July 22, NOAA re-opened 26, 388 square miles of 
water to commercial and recreational fishing and another 5,144 square 
miles on August 10, 2010. The current fishery closed area in the Gulf 
of Mexico totals 52,395 square miles or approximately 22 percent of the 
Gulf of Mexico Exclusive Economic Zone (EEZ), this is down from 84,101 
square miles and approximately 37 percent of the Federal waters of the 
Gulf EEZ which was the size of the closed area at its peak on July 12, 
2010. NOAA is confident that commercial and recreational fishing 
activities can safely occur in the areas that were re-opened or never 
closed and that the fish harvested from the area are safe to consume.
    The presence of oil and resulting fishery closures have affected 
recreational fishermen, the charter and party boat industry and its 
associated shore-side businesses, and the commercial fishing industry, 
including fishermen, dealers, processors, and others. Because the 
extent of impacts still is being monitored, we are unable to provide 
estimates of the effects of the oil spill on recreational and 
commercial fishing at this time.
    Commercial fishery data collected by the states and NOAA can be 
used to monitor the effects of the oil spill on commercial fishing 
activities by examining historical landings and dockside revenues by 
month and state in the closed areas. Making an assessment of short-term 
economic losses at this time would only be an approximation, because 
the boundaries of the closed area continue to change and any closed 
area boundaries would not exactly match the boundaries of the 
statistical reporting areas used to record where fishing activity takes 
place. Some fishermen may mitigate the effects of the closures by 
shifting their fishing effort to other areas that are still open. This 
effect will be assessed as data for 2010 become available for analysis.
    The NOAA Marine Recreational Information Program (MRIP) collects 
information about recreational fishing effort and catches. Beginning on 
June 1, 2010, the MRIP increased its sampling intensity of the charter 
industry to provide more timely and localized tracking of changes in 
charter boat fishing effort in the Gulf of Mexico that may be related 
to the oil spill. Better tracking has been made possible by 
substantially increasing the number of captain interviews conducted by 
the weekly For-Hire Surveys in each state and by producing fishing 
effort statistics at weekly rather than bimonthly intervals.
    As part of the Natural Resources Damage Assessment process, NOAA's 
Office of Response and Restoration is evaluating the value of lost 
public use associated with the BP Deepwater Horizon oil spill, 
including recreational activities such as fishing, beach visitation, 
and other public uses, pursuant to the natural resource damage 
assessment and restoration process established by the Oil Pollution Act 
and Federal implementing regulations. As such, NOAA will develop an 
estimate of economic losses associated with the fisheries closures due 
to the BP Deepwater Horizon oil spill. At this time, we do not have an 
estimate for when these analyses will be completed.
    The BP Deepwater Horizon oil spill also has the potential to have 
lasting effects on recreational and commercial fishing. The presence of 
oil may increase natural mortality of fish and shellfish, reduce 
spawning potential and reproduction, and reduce the carrying capacity 
of their habitats. Each of these potential outcomes affects the fishery 
resources upon which recreational and commercial fisheries, their 
infrastructure, and communities depend. Additional research is required 
to assess the long-term effects of oil on the marine ecosystem, fishery 
biomass, and allowable harvests over time as fishery resources recover.

    Question 5. Will the reduced fishing effort in the Gulf caused by 
Federal fishery closures be taken into account when setting any of the 
following year's total allowable catch?
    Answer. The Gulf of Mexico Fishery Management Council specifies the 
total allowable catch (TAC) of fish stocks based on scientific 
assessments and the fishing level recommendations of its Scientific and 
Statistical Committee. The TAC specifies the allowable level of 
removals on an annual basis and is generally specified over a multi-
year timeframe. Fishery regulations do not provide for the carrying 
forward of unused quota to the following year's TAC.
    NOAA does take into account changes in fishing effort when 
considering specification of the TAC and the time-frame within which 
the TAC will be harvested. Fishing effort data are considered in 
scientific assessments that generally are conducted every 3-5 years for 
major species and less frequently for other species. Prior to scheduled 
stock assessments, the Council and NOAA consider new scientific 
information as it becomes available and, if appropriate, based upon the 
best scientific information and statutory and regulatory authorities, 
may consider adjustments to management measures.
    Commercial fishermen report fishing effort estimates on logbooks, 
and NOAA collects effort information on recreational fisheries through 
surveys and dockside sampling. In response to the oil spill, NOAA has 
worked collaboratively with the Gulf States Marine Fisheries Commission 
and the state fishery agencies of Louisiana, Mississippi, Alabama, and 
Florida to improve the precision and timeliness of recreational data 
collection to help us better understand the potential impacts of the 
Federal closure on recreational fishing effort. Specifically, NOAA 
increased the number of charter captain interviews conducted by the 
weekly For-Hire Survey in each state and we are working together to 
collect, enter, and process those data more rapidly, in order to 
provide fishing effort statistics at weekly, rather than bi-monthly, 
intervals. Additionally, we have added questions to the surveys to 
obtain information on fishing trip cancellations directly related to 
the oil spill. This information will be used to help determine whether 
fishermen are harvesting species, such as red snapper and greater 
amberjack, as quickly as projected or whether extended seasons may be 
warranted.

    Question 6. If the subsurface plume, which you described as a mist 
is confirmed to be oil, are there potentially other subsurface oil 
plumes present in the Gulf?
    Answer. There are natural oil seeps in the Gulf of Mexico that 
could potentially lead to areas of dispersed oil. NOAA is continuing a 
comprehensive analysis to define the presence of oil below the surface 
from the BP Deepwater Horizon oil spill. NOAA is conducting analyses to 
determine if any oil detected below the surface is the same 
``fingerprint'' as the Deepwater Horizon source.

    Question 6a. How would impacts of subsurface oil plumes on Gulf 
fisheries differ from impacts of surface oil?
    Answer. In Federal waters, species that use the surface would be 
most impacted by the early stages of the oil spill. When oil weathers 
to tar, it can become denser than water and potentially sink to where 
the bottom-oriented fish community may be impacted. In general, the 42 
reef fish species managed by NOAA in the Gulf of Mexico are often found 
in bottom areas with high relief, such as coral reefs, artificial 
reefs, and rocky hardbottom surfaces. If the oil slick reaches the 
bottom or nearshore/inshore areas, a majority of the reef fish species 
could be affected. Some reef fish spawn in spring, and their eggs and 
larvae are usually planktonic; carried by currents rather than through 
their own control. These larvae would not be able to avoid or escape 
the oil if currents brought them together. Sargassum mats are nursery 
habitat for some species, including gray triggerfish and amberjacks. 
Oil that intersects Sargassum mats could affect these species. In state 
waters, all coastal species could be affected if the oil spill reaches 
nearshore waters. In addition, shrimp larvae usually spend the early 
months of their life in inshore waters before migrating toward the 
ocean. Brown shrimp postlarvae migrate from February to April, and 
white shrimp begin their migration from May through November.
    Additionally, during the spring and summer months, several Gulf 
shark species use coastal habitats as nursery areas. When oil reaches 
any of the coastal areas where these species occur, they could also be 
affected. In addition, the oil slick and the chemicals and methods used 
to clean up the oil may have an effect on other non-commercial and non-
recreational marine species including whales, dolphins, and sea 
turtles.

    Question 7. Will subsurface plumes be tracked similarly to ongoing 
efforts to track surface oil?
    Answer. Since the beginning of May, NOAA has been conducting and 
coordinating sampling of the sub-surface region around the well-head 
and beyond to characterize the presence of subsurface oil. The sub-
surface search involves the use of sonar, UV instruments called 
fluorometers, which can detect the presence of oil and other biological 
compounds, and collection of water samples from discrete depths using a 
series of bottles that can be closed around a discrete water sample.
    NOAA's independent analysis of water samples provided from the May 
22-28 research mission of the University of South Florida's R/V 
Weatherbird II confirmed the presence of low concentrations of sub-
surface oil from the Deepwater Horizon spill 40 nautical miles 
northeast of the wellhead. Additionally, hydrocarbons were found in 
samples 45 nautical miles northeast of the wellhead-at the surface, at 
50 meters, and at 400 meters-however, the concentrations were too low 
to confirm the source. NOAA's analysis of the presence of subsurface 
oil determined that the concentration of oil is in the range of less 
than 0.5 parts per million, and polycyclic aromatic hydrocarbons (PAH) 
levels in range of parts per trillion. In all samples, PAH levels were 
below eco-toxicological benchmarks for marine waters.
    The NOAA Ship Thomas Jefferson conducted an eight-day research 
mission to investigate the presence and distribution of subsurface oil 
from the BP Deepwater Horizon oil spill. The mission collected water 
samples for chemical analysis to help find potential pockets of 
subsurface oil clouds. Chemical analysis of the water samples is 
underway to determine if oil is present in the water, in what 
concentrations, and to identify the source of any oil that is found.
    On June 23, 2010, NOAA, the U.S. Environmental Protection Agency 
and the White House Office of Science and Technology Policy released a 
summary report about the subsea monitoring in the vicinity of the 
Deepwater Horizon wellhead conducted from the R/V Brooks McCall from 
May 8-25, 2010. The report confirms the existence of a previously 
discovered cloud of diffuse oil at depths of 3,300 to 4,600 feet near 
the wellhead. Preliminary findings indicate that total petroleum 
hydrocarbon concentrations at these depths are in concentrations of 
about 1-2 parts per million (ppm). Between that depth and the surface 
mix layer, which is defined as 450 feet below the surface, 
concentrations fell to levels that were not readily discernable from 
background levels. The test's detection limit is about 0.8 ppm. 
Analyses also show that this cloud is most concentrated near the source 
of the leak and decreases with distance from the wellhead. Beyond six 
miles from the wellhead, concentrations of this cloud drop to levels 
that are not detectable. The full report from the Brooks McCall mission 
is available on http://www.noaa.gov/sciencemissions/bpoilspill.html.
    Additional missions are being developed to continue as part of a 
comprehensive analysis to define the presence of oil below the surface.

    Question 8. Has NOAA suggested changes to existing law related to 
fishery disasters relief? If so, please provide any recommended changes 
to the current fisheries disaster relief process.
    Answer. NOAA has not proposed any statutory changes to the current 
disaster provisions in the Magnuson-Stevens Fishery Conservation and 
Management Act or the Interjurisdictional Fisheries Act.

    Question 9. You described out-of-date maps used to determine most 
threatened habitats. When were these maps in Mississippi and Louisiana 
last updated?
    Answer. Environmental Sensitivity Index (ESI) maps provide 
information that helps reduce the environmental, economic, and social 
impacts from oil and hazardous substance spills. Spill responders use 
NOAA's ESI maps as tools to identify priority areas to protect from 
spreading oil, develop cleanup strategies to minimize impacts to the 
environment and coastal communities, and reduce overall cleanup costs. 
Mississippi's ESI maps were last updated in 2010, and Louisiana's ESI 
maps were last updated in 2003.

    Question 9a. Did NOAA make any efforts to update these maps post-
Katrina?
    Answer. NOAA updated Mississippi's ESI maps in 2010. NOAA has not 
been able to update Louisiana's ESI maps since Hurricane Katrina. The 
development of ESI maps has most often been accomplished by using a 
variety of funding sources, both Federal and state. The President's FY 
2011 Request includes $19.5 million for the Office of Response and 
Restoration, which will allow NOAA to update one ESI atlas (pending 
final appropriations). NOAA's goal is to update ESI maps, on average, 
every 10 years. At present, 21 of 50 ESI Atlases are greater than 10 
years old (including the Great Lakes).

    Question 9b. Would a large hurricane, such as Hurricane Katrina, 
necessitate review of these types of maps?
    Answer. Hurricanes can cause significant changes to shorelines and 
habitats. While NOAA's goal is to update ESI maps, on average, every 10 
years, events such as hurricanes can necessitate more frequent updates. 
It is important that spill responders have accurate ESI maps to support 
decision-making during a response.

    Question 9c. What would be required to update these maps and how 
long would such an effort take?
    Answer. The estimated cost to update the ESI Atlases that are 10 or 
more years old is approximately $11.0 million. The cost to update 
Louisiana's ESI's is approximately $600,000.

    Question 10. What regulatory or statutory hurdles have you 
encountered in the ongoing response?
    Answer. The existing regulatory and statutory framework has worked 
well over the years. It is difficult to create a regulatory regime that 
applies equally well despite the size, location, and other unique 
characteristics of each oil spill. At this time, NOAA remains 
completely engaged in the ongoing response and has not undertaken an 
in-depth evaluation of every challenge that has presented itself. We 
are tracking such occurrences and will conduct a more detailed analysis 
in the future.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Admiral Thad Allen
    Question 1. You have likened the National Incident Command's 
efforts to respond to this oil spill to our being at war. We're 
essentially working around the clock to stop an enemy invader from 
reaching our coasts and plundering our resources.
    You're really the combatant commander here--what is our best line 
of attack or defense against this oil spill, and are there lessons 
learned already about how we keep this from happening again?
    Answer. Unprecedented in its scope, complexity, and indeterminate 
nature, the spill has required an extraordinary unified response across 
all levels of government, industry and the communities of five Gulf 
Coast states, the entire United States and the international community. 
An Incident Command System was quickly established to coordinate this 
massive operation. The response community galvanized their efforts 
under a common framework provided by the National Contingency Plan. 
This framework, developed over the last four decades, enables the Coast 
Guard and our Federal Government partners to respond to these 
catastrophes in a way that leverages the strengths of private industry 
under the leadership of a Federal On-Scene Coordinator.
    From the start, objectives have remained constant and clear: stop 
the leak, fight the spill offshore, protect environmentally sensitive 
areas, and mitigate the effects on the environment, the economy, and 
the local communities. The spill has highlighted the need for building 
resiliency into our Nation's critical infrastructure so we are better 
prepared to respond to system failures and prevent spills of national 
significance from occurring in the future.

    Question 2. Every 3 years, the Coast Guard sponsors a Spill of 
National Significance (SONS) drill to sharpen the Nation's ability to 
respond to major oil spill events. By coincidence, the most recent one 
to occur was March of this year, off the coast of New England. Do you 
believe the response to the Gulf Coast spill has been aided at all by 
the fact that the SONS drill just occurred 2 months ago?
    Answer. Yes, the Spill of National Significance (SONS) 2010 
exercise objectives and sub-objectives directly correlate with the Gulf 
of Mexico Oil Spill response actions at the national, regional, and 
local levels.
    The following notable achievements realized during the SONS 2010 
exercise relate to the oil spill in the Gulf of Mexico:

        1. The rapid stand up and efficient functioning of the Unified 
        Area Command and Unified Commands,

        2. The first National Incident Commander (NIC) training seminar 
        which fostered important national level discussions and helped 
        raise awareness of senior leadership concerns, and

        3. Employed SONS response management policy that describes the 
        roles and responsibilities of the NIC and NIC assist team.

    The current response has built upon the achievements listed above 
and has further matured the Nation's understanding of the roles and 
responsibilities at all levels of the response operation, local 
Incident Commands, regional Area Command, and NIC.

    Question 3. Do you see any potential value in increasing the 
frequency of this exercise to better prepare us for future Spills of 
National Significance?
    Answer. No. Due to the extraordinary coordination and scope of a 
full scale SONS exercise, it would be difficult to effectively sponsor 
a SONS full scale exercise more often than triennially. Similarly, the 
frequency of the exercise allows sufficient opportunity to craft and 
disseminate lessons learned, and allow for incorporation into 
operational plans where appropriate.

    Question 4. It seems to me that knowing how much oil is coming out 
of this well is pretty important. I mean, how can you prepare a 
response to a problem when you don't even know the parameters of that 
problem? What role has the CG played in estimating the flow rate of the 
leak? As the National Incident Commander, don't you need to know how 
much oil is flowing out of those pipes in order to gauge the response 
effort?
    Answer. The National Incident Commander (NIC) established a Flow 
Rate Technical Group (FRTG) led by the United States Geological Survey 
(USGS) and comprised of members of Bureau of Ocean Energy Management, 
Regulations and Enforcement; National Oceanic and Atmospheric 
Administration (NOAA); Department of Energy (DOE); the Environmental 
Protection Agency (EPA); and the U.S. Coast Guard (USCG).
    The FRTG has developed a Preliminary Assessment Report that 
estimates the flow rate. As additional methods to secure the source of 
the spill are initiated, the FRTG will evaluate any potential temporary 
increase or decrease in flow rate that results from such tactics and 
will provide any additional assessments as they become available.

    Question 5. On April 29, 9 days after the explosion, Secretary 
Napolitano declared this incident to be a Spill of National 
Significance (SONS), enabling the appointment of you as the National 
Incident Commander to coordinate response resources at the national 
level. Why did it take 9 days for the SONS to be declared? Would an 
earlier SONS declaration have changed the response effort in any way?
    Answer. On Saturday, April 24, BP found the first two leaks in the 
riser from the sunken Deepwater Horizon rig and alerted the Federal 
Government. The first three equipment staging locations were quickly 
established along the Gulf Coast. Additional personnel and vessels were 
deployed to the area through the Federal On-Scene Coordinator's Unified 
Command. Controlled burns of oil on the surface at the incident site 
began on Wednesday, April 28. These controlled burns were successful in 
removing oil from the surface at that time and containing the 
discharge. Later that day, BP discovered a third discharge point on the 
sea floor.
    On Thursday, April 29, the Deepwater Horizon discharge event was 
designated a Spill of National Significance (SONS) pursuant to 40 CFR 
300.323. The practical effect of a SONS designation is the triggering 
of authority to designate a National Incident Commander (NIC) who is 
responsible under 40 CFR 300.323 for communicating with affected 
parties and the public, and coordinating Federal, state, local, and 
international resources at the national level.
    The Deepwater Horizon SONS declaration built upon the operational 
and policy coordination already established from the beginning of the 
response. The SONS declaration did not affect the authority of the 
Coast Guard or any other Federal agency to direct assets to the site of 
the incident or the authority of the FOSC.

    Question 6. Organotin-based anti-fouling coatings such as 
tributyltin (TBT) are highly toxic to the marine environment and may 
pose unreasonable risks to the aquatic life. In 2001, the International 
Convention on the Control of Harmful Anti-Fouling Systems was adopted 
by the International Maritime Organization (IMO) and entered into force 
internationally in 2008 to prohibit the new application of harmful 
coatings containing organotins. This Convention also imposed an 
international requirement that organotins be removed from hulls or that 
an over-coat be applied to the ship's hull to prevent leaching. H.R. 
3618, the Clean Hull Act of 2009 will bring U.S. laws into compliance 
with this Convention. What impact will this legislation have on U.S. 
ship owners and operators, the marine paint and coatings industry, 
shipyards, recreational boaters, and the average fishing vessel owner? 
As the Commandant of the Coast Guard, do you support it?
    Answer. The Coast Guard defers to the Environmental Protection 
Agency (EPA), the agency charged with the administration of current law 
(i.e., the Organotin Antifouling Paint Control Act of 1988 (33 U.S.C. 
2401)), with regard to the impact of H.R. 3618 on industry--
specifically, on the marine paint and coatings industry.
    That said, the Coast Guard anticipates that the impact of the 
legislation on those segments of the economy it regulates (e.g., 
vessels and vessel owners/operators) will be minimal. Under existing 
law, vessels must demonstrate compliance by certification (or 
alternative documentation); similarly, under H.R. 3618, vessels must 
demonstrate compliance and obtain certain certificates (or the 
appropriate equivalent) from the Secretary of the department in which 
the Coast Guard is operating. Compliance under the H.R. 3618 regime may 
be demonstrated via paint receipts or contractor invoices provided by 
the shipyard or vessel operator. Currently, class societies are issuing 
statements of fact attesting to compliance with the International 
Convention on the Control of Harmful Anti-fouling Systems, 2001 (the 
Convention).

    Question 7. The use of organotin anti-fouling systems was 
prohibited on small vessels and the sale, purchase and application of 
anti-fouling paint containing organotins was banned in the U.S. under 
the Organotin Anti-fouling Paint Control Act of 1988. However, the 
United States currently does not have the authority to prohibit foreign 
vessels from using organotin-based anti-fouling coatings from entering 
our waters. The Clean Hull Act would expand the application of existing 
prohibitions to all ships, regardless of size. How will the Coast Guard 
ensure that all vessels entering U.S. waters are in compliance with the 
Clean Hull Act?
    Answer. With regard to flag state inspections (U.S. vessels), 
verification will be carried out during routine vessel inspections. For 
inspected vessels, the Coast Guard will verify compliance during annual 
inspections and issue International Antifouling System Certificates, as 
appropriate, during a ship's drydock exam.
    With regard to port state control examinations of foreign vessels, 
the Coast Guard may examine such vessels, subject to port state 
control, during regular port state control examinations. These exams 
would include that vessels hold valid International Antifouling System 
Certificates.

    Question 8. The Clean Hull Act of 2009 would mandate vessels of at 
least 400 gross tons engaged in international voyages to carry an 
International Antifouling System Certificate. Smaller vessels would 
need a declaration that the antifouling system on the vessel complies 
with the International Convention. Is the Coast Guard properly staffed 
to be able to enforce this certificate or declaration requirement?
    Answer. With regard to flag state inspections (U.S. vessels), the 
Coast Guard would likely delegate/authorize classification societies to 
issue the International Antifouling System Certificate. Even so, the 
program management, tracking, and verification of certificates or 
declarations will impose some additional burden on existing Coast Guard 
resources. Additional analysis will be needed to determine whether 
additional personnel would be needed to implement this requirement.
    Port state control examinations of foreign vessels, compliance 
verifications also will impose some additional burden on existing 
resources. Additional analysis will be needed to determine whether 
additional personnel would be needed to implement this requirement.

    Question 9. There are many anti-fouling alternatives to organotin-
based anti-fouling systems, such as copper, that are far less toxic to 
the marine environment. Do you think these alternatives are equally 
effective?
    Answer. The Coast Guard defers to the Environmental Protection 
Agency as to the effectiveness and toxicity of alternative to 
organotin-based anti-fouling systems.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                           Admiral Thad Allen
    Question 1. The Deepwater Horizon Unified Command has been 
operating a Joint Information Center (JIC) since the first days of the 
spill. The JIC has and continues to receive submissions for alternative 
response technology, services or products. How many submissions has the 
JIC received? How many submissions have been responded to? What is the 
JIC's process for vetting these submissions, and how many submissions 
have been brought to the attention of JIC leadership?
    Answer. On June 4, 2010, a formal Interagency Alternative 
Technology Assessment Program (IATAP) process began with the issuance 
of a Broad Agency Announcement (BAA) on the Federal Business 
Opportunities (FedBizOpps) website soliciting requests for oil spill 
response technology. The BAA calls for the submission of white papers 
describing proposed technology solutions with applicability in five 
distinct problem areas:

  <bullet> Oil sensing improvements to response and detection;

  <bullet> Oil wellhead control and submerged oil response;

  <bullet> Traditional oil spill response technologies;

  <bullet> Alternative oil spill response technologies; and

  <bullet> Oil spill damage assessment and restoration.

    This BAA is open to all sources and is available from the front 
page of FedBizOpps. Through this process, the Coast Guard recognizes 
the potential for novel, highly innovative solutions from small 
businesses, individuals and non-traditional sources. Submissions may 
include those from single or team entities such as academia, private 
sector organizations, government laboratories and federally funded 
research and development centers. The government also encourages non-
profit organizations, educational/academic institutions, small 
businesses, small disadvantaged businesses, historically black colleges 
and universities/minority institutions, women-owned businesses, 
service-disabled veteran-owned small businesses and historically 
underutilized business zone enterprises to submit concepts for 
consideration and/or to join others in a submission.
    The BAA white paper submissions are screened based upon overall 
scientific and technical merit, feasibility, the availability of 
proposed solution and submitted cost information.
    The IATAP workgroup, as managed by the Coast Guard's Research and 
Development Program, and in consultation with other interagency 
partners, is screening and sorting submissions based on technical 
feasibility, efficacy and deployability. The initial screening of the 
BAA responses will result in a determination that either the concept:

  <bullet> Has a discernible benefit to the spill response effort;

  <bullet> Needs more detailed investigation or evaluation and will be 
        forwarded to the appropriate government agency overseeing that 
        portion of the Deepwater Horizon response (EPA, MMS, NOAA, 
        USCG, etc.); or

  <bullet> Does not have immediate applicability to support this event.

    All submissions will be provided with a response and tracking 
number identifying the initial screening determination. All submissions 
are managed in the order they are received regardless of origin to 
ensure fairness in evaluation.
    If the initial screening determines that the concept has 
applicability and potential immediate benefit to the spill response 
effort, the technical portion of the proposal and the IATAP 
recommendation is forwarded to the Deepwater Horizon response FOSC for 
further action under its authority, in consultation with the 
responsible parties and/or other Federal agencies. If the initial 
screening determines that a more detailed investigation or evaluation 
is required it will be forwarded to the appropriate government agency 
overseeing that portion of the Deepwater Horizon Response (EPA, MMS, 
NOAA, or USCG), and that agency is responsible for further action.
    As of August 1, 2010, we have received 3,797 submissions from the 
BAA and 3,502 have completed the initial screening process. The IATAP 
provides a transparent, robust, repeatable process for evaluating 
technology solutions in this and future responses.

    Question 2. It is my understanding that Louisiana officials have 
met with and reviewed alternative response technologies, including 
those proposed by Show Me Energy. How closely is the JIC working with 
state and local governments in reviewing alternative response 
technologies?
    Answer. Promising technologies that are deemed promising or 
feasible are presented to the Unified Area Command for consideration. 
State and local representatives are part of the Unified Area Command.
    On June 4, 2010, to facilitate more timely evaluation of ideas, the 
Coast Guard issued a Broad Agency Announcement (BAA) to establish an 
Interagency Alternative Technology Assessment Program (IATAP) under the 
provisions of the Federal Acquisition Regulation, Subparts 6.102(d)(2) 
and 35.016, to provide for the submission of White Papers (written 
description of the idea) in support of the Deepwater Horizon Response. 
The IATAP was designed to establish a well defined, documented, 
systematic, and fair government-managed process to solicit, screen, and 
evaluate vendor/other government agencies/academia-suggested 
technologies in support of ongoing response activities.
    All submitted White Papers meeting the requirements of the BAA will 
be reviewed and evaluated as they are received. Each White Paper will 
undergo an initial screening. The initial screening will result in a 
determination that either: (1) the White Paper has a potential for 
immediate benefit to the spill response effort; (2) the White Paper 
submission needs more detailed investigation or evaluation and will be 
forwarded to the appropriate Government Agency overseeing that portion 
of the Deepwater Horizon Response (EPA, MMS, NOAA, or USCG); or (3) the 
White Paper submission does not support this incident. A Contracting 
Officer will provide a response to all properly submitted papers.
    Should a White Paper show reasonable and timely application to the 
response efforts, the work group will forward it to the Federal On-
Scene Coordinator (FOSC) for the Deepwater Horizon response, for 
further consideration by the appropriate members of Unified Command.

    Question 3. What process is in place to share information and ideas 
with state and local governments?
    Answer. The National Contingency Plan (NCP) sets forth the 
framework and organizational structure for the Federal response to an 
oil spill. In accordance with the NCP, the Unified Command coordinates 
and directs response efforts through an integrated and flexible 
structure that emphasizes cooperation and coordination in local, state, 
and Federal responses to complex multi-jurisdictional, multiagency 
incidents. The Federal On-Scene Coordinator (FOSC) serves within the 
Unified Command, which includes representatives from the Responsible 
Parties, Federal, State and local governments. Information sharing 
takes place through the Unified Command.
    As the response to the Deepwater Horizon response evolved the 
National Incident Command has improved coordination with state and 
local entities through a number of liaison functions.
    Coast Guard Liaisons are placed throughout Florida, Alabama, 
Mississippi, and Louisiana. Within the states, liaisons are located 
with Governors Offices, County Emergency Operations Centers, Parish 
Presidents and Deputy Incident Commanders. In addition, Community 
Outreach Teams are working throughout impacted communities and 
reporting local concerns to Deputy Incident Commanders.
    All liaisons provide a critical means of communication with the 
public, and state and local officials. Feedback from the communities' 
directly informs the objectives, strategies and tactics of the response 
to the Deepwater Horizon.

    Question 4. As you know, the Coast Guard has detected the presence 
of dozens of ``tar balls'' approaching the Florida coast, suggesting 
that the Gulf Coast oil spill has traveled throughout the Gulf Coast 
region. How do you plan to determine whether these tar balls are indeed 
a product of the Deepwater Horizon spill?
    Answer. Oil has a finger print. When a tar ball is found, it is 
sent for lab analysis to see if there is crude oil in the tar ball, 
which typically takes 24 hours. If analysis reveals there is crude in 
the tar balls, they are analyzed to see if it is related to the MC252 
spill; this typically takes up to 3 days. Of the tar balls analyzed, 
some have been determined as originating from the Deepwater Horizon 
while others have been from other sources.

    Question 5. In light of the failed remediation strategies that have 
been tried thus far, how does the Unified Command plan to prevent this 
eastward expansion of the spill?
    Answer. The Unified Area Command's primary strategies are to skim 
the oil, perform in-situ burning and dispersing at the leading edge of 
the main mass of the oil in order to contain the spill. These 
techniques are used in various combinations dependent upon the existing 
on-scene weather conditions each day.

    Question 6. As you know, six of the ten leading U.S. ports are 
located in the Gulf of Mexico region, hosting some of the largest 
tonnage ships in the Nation. At this time, the oil spill has yet to 
impact barge traffic on the Mississippi River, although the spill is 
approaching the river's mouth. How does your agency plan to prevent the 
spill from reaching the mouth of the river, thereby maintaining the 
ability to continue normal levels of barge traffic along the 
Mississippi?
    Answer. The U.S. Coast Guard will continue ongoing protection 
strategies using booming, skimming, in-situ burning (where possible) 
near the mouth of the Mississippi River to contain the leading edge of 
the oil spill. Additionally, a vessel decontamination station will be 
set up near the mouth of the river, to clean tugs and barges after they 
transit through any part of the oil.

    Question 7. As you know, the government response to Hurricanes 
Katrina and Rita included the contracting of services to private firms. 
The Government Accountability Office, in their review of contracting 
activities following these disasters, noted a lack of clearly 
communicated responsibilities across agencies and jurisdictions and 
insufficient numbers and inadequate deployment of personnel to provide 
for effective contractor oversight. What specific activities will your 
department be seeking to contract out or are you already relying on 
contractors to carry out? Please explain why each activity is 
appropriate for a contractor to handle.
    Answer. The Unified Command is fully in charge of the totality of 
the response. The Unified Command is providing resources and oversight 
using trained staff, contractors, subject matter experts and others 
from around the world with the required skill sets appropriate for the 
work to be carried out and managed effectively.
    Example of contractor activities include the use of nationally 
recognized response management firms. The firms are responsible for all 
onshore cleanup activities through an established network of 
subcontractor specialists for cleaning, removal and disposal. Many of 
these subcontract firms are recognized by the Coast Guard as Oil Spill 
Removal Organizations (OSROs). The response management firms have 
expertise in all aspects of spill response and management and can 
provide sustainable management positions including accountability, 
subcontractor performance management, quality control, cost and 
schedule reporting to a Unified Command designated Contract Accountable 
Manager.

    Question 8. What are the preliminary cost estimates for contracted 
out response activities?
    Answer. As of June 1, 2010, the removal costs funded from the Oil 
Spill Liability Trust Fund for contractors was $7,301,271.

    Question 9. How does your agency intend to work with other agencies 
to prevent the issues we experienced during the Katrina response from 
arising in this instance?
    Answer. The National Incident Commander established the Interagency 
Solutions Working Group (IASG) to provide actionable ``whole of 
government'' recommendations for consideration. The IASG is comprised 
of subject matter experts from the National Response Team and other 
Federal agencies who research and coordinate across all affected 
agencies to address a broad spectrum of issues, including effective 
contractor oversight.

    Question 10. How many personnel have been deployed to the Gulf 
Coast to ensure that contractor abuses are prevented and that there is 
adequate oversight of contractor performance?
    Answer. The Coast Guard has deployed 146 Federal on Scene 
Coordinator Representatives (FOSCRs) to the gulf region to direct/
monitor operations. All FOSCRs are empowered with contractor oversight 
authority in their assigned area. There are also 40 members who will 
graduate on June 6, 2010, from FOSCR training, and will be prepared for 
assignment.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                           Admiral Thad Allen
    Question 1. Yesterday, Secretary Napolitano said that we are at the 
middle of the timeline in the case of stopping the leak. We've been at 
this for almost a month, and she said that we'll likely be trying to 
stop the leak for several weeks. How would you characterize our current 
position along the timeline of stopping the leak? How would you 
characterize our current position along the timeline of recovering the 
oil and stemming any additional environmental damage from the leak?
    Answer. On July 15, the application of the capping stack was 
successful in stopping the flow of oil into the environment. The 
Unified Area Command will closely monitor to ensure well bore 
integrity. The Unified Area Command's objectives remain constant and 
clear:

        Stop the leak, fight the spill offshore, protect 
        environmentally sensitive areas, and mitigate the effects on 
        the environment, the economy, and the local communities.

    Question 2. I understand that hundreds of thousands of feet of 
protective boom have been placed along the shoreline in the Gulf. How 
long will the boom last? In other words how quickly will we have to 
replace the boom that has already been put in place along the 
coastline?
    Answer. The lifespan of boom depends on many factors including: the 
material used to make the boom; the wind and sea conditions; the amount 
of debris in the water; and the amount of sunlight exposure. Also, 
there are three basic kinds of protective boom being used--ocean boom 
(offshore) and near shore boom that are exposed to rougher sea 
conditions and inland boom that generally holds up better. However, 
crews are checking the boom regularly and reporting damaged boom to 
Incident Command Posts (ICPs) to ensure prompt replacement of boom.

    Question 3. How much fire-resistant boom was prepositioned in the 
gulf to respond to an oil spill of this magnitude? Assuming cooperative 
weather conditions, was there enough prepositioned fire boom to burn 
off the presumed 5,000 barrels of oil leaking into the Gulf each day?
    Answer. According to the Response Resources Inventory before the 
spill, there were 500 feet of fire boom located in Texas, 500 feet in 
Mississippi and 500 feet in Florida.
    Chemical dispersants, mechanical recovery and in situ burning are 
all components of an effective response to surface oil pollution. 
Mechanical recovery is the preferred method for on water oil spill 
response because it removes the oil from the environment, but is not 
always effective due to environmental conditions. The use of 
dispersants to mitigate offshore oil spills has also become a proven 
and accepted technology and under certain conditions, more effective 
than mechanical response. Therefore the Coast Guard does not rely 
solely on in-situ burn to remove spilled oil. Instead the Coast Guard 
uses all of the tools described above in oil spill removal.

    Question 4. Should MMS be required to share oil spill response 
plans with the Coast Guard? Has the Coast Guard ever been approached by 
MMS to review the oil spill response plan in the Gulf?
    Answer. The Coast Guard supports enhanced integration of Federal 
response regimes. The Coast Guard recommends that, if such plans are to 
be shared, the Bureau of Ocean Energy Management, Regulation and 
Enforcement (BOEMRE) distribute them to all the impacted agencies--such 
as the Coast Guard as the lead Federal agency for marine environmental 
response for waters on the U.S. Outer Continental Shelf (OCS). Although 
there is no statutory requirement to share the Area Contingency Plan 
for Gulf areas, the Coast Guard may request, through BOEMRE, a review 
of oil spill response plans. Through a Memorandum of Agreement with the 
BOEMRE [OCS-03--Oil Discharge Planning, Preparedness, and Response--
Effective 23 May 2007], USCG currently has the opportunity to review 
OSRPs and provide suggested revisions on oil spill response equipment, 
response strategies, or other components of the plan. USCG is preparing 
a Navigation and Vessel Inspection Circular that instructs field office 
personnel to actively engage with BOEMRE regional staff in the review 
of OSRPs and to ensure consistency with Area Contingency Plans.

    Question 5. BP has publicly stated that it will cover all 
legitimate claims of economic damage associated with the oil spill. 
What is the historical standard for determining what a ``legitimate 
claim'' is for economic damages associated with an oil spill?
    Answer. The Coast Guard cannot comment on what BP considers a 
``legitimate'' claim. Claims that may be paid from the Oil Spill 
Liability Trust Fund (OSLTF) are those described in the Oil Pollution 
Act, see 33 U.S.C. 2702(b) and the implementing regulations for claims 
against the OSLTF at 33 Part CFR 136. When the OSLTF pays such 
qualifying claims it seeks recovery from liable responsible parties.

    Question 6. There have been some complaints that BP and the Federal 
agencies overseeing the cleanup have been slow to adopt new and 
innovative technologies that could either help stop the leak or help 
with the cleanup efforts. What is the process for approving new third-
party technologies in the cleanup effort? What are BP and the Federal 
Government doing to speed up this process?
    Answer. In an effort to ensure that the best available methods are 
used in the Administration's ongoing response to the Gulf oil spill, 
the National Incident Commander (NIC) established an Interagency 
Alternative Technology Assessment Program (IATAP) working group to 
collect and review oil spill response solutions from scientists and 
vendors. The Coast Guard's Research and Development Center, in 
collaboration with interagency partners, issued a Broad Agency 
Announcement (BAA) on www.FedBizOpps.gov (Announcement HSCG32-10-R-
R00019). This announcement called for the submission of white papers 
addressing: oil sensing improvements to response and detection; oil 
wellhead control and submerged oil response; traditional oil spill 
response technologies; alternative oil spill response technologies; and 
oil spill damage assessment and restoration. The IATAP and the Coast 
Guard's Research and Development Center screen submissions based on 
technical feasibility, potential effectiveness and deployment 
capability. The IATAP is a separate forum, and independent of BP's 
review process. Therefore, if persons wish to have their idea evaluated 
by the Federal Government, they should submit it using the process 
articulated in the Broad Agency Announcement.
    As of June 27, 2010, eighteen (18) IATAP BAA submissions (of 2,708 
total received) have been forwarded, or are in the process of being 
forwarded, to the Unified Area Command (UAC) for consideration and 
operational evaluation. The processing time for these ideas averaged 12 
days from receipt to forwarding, but the last four forwarded to the UAC 
averaged 9 days total.
    In addition, individuals may also submit ideas directly to BP 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e68e89948f9c898895939696899492a68983818a8a85c885898b">[email&#160;protected]</a>) for consideration. This site evaluates 
ideas and proposals for alternative technology as well as vendor offers 
of response services, products, and equipment.

    Question 7. In terms of the government response, what have we 
learned the past few days to be better prepared to respond to a 
deepwater oil spill such as the one we are experiencing now in the 
Gulf?
    Answer. Lessons learned in this oil spill response will be informed 
by the results of on-going Federal review efforts. These reviews will 
examine many facets of the response including the implementation and 
effectiveness of the response to this spill within the confines of the 
National Contingency Plan (NCP), Regional Contingency Plans (RCPs), 
Area Contingency Plans (ACPs), Regional Response Plan or Oil Spill 
Response Plan (OSRP), and Vessel Response Plans (VRPs).

    Question 8. Has either of your agencies received any Freedom of 
Information requests with regards to this incident? If so, can you 
provide a summary of those requests?
    Answer. We have received 42 Freedom of Information Act requests. 
The following is a summary of those requests.

------------------------------------------------------------------------
  FOIA  Control
     Number                 Description                  Requestor
------------------------------------------------------------------------
20102030          All MISLE data from creation    Chemical Emergency
                   to present regarding vessels    Preparedness Agency
20102031          Inspection report from Jan      The Wall Street
                   2005 to April 2010 regarding    Journal
                   vessels
20102053          All documents related to the    Justin Elliott
                   investigation of the oil
                   spill in the gulf of Mexico
                   on 20 April 10
20102057          All documents related to the    CNN Washington
                   oil spill in the gulf of
                   Mexico on 20 April 10
20102088          All documents related to oil    ProPublica
                   spills from March 15 to May 2
20102089          Copies of personnel lists       ProPublica
                   during Deepwater Horizon Oil
                   Spill
20102094          All documents related to        Blackthorn Investment
                   Transocean LTD                  Group LLC
20102106          Any visuals showing leaks of    ABC News
                   oil on Deepwater Horizon Oil
                   Spill
20102149          All documents related to the    National Mariners
                   oil spill in the gulf of        Association
                   Mexico on 20 April 10
20102160          All documents related to the    The Wall Street
                   oil spill in the gulf of        Journal
                   Mexico on 20 April 10
20102188          All communications and/or       Associated Press
                   Correspondence between the
                   Coast Guard and BP relating
                   to any visuals showing leaks
                   of oil on Deepwater Horizon
                   Oil Spill
20102189          All subpoenaed documents by     Preis & Roy
                   the Coast Guard/MMS joint
                   investigators related to the
                   Deepwater Horizon Oil Spill
20102220          All documents related to        Elliott Management
                   inspections performed on        Corporation
                   Deepwater Horizon
20102223          All documents related to the    The Associated Press
                   oil spill in the gulf of
                   Mexico on 20 April 10
20102237          Any visuals showing leaks of    CBS Evening News
                   oil on Deepwater Horizon Oil
                   Spill
20102238          All documents related to        Center for Public
                   inspections performed on        Integrity
                   Deepwater Horizon
20102261          Any visuals showing leaks of    CREW
                   oil on Deepwater Horizon Oil
                   Spill
20102288          Copies of letters for           Larry McMahan
                   Transocean employees
20102303          Any and all documents related   Competitive Enterprise
                   to Deepwater Horizon Oil        Institute
                   Spill
20102308          All correspondence between the  The Associated Press
                   Coast Guard and specified
                   universities
20102309          Results for all water tests     The New York Times
                   taken after the Deepwater
                   Horizon Oil Spill
20102355          E-mails to and from ADM Allen   WVUE-TV (Fox 8)
                   from 4/20-5/30 related to the
                   Deepwater Horizon Oil Spill
20102361          Victim Statements/distress      CNN
                   calls/picture/videos
                   correspondence Deepwater
                   Horizon Oil Spill
20102388          Transcripts of all proceeding   Arnold & Itkin LLP
                   conducted o/a 11 May 10
                   related to the Deepwater
                   Horizon Oil Spill
20102389          Numbers of Coast Guard          Building Solutions
                   aircrafts in the air during
                   the initial Deepwater Horizon
                   explosion
20102395          Audio recordings from NRC o/a   Associated Press
                   20 April 10 related to the
                   Deepwater Horizon Oil Spill
20102431          All information relating to     DOJ of Louisiana
                   the ecological impact of the
                   Deepwater Horizon Oil Spill
20102432          All correspondence related to   Martzell & Bickford
                   the Deepwater Horizon Oil
                   Spill
20102477          All correspondence related to   Chimicles & Tikellis
                   the Deepwater Horizon Oil       LLP
                   Spill
20102478          Incident report on Deepwater    Johnny Wong
                   Horizon o/a 20 April 2010
20102479          All documents related to the    Associated Press
                   ``SONS'' exercise programs
20102480          All documents related to the    CREW
                   ``SONS'' exercise programs
20102488          Daily incident action plans     James Mason
                   for the specified days
                   related to the Deepwater
                   Horizon Oil Spill
20102489          Daily incident action plans     USA Today
                   for 20 April 2010 related to
                   the Deepwater Horizon Oil
                   Spill
20102490          Any interviews in conjunction   CNN
                   to MMS related to the
                   Deepwater Horizon Oil Spill
20102491          Coast Guard's legal standpoint  Stern Bramson
                   on BPs violations of Coast
                   Guard regulations on the
                   Deepwater Horizon
20102492          Provide a list of all           Yobie Benjamin
                   government agencies that
                   offered help to BP
20102503          Letter to Coast Guard military  The Associated Press
                   personnel regarding BP
20102505          Latest version of the           New York Times
                   recovered Oil, waste plan
                   related to the Deepwater
                   Horizon Oil Spill
20102506          Copy of National Contingency    Center for
                   Plan                            Constitutional Rights
20102550          Sampling data from air and      Natural Resources
                   water quality in LA related     Defense Council
                   to the Deepwater Horizon oil
                   spill
20102551          All documents pertaining to     F Gerald Maples
                   air quality readings in LA
                   related to the Deepwater
                   Horizon oil spill
------------------------------------------------------------------------

                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                           Admiral Thad Allen
    Question 1. Why hasn't the President set up a fisheries loan 
program as mandated by section 2713(f) of the Oil Pollution Act, and 
when will he?
    Answer. There are no funds available for a loan program for interim 
assistance to claimants. Any use of the Oil Spill Liability Trust Fund 
(OSLTF) for a fisheries loan program would require an appropriation. 
Even if funds were appropriated the loan eligibility provisions require 
that the claimant must have incurred a damage and have a pending claim 
that has not been paid. In the Coast Guard's experience once a damage 
is established, payment of any claim is forthcoming and there should be 
no need for a loan. Thus the loan provision does not provide for 
effective assistance. Further there is no provision for recovery of 
loan costs from those responsible for the pollution. Thus loan costs, 
including losses from loans not repaid, might be a cost only to the 
OSLTF. Such a loan program could interfere with current claim 
adjudication and compensation.

    Question 2. When will the Federal Government approve some version 
of the emergency dredging/barrier island plan presented by Louisiana 
more than a week ago? Can you work with the Army Corps to get this plan 
approved immediately?
    Answer. On June 4, 2010, the Federal On Scene Coordinator 
determined that the Approved Barrier Island Project was an appropriate 
removal action. The BOEMRE executed a lease to the State of Louisiana 
on July 16, 2010, for use of up to 10 million cubic yards of OCS sand 
from the St. Bernard Shoals area for the sand berm to protect the 
Chandeleur Islands and Breton National Wildlife Refuge from oil from 
the Deepwater Horizon oil spill.

    Question 3. When will the Coast Guard, NOAA, BP, and other agency 
partners have a more precise estimate of oil flow from the well in 
light of the piping being successfully attached?
    Answer. As of August 2, 2010, U.S. Government and independent 
scientists estimated the most likely flow rate of oil as between 53,000 
and 62,000 barrels per day where the flow rate decreased with time due 
to reservoir depletion.
    This revised estimate was based on updated information and 
scientific assessments from the Flow Rate Technical Group. The Flow 
Rate Technical Group was assembled at the direction of the National 
Incident Commander and chaired by U.S. Geological Survey Director, Dr. 
Marcia McNutt.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                           Admiral Thad Allen
    Question 1. Since the explosion on April 20th, what specifically do 
you wish the Federal Government could have done quicker or differently 
than has been performed up to this point?
    Answer. The Coast Guard and our inter-agency partners have 
conducted oil spill response drills for years. However, the Coast Guard 
and our inter-agency partners had not anticipated an oil spill that 
could not be controlled and cleaned up in a shorter period.
    As we have seen, a spill of this magnitude is within the realm of 
possibility. As a result, the whole of government will review the 
lessons learned from this operation to think about equipment standards, 
technology, and our preparedness to respond in the future.

    Question 2. Does the Unified Command have access to the total 
amount of boom necessary to protect Gulf Coast beaches and marshland? 
Please explain the process used to determine boom placement in this 
response.
    Answer. Sufficient boom is available to protect sensitive areas set 
forth in Area Contingency plans, however due to the magnitude of the 
Deepwater Horizon oil spill, the Unified Area Command is acquiring 
double the amount of boom required by the Area Contingency Plans in the 
affected states.
    Area Contingency Plans guide the placement of boom. These plans are 
developed and approved in advance of an oil spill by the Area Committee 
whose membership includes Federal, State, organizations and industry. 
Area Contingency Plans identify environmentally sensitive areas and 
booming strategies for the region. The Federal On-Scene Coordinator 
consults the area contingency plans and the conditions of the spill to 
assess, place and monitor boom.

    Question 3. Are there other types of booms or protective barriers 
available through other Federal entities that could limit oil reaching 
our beaches and marshland? If so, are these assets being utilized? If 
they are not currently being utilized, please list these assets and 
explain why they are not being considered for assistance in the 
response?
    Answer. Boom remains a critical response resource. The Unified Area 
Command is aggressively procuring boom throughout the Nation and 
accepting international government offers of boom for deployment in 
this response.

    Question 4. Should the Coast Guard have greater responsibilities 
related to review of response plans required by Outer Continental Shelf 
Facilities?
    Answer. The Coast Guard supports enhanced integration of Federal 
response regimes--specifically, the involvement of all impacted 
agencies, including the National Oceanic and Atmospheric Administration 
as the Federal steward of marine resources, the Coast Guard as the lead 
Federal agency for marine environmental response for waters on the U.S. 
Outer Continental Shelf, and the Department of Health and Human 
Services as the lead Federal agency for public health. The Coast Guard 
also recommends that, if the Service is to be further involved in the 
review and approval of such plans, the totality of mission and resource 
impacts be taken into account.

    Question 5. What regulatory or statutory hurdles have you 
encountered in the ongoing response?
    Answer. On May 12, the Administration submitted a legislative 
package that included both funding and authorizing language intended to 
facilitate response that would be expedient, deliver speedy assistance 
to people affected by this spill, and strengthen and update the oil 
spill response system. Many of the provisions included in this package 
were included in H.R. 4899 (Public Law 111-212), which was enacted in 
late July. However, H.R. 4899 excluded Administration-proposed 
provisions. The Administration's proposed legislation is available at 
http://www.whitehouse.gov/the-press-office/fact-sheet-deepwater-
horizon-oil-spill-legislative-package.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                             to Lamar McKay
    Question 1. How much money did BP plan to spend on the well the 
Deepwater Horizon was hired to drill, and how much had it actually cost 
up to April 20, 2010?
    Answer. BP originally planned to spend up to $140 million (gross 
cost) on the Macondo well. The Marianas rig began drilling the well on 
October 1, 2009. Hurricane Ida damaged the Marianas on November 8, 
2009, and the rig was sent to shore for repair. The Deepwater Horizon 
rig started drilling on January 31, 2010. The projected cost of the 
well increased to up to $166 million. As of April 19, 2010, the 
estimated gross spending on the well was approximately $151 million.

    Question 2. The London Times reported that your global CEO, Tony 
Hayward, reiterated a promise that BP ``will honour all legitimate 
claims for business interruption,'' and that when asked for examples of 
illegitimate claims he replied ``I could give you lots of examples. 
This is America--come on. We're going to have lots of illegitimate 
claims. We all know that.'' Obviously the world is not a perfect place, 
but is that really how BP is approaching the claims process for the 
people and businesses on the Gulf Coast who may be decimated by this 
disaster? What guarantees can you give us that the American people 
won't be footing the bill for your malfeasance?
    Answer. BP Exploration & Production Inc. has been designated as a 
``responsible party'' under the Oil Pollution Act (OPA). BP will honor 
all its obligations under OPA. At the direction of the United States 
Coast Guard, BP has established a claims process through which 
individuals, businesses, and government entities may file claims. The 
claims process has been widely advertised through Coast Guard-approved 
channels. Claimants may initiate claims by: (1) calling a toll-free, 
24-hour claims line, (2) completing an online form, or (3) visiting one 
of BP's 33 in-person claims centers in Louisiana, Mississippi, Alabama, 
and Florida. BP's claims team consists of approximately 1,000 
individuals, including more than 650 claims adjusters. To date, BP has 
paid more than $96 million in claims. In the interest of expediting 
payments to those whose income has been interrupted by the oil spill, 
BP has made two rounds of interim payments to date.
    As announced by the White House earlier this week, Ken Feinberg 
will serve as the Administrator of an Independent Claims Facility for 
individual and business claims. BP also will establish a $20 billion 
fund for purposes of paying, among other things, legitimate claims 
under OPA.
    In regard to the economic damages cap of $75 million contained in 
OPA, BP has already paid more than $96 million in claims. BP will not 
seek reimbursement from the U.S. Government or the Oil Spill Liability 
Trust Fund for any of these payments.

    Question 3. Can you tell us what barriers, such as cement, casing, 
and drilling fluid, were in place in the wellbore at the time the 
explosion occurred, who put them in place, and who supervised that 
work?
    Answer. The functioning of barriers, including the blowout 
preventer (BOP), and specifically why it did not function as expected 
on the Deepwater Horizon, is the subject of multiple investigations, 
including BP's ongoing, non-privileged investigation.

    Question 4. You have stated publicly that there were anomalous 
pressure readings taken on the well just hours before the explosion. 
Mr. Newman has stated that at the time of the explosion the well had 
been sealed with cement. How long had the well been sealed when the 
explosion occurred? Over what period of time were these higher pressure 
readings recorded? Are actions that were taken, including when and how 
they were done, consistent with standard industry practice?
    Answer. BP's ongoing, non-privileged investigation into the 
activities and events of the April 20 incident is continuing. Based on 
information presently available, there were pressure readings on the MC 
252 #1 well prior to the April 20 incident that, on post-incident 
review, appear anomalous. BP's current understanding of these pressure 
readings is outlined in a presentation developed by the team conducting 
the investigation described above that includes a timeline of events 
covering certain activities during the last 12 hours of operations. See 
attached presentation document bearing Bates labels BP-HZN-SCS000001--
BP-HZN-SCS000048. As noted in that presentation, not all information it 
contains has been verified, and the preliminary perspectives it 
reflects are subject to review in light of additional information or 
analysis. BP's investigation as to the potential connection, if any, 
between these pressure readings and factors that may have contributed 
to the April 20 incident is continuing.

    Question 5. Mr. Newman has stated that at the time of the 
explosion, Transocean's crew was in the process of displacing drilling 
fluid with sea water at BP's direction. Is this true? Is it standard 
industry practice to take this step when there have been anomalous 
pressure readings on the sealed well just hours earlier?
    Answer. Because investigations into the Deepwater Horizon incident 
are ongoing, it would be premature to speculate regarding specific 
decisions. In addition, certain third parties may have in their 
possession information that is relevant to this request but to which BP 
does not have access. That said, and in addition to the investigation 
team presentation described above that may be pertinent to your 
request, BP is attaching a copy of the Temporary Abandonment Permit 
approved by MMS on April 16, 2010 for the temporary abandonment of the 
Macondo MC 252 #1 well bore. This Permit, and a related document, sets 
out the procedure approved by MMS for the temporary abandonment of the 
well (BP-HZN-SCS000050--BP-HZN-SCS000053; BP-HZN-SCS000049).

    Question 6. I understand that any drilling operation requires a 
balance between doing things quickly and doing thing safely. Yet, you 
all seem to have disregarded this completely, opting for expediency and 
profit over safety and procedure. You had the drillers bump up the rate 
of penetration at the first well, cracking it and forcing it to be 
abandoned. This should have served as a warning to slow down. But that 
is not what happened. You kept drilling. When drilling resumed, the 
rig's chief electronics technician, Mike Williams, says there was 
damage done to one of the rig's most vital pieces of safety equipment, 
the annular. When the drilling crew finds chunks of rubber from the 
annular barrier, a critical piece of the blowout preventer, floating 
around in the drilling fluid, what is the standard industry procedure 
to deal with that? And is this what you did? Why was absolutely nothing 
done about it?
    Answer. Your question assumes a number of facts about what happened 
during drilling of the Macondo 252 well. BP is not in a position to 
comment on the accuracy of those allegations at this point because 
investigations into the causes of the April 20 incident--including the 
non-privileged investigation BP commissioned--are ongoing. In any 
event, Transocean is responsible for maintaining the Blowout Preventer 
(BOP), including repairs to the BOP. Accordingly, Transocean may be 
able to provide information on issues related to rubber in the drilling 
fluid, their response, and their views on any industry practice in this 
specific factual situation, of which we do not have the full details.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                              Lamar McKay
    Question 1. In the Energy and Natural Resources Committee hearing, 
you told me that BP will pay all legitimate claims. If your company 
pays out more than its liability limits under the law in damage claims, 
can you definitely commit that you will not seek reimbursement from the 
Oil Spill Liability Trust Fund? If and when BP does pay out more than 
its liability limits for damage claims, will BP be seeking any 
reimbursement from the Oil Spill Liability Trust Fund?
    Answer. In regard to the economic damages cap of $75 million 
contained in OPA, BP has already paid more than $96 million in claims. 
BP will not seek reimbursement from the U.S. Government or the Oil 
Spill Liability Trust Fund for any of these payments.

    Question 2. The Atlantis rig began production on October 6, 2007. 
Do you dispute this fact?
    Answer. No.

    Question 3. As of the report issued on May 12, 2009, by Mike 
Sawyer, a Registered Professional Engineer, the following report 
completion statuses were noted:

  <bullet> Only 303 of 2,108 of the subsea Piping and Instrument 
        Diagrams (P&IDs) in the Drill Center 1 (DC-1) database held the 
        status of ``issued for design'' or ``issued for construction'' 
        and only one held the status of ``as-built''.

  <bullet> Over 95 percent of the Welding Procedure Specifications and 
        Procedure Qualification Records were listed as ``issued for 
        construction'' or ``issued for design''.

  <bullet> Safety shutdown logic drawings were listed as ``requiring 
        update''.

    Do you dispute that this was the status as of May 12, 2009 when Mr. 
Sawyer issued his report?
    Answer. Our data does not support Mr. Sawyer's conclusions. We 
believe Mr. Sawyer's conclusions are based on incomplete and inaccurate 
data.
    More specifically, we believe that Mr. Sawyer's report is based on 
his review of a limited information set, compiled for a different 
purpose, which is not sufficient to support any of the conclusions in 
Mr. Sawyer's report. To the best of our knowledge and understanding, 
Mr. Sawyer has not reviewed the documents he purports to characterize 
in his report; he has not reviewed any of the documents that BP has 
provided or otherwise made available to the Bureau of Ocean Energy 
Management, Regulation, and Enforcement (BOEMRE); and he does not have 
a basis to know what documents BP had available for use by operating 
personnel before or after production began in October 2007 or before or 
after his report was prepared in May 2009.

    Question 4. Do you agree that the status of these drawings is a 
violation of 30 CFR 250?
    Answer. BP believes that it has the drawings necessary for proper 
operation of the Atlantis facilities and is in compliance with 
applicable regulations. BOEMRE is conducting an investigation into 
allegations of regulatory noncompliance concerning engineering 
documentation pertaining to the Atlantis development (the Green Canyon 
Block 743 Unit). BP is cooperating fully with that investigation.

    Question 5. What is the current status of your P&IDs?
    Answer. We have current P&IDs for the Atlantis facilities that are 
available to our operating personnel.

    Question 6. What actual numbers (versus total number) and 
percentages are designated ``issued for design,'' ``issued for 
construction,'' and ``as-built''?
    Answer. Atlantis operations personnel have access to P&IDs that 
reflect the current design of the subsea architecture that is 
operational. For each current P&ID, there may be multiple prior 
versions that are maintained in our records, thereby increasing the 
total number of P&IDs as well as the number of P&IDs designated with a 
particular status. There are also future phases of subsea architecture 
for Atlantis that are still in the process of being designed and 
constructed and are not yet operational. We do not generally track 
percentages of the status of P&ID drawings because those numbers do not 
provide meaningful data; as noted, drawings may have multiple prior 
versions or reflect future design and construction work.

    Question 7. Do any of the P&IDs not carry any status?
    Answer. We are not aware of P&IDs that are without a status.

    Question 8. What is the current status of your Welding Procedure 
Specifications and your Procedure Qualification Records? Again, please 
provide actual numbers (versus total number) and percentages for each 
listing status, including any without a listing status.
    Answer. Welding Procedure Specifications and Procedure 
Qualification Records are written procedures and records rather than 
drawings, so the description of ``as-built'' is inapplicable. It is 
BP's practice that its production platforms only utilize Welding 
Procedure Specifications that have received the appropriate approvals.

    Question 9. What is the current status of your Safety shutdown 
logic drawings? Again, please provide actual numbers (versus total 
number) and percentages for each listing status, including any without 
a listing status.
    Answer. We have current safety shutdown logic drawings for the 
Atlantis facilities that are available to our operating personnel and 
provide them with information for the safe operation of the platform. 
For the same reasons as stated above with regard to P&IDs, a comparison 
of the number of documents having a particular status against the total 
number of documents is not meaningful.

    Question 10. Are there other BP-owned or--operated rigs in the U.S. 
Outer Continental Shelf that do not have all P&IDs approved as an ``as-
built'' status?
    Answer. It is BP's policy that all its production platforms be 
operated in compliance with the applicable BOEMRE regulations. The 
operating personnel on all BP production platforms have access to 
current P&IDs that provide them with useful and accurate information 
for the safe operation of the platform.

    Question 11. Are there other BP-owned or--operated rigs in the U.S. 
Outer Continental Shelf that do not have all Welding Procedure 
Specifications approved as an ``as-built'' status?
    Answer. Welding Procedure Specifications are written procedures 
rather than drawings, so the description of ``as-built'' is 
inapplicable. It is BP's practice that its production platforms only 
utilize Welding Procedure Specifications that have received the 
appropriate approvals.

    Question 12. Are there other BP-owned or--operated rigs in the U.S. 
Outer Continental Shelf that do not have all Procedure Qualification 
Records approved as an ``as-built'' status?
    Answer. Procedure Qualification Records are records rather than 
drawings, so the description of ``as-built'' is inapplicable. It is 
BP's practice that its production platforms only utilize Procedure 
Qualification Records that have received the appropriate approvals.

    Question 13. Are there other BP-owned or--operated rigs in the U.S. 
Outer Continental Shelf that do not have all Safety Shutdown Logic 
Drawings approved as an ``as-built'' status?
    Answer. It is BP's policy that all its production platforms be 
operated in compliance with the applicable BOEMRE regulations. The 
operating personnel on all BP production platforms have access to up-
to-date current Safety Shutdown Logic Drawings that provide them with 
useful and accurate information for the safe operation of the platform.

    Question 14. If the questioned drawings are not up-to-date, please 
provide reasoning as to why they are not, what the drilling status is 
of the rig, and, if that rig is still drilling, why BP continues to 
allow a violation of safety and encourages endangerment to the 
environment and the coast.
    Answer. As stated above, we believe the questioned drawings are up-
to-date. BOEMRE is conducting an investigation into allegations of 
regulatory noncompliance concerning engineering documentation 
pertaining to the Atlantis development (the Green Canyon Block 743 
Unit). BP is cooperating fully with that investigation.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                              Lamar McKay
    Question 1. The Deepwater Horizon Unified Command has been 
operating a Joint Information Center (JIC) since the first days of the 
spill The JIC has and continues to receive submissions for alternative 
response technology, services or products. How many submissions has the 
JIC received? How many submissions have been responded to? What is the 
JIC's process for vetting these submissions, and how many submissions 
have been brought to the attention of JIC leadership?
    Answer. Since the start of the MC 252 spill, BP has received 
thousands of suggestions from the public describing potential ways to 
stop the flow of oil and gas or to contain the spill on and off the 
Gulf coast shoreline. Since the beginning of June, the number of 
suggestions coming in has increased, with BP's Houston Call Center now 
receiving, on average, 5,000 suggestions a day. These suggestions have 
come in from across the world. The suggestions have come in from a 
variety of people, ranging from members of the general public to oil 
industry professionals. The suggestions also have come in from those 
speaking many different languages, ranging from Arabic to Russian. 
Anyone with an idea for BP's team is encouraged to submit it using the 
Alternative Response Technology (ART) online form located at http://
www.horizonedocs.com/artform.php.
    This form is a valuable tool in helping the team to see quickly the 
potential of the idea because it collects a list of the materials, 
equipment, and skills required for the idea to work. After the caller 
completes and submits the form, 60 technical and operational personnel 
review its technical feasibility and classify it in one of three 
categories:

  <bullet> Not possible or feasible under these conditions;

  <bullet> Already considered or planned for; or

  <bullet> Feasible.

    As of June 14, 2010, BP has received over 90,000 ideas from 
telephone calls and e-mail. Of this number, over 19,000 ideas have been 
reviewed by the technical team. Currently, over 280 ideas have been 
advanced to a higher-level review in order to determine which ones fill 
an operational need and may require testing in the field. We currently 
have 10-15 ideas in active field testing, including:

  <bullet> An idea submitted by Clean Beach Technologies for a solution 
        that is designed to mechanically separate oil from sand. A 
        sample taken from an oiled beach in Louisiana was lab-tested to 
        verify this solution's efficacy. It appears that use of this 
        solution may be feasible, so it is being prepared for field 
        testing.

  <bullet> Another idea, presented by Ocean Therapy Solutions, relates 
        to centrifuge equipment technology that can effectively 
        separate oil from water within an oil spill scenario. This idea 
        is also undergoing field tests.

  <bullet> BP is currently looking for potentially viable technologies 
        to combat the oil saturated in the sargassum, or seaweed, along 
        the Gulf Coast and is evaluating information related to such 
        methods.

    Question 2. It is my understanding that Louisiana officials have 
met with and reviewed alternative response technologies, including 
those proposed by Show Me Energy. How closely is the JIC working with 
state and local governments in reviewing alternative response 
technologies? What process is in place to share information and ideas 
with state and local governments?
    Answer. Those ideas received from state and local governments are 
processed through the ART system, with a BP representative acting as a 
point of contact to share the status of ideas received. To ensure that 
each idea received is reviewed in a timely manner, BP now has expanded 
its internal team and has linked up with a new working group. The 
working group has been set up by the U.S. Coast Guard. The Interagency 
Alternative Technology Assessment Program (IATAP) workgroup was 
announced in Washington on June 4 and includes representatives from the 
Minerals Management Service (MMS), the National Oceanic and Atmospheric 
Administration (NOAA), the Environmental Protection Agency (EPA), the 
United States Army Corps of Engineers (USACE), the United States 
Department of Agriculture (USDA), and the Maritime Administration 
(MARAD).

    Question 3. As you know, the Coast Guard has detected the presence 
of dozens of ``tar balls'' approaching the Florida coast, suggesting 
that the Gulf Coast oil spill has traveled throughout the Gulf Coast 
region. How do you plan to determine whether these tar balls are indeed 
a product of the Deepwater Horizon spill?
    Answer. On May 17-18, 2010, the Coast Guard Sector Key West 
received notifications from the National Response Center of tar balls 
on the Florida shoreline. The Coast Guard took samples to its Marine 
Safety Laboratory in New London, Connecticut and determined that none 
of the collected samples was from the Deepwater Horizon oil spill. BP 
continues to work with the Coast Guard and other Federal and state 
agencies to determine whether samples from reported tar balls are from 
that spill. If tar balls are reported, the Unified Command, comprised 
of representatives from Federal and state agencies, deploys a Shoreline 
Cleanup Assessment Team (``SCAT'') to the area. SCAT members talk to 
the person who reported the tar ball and try to obtain a description, 
quantity, location, and time when it was seen. In addition, SCAT 
members scan the coastline daily for signs of oil or tar balls.

    Question 4. In light of the failed remediation strategies that have 
been tried this far, how does the Unified Command plan to prevent this 
eastward expansion of the spill?
    Answer. The response strategies to date have had significant 
success in mitigating the spread of the spill. In terms of plans going 
forward, the Unified Command has released a Sentry plan (as of June 6) 
to provide real-time ocean monitoring off the Florida Keys and Dry 
Tortugas. Vessels will be deployed to conduct maritime patrols to 
provide early identification of any weathered oil products such as 
light sheen, which will naturally dissipate, or mousse mats and tar 
balls that could potentially threaten the Florida Keys and east coast 
of Florida. Additional vessels and aircraft patrols may be implemented 
as necessary to provide early warning detection of any weathered oil 
products.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                              Lamar McKay
    Question 1. It would appear that the Gulf oil spill also involved 
regulatory failures. What sort of regulatory improvements are needed to 
encourage industry to make appropriate investments in safety and 
disaster prevention?
    Answer. At the request of the Department of Interior, BP 
participated in the task forces that provided input to the Secretary 
concerning changes necessary to better ensure the safety and integrity 
of offshore development. Additionally, based on learnings we have 
gleaned from the incident thus far, we have offered the Secretary the 
following suggestions for consideration:

  <bullet> Recall all BOPs and recertify that they operate to OEM 
        specifications and can satisfy the well design intent;

  <bullet> Implement an Enhanced Testing Regime that better simulates 
        emergency operations;

  <bullet> Evaluate redesigning BOPs with a focus on redundancy and 
        reliability;

  <bullet> Enhance Industry SubSea Response/Intervention Capability.

    Additionally, BP has recently announced a 10 year research grant of 
$500 million to examine topics including:

  <bullet> Where are the oil, the dispersed oil, and the dispersant 
        going under the action of ocean currents?

  <bullet> How do oil, the dispersed oil and the dispersant behave on 
        the seabed, in the water column, on the surface, and on the 
        shoreline?

  <bullet> What are the impacts of the oil, the dispersed oil, and the 
        dispersant on the biota of the seabed, the water column, the 
        surface, and the shoreline?

  <bullet> How do accidental releases of oil compare to natural seepage 
        from the seabed?

  <bullet> What is the impact of dispersant on the oil? Does it help or 
        hinder biodegradation?

  <bullet> How will the oil, the dispersed oil, and the dispersant 
        interact with tropical storms, and will this interaction impact 
        the seabed, the water column and the shoreline?

  <bullet> What can be done to improve technology:

    <ctr-circle> To detect oil, dispersed oil, and dispersant on the 
            seabed, in the water column, and on the surface?

    <ctr-circle> For remediating the impact of oil accidently released 
            to the ocean?

    BP already has ongoing marine research programs in the Gulf of 
Mexico. Building on these, BP will appoint an independent advisory 
panel to develop a long-term research program. Where appropriate, the 
program may be coordinated with the ongoing natural resources damages 
assessment. The program will engage some of the best marine biologists 
and oceanographers in the world. More immediately, a baseline of 
information for the long-term research program is needed, and a first 
grant to Louisiana State University has been made to initiate this 
work.

    Question 2. BP has had a technology response hotline since the 
beginning of the spill. Can you provide the Committee with suggestions 
received in response to the hotline? Which ideas were employed, and 
which were rejected and why?
    Answer. Please see the responses to Senator McCaskill's first two 
questions above.

    Question 3. Is there a role that the U.S. Government could play in 
stopping the oil leak, particularly bringing to bear military 
technology that BP may not have? If so, what did BP ask the Federal 
Government to do? If not, why not?
    Answer. BP is working very closely with the U.S. Government, which 
plays an important role in and adds significant value to the response 
efforts. The U.S. Coast Guard and the Minerals Management Service have 
been involved from the beginning. Together with the Environmental 
Protection Agency and other agencies, they make up the Unified Command, 
which directs the clean-up and remediation efforts. BP has also been 
aided substantially by scientists and experts from a variety of other 
Federal agencies, such as the Department of Interior, Department of 
Energy, National Oceanic and Atmospheric Administration, and the 
Department of Defense, who have provided critical assistance with, for 
example, the development of the top-kill procedure, the diagnostic work 
on the blowout preventer, and the selection, deployment, and analysis 
of dispersants. The Federal Government's role has been vital in all the 
remedial efforts, and its assistance is greatly appreciated.

    Question 4. In previous testimony you have described how 
challenging it is to operate at these depths, stating it is ``like 
open-heart surgery at 5,000 feet.'' If that is the case, what was your 
company's ``Plan B'' if the Blowout preventer failed? Shouldn't you 
have a pre-coordinated response plan, with equipment available on short 
notice, for this possibility?
    Answer. The BOP has been recognized for many years across the 
drilling industry as a critical--indeed the ultimate--piece of safety 
equipment on a drilling rig. It is specifically designed with multiple 
redundancies to prevent a blowout in a well control event. When the BOP 
on the Deepwater Horizon failed, attempts were made to activate it 
manually, including through the use of Remotely Operated Vehicles 
(ROVs). The presentation reflecting preliminary perspectives of the BP 
investigation team into the events of April 20 discusses the various 
mechanisms employed in attempting to activate the BOP. See BP-HZN-
SCS000035--BP-HZN-SCS000037 (previously produced to Committee on June 
19, 2010).
    BP's Regional Oil Spill Response Plan (OSRP) for the Gulf of 
Mexico, which was approved by the Minerals Management Service, 
addresses available equipment and personnel for containment, recovery, 
and removal of oil from a spill. The OSRP has been the foundation from 
which the Coast Guard, other government agencies, and BP have 
implemented the response across the Gulf on the surface, in the subsea 
environment, and at the shoreline.

    Question 5. Either in terms of gross dollars, or in terms of a 
percentage of revenues, how much have you invested in R&D for advanced 
exploration and production technologies and techniques each year and 
over the 10-year period?
    Answer. In 2009, BP spent approximately $587 million on research 
and development. The company does not separately account for various 
types of research and development spending, but after some additional 
research, BP estimates that approximately 40 percent of the $587 
million spent in 2009 funded research related to advanced exploration 
and production technologies and techniques. Those funds support several 
programs focused on safety and reliable offshore operations and 
drilling. Please find below the gross amounts spent annually on 
research and development during the last 10 years.

----------------------------------------------------------------------------------------------------------------
                  Year                                     Research & Development Expenditures
----------------------------------------------------------------------------------------------------------------
                           2009                                                             $587 million
                           2008                                                             $595 million
                           2007                                                             $566 million
                           2006                                                             $395 million
                           2005                                                             $502 million
                           2004                                                             $439 million
                           2003                                                             $349 million
                           2002                                                             $373 million
                           2001                                                             $385 million
                           2000                                                             $434 million
----------------------------------------------------------------------------------------------------------------


    Question 6. What level of investment do you think industry should 
be required to make in safety and prevention technologies and practices 
so that we can be fully prepared to deal with worst-case scenarios in 
the challenging environment of deepwater drilling?
    Answer. In 2009, BP spent approximately $20.3 billion on capital 
investments. Although BP does not break out spending for ``safety and 
prevention technologies'' per se, safety and prevention activities have 
been and continue to be embedded in many of our operational projects, 
which represent a significant portion of our capital and operating 
spending. BP is not in a position to offer a numerical value for the 
level of investment the rest of the industry should be required to make 
in safety and prevention technologies.

    Question 7. Has BP looked at spill prevention fail safe 
technologies in use by other nations?
    If so, did BP employ any of these technologies? If not, why not? 
Does BP have plans to employ this technology at other rigs?
    Answer. BP believes that the BOP is the ultimate spill prevention 
fail safe technology used by every oil and gas exploration company 
operating anywhere in the world. BP continually searches for and 
develops, by itself, and in conjunction with its partners and 
contractors, technologies to make our operations safer and more 
reliable. As a multinational company working with other multinational 
companies, we have access to expertise from around the globe.

    Question 8. Has BP consulted with oil spill containment experts in 
other nations, and have they provided ideas for stopping the gusher of 
oil? If so, what were they? If not, why not?
    Answer. As part of our efforts to contain the source of oil, we 
have consulted with international companies that have provided experts 
in areas such as Floating Production Storage and Offloading (FPSO). 
These companies have also helped us obtain free standing risers from 
other countries. Other nations have provided equipment, such as several 
flexible hose lengths. In addition, numerous countries have sent 
vessels, including the EverGreen burner shipped from France, the Loch 
Rannoch from the United Kingdom, the Toisa Pisces from Mexico, the 
Seillan from Brazil, and large offshore skimming vessels from 
Scandinavian countries.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                              Lamar McKay
    Question 1. Has BP initiated new inspections of the other blowout 
preventers you are using in the Gulf of Mexico?
    Answer. BP currently has three deep water drilling rigs Operating 
in the Gulf of Mexico. These rigs--Transocean's Enterprise, Development 
Driller (DD) II and DD III rigs--are dedicated to the current Deepwater 
Horizon incident response. Only the DD II and DD III rigs, however, are 
operational drilling rigs requiring a functional blowout preventer 
(BOP) stack. The Enterprise, which was until recently collecting 
hydrocarbons flowing from the Mississippi Canyon 252 (MC 252) well, is 
not involved in operations requiring a BOP stack.
    Before drilling operations resume in the Gulf of Mexico, BP is 
taking steps to ensure that the drilling contractors operating rigs 
under contract to BP, who own the BOPs and have responsibility for 
maintaining, inspecting and testing the BOPs, confirm the functionality 
of the key safety equipment, including the BOPs, used on their rigs in 
the Gulf of Mexico. On April 29, 2010, BP required the Gulf of Mexico 
Strategic Performance Unit (GoM SPU) to confirm that the drilling 
contractors perform additional inspections and tests of the BOPs. After 
BP made this request, the Minerals Management Service (MMS) and U.S. 
Coast Guard issued a joint National Safety Alert on April 30, 2010, 
requiring that all oil rig operators and drilling contractors ``inspect 
their drilling equipment and review their procedures to ensure the 
safety of personnel and protection of the environment.'' In response to 
this Alert, BP required that the drilling contractors operating rigs 
under contract to BP in the Gulf of Mexico, such as Transocean, ensure 
compliance with these requirements. BP sent letters to the drilling 
contractors equipped with subsea BOPs, requesting that they confirm the 
information sought by the Alert. These letters also requested that the 
drilling contractors confirm that the BOPs and associated equipment on 
these rigs have been inspected; that the BOPs are routinely inspected; 
that the BOPs are tested and maintained to industry standards and in 
compliance with applicable regulations; and that any modifications made 
to the BOPs were made in compliance with manufacturer and regulatory 
requirements, and pursuant to a formal management of change process. BP 
also separately required that the appropriate senior staff supervising 
drilling operations in the Gulf of Mexico confirm this information with 
the drilling contractors. BP requested, among other things, that these 
individuals confirm with the drilling contractors that the BOP system 
schematics are up to date and accurate; which emergency systems are in 
place on each subsea BOP stack; that stump test procedures ensure that 
all functions, including emergency systems, are working as designed; 
that all safety critical equipment maintenance is up to date; and the 
shearing capability of all shear rams in BOPs.

    Question 2. What steps have you undertaken to ensure multiple 
failures of the blowout preventers do not occur in the future?
    Answer. Since the incident, BP has requested that, for operating 
rigs under contract to BP, the drilling contractors, who own the 
blowout preventers (BOPs) and have responsibility for maintaining, 
inspecting and testing the BOPs, perform additional testing and 
inspection of the BOPs and confirm that their BOPs are functioning. 
Additionally, as discussed above, BP has sent letters to the drilling 
contractors equipped with subsea BOPs, requesting that they confirm 
compliance with the Alert issued by MMS and the United States Coast 
Guard on April 30.

    Question 3. How many volunteers do you expect to enlist in this 
effort?
    Answer. Volunteers have been an integral part of the cleanup 
efforts thus far. As of July 28, 2010, approximately 32,000 volunteers 
have participated in the cleanup efforts. It is difficult to estimate 
how many volunteers the Unified Area Command (UAC), of which BP is a 
member, expects to enlist in the effort, partly given the uncertainty 
of what may be required as part of the cleanup efforts and how long 
they may last, but the UAC does continue to solicit the aid of 
volunteers. See http://www.deepwaterhorizonresponse.com/go/page/2931/
46359/. At this time, BP plans to continue working with the UAC to use 
volunteers through die completion of the cleanup efforts and 
appreciates the extraordinary assistance provided so far.

    Question 4. Is BP or the Unified Command responsible for directing 
cleanup efforts of these volunteers?
    Answer. BP collaborates with the UAC to direct the cleanup efforts 
of volunteers.

    Question 5. Do you plan to continue the use of volunteers through 
the completion of the cleanup effort?
    Answer. Please see answer to Question 3.

    Question 6. Is BP relaying all suggestions and product or service 
offerings, including those BP chooses not to pursue, to the Unified 
Command?
    Answer. BP partners with Federal, state, and local officials to 
evaluate the numerous suggestions that have been submitted. The Unified 
Command is involved in this process. See http://
www.deepwaterhorizonresponse.com/go/doc/2931/546759/
    BP appreciates the many suggestions and proposals that have been 
offered in connection with the spill response. Since the start of the 
spill, we have received over 100,000 calls, e-mails, and website 
submissions from the public describing potential ways to stop the flow 
of oil and gas or to contain the spill. For the month of June, BP's 
Houston Call Center received, on average, over 2,700 suggestions a day. 
The suggestions have come from a variety of people, ranging from 
members of the general public to oil industry professionals to 
academics and scientists, and from around the world.
    Anyone with an idea for the response team is encouraged to submit 
it using the Alternative Response Technology (ART) online form located 
at http://www.horizonedocs.com. The information captured by the form--
including a list of the materials, equipment and skills required to 
implement the suggestion--helps the team discern the idea's potential. 
After the caller completes and submits the form, a team of over 50 
technical and operational personnel, including personnel from the U.S. 
Coast Guard, reviews the technical feasibility of the suggestion and 
classifies it in one of three categories:

  <bullet> Not possible or feasible under these conditions;

  <bullet> Already considered or planned; or

  <bullet> Feasible.

    As of July 20, 2010, BP has received approximately 120,000 ideas 
from telephone calls, e-mails, and website submissions. All of these 
ideas have been reviewed at least once by the technical team. 
Currently, over 400 ideas have been advanced to a higher-level review 
in order to determine which ones fill an operational need and may 
require testing in the field. BP currently has over 40 ideas tested or 
planned for field testing, including:

  <bullet> An idea submitted by Clean Beach Technologies designed to 
        mechanically separate oil from sand. This idea has been field 
        tested and is now approved for use as appropriate in the 
        response. Other similar sand cleaning processes are scheduled 
        for field testing shortly.

  <bullet> Another idea, presented by Ocean Therapy Solutions, relates 
        to centrifuge equipment technology that effectively separates 
        oil from water within an oil spill scenario. This idea was 
        field tested, and BP has leased over 30 centrifuges to be 
        deployed in the skimming activity.

  <bullet> A novel Heavy Oil Skimming System invented by a Florida 
        resident participating in the Vessels of Opportunity skimming 
        program. This device is efficient at collecting heavier oil 
        particles floating just below the water's surface, and is being 
        manufactured for widespread use at local shipyards along the 
        Gulf Coast.

    Ideas received from many state and local government entities are 
also processed through the ART system, with a BP representative acting 
as a point of contact to communicate the status of any suggestions to 
the state and local authorities who submitted them. To ensure that each 
idea received is reviewed in a timely manner, BP has expanded its 
internal team and is now complemented by a newly established Federal 
Interagency Alternative Technology Assessment Program (IATAP) 
workgroup, led by the U.S. Coast Guard. The IATAP was announced on June 
4 and includes participation by the Bureau of Ocean Energy Management, 
Regulation, and Enforcement, the National Oceanic and Atmospheric 
Administration, the Environmental Protection Agency, the United States 
Army Corps of Engineers, the United States Department of Agriculture, 
and the Maritime Administration.

    Question 7. What efforts has BP employed on the Mississippi Coast 
to respond to tar balls and other oil deposits?
    Answer. BP continues to work with the U.S. Coast Guard and other 
Federal and state agencies to respond to tar balls and other oil 
deposits. If tar balls are reported, the Unified Command, comprised of 
representatives from Federal and state agencies, deploys a Shoreline 
Cleanup Assessment Team (``SCAT'') to the area. SCAT members talk to 
the person who reported the tar ball and try to obtain a description, 
quantity, location, and time when it was seen. In addition, SCAT 
members scan the coastline daily for signs of oil or tar balls.

    Question 7a. What have you done to ensure public dissemination of 
this information?
    Answer. BP as well as Federal and state agencies involved with the 
Deepwater Horizon Oil Spill Response in Mississippi continue to work 
together to disseminate information. Communication about tar balls and 
oil deposits washing ashore began long before the first sighting of tar 
balls reached Mississippi shores in early June.
    To date, BP and the other agencies have participated in town hall 
meetings and public fora, spoken to civic groups, and appeared on local 
television talk shows to discuss the spill and its aftermath. The 
meetings and fora include:

  <bullet> U.S. Department of Commerce Minority Business Development 
        Agency Town Hall Meeting/Information Exchange

  <bullet> Mississippi Gulf Coast American Advertising Federation

  <bullet> Gulf Coast Business Council General Membership Meeting

  <bullet> Jackson County Chamber of Commerce

  <bullet> Gulf Coast Non-Profit Leadership

  <bullet> Recovery Summit

  <bullet> NAACP Biloxi Chapter

  <bullet> Mississippi Gulf Coast Chamber of Commerce

  <bullet> Pascagoula Rotary Club

  <bullet> Oil Spill Resources and Claims Fair

  <bullet> City of Pascagoula Town Hall

  <bullet> Mississippi Hospitality & Restaurant Association

  <bullet> Claims Fair with Ken Feinberg

  <bullet> Hancock County Employee Picnic

  <bullet> Gulf Coast Emergency Management

    BP has focused on outreach to children by distributing notepad and 
pen sets that say, among other things, ``If you see oiled debris call 
1-866-448-5816.'' Beach safety post cards also have been distributed.
    Displays that read ``WATCH OUT! If you spot oiled debris DON'T 
TOUCH!'' also are being used at area libraries.
    Lastly, information about tar balls is available on the Deepwater 
Horizon website and the Mississippi Emergency Management Agency 
website.

    Question 7b. Do you believe our constituents on the Gulf Coast are 
informed as to what to do if they encounter oil or tar balls?
    Answer. Efforts have been made to inform the public about oil or 
tar balls as outlined above. Signs are posted along Mississippi beaches 
warning beachgoers not to touch tar balls and instead to ``report the 
sightings.''

    Question 7c. Have you run TV or radio ads to alert locals of the 
precautions?
    Answer. BP has undertaken numerous steps to make sure Americans 
residing, working, and volunteering on the Gulf Coast have up-to-date 
information about what to do if they encounter oil, tar balls, or some 
other environmental issue stemming from the April 20 incident or 
resulting oil spill. BP has established a toll-free hotline available 
24 hours a day, 7 days a week, for the reporting of any community or 
environmental impacts. In addition, BP's Gulf of Mexico Response web 
page contains detailed response information and documentation, 
including links to up-to-date information on offshore containment, 
subsea. response and shoreline protection efforts, community 
initiatives, and information on whom to contact regarding a number of 
response-related issues. It also provides local response web pages 
dedicated to relief efforts in Mississippi and other states affected by 
the incident. The ``Public Information Resources'' page contains toll-
free numbers for the public to gain access to information on community 
outreach efforts, wildlife, volunteers and more. In addition, the UAC 
has sanctioned and updates regularly a website dedicated to the 
Deepwater Horizon Response that provides the public with information on 
response-related issues, including area contingency plans for the Gulf 
states, relevant news releases, health and safety information, and 
information relating to the claims process, among many other issues of 
concern to the public.

    Question 8. Who determines when to transition from the use of 
``mud'' during drilling to the use of saltwater?
    Answer. Because investigations into the Deepwater Horizon incident 
are ongoing, it would be premature to speculate regarding specific 
decisions. In addition, certain third parties may have in their 
possession information that may be relevant to this request but to 
which BP does not have access.
    That said, BPA has produced the following documents to the 
Committee that are pertinent to your request: (1) a copy of the draft 
presentation that outlines the preliminary perspectives of the 
investigation team commissioned by BP to investigate the incident, BP-
HZN-SCS000001-48; and (2) a copy of the Temporary Abandonment Permit 
approved by MMS on April 16, 2010 for the temporary abandonment of the 
Macondo MC 252 #1 well bore, which sets out the procedure approved by 
MMS for the temporary abandonment of the well, BP-HZN-SCS000050-53. 
Precisely who made which decisions will be examined as part of the 
investigation BP has commissioned, the results of which it plans to 
share when the investigation is completed.

    Question 9. Who determined the type of cement used to cap the well?
    Answer. Because investigations into the Deepwater Horizon incident 
are ongoing it would be premature to speculate regarding specific 
decisions. In addition, certain third parties may have in their 
possession information that is relevant to this request but to which BP 
does not have access. As the contractor responsible for cementing the 
MC 252 well, Halliburton may be able to provide information about the 
type of cement used on the well.

    Question 9a. Is the cement used different from that used in the 
majority of wells in deepwater?
    Answer. As the contractor responsible for cementing the MC 252 
well, Halliburton may be able to provide information about the type of 
cement used on the well and how it compares to the types of cement used 
in other deepwater wells.

    Question 9b. If this is a new or unique type of cement, what 
testing is performed on new cement blends prior to commercial use?
    Answer. As the contractor responsible for cementing the MC 252 
well, Halliburton may be able to provide information about the type of 
cement used and whether testing was performed on new cement blends 
prior to commercial use.

    Question 10. Have you made any requests for assets or assistance 
from your Federal partners in the Unified Command that have not been 
provided or approved during your ongoing response efforts?
    Answer. BP has collaborated closely with the UAC, which directs the 
clean-up and remediation efforts. With input from BP, the National 
Incident Commander and his staff ultimately decide how the response 
efforts should proceed. BP often provides input into this process and 
makes recommendations or requests involving the UAC. At times, the UAC 
has determined a course of action different from the recommendation or 
request suggested by BP.

    Question 11. Are you aware of other instances when a blowout 
preventer failed to close after the well had been capped?
    Answer. Assuming this question asks about instances where the BOP 
does not function as intended, BP is conducting an internal 
investigation that, among other things, is seeking to understand why 
the BOP on the Deepwater Horizon did not function as intended, and it 
will share the results of its investigation once it is complete.

    Question 12. Once a hardening substance is placed in the well 
during a capping procedure, can it be expected that any blowout would 
lodge debris in the blowout preventer and thus prevent the blowout 
preventer from functioning properly?
    Answer. The blowout preventer (BOP), and specifically why it did 
not function as expected on the Deepwater Horizon, is one of the 
subjects of multiple investigations, including BP's ongoing, non-
privileged investigation. BP will share the results of its 
investigation once it is complete. In addition, as the contractor 
responsible for cementing the MC 252 well, Halliburton may be able to 
provide information pertaining to the cement. Further, Cameron, as the 
manufacturer of the Deepwater Horizon BOP, and Transocean, as the owner 
and operator of the Deepwater Horizon, may also be able to provide 
information as to whether the BOP would function if debris were in the 
BOP stack.

    Question 13. Was acoustic testing performed after capping of the 
well, and if not, who made the decision to skip this step?
    Answer. Cement bond log testing, which involves the use of acoustic 
signals to test the quality of a cement job, is not required for 
temporary abandonment of a well except as provided by 30 C.F.R.  
250.428. Pursuant to  250.428, if there is an indication of an 
inadequate cement job (such as lost returns, cement channeling, or a 
failure of equipment), then a lessee must take further steps to analyze 
the cement job, including running a cement bond log test, pressure 
testing the casing shoe, running a temperature survey, or using a 
combination of those three techniques. Because investigations into the 
Deepwater Horizon incident are ongoing, however, it would be premature 
to speculate regarding specific decisions. As mentioned above, BP is 
conducting an internal investigation of the April 20 incident and will 
share those results once the investigation is complete.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                            to Steven Newman
    Question 1. The Chief Electronics Technician on Deepwater Horizon, 
Mike Williams, has stated that BP had the drilling crew bump up the 
rate of penetration at the first well, cracking it and forcing it to be 
abandoned. This should have served as a warning to slow down. But that 
is not what happened. When drilling resumed, Williams says there was 
damage done to a vital component in the BOP, the annular. When the 
drilling crew finds chunks of rubber from the annular back up in the 
drilling fluid, what is the standard industry procedure to deal with 
that and was that done in this case and if not, why not?
    Answer. We understand from the May 16, 2010 60 Minutes segment in 
which Transocean Chief Electronics Technician Michael Williams appeared 
that a man monitoring drilling fluid saw pieces of rubber in the 
drilling fluid returns approximately 4 weeks before the accident. While 
the Company has not located any record of this reported observation, 
having some rubber returns to the shakers in the drilling mud is 
normal.
    There are several sources of rubber down hole; annular rubber would 
be the most common source. Given the size of the annular, the 
manufacturer advises that normal wear and tear as a result of periodic 
use is expected, and a handful of small chunks of rubber would be 
immaterial. The annular is roughly three feet in diameter, about 18 
inches tall, and weighs about 2,000 pounds. It is designed to close 
around drill pipe, and drill pipe regularly moves through closed 
annulars, which can displace pieces of the annular rubber. The rubber 
used in annular blowout preventers is known to be a consumable item, 
and rubber loss is not considered problematic if the annular blowout 
preventer continues to hold rated pressure. Cameron brochures, 
available on Cameron's website highlight these facts. For example, one 
such brochure explains that ``[t]he elastomeric packing elements used 
in CAMERON Type D/DL annular blowout preventers are considered to be 
consumable items and will eventually wear-out as a result of repeated 
closures and pressure test. Every closure and pressure test while in-
service will use up some of the packing element life. The packing 
element subassembly should not be rejected for continued service based 
on cosmetic appearance. Failure of a pressure test or drift test are 
the only justifiable reasons for rejection.'' See In-Service Condition 
of CAMERON D/DL Annular BOP Packing Element Subassemblies, available at 
http://www.c-a-.com/cam/search/showdocw.cfm?DOCUMENT_ID=8360.
    Most important, BOP tests on April 10, 2010 and April 17, 2010, 
confirmed that the annular was operating properly after any such 
incident.

    Question 2. What were the last pressure readings Transocean took on 
the well prior to the explosion, when were they taken, and how did they 
compare to prior pressure readings?
    Answer. Transocean does not have access to the pressure readings at 
the BOP, which were lost with the rig and our data acquisition system. 
However, BP conducted a negative pressure test shortly before the 
incident and determined the results to be good. The BOP had also 
recently passed a number of tests. The blind shear rams of the BOP 
passed pressure tests taken by Transocean in conjunction with 
Halliburton at 250 psi low and 2,500 psi high on April 20, 2010. (See 
TRN-USCG--MMS-00011644 <SUP>*</SUP> through TRN-USCG--MMS00011648). The 
annular and pipe ram systems were pressure tested twice on April 10, 
2010. During the first series of tests, on 6\5/8\ inch drill pipe, the 
lower annular system passed tests to 250 psi low and 3,500 psi high; 
the upper annular system passed tests to 250 psi low and 5,000 psi 
high; and the pipe rams passed tests to 250 psi low and 6,500 psi high. 
During the second series of tests, on 5\1/2\ inch drill pipe, the lower 
and upper annular ram systems passed tests to 250 psi low and 3,500 psi 
high and the pipe ram systems passed tests to 250 psi low and 6,500 psi 
high. (See TRN-USCG--MMS00011600 through TRN-USCG--MMS-00011604).
---------------------------------------------------------------------------
    \*\ All documents referred to are retained in Committee files.

    Question 3. Were the components in the blowout preventer stack 
rated for that kind of pressure?
    Answer. The BOP is rated for the following pressures:

        The 18\3/4\ inch BOP rams and fail-safe hydraulic valves are 
        rated by their manufacturer, Cameron, to 15,000 psi working 
        pressure.

        The 18\3/4\ inch upper annular system is rated to 10,000 psi 
        working pressure, and the 18\3/4\ inch lower annular stripping 
        element installed is rated to 5,000 psi working pressure. (See 
        TRN-HCEC-00007822 through TRN-HCEC-00008055.)

    Question 4. What were the pressure ratings for the components in 
the blowout preventer stack?
    Answer. See above.

    Question 5. You have stated that at the time of the explosion, 
Transocean's crew was in the process of displacing drilling fluid with 
sea water at BP's direction. Is this true?
    Answer. Yes, the Transocean crew, at the direction of BP, was in 
the process of displacing drilling mud and replacing it with sea water 
at the time of the explosion.

    Question 6. Is it standard industry practice to take this step when 
there have been anomalous pressure readings on the sealed well just 
hours earlier?
    Answer. The Deepwater Horizon explosion occurred after the well 
construction process was essentially finished. Drilling had been 
completed on April 17, and the well had been sealed with cement by the 
cementing contractor. BP did not plan to use the well for production at 
this time; rather BP planned to reopen the well at a later date when, 
and if, it chose to put the well into production. At the time of the 
explosion and fire, the Transocean crew, at the direction of BP, was in 
the process of displacing drilling mud and replacing it with sea water. 
The drilling mud was thus no longer being used as a means of reservoir 
pressure containment. The cement and the casing were the barriers 
controlling pressure from the reservoir.
    Displacing drilling mud with sea water is a normal and, in fact, 
required step in the abandonment process. (See 30 CFR 250.442(e)). 
Standard industry practice is to not displace drilling mud with sea 
water until confident that the cement and casing are sufficient to 
control pressure from the reservoir. An anomalous pressure reading 
prior to the displacement of drilling mud with sea water could weigh in 
favor of delaying the displacement of drilling mud until after further, 
satisfactory pressure testing. The April 20, 2010 drilling report 
reflects that the casing and seal assembly were tested between 1 am and 
3 am that morning at 4,000 psi for 30 seconds, and 10,000 psi for 10 
seconds. Pressure was then bled off to 6,500 psi and held for 5 
minutes. (See TRN-USCG--MMS-00011644 through TRN-USCG--MMS-00011648). 
Nothing abnormal was found during this test.
    Transocean's investigation will examine the events leading up to 
the explosion, including, but not limited to, any such allegedly 
abnormal pressure tests. Transocean will report the findings of the 
investigation when it is complete and provide the Committee with 
documents relating to the accident and any findings related thereto.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                             Steven Newman
    Question 1. What percentage of Transocean's undersea drilling 
systems (such as blowout preventers and risers) currently operating in 
the U.S. exclusive economic zone have been classed or certified by the 
American Bureau of Shipping or another internationally-recognized 
classification society?
    Answer. One hundred percent of Transocean's undersea drilling 
systems were classed or certified by either the American Bureau of 
Shipping or DNV when built.

    Question 2. I'm aware that classification of subsea drilling 
systems is currently voluntary, but what is keeping you from getting 
ABS classification for 100 percent of your subsea drilling systems 
(including blowout preventers and risers)?
    Answer. Each of Transocean's undersea drilling systems is certified 
by either the American Bureau of Shipping or DNV when built. Transocean 
inspects its undersea drilling systems according to a 5-year overhaul 
cycle and on an as-needed basis. Transocean performs such inspections 
in conjunction with the original equipment manufacturer (OEM) and 
Transocean-approved vendors for designed equipment, and does not 
believe that a third-party inspection or ABS classification would add 
value or offer any safety or operational benefit above and beyond the 
inspections that are performed.

    Question 3. Is there a cost issue here, or is it some other 
concern?
    Answer. Cost is not an issue. Transocean conducts inspections on 
the schedule for each component and on an as-needed basis in 
conjunction with the original equipment manufacturer and does not 
believe that a third-party inspection or ABS classification would add 
value or offer any benefit above and beyond the inspections already 
performed.

    Question 4. Recent press accounts indicate that there may have been 
numerous known failures in the blowout preventer for the Deepwater 
Horizon rig. Did Transocean employees know of any failed, damaged, or 
partially functioning components of the blowout preventer prior to the 
rig explosion? If so, please list the components, their reported 
problems, the date those problems were known or recognized, and whether 
each problem was reported to either BP or the Federal Government.
    Answer. Prior to the rig explosion, Transocean employees did not 
know of any failed, damaged, or partially functioning components of the 
blowout preventer that could have compromised well control. Transocean 
employees were aware of a leak on the open side of the solenoid valves 
of the lower test ram, but this equipment has no well control function. 
In addition, the leak only occurred when the valve was in the ``open'' 
function and not when the valve was in the ``block'' function.
    Additionally, the BOP had recently passed a number of tests. The 
blind shear rams of the BOP passed pressure tests taken by Halliburton 
to 250 psi low and 2,500 psi high on April 20, 2010. (See TRN-USCG--
MMS-00011644 through TRN-USCG--MMS00011648). The annular and pipe ram 
systems were pressure tested twice on April 10, 2010. During the first 
series of tests, on 6 5/8 inch drill pipe, the lower annular system 
passed tests to 250 psi low and 3,500 psi high; the upper annular 
system passed tests to 250 psi low and 5,000 psi high; and the pipe 
rams passed tests to 250 psi low and 6,500 psi high. During the second 
series of tests, on 5\1/2\ inch drill pipe, the lower and upper annular 
ram systems passed tests to 250 psi low and 3,500 psi high and the pipe 
ram systems passed tests to 250 psi low and 6,500 psi high. (See TRN-
USCG--MMS00011600 through TRN-USCG--MMS-00011604).
    Transocean's investigation will examine the events leading up to 
the explosion, including, but not limited to, any failed, damaged, or 
partially functioning components of the blowout preventer. Transocean 
will report the findings of the investigation when it is complete and 
provide the Committee with documents relating to the accident and any 
findings related thereto.

    Question 5. Can you confirm whether, as reported on 60 Minutes, 
there were rubber chunks from the blowout preventer seals coming up to 
the rig in the drilling fluid?
    Answer. We understand from the May 16, 2010 60 Minutes segment in 
which Transocean Chief Electronics Technician Michael Williams appeared 
that a man monitoring drilling fluid saw pieces of rubber in the 
drilling fluid returns approximately 4 weeks before the accident. While 
the Company has not located any record of this reported observation, 
having some rubber returns to the shakers in the drilling mud is 
normal.
    On April 6, 2010, the rig experienced a well control situation that 
required the closure of the lower annular. Subsequently, approximately 
1300 feet of drill pipe was moved upward through the lower stripping 
annular. It is believed that the rubber could have come from this 
normal operation for which the annular is designed.
    There are several sources of rubber down hole; annular rubber would 
be the most common source. Given the size of the annular, the 
manufacturer advises that wear and tear as a result of periodic use is 
expected, and a handful of small chunks of rubber would be immaterial. 
The annular is roughly 3 feet in diameter, about 18 inches tall, and 
weights about 2,000 pounds. It is designed to close around drill pipe, 
and drill pipe regularly moves through closed annular, which can 
displace pieces of the annular rubber. The rubber used in annular 
blowout preventers is known to be a consumable item, and rubber loss is 
not considered problematic if the annular blowout preventer continues 
to hold rated pressure. Cameron brochures, available on Cameron's 
website highlight these facts. For example, one such brochure explains 
that ``[t]he elastomeric packing elements used in CAMERON Type D/DL 
annular blowout preventers are considered to be consumable items and 
will eventually wear-out as a result of repeated closures and pressure 
test. Every closure and pressure test while in-service will use up some 
of the packing element life. The packing element subassembly should not 
be rejected for continued service based on cosmetic appearance. Failure 
of a pressure test or drift test are the only justifiable reasons for 
rejection.'' See In-Service Condition of CAMERON D/DL Annular BOP 
Packing Element Subassemblies, available at http://www.c-a-.com/cam/
search/showdocw
.cfrn?DOCUMENT_ID=8360.
    Most important, the above-referenced BOP tests on April 10, 2010 
and April 17, 2010, confirmed that the annular was operating properly 
after any such incident.

    Question 6. When a blowout preventer experiences a failed or 
partially malfunctioning component, who s typically responsible for 
deciding whether to halt drilling to repair the blowout preventer?
    Answer. If a blowout preventer experiences a failed or partially 
malfunctioning component, the operator and the driller likely would 
make a collaborative decision with respect to whether to halt drilling. 
The remaining redundancies of the blowout preventer would likely be a 
key factor in any such decision. While the decision to suspend drilling 
operations would be collaborative, BP maintains ultimate responsibility 
for determining when to resume drilling operations. However, if 
Transocean feels it is not safe to continue work, we will not do so.

    Question 7. For any failed, damaged, or partially functioning 
components of the blowout preventer in the Deepwater Horizon incident 
that were known prior to the catastrophic explosion, please detail any 
steps that were taken to fix each of those problems. If no such steps 
were taken, or if a decision was made to not stop drilling to repair a 
problem, please explain why.
    Answer. Prior to the rig explosion, Transocean employees did not 
know of any failed, damaged, or partially functioning components of the 
blowout preventer that could have compromised well control. 
Additionally, the BOP had recently passed a number of tests. The blind 
shear rams of the BOP passed pressure tests taken by Halliburton to 250 
psi low and 2,500 psi high on April 20, 2010. (See TRN-USCG--MMS-
00011644 through TRN-USCG--MMS-00011648). The annular and pipe ram 
systems were pressure tested twice on April 10, 2010. During the first 
series of tests, on 6\5/8\ inch drill pipe, the lower annular system 
passed tests to 250 psi low and 3,500 psi high; the upper annular 
system passed tests to 250 psi low and 5,000 psi high; and the pipe 
rams passed tests to 250 psi low and 6,500 psi high. During the second 
series of tests, on 5\1/2\ inch drill pipe, the lower and upper annular 
ram systems passed tests to 250 psi low and 3,500 psi high and the pipe 
ram systems passed tests to 250 psi low and 6,500 psi high. (See TRN-
USCG--MMS-00011600 through TRN-USCG--MMS-00011604).
    Transocean's investigation will examine the events leading up to 
the explosion, including, but not limited to, any failed, damaged, or 
partially functioning components of the blowout preventer. Transocean 
will report the findings of the investigation when it is complete and 
provide the Committee with documents relating to the accident and any 
findings related thereto.

    Question 8. For the blowout preventer involved in the Deepwater 
Horizon incident, please detail its full service-life history of all 
component failures, malfunctions, and failed tests.
    Answer. While a comprehensive yet concise narrative regarding the 
service-life and maintenance history of the Deepwater Horizon's blowout 
preventer system is not possible, Transocean has produced documents 
detailing its testing history, as well as documents detailing all 
preventative maintenance and repairs related to the blow out preventer 
from the time it was acquired from Cameron (2000) and put in operation 
on the Deepwater Horizon (2001) through when it was used on the Macondo 
well (February 8, 2010 through April 20, 2010). (See TRN-HCJ-00064695 
through TRN-HCJ-00076944 (BOP testing results); TRN-HCEC-00040041--TRN-
HCEC-00040217, TRN-HCEC-00040249--TRN-HCEC00054353 (2001-2010 repair 
and preventative maintenance history for the Deepwater Horizon's well 
control equipment); TRN-HCJ-00093709--TRN-HCJ-00120896 (20012010 BOP 
maintenance schedule and records)).

    Question 9. In a 2003 paper presented by Transocean employee Earl 
Shanks at the Offshore Technology Conference, he wrote that ``because 
of the pressure on getting the equipment back to work, root cause 
analysis of the [blowout preventer] failures is generally not 
performed.'' This seems to indicate that when blowout preventer 
failures happen, your industry is more concerned with profits than 
investigating the reasons behind the safety failure. Isn't industry's 
failure to investigate the root causes of blowout preventer failures a 
long-term safety risk? How can we expect blowout preventers to become 
more reliable if the industry fails to take basic steps like conducting 
root cause analyses when blowout preventer failures happen?
    Answer. It is true that an industry-wide failure to investigate the 
root causes of blowout preventer failures could pose a long-term safety 
risk. However, Transocean is and has always been committed to 
investigating the root causes of any such failure. Transocean has 
implemented and adheres to a robust subsea maintenance philosophy. (See 
TRN-HCEC00011553 through TRN-HCEC-00011563). Transocean also routinely 
conducts subsea reliability courses to train and share lessons learned 
among all of its subsea engineers and uses a feedback system in its 
maintenance program to capture improvement opportunities and apply them 
across the fleet through a bulletin and alert process.
    Earl Shanks's 2003 paper was in fact an effort to drive toward 
building reliability standards into equipment specifications at the 
time of design and purchase as well as the testing requirements to 
ensure that a BOP stack can be counted on to safely and reliably 
perform. This paper and the study upon which it is based reflects 
Transocean's commitment to improving the reliability and safety of 
subsea equipment. Similarly, Transocean has assembled an investigative 
team to determine what caused the Deepwater Horizon explosion, a team 
that includes dedicated Transocean and other industry experts. That 
investigation is ongoing. Transocean will report the findings of the 
investigation when it is complete.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                             Steven Newman
    Question 1. The Deepwater Horizon Unified Command has been 
operating a Joint Information Center (JIC) since the first days of the 
spill. The JIC has and continues to receive submissions for alternative 
response technology, services or products. How many submissions has the 
JIC received? How many submissions have been responded to? What is the 
JIC's process for vetting these submissions, and how many submissions 
have been brought to the attention of JIC leadership?

    Question 2. It is my understanding that Louisiana officials have 
met with and reviewed alternative response technologies, including 
those proposed by Show Me Energy. How closely is the JIC working with 
state and local governments in reviewing alternative response 
technologies? What process is in place to share information and ideas 
with state and local governments?

    Question 3. As you know, the Coast Guard has detected the presence 
of dozens of ``tar balls'' approaching the Florida coast, suggesting 
that the Gulf Coast oil spill has traveled throughout the Gulf Coast 
region. How do you plan to determine whether these tar balls are indeed 
a product of the Deepwater Horizon spill? In light of the failed 
remediation strategies that have been tried thus far, how does the 
Unified Command plan to prevent this eastward expansion of the spill?
    Answer. The Unified Command structure set up shortly after the 
incident includes the JIC. As the named responsible party, BP leads the 
response with the USCG. About 400 people are working daily in Robert, 
Louisiana, made up of BP, USCG, NOAA, MMS, and many other Federal and 
state government officials. Transocean has three persons there to 
provide support including current information regarding the Transocean 
relief-well drilling, crude oil recovery and other activities in 
support of BP. Transocean does not have direct knowledge in response to 
the questions above, but knows generally that BP are processing many 
calls through the hotline, and Transocean has referred many ideas we 
have received to BP. Transocean directs requests for information from 
local, state or Federal Government elected officials to Jay Harper with 
the Government Affairs department within the External Affairs section 
of the Deepwater Horizon response. Jay's contact information is as 
follows:

        Jay Harper, U.S. Department of Homeland Security
        Office of Legislative Affairs
        Wash DC phone: 202-384-5336
        Robert LA phone: 985-543-3379
        E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="87cde2f5e6ebe3a9cfe6f5f7e2f5c7e3eff4a9e0e8f1">[email&#160;protected]</a>
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                             Steven Newman
    Question 1. In previous testimony you have described how 
challenging it is to operate at these depths, stating it is ``like 
open-heart surgery at 5,000 feet'' If that is the case, what was your 
company's ``Plan B'' if the Blowout preventer failed? Shouldn't you 
have a pre-coordinated response plan, with equipment available on short 
notice, for this possibility?
    Answer. Respectfully, the statement quoted above was not made by a 
Transocean employee or spokesperson, but instead by the Chairman and 
President of BP America. That said, Transocean's well control plans and 
procedures (see TRN-HCJ-00005402 through TRN-HCJ-00005797) comply with 
Federal law, and extensive training related to well control operations 
follows the Well Control Accreditation Program (WellCAP), which has 
been developed by the International Association of Drilling Contractors 
and adopted by the Offshore Operators Committee to comply with Subpart 
0 training regulations issued by the United States Minerals Management 
Service.

    Question 2. Either in terms of gross dollars, or in terms of a 
percentage of revenues, how much have you invested in R&D for advanced 
exploration and production technologies and techniques each year and 
over the 10-year period?
    Answer. It is difficult to provide a precise answer to this 
question as Transocean's R&D expenditures are not grouped into an 
``advanced exploration and production technologies and techniques'' 
category. However, Transocean believes that a conservative estimate is 
that it invests tens of millions of dollars each year in R&D in the 
areas of new rig design, equipment upgrades, drilling techniques, and 
safety improvements.

    Question 3. What level of investment do you think industry should 
be required to make in safety and prevention technologies and practices 
so that we can be fully prepared to deal with worst-case scenarios in 
the challenging environment of deepwater drilling?
    Answer. Transocean has assembled an investigative team to determine 
what caused the Deepwater Horizon explosion, a team that includes 
dedicated Transocean and other industry experts. That investigation is 
ongoing. Until we know exactly what happened on April 20, 2010 and the 
real sequence of events, it is difficult to speculate about what 
additional investments in safety and prevention technologies and 
practices should be made.

    Question 4. It would appear that the Gulf oil spill also involved 
regulatory failures. What sort of regulatory improvements are needed to 
encourage industry to make appropriate investments in safety and 
disaster prevention?
    Answer. Transocean has assembled an investigative team to determine 
what caused the Deepwater Horizon explosion, a team that includes 
dedicated Transocean and other industry experts. That investigation is 
ongoing. Until we know exactly what happened on April 20, 2010 and the 
real sequence of events, it is difficult to speculate about what 
additional investments in safety and prevention technologies and 
practices should be made or what regulatory improvements should be 
implemented to encourage any such investments.
    The remaining questions were directed to BP.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                             Steven Newman
    Question 1. Has Transocean initiated inspection of other blowout 
preventers you are using in the Gulf of Mexico?
    Answer. On June 8, 2010, the MMS issued Notice to Notice to Lessees 
and Operators (NTL) No. 2010-N05, ``Increased Safety Measures for 
Energy Development on the OCS.'' The MMS Notice to Lessees and 
Operators contains specific recommendations to Operators for steps to 
enhance safety in Outer Continental Shelf drilling operations. Among 
other things, the MMS Notice to Lessees and Operators requires 
operators to conduct a third-party inspection of all subsea and surface 
BOP equipment used in floating drilling operations before beginning a 
new drilling operation or resuming an operation suspended under the 
moratorium.
    Under this Notice from MMS, well operators, such as BP, should be 
initiating third-party recertification inspections of BOP equipment as 
appropriate under the Notice to Lessees and Operators. Transocean is 
cooperating with the operators for which it works to coordinate the 
timing of any BOP recertification inspections for BOPs on vessels that 
are or will be operating in the Gulf of Mexico. Timing of the 
recertification inspections appears complicated by the limited 
resources available to perform the third-party inspections and the high 
number of recertification inspections sought.
    As further information, only two of Transocean's vessels are 
currently working for Operators in the Gulf of Mexico: the Deepwater 
Nautilus and the Discoverer Americas. The Operator utilizing the 
Americas was ordered to temporarily abandon its current well. The MMS 
granted the Operator for the Nautilus permission to complete the 
current well.
    The following summarizes the recertification status and timeline, 
to the extent known to Transocean, for BOPs on vessels currently or 
recently operating in the Gulf of Mexico. References to standard, 
preventative, and/or corrective BOP maintenance encompass Transocean's 
routine maintenance activities.

  <bullet> GSF Development Driller I (DDI):

      The DDI was taken out of service to conduct a planned Special 
            Periodical Survey (SPS) on May 13, 2010. During the planned 
            service period, other maintenance projects were carried 
            out, including BOP preventative and corrective maintenance. 
            At the Operator's request, an independent third party, 
            ModuSpec, oversaw the BOP maintenance. The rig completed 
            the service period on June 23, 2010 and is currently on 
            stand-by. The Operator has indicated that it will be using 
            ModuSpec as an independent third party to conduct 
            recertification of this BOP.

  <bullet> GSF C.R. Luigs:

      The C.R. Luigs was taken out of service to conduct a planned SPS 
            on June 6, 2010. During this planned period, other 
            maintenance projects will be carried out, including BOP 
            preventative and corrective maintenance as per Transocean 
            practices. The Operator has indicated that it will use 
            ModuSpec as an independent third party to conduct the 
            recertification of the BOP.

  <bullet> Discoverer Spirit:

      The Spirit has been on standby since June 1, 2010. At the 
            Operator request, ModuSpec observed the preventative and 
            corrective maintenance on the BOP. The Spirit rig is 
            scheduled to commence a seventy-day SPS period during which 
            BOP maintenance will be carried out as per Transocean 
            practices.

  <bullet> Deepwater Nautilus:

      The Nautilus is presently completing a well, and the Operator's 
            completion date is uncertain. The Operator has indicated 
            that the BOP will be recertified after completion of the 
            current well.

  <bullet> Discoverer Americas:

      The Americas is expected to complete the current well in the next 
            several days or within a week. The current expectation is 
            that the Operator will mobilize the rig to Egypt upon 
            completion of the current well.

  <bullet> Discoverer Deep Seas:

      The Deep Seas was put on standby on May 31, 2010, following the 
            moratorium. While on standby, routine BOP maintenance has 
            been performed per Transocean practices.

  <bullet> Transocean Amirante:

      Since June 11, 2010, the Amirante has been on standby following 
            the moratorium. The Operator has indicated that it plans to 
            utilize West Engineering for recertification of the BOP.

  <bullet> Transocean Marianas:

      The Marianas has been on standby at the Signal shipyard since 
            June 20, 2010. Standard maintenance was performed on the 
            Marianas while on standby per Transocean practices; no date 
            for BOP recertification has been established.

  <bullet> Deepwater Pathfinder:

      The Pathfinder commenced a scheduled SPS in the shipyard on May 
            23, 2010, which is expected to be completed by August 22, 
            2010. The BOP will be recertified during this period.

    Recertification is not required for vessels assisting in the 
response effort. The following summarizes the BOP inspections performed 
for Transocean vessels currently in the Gulf and supporting the 
response effort:

  <bullet> GSF Development Driller II:

      West Engineering was onboard from May 16, 2010 through June 12, 
            2010 to witness the BOP scope of work and the running of 
            the BOP. Two MMS inspectors were onboard from May 18, 2010 
            through May 30, 2010, and these inspectors witnessed the 
            BOP maintenance work, stump testing, EDS and ROV function 
            testing, and auto-shear and deadman testing at the surface. 
            Two MMS inspectors were onboard from June 3, 2010 through 
            June 10, 2010 to witness the BOP running, subsea pressure 
            test, and deadman test with the BOP at depth.

  <bullet> Development Driller III:

      West Engineering was onboard from April 27, 2010 through May 15, 
            2010 to witness the BOP scope of work prior to the running 
            of the BOP. Two MMS inspectors were onboard May 9, 2010 
            through May 12, 2010, and May 15, 2010 through May 18, 
            2010, who witnessed the BOP stump testing, ROV intervention 
            panel testing, EDS testing at the surface, auto-shear 
            testing at the surface, subsea deadman testing at the 
            surface and at depth, and subsea BOP pressure testing upon 
            landing out.

  <bullet> Discoverer Enterprise:

      West Engineering was onboard from April 28, 2010 through May 12, 
            2010 to witness the BOP scope of work prior to running LMRP 
            for top hat containment. Two MMS inspectors were onboard on 
            May 6, 2010 and May 7, 2010 to witness the BOP stump test, 
            ROV intervention panel function testing, and EDS and 
            deadman testing at the surface.

  <bullet> Discoverer Clear Leader:

      The work of the Clear Leader as part of the response effort is 
            containment work that does not require use of a BOP. 
            However, on April 29, 2010, the MMS reviewed and checked 
            various aspects of the BOP and its functions.

  <bullet> Discoverer Inspiration:

      The work of the Inspiration as part of the response effort is 
            containment work that does not require use of a BOP. On 
            April 28, 2010, the MMS reviewed and checked various 
            aspects of the BOP and its functions. On May 24, 2010, the 
            MMS witnessed the function test of the BOP and discussed 
            past repairs and current status.

    Question 2. Who determined the type of cement used to cap the well?
    a. Is the cement used different from that used in the majority of 
wells in deepwater?
    b. If this is a new or unique type of cement, what testing is 
performed on new cement blends prior to commercial use?
    Answer. For this question, Transocean understands ``cap'' to refer 
to the cementing of the final string of casing. The well operator, BP, 
and the cementing contractor, Halliburton, are responsible for 
selecting the type of cement to be used and the quantity. As a drilling 
contractor, Transocean is not involved in this decision or plan. In the 
case of the Deepwater Horizon, nitrogen foam cement was used to cement 
the casing. In Transocean's June 8, 2010 Interim Internal Investigative 
Report prepared for the House Committee on Energy & Commerce, 
Subcommittee on Oversight and Investigations, Transocean raised 
questions about the use of nitrogen foam cement at this depth, with the 
notation that Transocean does not have expertise in cementing and is 
not a cementing contractor. Transocean's interim report is available at 
http://energycommerce.house.gov/documents/20100614/
Transocean.DWH.Internal
investigation.Update.Interim.ReportJune.8.2010.pdf, and also is being 
produced on disk.

    Question 3. What steps have you undertaken to ensure multiple 
failures of the blowout preventers do not occur in the future?
    Answer. At this time, Transocean cannot confirm that there were 
failures of the blowout preventer. Transocean has assembled an 
investigative team that includes dedicated Transocean and industry 
experts. That investigation is underway. Until the blowout preventer 
has been recovered and additional information obtained as a result of 
the investigation, we cannot conclude that the blowout preventer failed 
to operate as designed and/or whether the blowout preventer was 
subjected to conditions beyond its design capabilities.
    All Transocean blowout preventers meet or exceed regulatory 
standards for safe practices. Once a BOP configuration exceeds 
regulatory standards for safe practices, Transocean leaves redundancy 
considerations to the well Operator, in this case, BP. There are 
multiple BOP configurations that allow a drilling rig to operate 
safely, each with different advantages.

    Question 4. Are you aware of other instances when a blowout 
preventer failed to close after the well had been capped?
    Answer. No. For this question, Transocean understands ``cap'' to 
refer to the point at which the production string of casing had been 
cemented. Once a well has been sealed by cementing and casing and the 
appropriate mechanical barriers or cement plugs have been set, a 
blowout preventer should not be needed. The Macondo well, which the 
Deepwater Horizon was drilling, had been cemented and one plug had been 
set. Transocean has not had any other experience with a cased and 
cemented well blowing out such that the blowout preventer is unable to 
stop the flow of reservoir fluids and does not know of any similar 
events.

    Question 5. Once a hardening substance is placed in the well during 
a capping procedure, can it be expected that any blowout would lodge 
debris in the blowout preventer and thus prevent the blowout preventer 
from functioning properly?
    Answer. Possibly. In answering this inquiry, Transocean interprets 
the phrase ``capping procedure'' to refer to the cementing of the well. 
Once a well has been cemented and cased, it is a closed system and 
there should be no hydrocarbon movement between the reservoir and the 
well. Therefore, Transocean believes that for hydrocarbons to have 
entered the well, the cementing and/or casing and/or the seal assembly 
must have failed. If the casing and/or cementing fail, then it is 
possible to have debris in the blowout preventer such that the blowout 
preventer cannot function to stop flow.

    Question 6. Was acoustic testing performed after capping of the 
well, and if not, who made the decision to skip this step?
    Answer. Not to Transocean's knowledge. In responding to the 
inquiry, Transocean construes the term ``capping'' to refer to 
cementing. The decision to perform a cement bond log rests with the 
operator and cement contractor--in the case of the Deepwater Horizon, 
BP and Halliburton, respectively. As the drilling contractor, 
Transocean does not have a role in that decision or activity. To 
Transocean's knowledge, no cement bond log was performed on the Macondo 
well.
    As far as Transocean has been able to determine, a cement bond log 
was called for in the BP well plan. A cement bond log uses variations 
in amplitude of an acoustic signal traveling down the casing wall 
between a transmitter and receiver to determine the quality of cement 
bond on the exterior casing wall. Schlumberger technical personnel were 
on board the Deepwater Horizon prior to the April 20 incident preparing 
for and waiting to perform a cement bond log, and Schlumberger had 
moved physical equipment to the Deepwater Horizon to perform the test. 
Based on records available to Transocean, those Schlumberger personnel 
left the Deepwater Horizon on the morning of April 20, before 
performing a cement bond log.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                     to Deborah French-McCay, Ph.D.
    Question 1. I'm told the dispersants being used, both on the 
surface and subsea, have been pre-approved by the EPA and are 
biodegradable. However, I've read that this volume of dispersants 
dumped into the Gulf is unprecedented--that we really have no idea what 
impacts it might have on open ocean ecosystems or coastal areas. In 
your research, have you learned anything about the potential impacts of 
this dispersant on fish, birds or salt marsh areas?
    Answer. The effects of dispersants on oil and the potential impacts 
of their use have been studied by many researchers, including myself; 
thus, there is considerable understanding of the potential impacts 
related to their use. I myself have performed many analyses of the 
implications of dispersant use, as compared to other spill response 
alternatives. However, the volume of dispersants used to date in the 
Gulf is unprecedented. I and other researchers have not studied oil 
spills of this magnitude (spill volume) with the scale of dispersant 
use being applied. Thus, the magnitude of impacts may be different than 
previously studied.
    I will summarize briefly here what we do know about the impacts of 
dispersant use on marine biota and habitats. For a more detailed 
summary, I invite you to refer to the following National Academy of 
Science reviews, both of which have concise executive summaries:

        National Research Council (NRC), 1989. Review of the State-of-
        Knowledge Regarding Dispersant Usage in Open-Ocean Spill 
        Responses, NRC Marine Board, National Academy Press, 
        Washington, D.C., 306p.

        National Research Council (NRC), 2005. Oil Spill Dispersants--
        Efficacy and Effects. National Academy Press, Washington, D.C., 
        377p.

    The dispersants pre-approved for use in U.S. waters have been 
formulated and tested to be much less toxic to marine organisms than 
the compounds in oil that cause most toxic effects, the PAHs. The 
concentrations lethal to organisms are approximately in the hundreds of 
parts per million range for dispersants, whereas lethal concentrations 
for the soluble and semi-soluble PAHs are in the parts per billion 
range. Dispersants increase the toxicity of oil to organisms in the 
water by facilitating the natural processes whereby oil is entrained 
(mixed) into the water by waves and turbulence. Furthermore, when 
dispersants are effectively applied, the oil so entrained is broken 
into smaller droplets than would occur naturally, speeding the 
dissolution of the toxic components into the water. It is thought that 
the breaking of oil into smaller droplets also facilitates degradation 
of the oil, which in either case occurs naturally.
    Thus, the potential impacts of the dispersed oil on marine 
organisms are related to the amount of oil dispersed, the amount of the 
toxic components left in the oil when the oil is dispersed, and the 
dilution potential of the receiving water body. In the open ocean, such 
as the Gulf of Mexico, dilution potential is relatively high; whereas 
near shore and especially in salt marsh areas, dilution is much slower. 
For this reason, dispersant applications are focused offshore.
    It should be noted that dispersants are used to treat oil in order 
to achieve a net environmental benefit. The fact that oil has been 
released cannot be changed, and the oil is and will continue to impact 
marine organisms, birds and other wildlife, and habitats. The decisions 
made during the response are tradeoffs; use of dispersants at this 
scale does increase the impact on marine organisms, but also reduces 
impacts on wildlife and habitats near shore. If the oil is allowed to 
remain floating and potentially come ashore, until it can be feasibly 
cleaned up by some means, many birds, sea turtles, marine mammals, and 
shoreline habitats (e.g., salt marshes) will be exposed to the oil. 
However, with dispersants effectively applied, the amount of oil 
fouling wildlife and shorelines is reduced. In the current situation in 
the Gulf of Mexico, many of the birds and early life history stages of 
fish and shellfish are concentrated in wetlands and other shoreline or 
near-shore habitats. Thus, the impacts to these organisms are reduced 
by dispersant use, with the tradeoff of an increase (but hopefully 
lesser) impact on the offshore marine organisms.
    I and many others engaged with the Federal and state governments, 
are focused on the evaluation of the impacts of the oil, and of 
dispersant use, on marine organisms caused by this spill and the 
response. However, there are many challenges that need to be overcome. 
One of the greatest difficulties is that we have little quantitative 
information on the species and biological communities that occupy the 
deeper waters of the Gulf of Mexico. In order to evaluate an impact, we 
need to understand how many animals and how much habitat is exposed, 
what the effects are on these biota, what their normal rates of 
survival, growth and reproduction would be absent the spill, and how 
these rates are affected by the dispersed oil and dissolved 
hydrocarbons. We are presently engaged in doing the needed basic 
science to help answer these questions. Along with the basic scientific 
studies, we are also engaged in documenting evidence of the impacts. 
Thus, the effort required for these studies is unprecedented, and will 
take considerable resources and time to accomplish before we can 
provide definitive answers to the public.

    Question 2. The Gulf of Mexico also has problems with ``dead 
zones'' or areas with low oxygen. Is there anything in the dispersants 
being used that might create more dead zones in the area?
    Answer. Both the dispersants and the oil will degrade over time and 
the bacteria that degrade these compounds do so utilizing oxygen. The 
degradation rates will need to be measured or estimated, and combined 
with estimates of natural degradation and other oxygen-consuming 
processes to determine how the deepwater dissolved oxygen levels have 
and will change. Measurements of dissolved oxygen are being taken by 
many researchers studying the spill. Thus, it is not clear yet whether 
the degradation rates of dispersants and oil are high enough to cause 
the areas of low oxygen to increase in size.

    Question 3. We are injecting hundreds of thousands of gallons of 
dispersants into the source of this spill. This may keep the oil from 
getting to the surface or hitting the coastline, but it also has been 
forming a giant underwater plume of oil which is 10 miles long, 3 miles 
wide and 300 feet thick. How can BP clean-up this massive undersea 
plume? Is it the case that once the oil gets dispersed to the deep sea, 
all the money and technology in the world cannot clean it, and only 
Mother Nature and time will do the job?
    Answer. Please note that while we do know there is oil in the 
deepwater, the shape and dimensions of that plume are not known at this 
time. We do know that the deepwater plume is constantly changing in 
shape, direction, and dimensions over time as the currents vary in time 
and space. We have been and will continue to sample in the deepwater to 
obtain more information so we can determine the nature and extent of 
that plume.
    There is no available technology at present to clean up oil 
dispersed into the deep water of the ocean. The oil will degrade over 
time via the action of natural bacteria. Since there are natural seeps 
of oil and gas in the Gulf of Mexico in nearby areas, there are 
bacteria present that are able to break down the petroleum hydrocarbons 
in the oil. The hydrocarbon decay rates vary by the compound in the 
oil. While people have suggested seeding those bacteria or stimulating 
them in some manner, even if it were feasible to perform such 
activities, these approaches are unlikely to be effective in speeding 
the rate of decay given the large volumes of water affected and the 
fact that these bacteria need to adapt to the situation in the 
environment before their numbers can increase substantially.
    However, it should be noted that the objective of using dispersants 
in the deep sea is to disperse the oil widely into the ocean, not to 
clean it up by some kind of removal process. This strategy is used 
because it is not feasible to clean up all, or even a majority of, the 
oil floating on the water surface. Thus, a net environmental benefit 
choice has been made to minimize overall impact to birds, mammals, sea 
turtles and shoreline/near-shore habitats by dispersing much of the oil 
at sea. It should also be noted that, under the Oil Pollution Act of 
1990, the U.S. public is entitled to compensation for the impacts 
caused by the spill and response activities, and that compensation 
should be in the form of restoration of the environment (as a whole). 
Thus, it is important to evaluate the impacts, such that appropriate 
compensation (in the form of restoration) may be paid to the public by 
the responsible party.

    Question 4. The Gulf is clearly an area that has had its share of 
exposure to oil, with large natural seeps and quite a few spills over 
the last 50 years. Can the plants and wildlife survive a spill of this 
magnitude?
    Answer. Individual plants and animals have and will be killed by 
the oil's effects in areas where lethal thresholds are exceeded. Other 
individuals will be affected by reduced growth or life functions in the 
longer term. However, eventually and given enough time free from other 
impacting stressors, most populations and communities of plants and 
animals should recover. The question is how long recovery will take. 
Some of the species in deepwater benthic communities in the area 
affected by the spill have individuals hundreds of years old. On the 
other hand, microscopic plankton populations tend to recover, once the 
toxicity is gone, in weeks. The key issues to address are: (1) if there 
are species or communities of organisms impacted that cannot recover; 
(2) the magnitude and extent of impacts; (3) the time required for and 
degree of recovery expected and observed; and (4) the degree to which 
the ecosystem balance and functions have been altered, both in the 
short and long term. Because there are gaps in our understanding of the 
functioning of the affected ecosystems, scientists are presently 
engaged both in performing basic research and documenting the impacts 
of the spill. Until these studies are accomplished and discussed in 
scientific forums, we will not be able to completely answer the 
question: what are the impacts of the spill?

    Question 5. Have they developed resiliency, or is this the straw 
that broke the camel's back?
    Answer. While many, or maybe even most, species have likely 
developed resiliency, there may be some species or communities that 
cannot recover from a large adverse impact. As noted above, because 
there are gaps in our understanding of species and the functioning of 
the affected ecosystems, studies will be needed to answer this and 
related questions.

    Question 6. Can you tell us what environmental impacts we are 
seeing right now from this incident?
    Answer. To date, scientists and spill responders have documented 
mortalities of wildlife, fish and invertebrates from direct oil 
exposure, as well as oiling of salt marsh and other coastal habitats. 
We are engaged in a large and scientifically complicated effort to 
document impacts observed and estimate those impacts not directly 
observed. We will also need to evaluate the implications of our 
findings, in order to assess both the short and long-term impacts of 
the spill.

    Question 7. What do you expect to see in the next month? In the 
next year?
    Answer. I expect we will see additional evidence of impacts caused 
by the spill, including additional mortalities, reduced life functions 
of organisms and communities, reduced production of food for the food 
web and reductions in seafood harvest. Some of the impacts could 
continue for years. For example, some salt marshes that are heavily 
impacted will likely erode and not recover; and other marshes will take 
years to recover. There may be reductions in future fish and shellfish 
populations because of losses of eggs and larvae killed as the result 
of the spill.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                      Deborah French-McCay, Ph.D.
    Question 1. Having seen that residual effects of the Exxon Valdez 
oil spill are still very apparent in areas of Prince William Sound, now 
some 20+ years later, what kind of time-frame do you believe we will 
need for monitoring to fully understand the effects of the oil now in 
the Gulf of Mexico?
    Answer. Given the magnitude of this spill, and the time required 
for recovery for many of the affected organisms and communities (years, 
decades and possibly even centuries), monitoring will be required for 
at least a decade for most species and ecosystems, and longer for the 
very long-lived species and communities or where contamination 
persists, if scientists are to be able to evaluate the long-term 
impact.

    Question 2. With oil being at many different depths within the 
water column, what sort of monitoring will be needed to fully monitor 
the effects?
    Answer. Monitoring is going to require multiple sampling efforts in 
space and time using instrumentation deployed from oceanographic ships, 
autonomous vehicles, and moorings. This will need to be complemented by 
remote sensing and modeling techniques in order to integrate the 
information and interpolate between direct measurements and 
observations. Surface ships can most easily sample the upper water 
column; sampling deeper waters requires specialized instruments and 
protective housings. Remotely operated vehicles (ROVs) are effective 
samplers that can carry video monitors and specialized cameras; and 
ROVs can be deployed from surface vessels. Each instrument measures one 
piece of the puzzle in a particular zone of the water column, so it 
will take a variety of approaches to fully characterize the 
distribution of oil in the deep sea environment. Because it will not be 
feasible to sample every location affected over months to years when 
oil will be present or impacts will be felt, quantitative computer 
modeling approaches, founded in basic science, will be needed to fully 
evaluate the effects of the spill. Such modeling will require:

  <bullet> Estimation of the currents in all layers of the ocean and 
        over months of time;

  <bullet> Evaluation of the weathering and fate of the oil, including 
        calculation of dissolution of soluble compounds, sedimentation 
        of oil to the seabed, evaporation at the water surface, 
        formation of mousse and tar balls, and degradation of 
        components;

  <bullet> Evaluation of exposure of water column and bottom-dwelling 
        organisms to dispersed oil and to dissolved components;

  <bullet> Estimation of the toxic and other effects, both short- and 
        long-term, of these exposures on individual organisms, 
        populations and ecosystems;

  <bullet> Evaluation of the potential for and rate of recovery of the 
        affected organisms and ecosystems; and

  <bullet> Consideration of the potential for mitigation of these 
        effects.

    Question 3. You say that some of these toxic compounds are water-
soluble and can be absorbed into the tissues of organisms, such as the 
commercial shellfish and finfish species. If humans were to ingest 
these compounds, by eating these fish, wouldn't they potentially harm 
humans?
    Answer. Yes, those compounds are potentially harmful to humans if 
ingested in sufficient quantities. Some of the compounds are documented 
carcinogens. For this reason, monitoring of seafood safety is a big 
part of the response effort.

    Question 4. Some of these molecules do not readily degrade. Does 
that mean we may have human health issues as well, even after the oil 
itself dissipates from the water?
    Answer. Over time with dilution, both through water transport and 
growth of seafood animals, the human health risks from seafood 
contamination should return to the normal background level present in 
our modern world. All the world's seas contain some typically-low level 
of contamination. The risks related to hydrocarbons remaining in the 
environment are considered much lower than those related to metals and 
persistent organic pollutants such as PCBs, dioxins and DDT.

    Question 5. What kind of time-frame would we need for these 
aromatic molecules to break down?
    Answer. The degradation rate of the soluble aromatic compounds in 
warm surface waters, such as in the surface waters of the Gulf of 
Mexico, is about 1 percent per day, or 25 percent per month. However, 
data documenting degradation rates in the deep ocean are lacking. I 
would expect the degradation rate in the deepwater to be considerably 
slower due to the colder temperatures and low oxygen conditions there. 
Larger non-soluble compounds in oil are much slower to degrade, by a 
factor 10 or more.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                      Deborah French- McCay, Ph.D.
    Question 1. With your experience of past oil spills in the U.S., 
has our ability to restore ecosystems and recover following an oil 
disaster been successful?
    Answer. Direct restoration of oil-impacted ecosystems has primarily 
involved: (1) cleanup of any oil that may be removed (mechanically or 
by burning) without causing more harm to the ecosystem than the oil 
itself; (2) replanting of vegetation in such habitats as saltmarshes 
and mangroves; and (3) monitoring natural recovery. Habitat restoration 
has been performed with varying success, with saltmarshes being the 
habitat most successfully restored. Even so, the functionality of 
replanted saltmarshes is typically of lower ecological value than that 
of a natural healthy habitat. Restoration of seagrass has proved 
difficult and the results short-lived, as the grass requires good water 
quality, protection from grazing animals (waterfowl), and the right 
environmental conditions to thrive. In any case, it takes years for a 
restored habitat to recover to full function, even with intervention.
    In some cases, specific impacted resources have been targeted for 
restocking, nest protection, or other activities designed to enhance 
survival or productivity of the targeted biological population. For 
example, for the North Cape oil spill in Rhode Island in 1996, female 
lobsters that otherwise would have been harvested were placed back in 
the water (after compensation the fisherman for the lost catch) and 
marked so they would not be taken if caught again. That extra 
protection allowed the female lobsters more time to produce young in 
their lifetime, enhancing recruitment to the population. Restocking can 
also involve shellfish seeding programs using hatchery-raised 
individuals. However, these restocking activities have been limited to 
nearshore species and anadromous fish such as salmon, where life 
histories and growth needs are sufficiently understood. Restocking has 
not been attempted on offshore species.
    Because of the infeasibility of completely cleaning up the oil and 
preventing all harm to the environment, in order to make the public 
``whole'' in compensation for the impacts of an oil spill, a Natural 
Resource Damage Assessment process is undertaken by the government 
trustees. Under the Oil Pollution Act of 1990, the U.S. public is 
entitled to compensation by the responsible party for the impacts 
caused by the spill and response activities, and that compensation 
should be in the form of restoration of the environment scaled to the 
magnitude of the injury caused. The restoration is typically in-kind or 
enhancement of similar resources to those injured, rather than on the 
impacted resources directly, because of the feasibility constraints. 
This so-called compensatory restoration includes consideration of the 
magnitude of the injury, the time and degree of recovery, and the time 
lag before compensation is realized. The latter is addressed by the 
responsible party paying interest for the resources the public cannot 
use or enjoy in the interim.
    Thus, in the Deepwater Horizon case, Federal and state trustees are 
engaged in a NRDA process (see NOAA's BP Deepwater Horizon damage 
assessment site for more information: http://www.darrp.noaa.gov/
southeast/deepwater_horizon), with the objective being: (1) evaluation 
and quantification of injuries caused by the spill, (2) an evaluation 
of restoration options, and (3) a quantification of the scale of 
restoration required for compensation, including consideration of the 
timing of that compensation (i.e., including interest). For offshore 
species and ecosystems, there are a number of ideas being considered 
for compensatory restoration. Many species (e.g., shrimp, red snapper, 
red drum) use saltmarshes and estuaries as nurseries where juveniles 
can feed and grow with some protection. Thus, coastal habitat 
enhancements can provide compensation for the so-called ``estuarine-
dependant'' species. Another idea, which would benefit offshore 
species, is to reduce pollutant loads to the Gulf of Mexico originating 
from the Mississippi drainage system. Low oxygen levels off the coast 
of Louisiana and Texas are caused by organic matter loads and nutrient 
runoff (which stimulates an overgrowth of algae that sinks, decomposes, 
and consumes oxygen). Reducing these loads could improve water quality 
in deepwater areas where low oxygen levels have affected ecosystem 
health.

    Question 2. As oil production and import has steadily increased in 
the U.S. while oil catastrophes such as that in the Gulf have remained 
relatively rare, what lessons can we take from this incident that will 
help in protecting natural resources should a similar incident occur in 
the future?
    Answer. The state of readiness for responding to a spill offshore, 
particularly of this magnitude, was obviously a major issue in this 
case. This was true of resources to respond and clean up the oil, as 
well as for monitoring the environmental impacts. The leaking well and 
affected areas offshore were a 24-hour journey or more from port for 
most research vessels, such that considerable time was required to 
transit out and back, as well as supply the vessels. The biggest 
challenge to the government's sampling program to document impacts to 
water column and seabed organisms was the lack of readily-available 
vessels capable of performing oceanographic research. The vessels 
required needed to be seaworthy offshore, have specialized equipment 
capable of sampling to >5,000ft in the water, and have experienced crew 
able to perform that work. Oceanographic vessels are normally scheduled 
months to years in advance; and in the first 3 months after the well 
began leaking, there was little if any ship time available. Thus, while 
the government's NRDA technical working group was seriously limited by 
resources, academics who had already scheduled cruises prior to the 
spill (and a few funded by the National Science Foundation after the 
spill) were able to get into the spill area to sample more readily than 
the government scientists. (This, along with time constraints and 
cautions against speculation put on government scientists, explains the 
press releases and claims of academics as being first to document 
various events.) BP hired offshore-service industry vessels, outfitted 
them for oceanographic research, and (eventually) made them available 
to government scientists. The mobilization took weeks to months to 
accomplish due to the technical complexity and the competition for 
resources (i.e., both equipment and technicians to perform the work). 
Thus, NRDA sampling was compromised in the first 3 months and some 
needed sampling was delayed until late August and September. If the 
responsible party had been uncooperative, this process would have taken 
far longer, or not have been possible for lack of readily-available 
funding.
    Thus, in order to be prepared to respond and sample to document 
impacts of large offshore spills, vessels and equipment must be ready 
and on standby in case the need arises. Also, while industry performing 
the oil exploration, production and transport of oil should fund such 
readiness, this funding should be required up-front so that resources 
are available to government scientists during the emergency phase. 
Otherwise, these scientists must submit proposals, negotiate and get 
sign-off by the responsible party before work can begin, a process that 
invites stalling such that important evidence is lost.
    It also took some time to organize the sampling approaches for the 
NRDA, both because of the unprecedented nature of the spill and the low 
level of support for the NRDA program in recent years. Due to shortage 
of funds in NRDA preparedness, many government staff and consultants 
involved in the response phase were inexperienced, requiring 
considerable direction during the emergency phase. During the period 
after OPA90 passed (the 1990s), there was more opportunity for training 
at workshops and drills; much of these having been cut in the past 5 
years. The increased readiness need not be accomplished by an expansion 
of government positions; rather having contractors in place, and 
holding regular workshops and drills to maintain readiness, would be 
cost-effective and meet the needs of response to a major spill.
    Oil spill research has also not been well funded in recent years. 
As of 20 April 2010, much of our understanding of oil spills was based 
on research performed 20-30 years ago, and much of that was performed 
outside the U.S. The U.S. puts much less funding into oil spill 
research than countries such as Norway and France. The Deepwater 
Horizon oil spill has changed things tremendously, and more research 
funds are becoming available. However, the focus will be 
(appropriately) on this spill. There remains a large gap in our 
knowledge regarding spill response and potential impacts in the arctic 
(including in ice) and temperate-zone regions now scheduled for oil and 
gas exploitation.
    Some of the major areas where research is needed include:

  <bullet> Characterization of deepwater habitats and communities: 
        While it is known that deepwater coral reefs and chemosynthetic 
        communities exist in the Gulf of Mexico (and elsewhere), the 
        vast majority have never been visited or mapped. Thus, when 
        dispersants were injected at the well, it was unknown what 
        communities might be exposed downstream. We are presently 
        performing the basic research to determine what might have been 
        affected by the dispersed oil.

  <bullet> Densities and life history characteristics (i.e., natural 
        mortality, growth and reproductive rates) of deepwater fish and 
        invertebrates that would be exposed to dispersed oil in 
        deepwater environments--information is sparse at best in all 
        areas of the world's oceans, including the northeastern Gulf of 
        Mexico.

  <bullet> Long-term effects of oil exposure on biological communities 
        and ecosystems.

    Finally, in a capitalistic system it is the job of private industry 
to make profits. If protection of the environment also helps them make 
profits, by improving their image or performing more efficiently, they 
will be motivated to do so. However, when the likelihood of an 
environmental disaster is perceived as small, with the probability of 
consequences considered less costly in the long run than the costs of 
readiness, industry will not take it upon themselves to maintain the 
readiness needed to avert environmental consequences suffered by the 
public at large. It is the job of the government to assure appropriate 
readiness, but without being burdensome to the point that American 
businesses cannot compete in the world market. Also, cost benefit 
analyses need to consider all potential alternatives for providing 
energy needs, such as the consequences related to spills of imported 
oil, as opposed to domestic development. Otherwise regulations may 
unwittingly increase environmental risk to natural resources considered 
as a whole.

    Question 3. Based on the current scenario of oil leaking 5,000 ft 
below the ocean surface approximately 50 miles offshore, what marine 
organisms are likely to be impacted most significantly?
    Answer. The organisms most significantly affected by the Deepwater 
Horizon oil spill will be fish and invertebrates in the offshore area 
of the northeastern Gulf of Mexico. Not only would they have been 
affected by oil entering the water column and rising through 5,000 feet 
of water, but the use of dispersants increased the likelihood of 
effects on water column biota in all depth levels.
    The dispersants used to treat the spill have been shown to be much 
less toxic to marine organisms than the compounds in oil that cause 
most toxic effects, the PAHs. The concentrations lethal to organisms 
are approximately in the hundreds of parts per million range for 
dispersants, whereas lethal concentrations for the soluble and semi-
soluble PAHs are in the parts per billion range. Dispersants increase 
the toxicity of oil to organisms in the water by facilitating the 
natural processes whereby oil is entrained (mixed) into the water by 
waves and turbulence. Furthermore, when dispersants are effectively 
applied, the oil so entrained is broken into smaller droplets than 
would occur naturally, speeding the dissolution of the toxic components 
into the water. It is thought that the breaking of oil into smaller 
droplets also facilitates degradation of the oil, which in either case 
occurs naturally.
    It should be noted that dispersants are used to treat oil in order 
to achieve a net environmental benefit. The fact that oil has been 
released cannot be changed, and the oil is and will continue to impact 
marine organisms, birds and other wildlife, and habitats. The decisions 
made during the response are tradeoffs; use of dispersants at this 
scale does increase the impact on marine organisms, but also reduces 
impacts on wildlife and habitats near shore. If the oil were allowed to 
remain floating and potentially come ashore, until it could be feasibly 
cleaned up by some means, many more birds, sea turtles, marine mammals, 
and shoreline habitats (e.g., salt marshes) would have been exposed to 
the oil. However, as it was with dispersants effectively applied, the 
amount of oil fouling wildlife and shorelines was much reduced. In the 
current situation in the Gulf of Mexico, many of the birds and early 
life history stages of fish and shellfish are concentrated in wetlands 
and other shoreline or near-shore habitats. Thus, the impacts to these 
organisms were reduced by dispersant use, with the tradeoff of an 
increase impact on the offshore marine organisms.
    However, there may be reductions in future fish and shellfish 
populations because of direct kills, or losses of eggs and larvae, as 
the result of the spill. The groups most vulnerable are the species 
that:

  <bullet> have eggs and larvae that occupying the surface layer of the 
        ocean (e.g., tunas, billfish, lobster, crabs, shrimp);

  <bullet> feed in the upper waters at some part of their daily or life 
        cycle;

  <bullet> occupy deep waters of the offshore Gulf of Mexico in the 
        areas near the well; and

  <bullet> form seabed communities near the well and to the southwest 
        that occupy slopes between 1,000m (3,300ft) and 1,500m 
        (5,000ft) of depth, as these were likely exposed to the 
        subsurface dispersed oil.

    I and many others engaged with the Federal and state governments, 
are focused on the evaluation of the impacts of the oil, and of 
dispersant use, on marine organisms caused by this spill and the 
response. However, there are many challenges that need to be overcome. 
One of the greatest difficulties is that we have little quantitative 
information on the species and biological communities that occupy the 
deeper waters of the Gulf of Mexico. In order to evaluate an impact, we 
need to understand how many animals and how much habitat is exposed, 
what the effects are on these biota, what their normal rates of 
survival, growth and reproduction would be absent the spill, and how 
these rates are affected by the dispersed oil and dissolved 
hydrocarbons. We are presently engaged in doing the needed basic 
science to help answer these questions. Along with the basic scientific 
studies, we are also engaged in documenting evidence of the impacts. 
Thus, the effort required for these studies is unprecedented, and will 
take considerable resources and time to accomplish before we can 
provide definitive answers to the public.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
